<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2015</title>
<body><pre>[Senate Hearing 113-]
[From the U.S. Government Publishing Office]



 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2015

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's Note.--The subcommittee was unable to hold 
hearings on nondepartmental witnesses. The statements and 
letters of those submitting written testimony are as follows:]
        Prepared Statement of the American Geosciences Institute
    Thank you for this opportunity to provide the American Geosciences 
Institute's perspective on fiscal year 2015 appropriations for 
geoscience programs within the subcommittee's jurisdiction.
    The American Geosciences Institute (AGI) supports earth science 
research sustained by the National Science Foundation (NSF), the 
National Oceanic and Atmospheric Administration (NOAA), the National 
Institute of Standards and Technology (NIST), and the National 
Aeronautics and Space Administration (NASA). Frontier research on the 
Earth, energy, and the environment has fueled economic growth, 
mitigated losses, and sustained our quality of life. The subcommittee's 
leadership in supporting geoscience-based research is even more 
critical as our Nation competes with rapidly developing countries, such 
as China and India, for energy, mineral, air, and water resources. Our 
Nation needs skilled geoscientists to help explore, assess, and develop 
Earth's resources in a strategic, sustainable, and environmentally 
sound manner and to help understand, evaluate, and reduce our risks to 
hazards. AGI recognizes our Nation's financial challenges and also the 
necessity for steady and sustained growth in investment in science and 
technology for the future. AGI respectfully requests $1.322 billion for 
the Geoscience Directorate at NSF and $1.853 billion for NASA Earth 
Science programs to keep pace with inflation. AGI supports the 
President's request for $5.497 billion for NOAA and $900 million for 
NIST.
    AGI is a nonprofit federation of about 50 geoscientific and 
professional societies representing more than 250,000 geologists, 
geophysicists, and other Earth scientists. Founded in 1948, AGI 
provides information services to geoscientists, serves as a voice for 
shared interests in our profession, plays a major role in strengthening 
geoscience education, and strives to increase public awareness of the 
vital role the geosciences play in society's use of resources, 
resilience to hazards, and the health of the environment.
    National Science Foundation.--AGI supports a minimum increase of 
$18 million over the President's request for the Geosciences 
Directorate to keep pace with inflation, and an overall budget of 
$7.255 billion for NSF. NSF is vital national incubator for scientific 
breakthroughs that will fuel economic growth and for developing the 
educated workforce that is needed to drive innovation and global 
leadership in science, engineering, and technology. AGI believes that 
investment in NSF programs, where research is funded based on 
competitive scientific merit and peer review, will pay important 
dividends in our understanding of the world we inhabit and will play a 
critical role in maintaining U.S. dominance in science and technology 
long into the future.
    NSF Geosciences Directorate.--AGI is very disappointed that the 
President's request for a 0.1 percent increase for the Geoscience 
Directorate (GEO) does not come close to matching inflation, which 
averaged 1.5 percent in 2013, and thus presents an effective cut in 
funding for geoscience research and infrastructure. AGI recognizes the 
challenges faced by Congress in balancing the Nation's budget and 
respectfully asks the subcommittee to provide the Geosciences 
Directorate with a modest funding increase of 1.5 percent over fiscal 
year 2014 levels, which would do no more than match inflation and 
maintain current funding levels for the geosciences.
    AGI asks the subcommittee to provide $254 million for Atmospheric 
and Geospace Sciences, $180 million for Earth Sciences, $362 million 
for Ocean Sciences, $85 million for Integrative and Collaborative 
Education and Research (ICER), and $441 million for Polar Programs, for 
a total investment of $1,322 million in NSF's Geoscience Directorate.
    The Geosciences Directorate (GEO) is the principal source of 
Federal support for academic earth scientists and their students who 
are seeking to understand the Earth and the processes that sustain and 
transform life on this planet. The Geosciences Directorate provides 
about 65 percent of Federal funding for basic geoscience research at 
academic institutions. According to NSF data, the Directorate 
distributes about 1,700 awards annually involving about 14,700 people 
and supporting indispensible research infrastructure and instruments.
    Understanding the Earth improves our ability to anticipate and 
mitigate the effects of natural hazards such as earthquakes, 
landslides, and tsunamis, to make long- and short-term weather 
forecasts, to locate and appropriately develop earth resources, to 
sustainably manage our environment, and to make well-informed decisions 
at all levels from the individual citizen to national and international 
policy makers.
    NSF's Division of Polar Programs (PLR) funds basic research in the 
Arctic and Antarctic and manages all U.S. activities in Antarctica as a 
single, integrated program. The polar regions are the focus of intense 
scientific and political interest as new navigation routes are opening 
access to resources and presenting security challenges. NSF-funded 
research and infrastructure are helping the United States understand 
environmental conditions in extreme environments, develop polar 
technology, and construct data-driven strategic and security policies. 
AGI suggests a minimum of $441 million for the Division of Polar 
Programs.
    NSF funds facilities that enable researchers to access locations, 
data, and technologies that serve the overall research community. AGI 
strongly supports robust and steady funding for infrastructure and the 
operation and maintenance of major facilities, including the Academic 
Research Fleet, Geodetic and Seismological Facilities for the 
Advancement of Geosciences and EarthScope (GAGE and SAGE), Ocean 
Drilling Activities, the Ocean Observatories Initiative, and the 
National Center for Atmospheric Research (NCAR).
    Directorate for Education and Human Resources.--NSF support for 
geoscience education must be maintained if we are to meet the demand 
for a skilled workforce and an informed citizenry prepared to make 
well-informed decisions about the management of our planet and its 
resources. Outreach and education are important at all levels from K-12 
through graduate level and should include formal and informal outlets 
to facilitate lifelong learning. AGI strongly supports funding for 
geoscience education at all levels and particularly supports programs 
to diversify the geoscience student population and workforce. AGI urges 
Congress to fund programs in NSF's Directorate for Education and Human 
Resources, including NSF Scholarships in STEM, Graduate Research 
Fellowships, Climate Change Education, Research Experiences for 
Undergraduates, and Advancing Informal STEM Education.
    National Oceanic and Atmospheric Administration.--AGI supports the 
President's request for $5.497 billion for NOAA. We hope the 
subcommittee will continue to support the National Weather Service 
(NWS), Oceanic and Atmospheric Research (OAR), National Ocean Service 
(NOS), and the National Environment Satellite, Data and Information 
Service (NESDIS). These programs are critical for understanding and 
mitigating natural and human-induced hazards in the Earth system while 
sustaining our natural resources. Geoscientists rely on NOAA for much 
of the data and long-term monitoring that enable research and rapid 
response to events such as hurricanes, drought, marine oil spills, and 
a range of coastal phenomena.
    National Institute of Standards and Technology.--AGI supports the 
President's request for $900 million for the NIST. Basic research at 
NIST is conducted by earth scientists and geotechnical engineers and 
used by the public and private sectors on a daily basis. The research 
conducted and the information gained is essential for understanding 
natural hazards and for identifying the infrastructure needed to build 
resilient communities and stimulate economic growth. Advanced 
infrastructure research will help to reduce the estimated average of 
$52 billion in annual losses caused by floods, fires, and earthquakes.
    NIST is the lead agency for the National Earthquake Hazard 
Reduction Program (NEHRP), but has received only a small portion of 
authorized and essential funding in the past. AGI strongly supports the 
reauthorization of the National Earthquake Hazards Reduction Program 
(NEHRP) in this Congress. We hope the appropriations subcommittee will 
continue to support this effective and cohesive program, even if the 
authorizing legislation takes more time to complete. NEHRP is an 
excellent example of how to coordinate different entities for the 
safety and security of all. NEHRP develops effective practices and 
policies for earthquake loss reduction and accelerates their 
implementation; improves techniques for reducing earthquake 
vulnerabilities of facilities and systems; improves earthquake hazards 
identification and risk assessment methods and their use; and improves 
the understanding of earthquakes and their effects.
    National Aeronautic and Space Administration.--AGI is disappointed 
that the President proposes a 3.1 percent cut to Earth Science 
functions at NASA. NASA needs to maintain its current fleet of Earth-
observing satellites, launch the next tier, and accelerate development 
of the subsequent tier of missions. The observations and understanding 
about our dynamic Earth gained from these missions is critical to 
research and to life-sustaining functions like weather forecasting, 
emergency service response and planning, and tracking ash plumes or oil 
spills that disrupt the economy and the environment. We respectfully 
suggest that funding levels should at least match inflation and 
therefore we ask that $1,853 million be appropriated for Earth Science 
Programs within the NASA's Science Mission Directorate.
    AGI applauds NASA's successful launch of the Landsat 8 satellite in 
February, 2013, which will enable the continuation of a 40-year record 
of Earth observations in conjunctions with the U.S. Geological Survey 
(USGS). Geoscientists use Landsat data to monitor, predict, and help 
land managers to address drought, wildfires, changes in vegetation, and 
other changes to the Earth's surface. AGI strongly supports the NASA/
USGS Sustainability Land Imaging Architecture Study Team which is 
examining options for continuing Landsat-compatible observations into 
the future and urges Congress to support and fund their efforts.
    Thank you for the opportunity to present this testimony to the 
subcommittee. If you would like any additional information for the 
record, please contact Maeve Boland at 703-379-2480, ext. 228 voice, 
703-379-7563 fax, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8fe2ede0e3eee1ebcfeee8e6f8eaeda1e0fde8">[email&#160;protected]</a>, or 4220 King Street, Alexandria 
VA 22302-1502.
                                 ______
                                 
  Prepared Statement of the American Institute of Biological Sciences
    The American Institute of Biological Sciences (AIBS) appreciates 
the opportunity to provide testimony in support of fiscal year 2015 
appropriations for the National Science Foundation (NSF). We encourage 
Congress to provide NSF with at least $7.5 billion in fiscal year 2015.
    The AIBS is a nonprofit scientific association dedicated to 
advancing biological research and education for the welfare of society. 
AIBS works to ensure that the public, legislators, funders, and the 
community of biologists have access to and use information that will 
guide them in making informed decisions about matters that require 
biological knowledge. Founded in 1947 as a part of the National Academy 
of Sciences, AIBS became an independent, member-governed organization 
in the 1950s. Today, AIBS has more than 140 member organizations and is 
headquartered in Reston, Virginia, with a Public Policy Office in 
Washington, DC.
                           nsf and innovation
    The NSF is an important engine that helps power our Nation's 
economic growth. Through its competitive, peer-reviewed research 
grants, NSF supports the development of new knowledge that will help to 
solve the most challenging problems facing society, and will lead to 
new scientific discoveries, patents, and jobs. The agency's education 
and training programs are helping to ensure that the next generation 
has the scientific, technical, and mathematical skills employers are 
seeking. Investments in research equipment and facilities enable the 
country to continue to innovate and compete globally.
    These efforts, however, require a sustained Federal investment. 
Unpredictable swings in Federal funding can disrupt research programs, 
create uncertainty in the research community, and stall the development 
of the next great idea.
    The budget request for fiscal year 2015 will flat line investments 
in foundational research at a time when other nations are accelerating 
their commitments to science. The proposed $1.5 million cut from the 
Research and Related Activities account may seem small, but coupled 
with an anticipated 1.7 percent increase in inflation, NSF research 
funding would decline by $100 million next year.
    The scientific community recognizes that current fiscal conditions 
have necessarily constrained Federal funding, but NSF is a sound 
investment that pays dividends. The use of peer-review to evaluate and 
select the best proposals means that NSF is funding the highest quality 
research.
                    biological sciences directorate
    The NSF is the primary Federal funding source for basic biological 
research at our Nation's universities and colleges. The NSF provides 
approximately 66 percent of extramural Federal support for non-medical, 
fundamental biological and environmental research at academic 
institutions.
    A reduction of $12.8 million is proposed in fiscal year 2015 from 
the Biological Sciences Directorate (BIO). This is a considerably 
larger cut than is proposed for any other research directorate. If 
enacted, the funding rate for biological and environmental research 
would drop to 18 percent.
    The research supported by NSF is unique from the science funded by 
other Federal programs. Unlike most Federal agencies, which focus on 
applied research, NSF supports research that advances the frontiers of 
our knowledge about biodiversity, genetics, physiology, and ecosystems. 
Recent discoveries that stem from NSF-funded research include:
  --Discovering that members of a particular kind of bacteria work 
        together to find food and survive under harsh conditions. This 
        discovery could lead to new antibiotics or development of new 
        pest-resistant seeds.
  --Developing a new technique to manipulate the genes of grasshoppers 
        in order to prevent them from transforming into crop-destroying 
        locusts.
  --Studying the impacts of the death of lodgepole pine forests due to 
        bark beetle infestations on the timing of snowmelt and water 
        quality.
  --Working to identify the pathway that leads to cells forming into an 
        individual body, information that could lead to improved cancer 
        treatments.
    BIO funds research in the foundational disciplines within biology. 
In addition to supporting our understanding of how organisms and 
ecosystems function, BIO supports interdisciplinary research at the 
frontiers of science.
    Equally important, BIO provides essential support for our Nation's 
place-based biological research, such as field stations and natural 
science collections. The Long-Term Ecological Research program supports 
fundamental ecological research over long time periods and large 
spatial scales, the results of which provide information necessary for 
the identification and resolution of environmental problems.
    The fiscal year 2015 budget request would sustain an effort to 
digitize high priority specimens in U.S. natural science collections. 
This investment is helping to drive new fields of inquiry and helping 
scientists and the public gain access to rare and irreplaceable 
biological specimens and associated data. These efforts are stimulating 
the development of new computer hardware and software, digitization 
technologies, and database management tools.
    The Dimensions of Biodiversity program supports cross-disciplinary 
research to describe and understand the scope and role of life on 
Earth. Despite centuries of discovery, most of our planet's biological 
diversity (species) is unknown. This lack of knowledge is particularly 
troubling given the rapid and permanent loss of global biodiversity. A 
better understanding of life on Earth will help us to make new bio-
based discoveries in the realms of food, fiber, fuel, pharmaceuticals, 
and bio-inspired innovation. It will also increase our understanding of 
life on Earth and how biological systems and functions respond to 
environmental changes.
    The Major Research Equipment and Facilities Construction account is 
funding the construction of the National Ecological Observatory Network 
(NEON). Once completed, NEON will provide the infrastructure necessary 
to collect data across the United States on the effects of climate 
change, land use change, water use, and invasive species on natural 
resources and biodiversity. This information will be valuable to 
scientists, resource managers, and government decision makers as they 
seek to better understand and manage natural systems.
                             stem education
    NSF plays a central role in science, technology, engineering, and 
mathematics (STEM) education. Support for the scientific training of 
undergraduate and graduate students is critically important to our 
research enterprise. Students recruited into science through NSF 
programs and research experiences are our next generation of innovators 
and educators. In short, NSF grants are essential to the Nation's goal 
of sustaining our global leadership in science, technology, engineering 
and mathematics, and reigniting our economic engines.
    NSF's education initiatives support STEM education innovation from 
elementary school through post-graduate. The Graduate Research 
Fellowship program is an important part of our national effort to 
recruit and retain the best and brightest STEM students. NSF proposes 
to increase both the number of new fellowships as well as the 
fellowship stipend in fiscal year 2015. The Faculty Early Career 
Development program (CAREER) supports young faculty who are dedicated 
to integrating research with teaching and learning.
    The administration once again proposes major changes to STEM 
education programs. Although the plans have been scaled back since the 
fiscal year 2014 budget request, we are concerned that implementation 
of these changes will proceed before the full details are known. Given 
the considerable consequences for student education and training, we 
hope that Congress will provide careful consideration of the potential 
impacts to our Nation's pipeline of researchers and STEM-skilled 
workers.
                               conclusion
    Continued investments in the biological sciences are critical. 
Sustained support for NSF will help spur economic growth and 
innovation, and continue to build scientific capacity at a time when 
our Nation is at risk of being outpaced by our global competitors. 
Please support an investment of at least $7.5 billion for NSF for 
fiscal year 2015.
    Thank you for your thoughtful consideration of this request and for 
your prior efforts on behalf of science and the National Science 
Foundation.
                                 ______
                                 
        Prepared Statement of the American Physiological Society
    The American Physiological Society (APS) thanks you for your 
sustained support of science at the National Science Foundation (NSF) 
and the National Aeronautics and Space Administration (NASA). The APS 
is a professional society, numbering more than 10,000 members, 
dedicated to fostering research and education as well as the 
dissemination of scientific knowledge concerning how the organs and 
systems of the body function. In this letter we offer our 
recommendations for fiscal year 2015 funding levels for these two 
agencies.
  --The APS urges you to fund the fiscal year 2015 NSF budget at a net 
        level of $7.6 billion to prevent further erosion of program 
        capacity.
  --The APS urges you to restore cuts to NASA's life sciences research 
        budgets and to increase funding for the Human Research Program.
    NSF and NASA support scientific research and technology development 
programs that are critical to the future technological excellence and 
economic stability of the United States. Federal investment in research 
is critically important because breakthroughs in basic and 
translational research are the foundation for new technologies that 
help patients, fuel our economy, and provide jobs.
         nsf funds outstanding research and education programs
    NSF provides support for approximately 20 percent of all federally 
funded basic science and is the major source of support for non-medical 
biology research, including integrative, comparative, and evolutionary 
biology, as well as interdisciplinary biological research. It has been 
shown time and time again that the knowledge gained through basic 
biological research is the foundation for more applied studies that 
sustain the health of animals, humans and ecosystems.
    The majority of the NSF funding is awarded through competitive, 
merit-based peer review, ensuring that the best possible projects are 
supported. Reviewers and NSF officials consider both the intellectual 
merit of each research proposal, and also the broader impacts. The 
broader impact criteria are defined as the potential for research to 
benefit society and achieve specific outcomes. NSF has an exemplary 
record of accomplishment in terms of funding research that produces 
results with far-reaching potential. Since its inception in 1950, NSF 
has supported the work of 212 Nobel laureates.
    Biological research is just one part of the NSF portfolio. The APS 
believes that each of the NSF directorates support research that is 
critical to NSF's mission ``to promote the progress of science; to 
advance the national health, prosperity, and welfare; to secure the 
national defense . . .'' \1\ Collaboration between scientific 
disciplines is increasingly recognized as the best and most efficient 
way to advance science. This will only be possible with strong support 
for all disciplines of research.
---------------------------------------------------------------------------
    \1\ http://www.nsf.gov.
---------------------------------------------------------------------------
    In addition to funding innovative research in labs around the 
country, the NSF education programs foster the next generation of 
scientists. The APS is proud to have partnered with NSF in programs to 
provide training opportunities and career development activities to 
enhance the participation of underrepresented minorities in science. We 
believe that NSF is uniquely suited to foster science education 
programs of the highest quality, and we recommend that Congress 
continue to provide Federal funds for science education through the 
NSF.
    The APS joins the Federation of American Societies for Experimental 
Biology (FASEB) to recommend that the NSF be funded at a level of $7.6 
billion in fiscal year 2015 so that it can support a sustainable 
research program that follows a funding trajectory reflecting the level 
authorized in the America COMPETES Act.\2\
---------------------------------------------------------------------------
    \2\ www.faseb.org/fundingreport.
---------------------------------------------------------------------------
     support for life sciences research should be increased at nasa
    NASA sponsors research across a broad range of the basic and 
applied life sciences, including gravitational biology, biomedical 
research and the Human Research Program (HRP). The gravitational 
biology and biomedical research programs explore fundamental scientific 
questions through research carried out both on Earth and aboard the 
International Space Station, which provides an environment for the 
conduct of experiments in space. The HRP at NASA conducts unique 
research and develops countermeasures with the goal of enabling safe 
and productive human space exploration.
    During prolonged space flight, the physiological changes that occur 
due to microgravity, increased exposure to radiation, confined living 
quarters, and alterations in eating and sleeping patterns can lead to 
debilitating conditions and reduced ability to perform tasks. APS 
scientists are actively engaged in research that explores the 
physiological basis of these problems with the goal of contributing to 
the identification of therapeutic targets and development of 
countermeasures. The knowledge gained from this research is not only 
relevant to humans traveling in space, but is also directly applicable 
to human health on Earth. For example, some of the muscle and bone 
changes observed in astronauts after prolonged space flight are similar 
to those seen in patients confined to bed rest during periods of 
critical illness as well as during the process of aging.
    NASA is the only agency whose mission addresses the biomedical 
challenges of human space exploration. Over the past several years, the 
amount of money available for conducting this kind of research at NASA 
has dwindled. The overall number of projects and investigators 
supported by NASA through the HRP, National Space Biomedical Research 
Institute and Exploration and Technology Development program has 
decreased markedly (https://taskbook.nasaprs.com/Publication/). In the 
past, appropriations legislation specified funding levels for 
biomedical research and gravitational biology, but recent internal 
reorganizations at NASA have made it difficult to understand how much 
money is being spent on these programs from year to year. The APS 
recommends that funding streams for these important fundamental 
research programs be clearly identified and tracked within the NASA 
budget. The APS also recommends restoration of cuts to peer-reviewed 
life sciences research.
    As highlighted above, investment in the basic sciences is critical 
to our Nation's technological and economic future. The APS urges you to 
make every effort to provide these agencies with increased funding for 
fiscal year 2015.
                                 ______
                                 
      Prepared Statement of the American Society for Microbiology
    The American Society for Microbiology (ASM), the largest single 
life science Society with over 39,000 members, wishes to submit the 
following statement in support of increased funding for the National 
Science Foundation (NSF) in fiscal year 2015. The NSF is the only 
Federal agency that supports innovative basic research across all 
fields of science and engineering. For over six decades, the NSF has 
invested in basic research and education at the frontiers of science 
and engineering, including high risk and transformative research not 
supported by other funding sources. In fiscal year 2013, 81 percent of 
the NSF budget supported research and related activities at colleges, 
universities and academic consortia and NSF reviewed 49,000 grant 
proposals and made 10,844 new awards to 1,922 institutions in all 
states across the Nation.
    An estimated 299,000 people were directly involved in NSF programs 
and activities in fiscal year 2013. NSF programs indirectly impact 
millions (e.g., K-12 students and teachers, general public, 
institutions like museums). NSF grants supported eight of the 13 Nobel 
Prize 2013 winners at some point in their research careers. NSF has now 
funded 212 Nobel laureates since the agency began, 41 of whom also had 
been NSF Graduate Research Fellows. Since 1952, the agency has funded 
nearly 47,800 graduate research fellows.
    NSF support of multidisciplinary research and all levels of 
education is critical to improving the future of the Nation's science 
and engineering enterprise and our global competitive edge. NSF's 
National Science Board just released its latest biennial Science and 
Engineering Indicators report, a detailed analysis of the Nation's 
position in global science and technology. Since 2001, the share of the 
world's R&D performed in the United States has decreased from 37 
percent to 30 percent, while that performed by Asian countries grew 
from 25 percent to 34 percent. It is critical to increase the NSF 
budget to help reverse this worrisome trend.
                     nsf builds r&d infrastructure
    Through competitive grants, contracts and fellowships, NSF builds 
partnerships among industry, academia and other R&D stakeholders which 
expands the Nation's technical workforce. The NSF supports 
multidisciplinary research, cutting edge facilities, and initiatives 
and consortia. Examples are the National Big Data R&D Initiative 
launched in 2012 and NSF's Ecology and Evolution of Infectious Diseases 
Initiative (EEID). In fiscal year 2013, the NSF invested more than $17 
million in 60 multidisciplinary projects to employ new computational 
analyses essential to data driven STEM breakthroughs. The effort was 
part of over $75 million spent in fiscal year 2013 to advance software, 
networking, data sciences and workforce training to support all STEM 
disciplines, via NSF's Cyberinfrastructure Framework for 21st Century 
Science and Engineering.
    Funding from NSF builds local R&D infrastructures through the long 
standing Experimental Program to Stimulate Competitive Research 
(EPSCoR) program. In mid-2013, four newly funded projects were in the 
EPSCoR portfolio: (1) a New England consortium focused on pathogenic 
bacteria in coastal regions, their environmental and economic impacts 
and decisionmaking through human interactions with natural systems; (2) 
a three State study of high elevation water resources, to create better 
computer models related to water quality; (3) a joint project in North 
and South Dakota to develop processing methods for converting biomass 
into renewable energy resources; and (4) a three State collaboration in 
New England placing a network of environmental sensors in each State, 
to collect data on carbon and nutrients in watersheds over time.
    NSF partnerships with academia are vital to energizing the U.S. 
workforce in science, technology, engineering and mathematics (STEM). 
The NSF responds to wide spread concerns about future workforce 
shortages across STEM disciplines. An example of NSF's STEM education 
strategy are five STEM projects funded last September involving 
multiple institutions in five States, to increase STEM participation of 
women and girls, underrepresented minorities and underserved rural 
areas. The nearly $4 million in EPSCoR grants will pilot new methods 
among students from middle school to early career levels.
    Another example is the diverse 2013 class of NSF Graduate Research 
Fellows, 2,000 young researchers from 434 U.S. baccalaureate 
institutions, including 1,102 women, 390 from underrepresented minority 
groups, 51 with disabilities and 28 veterans. Forty percent indicated 
interdisciplinary fields of study. In mid-2013, NSF announced the first 
53 recipients of the new Graduate Research Opportunities Worldwide 
(GROW) program, partnering with 12 countries to place NSF research 
fellows in institutions abroad.
    NSF also collaborates with the private sector to boost R&D 
entrepreneurs in the United States, in part through the competitive 
Small Business Innovation Research (SBIR)/Small Business Technology 
Transfer program. In October, under an agreement between NSF and the 
Biotechnology Industry Organization, 10 NSF funded early stage biotech 
companies presented at the 12th annual BIO Investor Forum to begin 
raising funds in the private sector. The startups focus on drug 
discovery, diagnostics and other platform technologies.
                  nsf supported microbiology research
    Within NSF, the Directorate for Biological Sciences (BIO) sustains 
a research portfolio encompassing the wide breadth of biology from 
molecules to ecosystems and the global biosphere. BIO divisions include 
those focused on environmental biology, systems biology or molecular 
biology. The Emerging Frontiers Division invests in higher risk, 
interdisciplinary activities that show promise of generating productive 
innovations. BIO also supports R&D infrastructures like the National 
Ecological Observatory Network (NEON), biological field stations and 
computerized databases that include DNA sequences of microorganisms. In 
fiscal year 2013, the directorate was able to fund 21 percent of the 
5,937 grant proposals submitted by researchers. Research reported in 
the past year illustrates the diversity of BIO's funding:
  --Bacterial DNA is more likely to be naturally transferred to human 
        tumor cells than to normal, healthy cells, suggesting a role 
        for bacterial gene transfer in cancer and other diseases 
        associated with mutations. Scientists had already shown that 
        bacteria can transfer DNA to animal genomes through previous 
        genomic sequencing studies.
  --For the first time, the banded mongoose in Botswana was identified 
        as carrying Leptospira interrogans, the bacterial cause of 
        leptospirosis, which is the world's most common illness 
        transmitted to humans by animals.
  --Scientific analysis of the 2011 record breaking algae bloom in Lake 
        Erie blamed a ``perfect storm'' of weather events and 
        agricultural practices, predicting more huge blooms in the 
        future.
  --An unusual soil bacterium is being used in modeling and simulations 
        by computational biologists to study how individual cells might 
        have evolved into more complicated configurations. Myxococcus 
        xanthus organizes itself into multicellular, three dimensional 
        structures made up of thousands of cells to hunt other microbes 
        and survive in harsh conditions.
  --The redwoods of California are being threatened by the combined 
        effects of forest fires and sudden oak death disease, linked in 
        2000 to the plant pathogen Phytophthora ramorum. Flames carried 
        into the tree canopy by the dead oaks scorch the crowns of 
        surrounding redwoods.
    Last August, BIO funded U.S. and United Kingdom scientists in four 
projects that could revolutionize farming methods: (1) to design a 
synthetic biological module that will ``fix'' nitrogen inside plant 
cells, by reengineering nitrogen fixing bacteria to build an N-fixing 
unit that can be transferred; (2) to rediscover a bacterium found only 
once (in the 1990s in a German charcoal pit) that contains a unique 
enzyme allowing nitrogen fixing in oxygen rich environments normally 
inhibitory to nitrogen fixing bacteria; (3) to genetically alter 
nitrogen fixing bacteria and a grass species similar to more complex 
cereals such as maize, to ensure a lock and key interaction between 
plant and microbe and maximize the amount of usable nitrogen delivered 
to the plant; and (4) to optimize practical applications of nitrogen 
fixing blue green algae and genetically engineer plant cells to fix 
atmospheric nitrogen directly.
    The NSF Directorate for Geosciences (GEO) also funds microbiology 
research through studies of Earth's environment and the myriad roles 
played by microorganisms. In January, the directorate awarded grants to 
four new critical zone observatories, which join six existing CZOs to 
study the zone where Earth's surface meets the atmosphere and living 
organisms. The CZOs are the first research network to holistically 
investigate this zone, so important to water quality, food supplies, 
soil health and carbon storage.
    Both GEO and BIO contribute to NSF's Ecology and Evolution of 
Infectious Diseases program jointly sponsored with the National 
Institutes of Health. EEID supports the study of ecological and 
biological mechanisms of environmental change that shape emergence and 
transmission of infectious diseases. Projects help understand how large 
scale events like habitat destruction can alter microbial diseases in 
humans and other animals. In 2013, new EEID grant recipients included 
studies on foot and mouth disease virus, honeybee killing parasites, 
impacts of livestock production practices on emerging drug resistant 
staphylococci bacteria and transmission of Tasmanian devil facial tumor 
disease. Effects of climate change on the spread of infectious disease 
is another EEID focus area, generating reports last year that model 
disease outcomes based on climate variables to guide public health 
officials. In February, researchers reported field studies showing that 
environmental temperatures significantly influence whether or not 
Wolbachia bacteria will block the malaria pathogen from developing 
within carrier mosquitoes. The Wolbachia malaria interaction is 
considered a promising new tool for controlling malaria. Other EEID 
funded studies are investigating West Nile virus, Lyme disease and 
hantavirus in the context of climate change and other environmental 
factors.
    There is no doubt that NSF contributes to the Nation's scientific 
strength and economic growth. The ASM urges Congress to increase 
funding for NSF in fiscal year 2015 to the highest level possible. The 
ASM also looks forward to continued future investment of NSF resources 
in programs related to microbiology since microbes are at the 
foundation of scientific discovery and other activities that are at the 
core of the NSF mission.
                                 ______
                                 
   Prepared Statement of the American Society of Agronomy, the Crop 
  Science Society of America, and the Soil Science Society of America
    Dear Chairwoman Senator Mikulski, Ranking Member Senator Shelby and 
members of the subcommittee: The American Society of Agronomy (ASA), 
the Crop Science Society of America (CSSA), and the Soil Science 
Society of America (SSSA) urge the subcommittee to support $7.5 billion 
for the National Science Foundation for the fiscal year 2015.
    This funding level will put the premier Government-funding agency 
for scientific research back on track to address to continue valuable 
projects that promote transformational and multidisciplinary research, 
provide needed scientific infrastructure, and contribute to preparing 
the next generation science, technology, engineering, and mathematics 
workforce.
    Specifically, we urge strong support for the following NSF 
programs:
        Within the Biological Sciences Directorate,
      -- Division of Environmental Biology (DEB), which supports the 
            Long Term Ecological Research (LTER) program.
      -- Division of Integrative Organismal Systems (IOS), which 
            supports the Plant Genome Research Program and the Basic 
            Research to Enable Agricultural Development (BREAD) 
            program.
        Within the Geological Sciences Directorate,
      -- Division of Earth Sciences (EAR), which supports the 
            Geobiology & Low-Temperature Geochemistry Program and 
            Critical Zone Observatories.
    The American Society of Agronomy (ASA), Crop Science Society of 
America (CSSA), and Soil Science Society of America (SSSA), represent 
over 18,000 members in academia, industry, and government, 12,500 
Certified Crop Advisers (CCA), and 781 Certified Professional Soil 
Scientist (CPSS), as the largest coalition of professionals dedicated 
to the agronomic, crop and soil science disciplines in the United 
States. We are dedicated to utilizing science to manage our 
agricultural system and sustainably produce food, fuel, feed, and fiber 
for a rapidly growing global population in the coming decades.
    Agriculture and agriculture-related industries contributed $742.6 
billion to the U.S. gross domestic product (GDP) in 2011, a 4.8-percent 
share. In 2012, 16.5 million full- and part-time jobs were related to 
agriculture--about 9.2 percent of total U.S. employment. However, even 
though increased agricultural productivity, arising from innovation and 
changes in technology, is the main contributor to economic growth in 
U.S. agriculture not all people at all times have to access to enough 
food for an active and healthy life. The global number of food-insecure 
people is estimated at 707 million in 2013, up 3 million from 2012. By 
2023, the number of food-insecure people is projected to increase 
nearly 23 percent to 868 million, slightly faster than population 
growth. The Nation's economic prosperity and security depend on our 
dedication to developing innovative, science-based solutions to meet 
our growing agricultural needs and managing efficient food systems.
                    biological sciences directorate
Division Environmental Biology (DEB)
    DEB emphasizes research on complex ecological and evolutionary 
dynamics to improve our ability to understand the reciprocal 
interactions between living systems and the environment, and inform 
essential considerations of environmental sustainability.
    The Long Term Ecological Research (LTER) Network was created by the 
National Science Foundation (NSF) to conduct research on ecological 
issues that can last decades and span huge geographical areas. For more 
than three decades, the Network has generated rigorous, site-based 
scientific research that has led to important findings on regional and 
continental scales.
    Among the major goals of long-term ecological research is to 
increase our understanding of a wide array of ecosystems at multiple 
geographical and time scales, giving society the knowledge and 
capability to address complex environmental challenges. Key research 
findings by LTER scientists provide valuable information for Federal 
agencies, land managers, and decision makers who want to develop 
responsible policies to deal with a rapidly changing world.
Integrative Organismal Systems (IOS)
    In order to meet increasing demands and develop more robust crops, 
additional fundamental understanding regarding the basic biology of 
these crops is needed.
    IOS maintains its commitment to support fundamental plant genome 
research through the Plant Genome Research Program (PGRP).
    PGRP supports genome-scale research to accelerate basic discoveries 
of relevance to basic plant biology as well as downstream applications 
of potential societal benefit such as crop improvement, development of 
new sources of bio-based energy, development of sources of novel bio-
based materials, and plant adaptation to global climate change.
    In addition, the Developing Country Collaborations in Plant Genome 
Research program links U.S. researchers with partners from developing 
countries to solve problems of mutual interest in agriculture and 
energy and the environment.
    The PGRP's Basic Research to Enable Agricultural Development 
(BREAD) Program supports basic research on early-concept approaches and 
technologies for science-based solutions to problems of agriculture in 
developing countries.
                    geological sciences directorate
Earth Sciences (EAR)
    The Earth Sciences division supports the Surface Earth Processes 
section, which researches geomorphology and land use, hydrologic 
science, geobiology, geochemistry (particularly the Geobiology and Low-
Temperature Geochemistry Program), and sedimentary geology and 
paleobiology--all crucial to the areas of agronomy, soil, and crops.
    In addition, EAR supports EarthScope which focuses on studying the 
structure and tectonics of the North American continent and an 
Instrumentation and Facilities program that supports community-based, 
shared-use facilities, as well as an education program to attract and 
support students and young investigators to the field of Earth science.
    ASA, CSSA, and SSSA also support strong funding for the Critical 
Zone Observatories that operate at the watershed scale and 
significantly advance our understanding of the integration and coupling 
of Earth surface processes as mediated by the presence and flux of 
fresh water.
    We must close the innovation deficit if the United States is to 
remain the world's innovation leader in agriculture. China continues to 
exhibit the world's most dramatic R&D growth at 20.7 percent annually, 
compared to the United States at 4.4 percent growth over the same time 
period. By 2009, agriculture R&D fell to a historically low 0.035 
percent share of the United States economy, a level far below the total 
U.S. R&D spending and that which is necessary to meet the critical 
challenges facing U.S. agriculture in the 21st century.
    Support for NSF is essential to maintain the capacity of the United 
States to conduct both basic and applied agricultural research, to 
improve crop and livestock quality, and to deliver safe and nutritious 
food products while protecting and enhancing the Nation's environment 
and natural resource base.
    Thank you for your consideration. For additional information or to 
learn more about the ASA, CSSA, and SSSA, please visit 
www.agronomy.org, www.crops.org, or www.soils.org.
                                 ______
                                 
Prepared Statement of the American Geophysical Union--Joint Response to 
                            NOAA Budget Bill
Senator Barbara Mikulski,
Chair, Subcommittee on Commerce, Justice, Science, and Related 
        Agencies,
U.S. Senate Committee on Appropriations,
142 Dirksen Senate Office Building,
Washington, DC 20510.

Senator Richard Shelby,
Ranking Member, Subcommittee on Commerce, Justice, Science, and Related 
        Agencies,
U.S. Senate Committee on Appropriations,
125 Hart Senate Office Building,
Washington, DC 20510.

Re: Support funding for the National Oceanic and Atmospheric 
Administration at or above the President's fiscal year 2015 request of 
$5.5 billion.

    Dear Chairwoman Mikulski and Ranking Member Shelby: We write on 
behalf of millions of Americans who are strongly supportive of robust 
funding and smart investment in NOAA's ocean, coastal, and fisheries 
programs. We strongly support funding for the National Oceanic and 
Atmospheric Administration at or above the President's Request of $5.5 
billion in fiscal year 2015. In addition, we support balanced 
investments across NOAA's dual atmospheric and oceanic missions--
Americans shouldn't have to choose between weather satellites and ocean 
and coastal resources that support and protect our coastal economies 
and communities. We simply need both.
    NOAA's mission to protect, restore and manage our ocean, coasts and 
Great Lakes is vitally important not only to sustain these resources 
but also to sustain our coastal economies. The National Ocean Economics 
Program has estimated that the U.S. ocean and coastal economy 
contributes more than $282 billion annually to the Nation's GDP through 
fisheries and seafood production, tourism, recreation, transportation, 
and construction. Additionally, over 2.8 million jobs in the U.S. 
depend on the ocean and coasts. Adequate funding for NOAA is critically 
important to support a healthy and resilient ocean that can continue to 
strengthen our coastal economies and communities.
    Resilience has emerged as the critical goal that unites all of 
NOAA's ocean and coastal programs. Man-made and natural ocean and 
coastal disasters over the last several years, from Department of 
Commerce declared fisheries disasters to the BP Deepwater Horizon oil 
disaster, remind us of the connection between the health of our ocean 
and coasts and the well-being of our coastal communities and economy. 
Resilience means more than just storm-ready; truly resilient 
communities are prepared to face changing ocean conditions, from 
acidification to sea level rise, changing economic conditions, from 
recession to emerging ocean uses, as well as major catastrophes, from 
Superstorm Sandy to marine debris clogging waterways. Investing in 
NOAA's programs will ensure we can respond to and mitigate the impacts 
and costs of future disasters by creating healthy and more resilient 
coastal ecosystems and communities.
    For example:
  --Coastal wetland buffer zones in the U.S. are estimated to provide 
        $23.2 billion per year in storm protection and a single acre of 
        wetland can store 1 to 1.5 million gallons of flood water or 
        storm surge.
  --Healthy fisheries are needed to support an industry of more than 
        60,000 jobs and $6.6 billion in GDP. Information provided by 
        core data collection, catch monitoring and stock assessment 
        programs within the NMFS is critical to ending overfishing.
  --Ocean and coastal observations and monitoring supports severe storm 
        tracking and weather forecasting systems, which greatly reduce 
        the cost of natural disaster preparation, evacuation, and 
        mitigation.
    The President's Request seeks modest increases in ocean, coastal, 
and fishery programs, and we support these increases as an important 
step towards robust funding for NOAA's ocean mission. In fiscal year 
2014, NOAA has finally been put back on a path towards robust and 
sustainable funding, the first step in bouncing back from significant 
cuts to critical programs from fiscal year 2011 to fiscal year 2013. 
Underfunding NOAA simply is not sustainable, we urge Congress to 
recognize the importance of our ocean, coasts, and Great Lakes by fully 
funding NOAA programs at or above $5.5 billion in fiscal year 2015.
    Signed,
                       organizations & businesses
Advanced Aqua Dynamics, Inc.
Alliance for the Great Lakes
American Geophysical Union
American Rivers
Center for Biological Diversity
Center for Coastal Studies
Chesapeake Communities
Citizens Campaign for the Environment
Coastal Conservation League
Coastal Research & Education Society of Long Island
Coastal States Organization
Conservation Law Foundation
Consortium for Ocean Leadership
Earthjustice
Environmental Defense Fund
Green/Duwamish & Central Puget Sound Watershed (Watershed Resource 
Inventory Area 9) Ecosystem Forum
Hawaii Institute of Marine Biology
International Federation of Fly Fishers
IOOS Association
Long Live the Kings
Management Association for Private Photogrammetric Surveyors (MAPPS)
Marine Conservation Institute
National Audubon Society
National Estuarine Research Reserve Association
National Marine Sanctuary Foundation
National Society of Professional Surveyors (NSPS)
Natural Resources Defense Council
Nature Abounds
The Nature Conservancy
Ocean Conservancy
Ocean Conservation Research
The Ocean Project
Oceana
Operation Splash
Project AWARE
Puget Sound Partnership
Puget Sound Salmon Recovery Council
Reef Relief
Restore America's Estuaries
Rhode Island Marine Trades Association
Save Our Shores
Save Our Wild Salmon Coalition
Scripps Institution of Oceanography
Sierra Club
Southeast Coastal Ocean Observing Regional Association (SECOORA)
Surfrider Foundation
                              individuals
Carleton Ray, Research Professor, Dept. Environmental Sciences, 
University of Virginia
Dawn J. Wright, Chief Scientist, Esri, Redlands, California
Dr. Alina M. Szmant, Professor of Marine Biology, Center for Marine 
Science, University of North Carolina, Wilmington
Dr. Rozalind Jester, Marine Science Faculty, Edison State College, Fort 
Myers, Florida
Elizabeth Rhodes, Professor of Hispanic Studies, Boston College
Harald Duell, Larchmont, New York
Jennifer I. Barrett, Owner, Island Connect Consulting, LLC, Founder, 
Hawaii Nature Hui, Honolulu, Hawaii
Jerry McCormick-Ray, Senior Scientist, Dept. Environmental Sciences, 
University of Virginia
John C. Ogden, Professor Emeritus, Integrative Biology, University of 
South Florida
Jonathan Milne, M.Sc, Atlantic and Midwest Region Program Manager, 
LightHawk, Sidney, Maine
Leesa Cobb, Executive Director, Port Orford Ocean Resource Team, Port 
Orford, Oregon
Michael Krivor, Maritime Project Manager, SEARCH--SEARCH2O, Pensacola, 
Florida
Mitchell A. Roffer, Ph.D., President, Roffer's Ocean Fishing 
Forecasting Service, Inc., West Melbourne, Florida
Sarah Towne, NOAA Fisheries West Coast Region and University of 
Washington Masters Candidate (School of Marine and Environmental 
Affairs)
Will McClintock, Ph.D., SeaSketch Director, Marine Science Institute, 
University of California Santa Barbara
Y. Peter Sheng, Ph.D., Professor and Director, Coastal and 
Oceanographic Engineering Program, University of Florida
                                 ______
                                 
           Prepared Statement of the Animal Welfare Institute
    Chairman Mikulski, Ranking Member Shelby, and distinguished members 
of the subcommittee, thank you for accepting our testimony in support 
of fiscal year 2015 funding for activities under the Office of Justice 
Programs (OJP) and the office of Community Oriented Policing Services 
(COPS) of the U.S. Department of Justice (DOJ). We ask that no further 
cuts be made in appropriations for these programs and that, to the 
extent possible, funding be restored so that they are better able to 
serve their missions.
    As noted on its Web site: ``The Office of Justice Programs (OJP) 
provides innovative leadership to Federal, State, local, and tribal 
justice systems, by disseminating state-of-the art knowledge and 
practices across America, and providing grants for the implementation 
of these crime fighting strategies. . . . OJP works in partnership with 
the justice community to identify the most pressing crime-related 
challenges confronting the justice system and to provide information, 
training, coordination, and innovative strategies and approaches for 
addressing these challenges.''
    Elsewhere, the COPS website defines community policing as ``a 
philosophy that promotes organizational strategies that support the 
systematic use of partnerships and problem-solving techniques to 
proactively address the immediate conditions that give rise to public 
safety issues such as crime, social disorder, and fear of crime.'' 
There is an emphasis on training and technical assistance; creative, 
innovative, and experimental community policing strategies; and best 
practices, among others efforts.
    Nothing is more creative, innovative, or proactive, nor more open 
to dynamic partnerships, than addressing community safety through 
training, technical assistance, partnerships, and development of 
problem-solving strategies designed to improve the prevention, 
investigation, and prosecution of animal cruelty. Unfortunately, 
reduced funding has impaired the ability of these programs to meet the 
demand for training and assistance in this area.
    Animal cruelty is both a crime (with all 50 States now recognizing 
certain acts as felonies) and a manifestation of social disorder. The 
connection between animal abuse and other forms of violence has been 
firmly established through both experience and science. ``Animal 
abusers are five times more likely to commit crimes against people, 
four times more likely to commit property crimes, and three times more 
likely to have a record for drug or disorderly conduct offenses.'' \1\
---------------------------------------------------------------------------
    \1\ Thompson, Daria, ``The Link Between Animal Abuse and Other 
Violent Behavior,'' in Deputy and Court Officer, 2013 Number 3, p.4.
---------------------------------------------------------------------------
    One ``gold standard'' study \2\ has identified animal abuse as one 
of four significant predicators for who is likely to become a batterer. 
Criminals and troubled youth have high rates of animal cruelty during 
their childhoods, perpetrators were often victims of child abuse 
themselves,\3\ and animal abusers often move on to other crimes.
---------------------------------------------------------------------------
    \2\ Walton-Moss, Benita, Jacquelyn Campbell, et al, ``Risk Factors 
for Intimate partner Violence and Associated Injury Among Urban 
Women,'' Journal of Community Health, vol. 30, No. 5, October 2005.
    \3\ ``Woman's Best Friend: Pet Abuse and the Role of Companion 
Animals in the Lives of Battered Women,'' by Flynn (2000), as cited at 
www.ncadv.org.
---------------------------------------------------------------------------
    Another research project, which is being overseen by an FBI special 
agent, involves ``analyzing the criminal histories of offenders who 
were arrested for active animal cruelty, in order to further examine 
the potential link between animal cruelty and violence against 
persons.'' According to an initial analysis published in a dissertation 
(Leavitt, 2011), the majority of the 66 offenders examined so far ``had 
prior arrests for other crimes,'' including interpersonal violence (59 
percent), assault (39 percent), and assault of a spouse or intimate 
partner (38 percent); 17 percent had a history of sexual offenses. The 
publication of final results is expected by the end of the year.
    All of this experience combined with the growing body of research 
makes a compelling case that addressing animal cruelty is a significant 
tool for enhancing public safety. For example, the Los Angeles Police 
Department's Animal Cruelty Task Force attributes an increase in 
citizen-provided videos documenting animal cruelty to ``a deep concern 
for public safety.'' A press release (January 15, 2014) states that 
``[w]itnesses come to the realization that anyone that would commit 
such horrific acts of violence on defenseless animals could also do the 
same to humans.''
    Nowhere is this clearer than in the well-documented relationship 
between animal cruelty and domestic violence, child abuse, and elder 
abuse. Up to 71 percent of victims entering domestic violence shelters 
have reported that their abusers threatened, injured, or killed the 
family pet; batterers do this to control, intimidate, and retaliate 
against their victims; they may be trying to coerce them into allowing 
sexual abuse or to force them into silence about abuse.\4\ This poses a 
significant public safety and public health problem. In one study, 48 
percent of women responding reported they had delayed leaving an 
abusive situation out of fear for their pets. (Faver and Strand, 2003) 
Twenty-six States (this tally includes the District of Columbia and 
Puerto Rico) now specifically allow the inclusion of companion animals 
in domestic violence restraining orders.
---------------------------------------------------------------------------
    \4\ The study ``I'll only help you if you have two legs,'' or Why 
human services professional should pay attention to cases involving 
cruelty to animals, by Loar (1999), as cited on the website of the 
National Coalition Against Domestic Violence (www.ncadv.org).
---------------------------------------------------------------------------
    Another connection that is all too common, and all too dangerous, 
exists among animal fighting, gangs, drugs, illegal guns, and other 
offenses. The Animal Legal and Historical Center at the Michigan State 
University College of Law describes dogfighting in these stark terms: 
``The notion that dogfighting is simply an animal welfare issue is 
clearly erroneous. Until the past decade, few law enforcement officials 
or government agencies understood the scope or gravity of dogfighting. 
As these departments have become more educated about the epidemic of 
dogfighting and its nexus with gang activity, drug distribution rings, 
and gambling networks, many have implemented well designed, 
sophisticated task forces. The magnitude of criminal activity 
concurrently taking place at the average dogfight is of such a scope as 
to warrant the involvement of a wide range of agencies, including 
local, regional, and Federal law enforcement agencies and their 
specialized divisions such as organized crime units, SWAT teams, and 
vice squads, as well as animal control agencies and child protective 
services.''
    Animal fighting is barbaric and is a violent crime in the truest 
sense of the term. It causes immense suffering to countless numbers of 
innocent animals and its presence threatens the safety of the entire 
community. It is illegal under both State and Federal law, so it well 
serves the entire community for law enforcement to have the most 
powerful tools possible to eradicate it. In fact, as part of the new 
farm bill, Congress has added to these tools by closing a significant 
loophole in the law by making knowingly attending an animal fight 
punishable by fines and jail time and also making it a separate 
offense, with higher penalties, to knowingly bring a minor to such an 
event. This is a significant new tool. Animal fighting is fueled not 
just by those who train and fight the animals and finance the fights, 
but also by spectators. Spectators are not innocent bystanders; they 
are active participants in and enablers of these criminal enterprises--
and they also provide ``cover'' during raids by allowing the 
organizers, trainers, etc., to ``blend into the crowd'' to escape 
arrest.
    There is a need to respond proactively to animal cruelty at the 
very earliest signs and earliest ages, before it becomes a larger 
public safety issue. ``A study conducted over a 10 year period found 
that children between the ages of 6-12 years old who were described as 
being cruel to animals were more than twice as likely as other children 
in the study to be reported to juvenile authorities for a violent 
offense.'' \5\
---------------------------------------------------------------------------
    \5\ Thompson, Ibid., p.4.
---------------------------------------------------------------------------
    The U.S. Department of Justice should be commended for taking note 
of these developments in what is commonly called ``the link,'' and then 
taking steps to respond. OJP showed great vision in recognizing that by 
identifying precursor crimes, such as animal cruelty and animal 
fighting, and ensuring proper adjudication of such cases, our criminal 
justice system can reduce the incidence of family and community 
violence and change the path of potential future violent offenders.
    DOJ has given weight to the need to address animal cruelty crimes 
as part of an overall strategy for curbing community violence by 
funding programs that deal with this crime and by weaving the 
recognition of that connection into its own policies and operations. 
For instance, in 2009, what would become the Animal Cruelty Working 
Group had its first meeting. Then-Assistant Attorney General Laurie 
Robinson was aware of, and wanted to bring staff together to discuss, 
the link between animal abuse and interpersonal violence (IPV). She 
``wanted to make sure [they] were using the evidence on animal cruelty 
to inform how OJP programs were designed and implemented.''
    It is especially noteworthy that DOJ, et al, included witnessing 
animal cruelty on their Polyvictimization/Trauma Symptom Checklist, 
which was developed to ``allow lawyers and other advocates to focus on 
important information about (juvenile) clients' past victimization 
history and help advocates better identify and advocate for appropriate 
placements, disposition plans, trial strategies, services, and 
treatment.'' \6\ This recognizes the impact that witnessing or being 
forced to participate in animal abuse has on children and its 
relationship to later involvement with the criminal justice system. In 
fact, some States have even enacted or are considering provisions that 
enhance the penalty for animal cruelty when it is committed in front of 
a child.
---------------------------------------------------------------------------
    \6\ The Checklist is part of a tool (The Polyvictimization and 
Trauma Identification Checklist and Resource) developed by The 
SafeStart Center (a project of the U.S. Department of Justice's Office 
of Juvenile Justice and Delinquency Programs), the American Bar 
Association's Center on Children and the Law, and Child & Family Policy 
Associates. http://www.safestartcenter.org/pdf/Resource-
Guide_Polyvictim.pdf.
---------------------------------------------------------------------------
    In 2013, DOJ hosted a ``listening session'' on the topic of ``the 
intersection between animal cruelty and public safety'' among its own 
staff and judges, prosecutors, forensic scientists, and representatives 
from law enforcement, animal protection, domestic violence, child 
welfare, and veterinary organizations. At that meeting, which Associate 
Attorney-General Tony West attended, then-Acting Assistant Attorney-
General Mary Lou Leary said, ``The topic of animal cruelty may seem 
unimportant in the face of events like the Boston bombing, school 
shootings, and other recent tragedies, but we know there's a history of 
animal cruelty in the backgrounds of many perpetrators of violent acts. 
Understanding this link between animal cruelty and interpersonal 
violence is critical to the Department.''
    That the Department takes this seriously is evident. However, cuts 
in the OJP and COPS programs are hampering their ability to be the 
catalyst for innovative responses to animal cruelty and ``the link'' as 
envisioned in their missions and in the Department's commitment to this 
issue. Prosecutors and other members of the law enforcement community 
are eager for new thinking and better tools for dealing with animal 
cruelty crimes in their communities. Funding is needed for training, 
technical assistance, communication and coordination, and dissemination 
of best practices.
    We hope that Congress will take this important public safety need 
into consideration when determining funding for programs under BJA and 
COPS. Enabling DOJ to support initiatives addressing animal cruelty and 
its relationship to other crimes sends a very strong message to 
prosecutors, law enforcement, and, most importantly, the community at 
large, that crimes involving animals are to be taken seriously and 
pursued vigorously.
                                 ______
                                 
      Prepared Statement of Associated Universities, Incorporated
    This written testimony is submitted on behalf of Associated 
Universities, Incorporated (AUI) to ask you to continue your support of 
the National Science Foundation (NSF) in fiscal year 2015 by providing 
NSF with $7.5 billion. In particular, we urge you to provide strong 
support for the NSF Division of Astronomical Sciences and the National 
Radio Astronomy Observatory (NRAO).
    My name is Ethan Schreier, President of AUI, a non-profit 
corporation that operates the National Radio Astronomy Observatory 
under a Cooperative Agreement with the National Science Foundation. 
NRAO is a federally Funded Research and Development Center (FFRDC) that 
enables forefront research into the Universe at radio wavelengths. 
Radio astronomy has opened new vistas into the Universe, uncovering the 
birthplaces of stars and planets, super-massive black holes, 
gravitational waves and the remnant heat of the Big Bang.
    I would like to emphasize how much AUI appreciates your 
subcommittee's continued leadership on and recognition of the critical 
role of the NSF and its support for science and engineering in enabling 
a strong U.S. economy, workforce, and society.
    Today, I submit this testimony to ask you to continue your support 
of NSF in fiscal year 2015 and beyond.
    NSF funds basic research that spurs innovation and discovery in all 
fields of science and engineering. As a part of this work, NSF provides 
unique Federal support for ground-based astronomy that is answering 
fundamental questions about our Universe. These questions include how 
the Universe began, how cosmic structures form and evolve, whether 
habitable worlds exist around other stars, and what organic materials 
exist in space as the building blocks of life.
    I join with the research and higher education community and request 
that you provide NSF with $7.5 billion overall. I ask that you allocate 
an additional $245 million above the budget request to Research and 
Related Activities (RRA), and within RRA, we encourage you to provide a 
proportional increase to the Division of Astronomical Sciences to $249 
million.
    NSF provides critical funding to support astronomy facilities and 
the researchers in the United States that use them to answer these 
questions. In particular, NRAO currently operates four world-leading 
telescopes funded by NSF for use by the scientific community: the 
Jansky Very Large Array (VLA) in New Mexico, the most productive, 
ground-based telescope in history; the Robert C. Byrd Green Bank 
Telescope (GBT) in West Virginia, the world's largest, fully-steerable 
telescope; the Very Long Baseline Array (VLBA), the world's largest 
scientific instrument with 10 dishes spanning North America that enable 
the most precise angular measurements of any telescope; and the new 
international Atacama Large Millimeter/submillimeter Array (ALMA), the 
largest ground-based astronomy project ever conceived and built, for 
which AUI is the North American lead, overseeing NRAO's construction 
and operations for the North American science community. Each of these 
telescopes fills a unique and essential science role, and each is the 
best in the world in its category. NRAO's Headquarters, and the focus 
of its radio technology development, is in Virginia.
    Certain physical phenomena are only observable by their radio 
signals. Just as visible light from space carries information about 
stars and the astronomical objects that are illuminated by them, radio 
waves are emitted by important celestial phenomena that are often 
invisible to our eyes, even with the best optical telescopes. For 
example, stars form from collapsing cold clouds of molecules and dust 
that are too cold and obscured to be observed by any other technique. 
The earliest stages of star formation, one of the most basic processes 
of astrophysics, are invisible even to the Hubble Space Telescope or 
the future James Webb Space Telescope and can only be studied using the 
techniques of radio astronomy. Radio astronomy also offers cost-
effective methods to complement other techniques. For example, radio 
astronomers are using accurate timing of pulsars--fast-spinning, highly 
dense, collapsed (neutron) stars--to search for the gravitational waves 
predicted by Einstein's Theory of General Relativity. This technique, 
which uses NRAO's Green Bank Telescope among other facilities, is a 
complement to the Laser Interferometer Gravitational Wave Observatory 
(LIGO) and other gravitational wave detectors.
    NRAO facilities provide transformational and unique scientific 
capabilities that enable the astronomy community to answer many 
fundamental questions about the Universe including those highlighted by 
the recent National Academy's Decadal Survey, New Worlds New Horizons, 
studying galaxies as they form and grow since the earliest times of the 
Universe, directly imaging planets in formation around nearby stars, 
and directly detecting gravitational waves from the merging of massive 
black holes.
    We ask that you continue the fiscal year 2014 level for NRAO 
operations to support ongoing activities at U.S. NRAO facilities. 
Support for these facilities will sustain groundbreaking research 
capabilities as well as our very active science, technology, 
engineering, and mathematics (STEM) education and public outreach 
programs. We additionally hope you will support the President's budget 
request for the ALMA project, now nearing completion of construction, 
at $40.17 million for fiscal year 2015. This represents a $5.9 million 
increase to the AST budget as the ALMA project ramps up to full 
operations.
    AUI also supports the important NSF initiative to fund midscale 
research infrastructure at $29 million, an increase of $8.25 million 
above the fiscal year 2014 enacted level. These funds would support 
scientific instrumentation that facilitate student training, bridging 
the gap between small laboratory-scale instrumentation and large multi-
user facilities . This midscale program request would implement a 
priority identified by the National Academy's most recent decadal 
survey of astronomy and astrophysics.
    We would like to conclude by thanking you again for your ongoing 
support of NSF that enables the research and education communities it 
supports, including thousands of astronomers, to undertake activities 
that contribute to the health, security, and economic strength of the 
U.S. NSF needs sustained annual funding to maintain our competitive 
edge in science and technology, and therefore we respectfully ask that 
you continue robust support of these critical programs in fiscal year 
2015. I appreciate the opportunity to provide testimony to the 
Committee on behalf of AUI. I am happy to provide any additional 
information or assistance you may ask of us during the fiscal year 2015 
appropriations process.
                                 ______
                                 
    Prepared Statement of the Association of Public and Land-Grant 
  Universities' (APLU) Board on Oceans, Atmosphere, and Climate (BOAC)
    On behalf of the Association of Public and Land-grant Universities' 
Board on Oceans, Atmosphere, and Climate (BOAC), we thank you for the 
opportunity to provide recommendations for the proposed fiscal year 
2015 budgets for the National Oceanic and Atmospheric Administration 
(NOAA), the National Aeronautic and Space Administration (NASA), and 
the National Science Foundation (NSF). BOAC represents over 300 
scientists and administrators at APLU's 235 member universities and 
systems. We support a budget of $5.6 billion for NOAA, $80 million for 
the NOAA's National Sea Grant College Program, $5.25 billion for NASA's 
Science Directorate and $7.5 billion for NSF.
    According to the National Climatic Data Center (NCDC), between 1980 
and 2013, there were 151 weather/climate disasters that each exceeded 
$1 billion in damages. Combined they totaled $1 trillion in losses. The 
Federal Government spent nearly $140 billion on disasters in 2012 
alone. Additionally, the role of the Federal Government in covering 
many of these losses has grown tremendously over the last few decades. 
Erwann Michel-Kerwann, chairman of the OECD's Board on Financial 
Management of Catastrophes, noted that in 1989, Federal relief covered 
only 23 percent of total damage whereas Federal relief covered 69 
percent of Hurricane Ike in 2008 and 75 percent of Hurricane Sandy in 
2012.
    To decrease future Federal expenditures and to make the Nation more 
prepared for natural disasters, Federal agencies are working with 
communities across the Nation to enhance their resilience. Community 
resilience is a measure of the ability of a community to prepare for, 
respond to, and fully bounce back from a variety of crises. Through 
research, Federal science agencies can play a valuable role in helping 
communities strengthen their resilience.
    In 2005, the National Science and Technology Council's Subcommittee 
on Disaster Reduction provided a framework for sustained Federal 
investment in science and technology related to disaster reduction, 
regardless of the type of disaster. They call for:
  --Providing hazard and disaster information where and when it is 
        needed.
  --Understanding the natural processes that produce hazards.
  --Developing hazard mitigation strategies and technologies.
  --Recognizing and reduce vulnerability of interdependent critical 
        infrastructure.
  --Assessing disaster resilience using standard methods.
  --Promoting risk-wise behavior.
    All of these actions require research, whether it be for the basics 
of understanding how and when natural processes become hazardous or for 
modeling potential flooding or for the social science to enhance 
communications, trust and understanding within communities to promote 
``risk-wise'' behavior.
    Below we comment on the needs of each agency and their 
collaborating science communities in making our Nation more resilient:
                                  noaa
    NOAA conducts research into natural processes and provides 
information on when natural processes may be hazardous. To create 
resiliency for the Nation, researchers and forecasters need increased 
and sustained support of satellite and in situ environmental observing 
systems. As reported in several prior and recent National Research 
Council studies, (Observing Weather and Climate from the Ground Up, a 
Nationwide Network of Networks, NRC, 2009), the needs are particularly 
acute for urbanized areas as well as mountain, ocean and coastal 
regions.
    While we recommend sustained support for NOAA's satellite programs, 
we point out that this support should not be at the expense of NOAA's 
extramural funding of research, education and outreach. Extramural 
funding is cost effective. Its highly competitive nature ensures up-to-
date qualifications and cutting-edge approaches without the continuing 
costs of developing, maintaining and updating these skills in house. It 
provides essential training in research skills to provide the next 
generation of researchers. In 2004 the NOAA Science Advisory Board's 
Research Review Team report concluded:
    ``. . . Extramural research is critical to accomplishing NOAA's 
mission. NOAA benefits from extramural research in many ways, 
including: access to world class expertise not found in NOAA 
laboratories; connectivity with planning and conduct of global science; 
means to leverage external funding sources; facilitate multi-
institution cooperation; access to vast and unique research facilities; 
and access to graduate and undergraduate students. Academic scientists 
also benefit from working with NOAA, in part by learning to make their 
research more directly relevant to management and policy. It is an 
important two-way street . . . NOAA cannot accomplish its goals without 
the extramural community, specifically the universities and 
institutions that represent the broad range of expertise and resources 
across the physical, biological, and social sciences (emphasis added). 
Moreover, there is the important issue of maintaining a scientific and 
technologically competent workforce in NOAA and the workforce is 
another ``product'' of the extramural research community . . . Also it 
is important that during difficult budget periods that NOAA not 
disproportionately target the extramural research for budget cuts.''
    Sustained observations are vitally important to ensure coastal 
communities have the information necessary to increase overall 
resiliency. NOAA's Sustained Ocean Observations and Monitoring program 
funds global observing programs, including globally deployed floats, 
drifters, and fixed moorings to provide information essential for 
accurate forecasting of hurricanes, typhoons, atmospheric rivers and 
associated flooding, heat waves, and wildfires. Data and analyses of 
ocean and atmospheric conditions are increasingly used for drought 
early warning systems, enhanced tsunami warning systems, and storm 
surge monitoring. Ocean observations are also imperative for 
calibrating and validating satellite observations. Maintaining baseline 
ocean observations in support of weather and regional climate 
predictions, fisheries management and ecosystem studies, tide and 
current monitoring, and sea level change is essential. Maintaining 
continuity of long-term data sets is essential to ensure communities 
are able to respond and adapt to today's changing world.
    NOAA's support of environmental research and education via programs 
such as the Oceanic and Atmospheric Research's Sea Grant and the Office 
of Ocean Exploration and Research programs are also critical to 
university research, education and outreach. Similarly, NOAA's role in 
understanding the oceans and coastal areas and oceanic resources 
through the National Centers for Coastal Ocean Science support and help 
maintain sustainable coastal economies.
    In particular, we would like to point out the important role of the 
National Sea Grant College Program in increasing the resilience of the 
Nation's coastal communities. Sea Grant personnel excel at working with 
local communities to address their specific needs and prepare them for 
potential hazards. For example, Virginia Sea Grant provided training to 
emergency managers and weather service meteorologists in Rstofs, a 
flood forecasting system used extensively by the National Weather 
Service and emergency managers. In 2011, that training paid off when 
decision-makers, using this training, made a timely evacuation call of 
200,000 residents during Hurricane Irene. Similarly, Virginia Sea Grant 
sponsored the development and dissemination of real-time tide 
monitoring technology (TideWatch). With information from TideWatch, 
marinas were able to properly prepare for the drastic tidal changes 
produced by storms Ida (2009) and Irene (2011) and avoid the damages 
they accrued during similar, earlier storm events. For the reasons 
listed above, we support funding of the National Sea Grant College 
Program at $80 million.
    Another critical pillar of NOAA's extramural research enterprise in 
atmospheric and ocean science, climate, weather, and marine ecosystems 
are its 16 Cooperative Institutes, involving 42 leading research 
universities and non-profit independent institutions located in 23 
States and the District of Columbia. Established through open 
solicitations, competitive Cooperative Institute (CI) partnerships 
provide NOAA direct access to key innovations at the Nation's primary 
institutions of science, social-learning, and research development. 
Recent Cooperative Institute research has focused on forecasting energy 
demand scenarios, seasonal wildfires, and large storm events; assessing 
local impacts of projected sea-level rise; improving seasonal 
precipitation and drought predictions; and understanding atmospheric 
rivers and other causes of extreme flooding. This research is 
translated into information used by private businesses and public 
sector mangers at all levels of government. CI program are 
predominantly funded by the Office of Oceanic and Atmospheric Research 
(OAR), through its ``Laboratories and Cooperative Institutes'' line, 
but are also administered and/or funded by other NOAA line offices 
including the National Marine Fisheries Service (NMFS) and the NOAA's 
Satellite and Information Service (NESDIS).
    In addition, OAR's Regional Climate Data and Information line funds 
the Regional Integrated Sciences and Assessments (RISA) program, the 
National Integrated Drought Information System (NIDIS), and associated 
programs. The RISA program supports research teams in over 30 States--
each affiliated with one or many universities--as they work with public 
and private user communities to build the Nation's capacity to prepare 
for and adapt to environmental variability and change. NIDIS provides 
dynamic and easily accessible drought information for the Nation.
                                  nasa
    Like NOAA, NASA is critical to community resilience, both for 
developing an understanding of the Earth and how it functions as well 
as collection of the data scientists use to help aid decision-makers.
    In 2007, the National Academies issued the report, ``Earth and 
Science Applications from Space: National Imperatives for the Next 
Decade and Beyond.'' The report found that between 2000 and 2009 
funding for Earth Sciences (ES) had fallen substantially. ES research 
is absolutely critical to understanding climate change, such as the 
decline of Earth's ice sheets and the health of the global oceans. Past 
investments in NASA's science mission have funded university research 
that has resulted in the development of new instruments and 
technologies and in valuable advances in weather forecasting, climate 
projections and understanding of Earth ecosystems.
    NASA is instrumental in deploying satellites used by NOAA and in 
cooperating with other countries. Furthermore, without the tools 
developed at NASA, oceanic, atmospheric, hydrologic and Earth-system 
scientists and the Nation would have only a fragmentary picture of the 
interconnected functioning of the planet's oceans, atmosphere and land. 
NASA plays a role in technology transfer from NOAA by testing new 
sensors. NASA is currently developing a sensor that will for the first 
time give scientists and resource planners a global picture of the 
world's terrestrial water supplies. Currently many lakes and rivers are 
not monitored and there is no centralized location for water resource 
information. The NASA data archive is an irreplaceable collection of 
environmental information that researchers depend upon. Furthermore, 
through its support for young scientists and graduate students, the 
NASA science mission supports innovation.
    Finally, we support funding NASA to develop and implement a 
scatterometer mission with fast community access to those data, 
capability to distinguish between wind and rain and a higher orbit for 
coverage of Alaskan waters. The scatterometer has been a critical 
component of hurricane prediction.
                                  nsf
    Understanding natural processes and how or when they become 
hazardous is critical to forecasting those hazards. This requires basic 
research, which is why BOAC supports funding of NSF. NSF supplies 
almost two-thirds of all Federal funding for university-based, 
fundamental research in the geosciences. GEO-supported research 
increases our ability to understand, forecast, respond to and prepare 
for environmental events and changes. NSF's Water Sustainability and 
Climate program addresses the pressing challenge of providing adequate 
water quantity and quality in light of both burgeoning human needs and 
increasing climate variability and change. Through facilities such as 
the Oceans Observatory Initiative, the Integrated Ocean Drilling 
Program, and NCAR-Wyoming supercomputer, NSF provides the academic 
community with advanced capabilities that it would not be able to 
afford if conducted through individual institutions. It does so without 
growing the needs for increased personnel, training and retooling in 
house at Federal laboratories and while training the next generation.
                                summary
    Together, NOAA, NASA, and NSF provide critical Earth observations 
and research funding for scientists, engineers and mathematicians 
working to increase understanding of natural phenomena of economic and 
human significance. BOAC thanks the Committee for its continued support 
of these critical agencies.
                                 ______
                                 
      Prepared Statement of the Association of Zoos and Aquariums
                                  noaa
    Thank you Chairwoman Mikulski and Ranking Member Shelby for 
allowing me to submit testimony on behalf of the Nation's 213 U.S. 
accredited zoos and aquariums. Specifically, I want to express my 
support for the inclusion of at least $3.981 million for the John H. 
Prescott Marine Mammal Rescue Assistance Grant Program, $2,500,000 for 
the NOAA Ocean Education Grants Program, and $12,000,000 for the Bay, 
Watershed, Education and Training Program in the fiscal year 2015 
Commerce, Justice, Science, and Related Agencies appropriations bill. 
Additionally, I urge you to reject any proposal that eliminate valuable 
ocean education programs as part of a plan to restructure Federal 
Science, Technology, Engineering, and Math (STEM) programs.
    Founded in 1924, the Association of Zoos and Aquariums (AZA) is a 
nonprofit 501c(3) organization dedicated to the advancement of zoos and 
aquariums in the areas of conservation, education, science, and 
recreation. AZA-accredited zoos and aquariums annually see more than 
182 million visitors, collectively generate more than $21 billion in 
annual economic activity, and support more than 204,000 jobs across the 
country. Over the last 5 years, AZA-accredited institutions supported 
more than 4,000 field conservation and research projects with 
$160,000,000 annually in more than 100 countries. In the last 10 years, 
accredited zoos and aquariums formally trained more than 400,000 
teachers, supporting science curricula with effective teaching 
materials and hands-on opportunities. School field trips annually 
connect more than 12,000,000 students with the natural world.
    During the past 20 years AZA-accredited zoos and aquariums have 
rescued and rehabilitated more than 1,800 marine animals including 
stranded dolphins, whales, sea lions, seals, sea otters, sea turtles, 
and manatees. More than 1,750 (97 percent) of these animals have been 
successfully released back into their natural habitat. While the 
Nations' accredited zoos and aquariums support wildlife rehabilitation 
through their ongoing animal rescue programs, these institutions are 
sometimes involved in addressing natural and manmade disasters such as 
the 2010 Deepwater Horizon Gulf oil spill. For example, following the 
oil spill, accredited zoos and aquariums around the country offered 
assistance by pledging the services of 200 animal care professionals 
and donating supplies, vehicles, and other resources to assist in the 
wildlife rescue efforts.
    The John H. Prescott Marine Mammal Rescue Assistance Grant Program 
provides grants or cooperative agreements to eligible stranding network 
participants for the recovery and treatment (i.e., rehabilitation) of 
stranded marine mammals; data collection from living or dead stranded 
marine mammals; and, facility upgrades, operation costs, and staffing 
needs directly related to the recovery and treatment of stranded marine 
mammals and collection of data from living or dead stranded marine 
mammals. Eligible applicants are currently active, authorized 
participants, including AZA-accredited zoos and aquariums, or 
researchers in the National Marine Mammal Stranding Network.
    Without the Prescott grant program, NOAA would have to rely on 
private organizations as it coordinates the response to marine mammals 
in distress; determines disease, injury and potential cause(s) of 
death; and supports emergency response for marine mammals during oil 
spills, outbreaks of diseases, and unusual mortality events. Network 
partners may not have the funds or the ability to respond to some 
stranding events, leaving animals at risk for prolonged exposure and 
likely death. Without funding for this program the critical ability to 
monitor marine mammal health trends, collect scientific data, and 
perform analysis would also be diminished. Information about the causes 
of marine mammal strandings is useful to the public because marine 
mammals can serve as an indicator of ocean health, giving insight into 
larger environmental issues that also have implications for human 
health and welfare.
    At the same time that AZA-accredited zoos and aquariums are working 
with Federal partners to conserve ocean wildlife, they also are 
providing essential learning opportunities, particularly about science, 
for schoolchildren in formal and informal settings. Increasing access 
to formal and informal science education opportunities has never been 
more important. Studies have shown that American schoolchildren are 
lagging behind their international peers in certain subjects including 
science and math.
    The NOAA Ocean Education Grants Program and Bay, Watershed, 
Education and Training Program bring students closer to science by 
providing them with the opportunity to learn firsthand about our 
world's marine resources. Through these grant programs, aquariums work 
closely with Federal, State, and local partners on projects with long-
lasting benefits not only for the students but their communities as 
well. For example, previous projects funded by NOAA Ocean Education 
Grants at AZA aquariums have focused on establishing a regional network 
of summer camp programs grounded in ocean science, enhancing teen 
conservation leadership programs, and conserving and managing coastal 
and marine resources to meet our Nation's economic, social and 
environmental needs. As schools face increased budgetary pressures, 
these types of education programs at aquariums will become even more 
important in ensuring that American schoolchildren receive the 
necessary foundation in science education that they will need to be 
competitive in the 21st century global economy.
    AZA-accredited zoos and aquariums are essential partners at the 
Federal, State, and local levels to improve education for 
schoolchildren and ensure that current and future generations will be 
good stewards of the world's oceans. Therefore, I urge you to include 
at least $3.981 million for the John H. Prescott Marine Mammal Rescue 
Assistance Grant Program, $2,500,000 for the NOAA Ocean Education 
Grants Program, and $12,000,000 for the Bay, Watershed, Education and 
Training Program in the fiscal year 2015 Commerce, Justice, Science, 
and Related Agencies appropriations bill.
    Thank you.
                                 ______
                                 
  Prepared Statement of Nathan M. Bacheler, Fisheries Biologist, NOAA/
                   National Marine Fisheries Service
    Dear Members of the Senate Subcommittee on Commerce, Justice and 
Science, and Related Agencies: Acting as a private citizen on my own 
time, I would like to submit testimony for the record to strongly urge 
the subcommittee to reject the proposal in the President's fiscal year 
2015 budget to close the National Oceanic and Atmospheric 
Administration (NOAA) laboratory in Beaufort, North Carolina, and to 
instead fund this facility so that the crucial work being done there 
can continue on into the future. This laboratory is uniquely located to 
address key marine science issues throughout the east coast of the 
U.S., and its loss would represent a devastating blow to the fisheries 
interests in the region. The decision to try and close the Beaufort 
facility represents a narrow-minded approach to a temporary funding 
concern that is dwarfed in comparison by the potential damage done to 
the research conducted on the marine resources in the southeast.
    The closure of the Beaufort lab would be a grave error because of 
the loss of high-quality science and scientists associated with the 
facility. Located at the intersection of two distinct marine 
environments, the NOAA laboratory in Beaufort is uniquely situated to 
study one of the most diverse ecosystems in the country. The lab is an 
international leader in studies of harmful algal blooms (HABs) and the 
invasion of lionfish into the waters of the Atlantic Ocean, both of 
which are currently having a significant impact on the fisheries 
resources of the United States. The National Marine Fisheries Service 
(NMFS) programs at the lab are responsible for the assessment of the 
major marine fisheries stocks in the southeast, including menhaden (the 
largest fishery along the Atlantic coast as well as in the Gulf of 
Mexico) and the commercially and recreationally important snapper and 
grouper fisheries. NMFS in Beaufort also provides the only up-to-date 
information on the currently-closed red snapper fishery along the 
southeast coast through its SouthEast Fishery-Independent Survey. All 
of these programs would suffer irreparable damage were the lab to close 
because NOAA would be unlikely to retain the world-class scientists 
performing this research in the event their Federal positions were 
transferred to other NOAA facilities in the southeast; the NOAA lab is 
part of a unique conglomeration of research facilities in the Beaufort 
area, and the majority of employees would very likely try and remain in 
the area at a different institution rather than relocate to a less 
desirable location. Thus, NOAA (and NMFS in particular) would be forced 
to rebuild these programs from scratch, programs that are required to 
meet congressional mandates laid out in the Magnuson-Stevens Fishery 
Conservation and Management Act. Just as importantly for NMFS, the 
closure of the Beaufort facility would mean that the Fisheries Service 
would not have a presence along the coast between Sandy Hook, New 
Jersey and Miami, Florida--an extent that covers over two-thirds of the 
United States east coast. It is difficult for the agency to claim they 
are interested in conserving the marine resources of the southeast with 
such a large spatial gap in representation, especially compared to five 
NMFS research facilities in the Gulf of Mexico and another five in the 
northeast.
    The financial reasons given by the leadership of the National Ocean 
Service (NOS) for closing the Beaufort facility have been 
misrepresented and overblown. In their justification for closing the 
lab, NOS cited only the NOS employees that would be impacted, grossly 
underestimating the total number of workers at the site. In addition to 
NOS, the lab also houses National Marine Fisheries Service (NMFS) and 
National Estuarine Research Reserve System (NERRS) programs; between 
the three groups there are 108 Federal, State, and contract employees 
at the facility, a much larger disruption of staff than initially 
claimed. Additionally, NOS cited a cost of future maintenance repairs 
to the facility that was outdated and did not take into account recent 
work that has been done to upgrade the laboratory and its 
infrastructure. Since 2006, approximately $14 million in repairs and 
upgrades have been accomplished, including the replacement of multiple 
buildings. The closure of this facility, after so much has been 
invested in its improvement in recent years, seems like a clear waste 
of taxpayer money, especially given that a 2014 report showed that the 
facility is structurally sound.
    In summary, the closing of the NOAA facility in Beaufort is bad 
policy--it is a squandering of taxpayer funds, it is a major detriment 
to the science being conducted in the southeast, and it makes it more 
difficult for NMFS to maintain the quality of the work it is federally 
mandated to achieve. The laboratory in Beaufort has been operating 
continually since 1899 and was sited here specifically because of its 
advantageous position so close to so many of our Nation's valuable 
marine resources; Congress owes it to our country to make sure the 
high-quality work done here continues on for the next 115 years.
                                 ______
                                 
         Prepared Statement of George Boehlert, Redmond, Oregon
    To whom it may concern,
    I am writing concerning the proposed closure of the National 
Oceanic and Atmospheric Administration (NOAA) laboratory in Beaufort, 
North Carolina. I believe that closing this facility entirely is a 
mistake and have some recommendations for the subcommittee to consider.
    First, I will provide some background on my credentials to comment. 
Although I retired in 2012, I have worked with a variety of National 
Marine Fisheries Service (NMFS) laboratories during my career, and have 
served as director of two. As a graduate student, I conducted my 
research at the NMFS Southwest Fisheries Science Center in La Jolla, 
California from 1972-77. I conducted postdoctoral research at the 
Northwest and Alaska Fisheries Science Center in Seattle from 1977-78. 
In academic positions from 1978-1983 at the College of William and Mary 
and at Oregon State University, I collaborated with NOAA/NMFS 
scientists at several labs, including the Beaufort Laboratory. In 1983 
I took a position as division director at the NMFS Honolulu Laboratory, 
and served as director there in 1988-1993, and moved to Monterey, 
California in 1993 as director of the NMFS Pacific Fisheries 
Environmental Group. I left there in 2002 to return to Oregon, where I 
served as Professor and Director at Oregon State University's Hatfield 
Marine Science Center in Newport--a facility co-located with three 
different regional NOAA activities. I have served on external review 
panels of several NOAA labs and am highly familiar with the mission of 
the different organizations.
    From my own perspective, the Beaufort Laboratory has a long history 
that has served NOAA and the central Atlantic Seaboard with 
distinction. As a relatively small lab for several decades, it 
addressed key issues of the National Marine Fisheries Service's 
mission, including fisheries management (menhaden, groundfish species, 
estuarine species), fundamental fisheries ecology, protected species 
(particularly sea turtles), and fisheries habitat (including toxic 
algal blooms). It conducted these tasks with distinction, with an 
enviable publication record as well as a record of solving fundamental 
fisheries problems in the region. I am familiar with these earlier 
endeavors, not only because I collaborated with scientists there, but 
also because I served as an external reviewer of some of their programs 
in the early to mid 1990s on behalf of the National Research Council. 
Beaufort was a perfect example of the value of the smaller regional 
laboratories, meeting the mission of the larger NMFS and NOAA within 
the context of the Southeast Fisheries Science Center while 
collaborating with and augmenting regional State resource agencies.
    Problems with smaller regional labs often arise when political or 
personal forces work to give them greater autonomy and higher budgets. 
In my opinion, this is the case with the Beaufort Laboratory and has 
played a role in making it a weaker laboratory. Roughly 10 years ago, 
NOAA decided to put the Beaufort Laboratory under a different line 
office--the National Ocean Service (NOS), expanding the mission 
significantly but keeping many NMFS employees on site. The broader 
mission requires more funds, more scientists with more expertise, more 
buildings, and an expanded budget. While the mission was more diverse, 
it was also more vague and perhaps less focused on the particular 
regional needs. I am not sure why a decision to close the laboratory 
was made this year, but it may be related to the loss of focus in 
mission and thus to questions about the value of the organization.
    Finally, I do have some recommendations for the subcommittee. 
Rather than taking a meat axe approach and closing this laboratory 
entirely, I believe that an external review of the Beaufort 
Laboratory's mission and function is needed. Direction should be given 
for this review that will address key issues, including the following:
  --Critical regional needs within NOAA's mission that can be addressed 
        best by a regional lab as opposed to larger facilities located 
        in different regions. This should have significant input from 
        the regional coastal States and their resource agencies;
  --Organizational structure of the laboratory within NOAA--given the 
        critical needs identified above; for example, determining 
        whether NOS is the right place, or if NMFS a better match for 
        the regional needs; and
  --Staff size, budgets, and physical facilities required to meet these 
        needs.
    Armed with the output of such a review, a values-based decision can 
be made that is beneficial to both NOAA and the regional States; it may 
well involve significant cuts and a smaller laboratory, but will be 
based on an appropriate and well-thought out approach. I continue to 
believe that small regional labs with a clear focus, embedded within 
the larger NOAA and line office structure, are of extremely high value.
    Thank you for the opportunity to comment.
                                 ______
                                 
          Prepared Statement of the Brennan Center for Justice
    Chairman Mikulski, Ranking Member Shelby, and distinguished members 
of the Senate Appropriations Subcommittee on Commerce, Justice and 
Science, thank you for the opportunity to submit written testimony 
before the committee to discuss fiscal year 2015 budget priorities. The 
testimony is offered to the subcommittee for use during its 
consideration of Department of Justice criminal justice funding.
    The Brennan Center for Justice at New York University School of Law 
\1\ is a nonpartisan law and policy institute that seeks to improve the 
national systems of democracy and justice. The Brennan Center for 
Justice was created in 1995 by the clerks and family of the late 
Supreme Court Justice William J. Brennan, Jr. to improve our systems of 
justice and democracy. The Justice Program at the Brennan Center is 
dedicated to ensuring a rational, effective, and fair justice system. 
Our priority initiative is to reduce mass incarceration by reducing the 
criminal justice system's current size and severity; while still 
protecting public safety.
---------------------------------------------------------------------------
    \1\ This letter does not represent the opinions of NYU School of 
Law.
---------------------------------------------------------------------------
    The Department of Justice (DOJ) administers dozens of criminal 
justice grants, which total over $1 billion each year. In 2012, the 
Community Oriented Policing Services and Violence Against Women Act 
grants received more than $1.45 billion. Most notably, the Edward J. 
Byrne Memorial Justice Assistance Grant (Byrne JAG), the largest 
nationwide criminal justice grant program administered by DOJ, receives 
between $300 million to $500 million each year. It retains an enormous 
influence on criminal justice policies and priorities. JAG dollars 
reach across the entire criminal justice system. They reach all States, 
territories, and thousands of localities, mainly flowing to law 
enforcement. These funds support local police departments, drug courts, 
prosecutor and public defender offices, courts, and more. While 
important, the structure was created more than 30 years ago, based on 
criteria and priorities at a time of rising and seemingly out of 
control crime. Decades after its inception, the criminal justice system 
that JAG dollars were created to support has spiraled into one that now 
supports the world's largest population of incarcerated people and all 
of the inherent problems that come with this distinction.
    It is time for a change. A better approach, termed ``Success-
Oriented Funding'' would use the power of the purse to steer the 
criminal justice system toward the twin goals of reducing crime and 
reducing mass incarceration--goals research shows are not in conflict. 
The Brennan Center for Justice recently published a report highlighting 
a way to align fiscal and policy priorities.\2\ Grounded in economic 
principles and built on discrete models in other policy areas, Success 
Oriented Funding ties Government dollars as closely as possible to 
whether agencies or programs meet specific, measureable goals. These 
goals would drive toward what policymakers and researchers increasingly 
see as a new, modern, and more effective justice system. The model 
imports private sector business principles and applies it to public 
dollars.
---------------------------------------------------------------------------
    \2\ Chettiar, Inimai; Eisen, Lauren-Brooke, Fortier, Nicole; 
Reforming Funding to Reduce Mass Incarceration, Brennan Center for 
Justice, Nov. 2013. https://www.brennancenter.org/sites/
default/files/publications/REFORM_FUND_MASS_INCARC_web_0.pdf.
---------------------------------------------------------------------------
    Economic theory indicates that actors provided with clear positive 
rewards will usually alter their behavior to match these incentives. 
Former Chairman of President George W. Bush's Council of Economic 
Advisors and Harvard University Professor N. Gregory Mankiw articulates 
this fundamental tenet in ``Principles of Economics''--one of the most 
widely-used introductory economics textbooks. He defines the discipline 
in this way: ``People respond to incentives. The rest is commentary.'' 
\3\ By setting clear goals for success or failure of government 
agencies and programs, Success-Oriented Funding would fund ``success,'' 
achieving results-driven government. This cost-effective framework 
ensures that the government is getting a good return on its investment. 
Broad goals for funding recipients include reducing recidivism and 
crime, or reducing unnecessary prison sentences and incarceration. 
Grant-specific goals would vary depending on the agency or program 
funded. For example, grants for police could focus on reducing violent 
crime or diverting drug addicted arrestees to treatment.
---------------------------------------------------------------------------
    \3\ N.Gregory Mankiw, Principles of Economics 7 (6th ed. 2012) 
(quoting Steven E. Landsburg, The Armchair Economist 3 (2012)).
---------------------------------------------------------------------------
    Illinois has seen great success with its investment and support of 
the Adult Redeploy Illinois program, which diverts non-violent 
offenders from prison into more effective community-based services. 
Adult Redeploy Illinois provides financial incentives to local 
jurisdictions that design evidence-based services to supervise and 
treat non-violent offenders in the community instead of sending them to 
State prisons. Since 2011, Adult Redeploy Illinois sites have diverted 
more than 1,000 non-violent offenders. These sites spent an average of 
$4,400 per program participant, compared to the annual per capita 
incarceration cost of $21,500 in State fiscal year 2011. This 
represents more than $18.5 million in potential corrections savings.\4\ 
By investing in programs like Adult Redeploy Illinois, Congress can 
make inroads in achieving better taxpayer accountability while using 
funding to improve criminal justice outcomes.
---------------------------------------------------------------------------
    \4\ http://www.icjia.org/public/redeploy/pdf/articles/
Adult_Redeploy_Illinois_media_
stories_011714.pdf.
---------------------------------------------------------------------------
    Last month, President Obama introduced his fiscal year 2015 budget 
proposal for the Department of Justice, which requests $27.4 billion 
for the Justice Department, of which $173 million is set aside for 
targeted investments for criminal justice reform efforts. The budget 
also calls for an investment of $173 million to support the Attorney 
General's Smart on Crime initiative, which is intended to promote 
fundamental reforms to the criminal justice system that will ensure the 
fair enforcement of Federal laws, improve public safety, and reduce 
recidivism by successfully preparing inmates for their re-entry into 
society.
    The President's budget provides a needed boost to the types of 
competitive, evidence-based grant programs that make better use of 
taxpayer dollars. His budget also improves the Byrne JAG program, by 
calling for an additional $45 million to be funded through competitive 
grants that are conditioned on potential Byrne JAG program recipients 
making a good case for how they will use the money. The budget also 
creates a $15 million incentive grant program, essentially bonus money 
for which States and localities can compete.
    By increasing funding for competitive, evidence-based programs, the 
administration is communicating its desire to move away from blindly 
funding legacy programs without strong records of success, and towards 
modern programs that work at reducing crime and incarceration and 
improving public safety.
    The Brennan Center supports these efforts because they move 
budgeting and funding toward Success-Oriented Funding by holding 
recipients of Federal dollars accountable for their spending choices by 
implementing direct links between funding and proven results. This 
allows Congress to ensure the criminal justice system is producing 
results while not increasing unintended social costs. Success-Oriented 
funding principals improve the use of taxpayer money, promote 
accountability and reduce government waste.
    Restructuring the way taxpayer dollars are sent to law enforcement 
and other criminal justice agencies nationwide can do a great deal to 
modernize our outdated criminal justice system. Funding these incentive 
based grants would mark an important shift in how the Federal 
Government spends dollars on criminal justice. Because these dollars 
travel across the country, changing incentives for these grants can 
create change that reverberates nationwide.
    We encourage you to fully fund the Byrne Incentive grant program, 
the Byrne Innovation grant program, and the Byrne Competitive grant 
program.

Respectfully submitted,

Danyelle Solomon
Policy Counsel, Washington Office
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="98dcf9f6e1fdf4f4fdb6cbf7f4f7f5f7f6d8f6e1edb6fdfced">[email&#160;protected]</a>

Brennan Center for Justice at
NYU School of Law
1730 M Street, NW 4th floor, Suite 413
Washington, DC 20036
(202) 249-7190

Lauren-Brooke Eisen
Counsel, Justice Program
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="97fbf5f2fee4f2f9d7f9eee2b9f2f3e2">[email&#160;protected]</a>
                                 ______
                                 
           Prepared Statement on the Bureau of Prisons Budget
                   organizations submitting testimony
AFL-CIO
American Civil Liberties Union
American Gateways
American Immigration Lawyers Association
Americans for Immigrant Justice
Asian Americans Advancing Justice-Chicago
Asian Americans Advancing Justice-Los Angeles
Black Alliance for Just Immigration (BAJI)
Coalicioon de Derechos Humanos
Coalition for Humane Immigrant Rights of Los Angeles
Conference of Major Superiors of Men
Detention Watch Network
DRUM--South Asian Organizing Center
Enlace
Families for Freedom
Friends Committee on National Legislation
Georgia Detention Watch
Grassroots Leadership
Human Rights Defense Center
Illinois Coalition for Immigrant and Refugee Rights
In The Public Interest
International CURE
Justice Policy Institute
Justice Strategies
Maryknoll Office for Global Concerns
National Advocacy Center of the Sisters of the Good Shepherd
National African American Drug Policy Coalition, Inc.
National Center for Transgender Equality
National Immigrant Justice Center
National Immigration Forum
National Immigration Law Center
National Immigration Project of the NLG
New Sanctuary Coalition
Picture Projects/360degrees.org
Presbyterian Church (U.S.A.)
Private Corrections Institute
Private Corrections Working Group
Reformed Church of Highland Park (New Jersey)
Sisters of Mercy of the Americas--Institute Justice Team
Southern Center for Human Rights
Texas Civil Rights Project
The Sentencing Project
Transgender Law Center
United Methodist Church, General Board of Church and Society
Wilco Justice Alliance (Williamson County, TX)
                         testimony addressed to

 
 
 
The Honorable Barbara Mikulski,     The Honorable Richard C. Shelby,
  Chair                              Ranking
                                      Member
The Honorable Patrick J. Leahy      The Honorable Mitch McConnell
The Honorable Dianne Feinstein      The Honorable Lamar Alexander
The Honorable Jack Reed             The Honorable Susan Collins
The Honorable Mark Pryor            The Honorable Lisa Murkowski
The Honorable Mary L. Landrieu      The Honorable Lindsey Graham
The Honorable Jeanne Shaheen        The Honorable Mark Kirk
The Honorable Jeff Merkley          The Honorable John Boozman
The Honorable Chris Coons
 


Subcommittee on Commerce, Justice, Science,
  and Related Agencies
Senate Committee on Appropriations
SD-142, Dirksen Senate Office Building
Washington, DC 20515

Re: Do not appropriate funds for additional private prison contract 
beds in the Bureau of Prisons budget

    Dear Chairwoman Mikulski, Ranking Member Shelby, and members of the 
subcommittee: We, the undersigned organizations working to ensure civil 
liberties and human rights in our communities, urge that you do not 
appropriate funding for any additional Bureau of Prison ``Criminal 
Alien Requirement'' (CAR) contract confinement beds beyond those that 
now exist.
    CAR prisons use taxpayer funds to incarcerate non-violent, ``low 
security'' Federal immigrant prisoners, primarily prosecuted for 
immigration violations through the highly controversial program, 
``Operation Streamline'' and related prosecution programs. These 
facilities are substandard, privately-owned, privately-operated 
segregated immigrant prisons. For the reasons set forth below, we call 
upon you to redirect funding from the wasteful prosecution and 
incarceration of low-level immigration violations and focus resources 
instead on correctional programs that will better prepare Federal 
prisoners for constructive lives when they are released from 
confinement.
    The increasing incarceration of immigrants is the direct result of 
a prosecution program known as ``Operation Streamline'' and the sharp 
increase in felony prosecutions for border crossing. Nearly 90,000 
people were convicted in Federal courts during fiscal year 2013 for 
crossing the border.\1\ Prior to ``Operation Streamline,'' which 
launched in 2005, the majority of immigrants apprehended after entering 
the United States without documentation were processed in the civil 
immigration system. Now, these migrants are charged with one of two 
Federal crimes--(1) unlawful entry to the U.S. (8 U.S.C. Sec. 1325), 
usually prosecuted as a misdemeanor with defendants facing a sentence 
of up to 180 days; or (2) unlawful re-entry after deportation (8 U.S.C. 
Sec. 1326), a felony charge carrying a Federal prison sentence of up to 
20 years.
---------------------------------------------------------------------------
    \1\ Transactional Records Access Clearinghouse, Syracuse 
University, ``Immigration Convictions for 2013,'' available at http://
tracfed.syr.edu/.
---------------------------------------------------------------------------
    Once sentenced for Sec. 1326 violations, immigrants are typically 
segregated from other Federal prisoners and sent to CAR facilities, 
dedicated private prisons for non-citizen immigrants in BOP custody, to 
serve their time. Unlike Federal prisons operated directly by the BOP, 
CAR prisons are operated under contract with multi-billion dollar for-
profit prison companies, including Corrections Corporation of America 
(CCA) and the GEO Group. Also unlike BOP facilities, CAR facilities are 
governed by policies that BOP and its private prison contractors often 
withhold from the public as ``trade secrets'' instead of open and 
transparent to the public. CAR facilities are often located in remote 
parts of the country, where prisoners are far from lawyers, courts, 
advocates and family members. Finally, unlike the BOP, the corporations 
that operate CAR prisons have an incentive to ensure the immigrant 
prisoner population continues to increase, because every prison bed 
with a body in it means higher profits.\2\
---------------------------------------------------------------------------
    \2\ Justice Strategies, ``Privately Operated Federal Prisons for 
Immigrants: Expensive, Unsafe, Unnecessary,'' September, 2012, 
available at http://www.justicestrategies.org/publications/2012/
privately-operated-Federal-prisons-immigrants-expensive-unsafe-
unnecessary.
---------------------------------------------------------------------------
    Both Federal prosecutions for border crossing and CAR prisons are 
enormously expensive to maintain at a time when budgets are tight and 
Federal dollars are sparse. The Federal Government spent an estimated 
$5.5 billion incarcerating border-crossers in the Federal prison system 
between 2005 and 2012, and the primary beneficiary of this massive cash 
flow is the private prison industry.\3\ Even as the American economy 
has faltered and businesses across the country have been forced into 
bankruptcy, the private prison industry is booming. Three companies--
GEO Group, Corrections Corporation of America (CCA), and the Management 
Training Corporation (MTC)--monopolize Federal prison contracting. CAR 
contracts are very lucrative. The CAR contract issued to house up to 
3,000 prisoners at the infamous Willacy County Processing Center, the 
``Tent City'' located in Raymondville, Texas, was valued at 
$532,318,723 over 10 years.\4\ MTC won the contract.
---------------------------------------------------------------------------
    \3\ Grassroots Leadership, ``Operation Streamline: Costs and 
Consequences,'' September 2012, available at http://
grassrootsleadership.org/sites/default/files/uploads/
GRL_Sept2012_Report-final.pdf.
    \4\ Jasen Asay, ``Private Prison Company Lands Federal Contract,'' 
Standard Examiner, June 8, 2011, available at http://www.standard.net/
topics/economy/2011/06/07/private-prison-company-lands-Federal-
contract.
---------------------------------------------------------------------------
    The number of undocumented immigrants entering the United States 
without inspection has been steadily declining for the last several 
years, largely due to economic conditions in the U.S. and countries of 
origin. Yet private prison corporations, motivated by their record 
profit margins, continue to benefit directly from the laws and policies 
that pull more and more immigrants into the Federal prison system, and 
from Federal contracts to build more prisons. Increasing funding for 
the unprecedented imprisonment of immigrants implicitly sanctions 
wasteful and abusive prosecution programs for border crossing that are 
driving the increase in the Federal prison population in the first 
place. It is up to policy makers like you to put a stop to the 
suffering of immigrant families and wasteful spending which benefits no 
one except the private prison operators.
    For all of the above reasons, we ask that you do not appropriate 
funding for any additional Bureau of Prison ``Criminal Alien 
Requirement'' (CAR) contract confinement beds beyond those that now 
exist.
    Thank you for your attention to this urgent matter. If you have any 
questions, please contact Alexis Mazoon, Researcher with Justice 
Strategies at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="cbaaa7aeb3a2b8a6aab1a4a58ba1beb8bfa2a8aeb8bfb9aabfaeaca2aeb8e5a5aebf">[email&#160;protected]</a>, (510) 725-4136, or Bob 
Libal, Executive Director of Grassroots Leadership at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="adcfc1c4cfccc1edcadfccdededfc2c2d9dec1c8ccc9c8dfdec5c4dd83c2dfca">[email&#160;protected]</a>, (512) 971-0487.
                                 ______
                                 
    Prepared Statement of the California Association of Psychiatric 
                              Technicians
     federal funds used to sue & shutter federally accredited care 
                               facilities
    On behalf of approximately 14,000 California Licensed Psychiatric 
Technicians representing the Nation's gold standard in direct-care 
nursing services for people with developmental disabilities and mental 
illnesses, I am writing to respectfully request that the subcommittee, 
committee and Congress as a whole end the ability for the U.S. 
Department of Justice to use its office, powers and funding to 
discourage, downsize and close federally regulated and accredited 
congregate-care facilities.
     olmstead ruling upholds americans' rights and choices for care
    In recent years, the national demand for closure of congregate-care 
facilities such as developmental centers and State hospitals has come 
perhaps most strongly--and, perhaps, most surprisingly--from the 
Federal Government: the very Federal Government that requires these 
facilities to meet its own regulatory standards.
    To be federally certified through the U.S. Centers for Medicare and 
Medicaid Services, such congregate settings as developmental centers 
(ICF/MRs and ICF/DDs) must meet eight major criteria on management, 
client protections, facility staffing, active treatment, client 
behavior and facility practices, healthcare services, physical 
environment and dietetic services. To meet all of these major criteria, 
these accredited centers must comply with 378 specific Federal 
standards and elements. Failure to comply with any one of these 
hundreds of requirements or to swiftly correct any deficiencies means 
the loss of Federal certification as well as Federal Medicaid funding.
    In its landmark 1999 Olmstead ruling on the use and choice of 
federally accredited congregate-care settings such as these, the U.S. 
Supreme Court ruled that Americans have the right to ``community''-
based housing and care, specifically when the ``State's treatment 
professionals [including Psychiatric Technicians and other members of 
treatment teams charged with following and implementing individuals' 
program plans] have determined that community placement is appropriate, 
transfer is not opposed by the affected individual and the placement 
can be reasonably accommodated, taking into account the resources 
available to the State and the needs of others with mental 
disabilities.''
       the doj deliberately & dangerously misinterprets olmstead
    But the Federal U.S. Department of Justice--charged with upholding 
the Olmstead ruling through its Civil Rights Division and its powers 
under the Americans with Disabilities Act B has overstepped its mission 
and taken a dangerous carte blanche approach to enforcing Olmstead.
    As currently and accurately stated and emphasized on the DOJ's own 
Olmstead section of its Web site, ``The [U.S. Supreme] Court held that 
public entities must provide community based services to persons with 
disabilities when (1) such services are appropriate; (2) the affected 
persons do not oppose community based treatment; and (3) community 
based services can be reasonably accommodated, taking into account the 
resources available to the public entity and the needs of others who 
are receiving disability services from the entity.''
    Nevertheless, to date, the DOJ has filed more than 40 actions in 
more than 25 States during the past 5 years aimed at downsizing and 
closing federally regulated congregate-care facilities, regardless of 
the individual and unique wishes and needs of their residents and legal 
conservators. As part of a Federal push beginning in 2009, the DOJ has 
taken a stated and active position of ``Community Integration for 
Everyone''--whether Americans and their families and legal conservators 
wish it or not B and whether or not this position violates Americans' 
rights and choices under Olmstead:
  --In 2010's United States v. Georgia, DOJ did not consult families 
        and legal guardians prior to entering into a settlement 
        requiring closure of federally accredited congregate-care 
        facilities and forcing all residents B regardless of their 
        wishes, choices and needs guaranteed under Olmstead--into 
        community-based care.
  --In 2011's dismissal order for United States v. Arkansas, which 
        ruled against the DOJ regarding Conway Human Development 
        Center, U.S. District Judge J. Leon Holmes noted that ``all or 
        nearly all of those residents have parents or guardians who 
        have the power to assert the legal rights of their children or 
        wards. Those parents and guardians, so far as the record shows, 
        oppose the claims of the United States. Thus, the United States 
        is in the odd position of asserting that certain persons' 
        rights have been and are being violated while those persons--
        through their parents and guardians--disagree.''
  --In 2012's United States v. Virginia, families, parents and legal 
        guardians were not included in the exhaustive list of 
        stakeholders interviewed by the DOJ prior to that State's 
        settlement; families had to spend $125,000 of their own money 
        to be included in the settlement process and to include their 
        on-record opposition to DOJ's statement that ``the parties' . . 
        . desire to phase out the residential Training Centers and 
        transition all Virginians with ID/DD to community-based care is 
        readily apparent.''
   stop funding doj actions to restrict federally recognized choices
    On behalf of CAPT's members--who are trained, licensed and pledged 
to uphold the choices and rights of Californians with developmental 
disabilities and mental illnesses, wherever they wish to live and 
receive services--I am respectfully requesting that the subcommittee 
end the use of Federal funding and staff of the U.S. Department of 
Justice to discourage, downsize and close federally regulated 
congregate-care facilities against the federally and legally protected 
wishes of residents and their families.
                                 ______
                                 
       Prepared Statement of the Center for Biological Diversity
    Chairman Leahy, Ranking Member McConnell, and members of the 
subcommittee, thank you for the opportunity to submit written 
testimony. I am Brett Hartl, endangered species policy director at the 
Center for Biological Diversity. The Center is a non-profit 
environmental organization focused on the protection of native species 
and their habitats through science, policy and environmental law. The 
Center has more than 775,000 members and online activists dedicated to 
the protection and restoration of imperiled plants and wildlife, open 
space, air and water quality, and overall quality of life. We would 
like to submit testimony on the NOAA Fisheries Office of Protected 
Resources and the Enforcement and Observers budget for fiscal year 
2015. The Office of Protected Resources is responsible for protecting 
93 species under the Endangered Species Act. Enforcement and observers 
are critical to implement the protections of the Endangered Species Act 
as well as the Marine Mammal Protection Act.
    The Endangered Species Act (ESA) is America's strongest 
environmental law. It has prevented the extinction of 99 percent of the 
1,500 domestic species it protects. Were it not for the Act, scientists 
estimate that 227 of these plants and animals would have disappeared by 
2006, and even more by 2012. The Act also has had considerable success 
moving species towards recovery. For example, the gray whale was first 
protected in 1970. The eastern population, which migrates from Baja 
California to the Chukchi Sea each year, was recovered to its estimated 
pre-whaling population size in just 24 years. Similarly, after just 23 
years of protection under the ESA, the eastern population of Steller 
sea lion was delisted in 2013, having suffered for nearly a century 
from poaching, irrational predator-control actions, and from the near 
collapse of its main food sources due to unsustainable fishing 
practices. The recoveries of these species show the value and 
effectiveness of the ESA's strong protection measures.
    However, not all species that are protected by NOAA are improving. 
NOAA's 2012 recovery report to Congress indicated that approximately 16 
threatened and endangered marine species are still declining towards 
extinction. And as the extinction crisis worsens due to threats 
including climate change, many other once-common species, such as the 
staghorn and elkhorn Corals that once were the dominant reef building 
corals of Florida, have experienced major population declines and now 
are being moved from threatened to endangered status. Scientists warn 
us that the world's coral reefs are in crisis and will be destroyed 
within decades unless we act now. That is why 66 additional corals 
found in U.S. waters await final rules before they will gain the safety 
net of the ESA.
    Accordingly, we strongly support the administration's request for 
an additional $4 million dollars to complete the listing process. This 
funding is desperately needed to give NOAA the tools it needs to start 
addressing the difficult threats that the world's coral reefs face. 
However, even with this additional funding, overall funding for 
protected resources is lagging and is not keeping up with the 
biological needs of protected species in the United States.
    Marine biodiversity is at risk, along with the coastal communities 
that depend on the ocean--but there are solutions. Increasing the funds 
for the Protected Resources division of the NOAA Fisheries Service will 
ensure that declining, threatened, and endangered marine species will 
get the resources they need to recover to the point where they no 
longer need the protections of the Endangered Species Act.
            additional funding is still needed for recovery
    As scientists learn more about the oceans, it is becoming 
increasingly clear that the threats to marine biodiversity continue to 
grow. Unfortunately, funding resources to protect marine species is not 
keeping up with the biological needs of these species. Funding for 
Protected Resources peaked in 2010 at approximately $204 million and 
has since declined approximately 9 percent. This decline occurred even 
though 20 additional species--such as the Puget Sound canary rockfish 
and Atlantic sturgeon-- have been protected by NOAA under the ESA in 
the previous 4 years. As a result, the average funding per species has 
actually decreased 23 percent over the last 4 years.
    This funding situation for threatened and endangered species will 
become even more difficult if additional resources are not allocated 
since an additional 80 species--including 66 coral species, the dwarf 
sawfish, and the scalloped hammerhead shark--have been proposed for 
listing and will likely receive protection under the ESA within the 
next year. An additional 34 species are currently candidate species 
that may eventually be protected under the ESA. If funding does not 
keep up with the growing threat to marine biodiversity, the recovery of 
threatened and endangered species will become more difficult to 
achieve.
                        other protected species
    As stated above, the Center supports the $4 million budget increase 
for the ``other protected species'' category to address the listing of 
66 coral species. We would also like to point out the possibility of 
reconsidering the relative allocations of the remaining five categories 
of funding for protected resources in future years. Specifically, the 
``Other Protected Species'' category currently covers all non-salmonid 
marine fish, invertebrates, and plants. This category includes 
important animals such as the Nassau grouper, great hammerhead shark, 
queen conch, and the pinto abalone, and should not be overlooked for 
funding despite its broad characterization.
    Last year in the Commerce-Justice-Science Committee Report, 
Congress allocated $49 million to marine mammals, $13 million to sea 
turtles, $6 million to Atlantic salmon, and $65 million to Pacific 
salmon. In contrast, $7 million was allocated to ``Other Protected 
Species,'' which includes all other marine fish, invertebrates, and 
marine plants. In other words, 73 listed species received $133 million 
in recovery funding, while 20 ``other'' species received just $7 
million in funding. If all of the species currently proposed for 
listing are ultimately protected under the ESA, the number of species 
in the ``Other'' category would increase from 20 species to 100 
species, while there would be no change in the number of protected 
marine mammals, sea turtles, or salmonids. Furthermore, if the species 
that NOAA currently identifies as candidates for listing are ultimately 
protected, the number of species in the ``Other'' category would 
increase further to 132 listed species. The number of protected marine 
mammals would increase from 28 listed species to 33 listed species and 
the number of protected sea turtles and salmonids would remain the 
same.
    Simply put, in a few years time, the number of ``Other'' protected 
species may represent over 60 percent of the species under NOAA's 
jurisdiction. If the current allocations are not eventually 
reconfigured, these species would receive less than 5 percent of the 
overall recovery budget. Such limited funding would likely be 
insufficient to protect these species, let alone put them on a path 
towards recover. Accordingly, the Center recommends that the committee 
requests that NOAA develop a plan on how they will allocate resources 
within Protected Resources over the next 2 years to address the 
increase in recovery needs for these ``Other'' species going forward.
    Finally, we hope that the committee will recognize that funding for 
these new species should not come at the expense of those species that 
are currently protected. Cutting funding from species that are already 
protected by the ESA, especially those species that are still 
declining, is not a long term strategy for achieving recovery. Instead, 
additional funding should be allocated to meet the full scope and scale 
of the extinction crisis that is occurring in our world's oceans. Four 
years after the worst oil spill in the United States' history, 
scientists are just beginning to learn how severely the oil spill 
impacted the marine environment. Restoring ocean ecosystems, including 
endangered species, has proven to be more complex and costly than was 
once thought. Providing NOAA with the necessary funds to address its 
responsibilities under the ESA is an important step in protecting our 
ocean's biological diversity.
        maintain or increase funding for stranded marine mammals
    NOAA requested a decrease of $2,500,000 for the John H. Prescott 
Marine Mammal Rescue Assistance Grant Program and the Marine Mammal 
Protection Program. The President's budget request did not include 
funding for the John H. Prescott Grant Program in fiscal year 2014, but 
Congress thankfully kept the program alive. Last year California, 
Florida and the Mid-Atlantic had unusual mortality events of California 
sea lions, manatees and bottlenose dolphins. With decreased Federal 
funding, State stranding networks struggle to respond to marine mammals 
washing ashore. Virginia reportedly had over 30 animals in 2 days 
stranded on its beaches over one weekend in the last year's die-off and 
had a total of 346 dolphins die since July 1, 2013.
    Scientific investigations to understand the causes of these events 
can help assess ocean health and protect humans. In 2010, nearly 40 
percent of the Nation's population lived in coastal areas. Ensuring 
that States have adequate resources to respond to and study marine 
mammal strandings will help keep marine mammals safe and our coasts 
clean.
                increase observer coverage for fisheries
    Observer coverage in fisheries is essential to ensure the best 
possible management of our fisheries. This program ensures that our 
fisheries are on a sustainable path for long term success and allows 
NOAA to prevent whales, sea turtles, and sharks from drowning in 
fishing gear.
    This year's budget should increase funding to collect accurate 
fisheries data, especially from the observer program. While NOAA's 
request for an increase of $4,000,000 for Electronic Monitoring and 
Reporting may pave the way for future innovation, NOAA also needs an 
increase now in the budget for Enforcement and Observers.
    This funding is needed most importantly because several fisheries 
lack resources to ensure meaningful observer coverage to monitor 
bycatch of sea turtles, sharks, and marine mammals. For example in 
2012, a longline fishing area NOAA once closed to longline fishing due 
to sea turtle take (the Northeast Distant area) had no observer 
coverage during the third and fourth quarters of the year, when sea 
turtle interactions are highest. Low observer coverage undermines 
confidence in management decisions and can result in severe emergency 
measures.
    Starting in 2014 observers must report fishing and marine pollution 
violations. Additional funding will be needed to effectively implement 
the changes in policy and increase observer-related enforcement once 
observers report violations. Adequate observer program funding ensures 
a fair playing field for U.S. fishermen and keeps fishing sustainable.
    Thank you for the opportunity to submit testimony.
                                 ______
                                 
         Prepared Statement of the Coastal States Organization
    The Coastal States Organization (CSO) is a nonpartisan, nonprofit 
organization in Washington, DC that represents the Governors of the 35 
coastal States, territories and commonwealths and their issues relating 
to the sound management of coastal, Great Lakes, and ocean resources. 
CSO was established in 1972 and is recognized as the trusted 
representative of the collective interests of the coastal States on 
coastal and ocean management. For fiscal year 2015, CSO supports the 
following coastal programs and funding levels within the National 
Oceanic and Atmospheric Administration (NOAA):

 
 
 
Coastal Zone Management Grants Program      $70 million
 (Sec. Sec.  306/306A/309).
Regional Coastal Resilience Grants........  $10 million
Coastal Zone Management and Services......  $46.472 million
Coastal and Estuarine Land Conservation     $5 million
 Program.
National Estuarine Research Reserve System  $22.9 million
Coral Reef Conservation Program...........  $26.078 million
 


    The U.S. economy is an ocean and coastal economy and this needs to 
be reflected in our Federal investment into ocean and coastal programs. 
While only accounting for 18 percent of the U.S. land area, coastal 
areas are home to 163 million people and almost 5 million businesses. 
Home to coastal and ocean dependent industries, including marine 
transportation, tourism, marine construction, aquaculture, ship and 
boat building, mineral extraction, and living marine resources, coastal 
counties contribute $8.7 trillion to U.S. GDP and employ 67 million 
people. If these coastal counties were their own country, they would 
have the world's third largest economy, behind the European Union and 
the United States. Coasts and oceans are visited by nearly half of all 
Americans, adding to their health and quality of life. The non-market 
value of recreation alone is estimated at over $89 billion. Every 
American, regardless of where they live, is fundamentally connected to 
U.S. coasts, oceans, and Great Lakes. These valuable resources are a 
critical framework for commerce, public recreation, energy, and 
environmental health and merit robust investment.
    Today, our Nation's coasts are as vital for our future as they are 
vulnerable. As a result of their increasing recreational, residential, 
and economic appeal, there are more pressures on our coastal and ocean 
resources. This demand, combined with an increase in natural hazards 
such as sea level rise, extreme weather, and other flooding events, 
highlight the danger of losing these invaluable national assets. 
Despite the difficult budgetary times, adequate and sustained funding 
is needed to support the key programs that are on the front lines of 
this daily battle, which continually advance coastal and ocean science, 
research, and technology to manage our coastal and ocean resources for 
future generations.
    Programs engaged in these important efforts and working to balance 
the protection of coastal and ocean resources with the sustainable 
development of the coasts include the Coastal Zone Management Program, 
Coastal and Estuarine Land Conservation Program, Regional Coastal 
Resiliency Grants, the Coral Reef Conservation Program, and National 
Estuarine Research Reserves. These programs reside within the National 
Oceanic and Atmospheric Administration (NOAA) and provide direct 
funding or services to the States, territories and regions to implement 
national coastal and ocean priorities at the State, local, and regional 
level. These types of partnership programs account for only a small 
portion of the total NOAA Federal budget but provide dramatic results 
in coastal communities. The funding for these programs is cost-
effective, as these grants are matched by the States and used to 
leverage significantly more private and local investment in our 
Nation's coasts. Maintaining funding for these programs that provide 
on-the-ground services to our local communities and citizens is well 
worth the investment. In fact, the Federal Emergency Management Agency 
(FEMA) estimates that every $1 invested in community resilience it will 
reduce disaster damages by $4.
        coastal zone management program (Sec. Sec. 306/306a/309)
    CSO recommends that these grants be funded at $70 million.--This 
funding will be allocated among the 34 States and territories that have 
approved coastal zone management programs. Pursuant to the Coastal Zone 
Management Act (CZMA), States partner with NOAA to implement coastal 
zone management programs designed to balance the need to maintain 
productive coastal and ocean resources with the need for the 
sustainable development of coastal communities. States have the 
flexibility to develop programs, policies, and strategies targeted to 
their State priorities while concurrently advancing national goals. 
Under the CZMA program, the States receive grants from NOAA, which are 
then matched with State funding and then often further leveraged with 
private and local funds. These grants have been used to support and 
enhance coastal economies by resolving conflicts between competing 
coastal uses, reducing environmental impacts of coastal development, 
and providing critical assistance to local communities in coastal 
planning and resource protection.
    These State coastal zone management programs reflect a unique and 
successful Federal-State partnership. Coastal management has become a 
national priority, as they are critical to building coastal resilience 
against extreme weather events and educating and guiding communities to 
build their homes and businesses in ways that minimize the threat of 
loss. Events like Superstorm Sandy and Hurricane Katrina reinforced the 
importance of planning ahead. Coastal zone management programs ensure 
that the national interest in a resilient coast is incorporated in 
State actions, while respecting the sovereignty, different priorities, 
and geographic variations of our diverse States.
    The CZMA State grants have essentially remained at an even funding 
level for a decade, resulting in decreased capacity in State coastal 
zone management programs and less funding available to communities. An 
increase to more than $91 million would be necessary to reach actual 
level funding that accounts for inflation since 2001 and would provide 
an additional $300,000--$800,000 for each State and territory. However, 
CSO recognizes that the current fiscal climate makes such an increase 
challenging. By maintaining current funding levels, States and 
territories would receive between $850,000 and just over $2,300,000 to 
carry out their coastal management programs based on a formula that 
considers shoreline miles and coastal population. The following are a 
few examples of activities in Maryland and Alabama that CZM State 
grants have recently funded. These types of contributions, and more, 
can be found around the Nation.
Maryland
  --Maryland's CZM Program worked with land conservation partners to 
        preserve 4,468 acres of critical coastal habitat for storm 
        protection, water-filtering benefits, fish nurseries, or 
        recreation through acquisition and easements. Maryland 
        completed projects that protected 4,980 linear feet of 
        nearshore habitat from erosion while providing critical habitat 
        through the implementation of shoreline management techniques 
        such as living shorelines.
  --Maryland's Coastal Zone Management Program has collected 1.05 tons 
        of debris as a part of annual Maryland Coast Days and 
        Assateague Coastal Clean-ups, created four new public water 
        access (non-motorized) sites, and exposed over 21,000 students 
        with the opportunity to participate in a classroom or outdoor 
        experience.
  --CZMA funding in Maryland assisted 5 coastal communities in reducing 
        vulnerability to future storm events, shoreline change and sea 
        level rise and incorporating those considerations into local 
        plans, codes and ordinances. Additionally, CZMA funding 
        assisted 6 communities that developed designs or plans to 
        reduce polluted runoff through the Watershed Assistance 
        Collaborative.
Alabama
  --Last year, CZMA funding in Alabama supported the 26th Annual 
        Alabama Coastal Clean-up with over 3,700 volunteers are removed 
        38,000 pound of marine debris.
  --In fiscal year 2013, the Alabama Coastal Area Management Program 
        provided funds for the public access improvements to City of 
        Chickasaw, City of Foley and Dauphin Island Park and Beach 
        Board; the Mobile Bay National Estuary Program to facilitate 
        Phase II of the development of the Coastal Area and Marine 
        Planning Program; the Dauphin Island Sea Lab to conduct Phase I 
        of Coastal Habitat Restoration Project Monitoring; the City of 
        Chickasaw to develop a comprehensive plan and to develop a 
        Three Mile Creek Watershed Management Plan; the City of 
        Fairhope to develop low impact development standards and 
        ordinance; Town of Dauphin Island and the City of Gulf Shores; 
        the City of Orange Beach, for local beach and dune protection 
        program; and the sea turtle/share the beach program and the 
        annual Alabama Coastal Birding Festival.
    Several years ago, a grant cap of approximately $2,000,000 per 
State was instituted to allow for funding to be spread more evenly 
across the States and territories, so as to prevent most of the funding 
from going entirely to the larger, more heavily populated States. Now, 
however, over half of the States have met the cap and no longer receive 
an increase in funding, despite increased overall funding for CZMA 
State grants since that cap was introduced. Since the cap was never 
intended to serve as a barrier to States receiving reasonable increases 
intended for all States, CSO recommends that the subcommittee include 
language in the appropriations bill report that allows the cap to be 
exceeded when it is fair and consistent with the original purposes of 
the cap. To that end, CSO suggests language declaring that each State 
will receive no less than 1 percent and no more than 5 percent of the 
additional funds over and above previous appropriations. As was 
provided previously by the subcommittee, CSO also requests that 
language be included in the appropriations bill report that directs 
NOAA to refrain from charging administrative costs to these grants. 
This is to prevent any undue administrative fees from NOAA from being 
levied on grants intended for States.
            coastal and estuarine land conservation program
    CSO requests the Coastal and Estuarine Land Conservation Program 
(CELCP) not be terminated, as has been previously proposed in the 
President's budget. Authorized by Congress in 2002, CELCP protects 
``those coastal and estuarine areas with significant conservation, 
recreation, ecological, historical, or aesthetic values, or that are 
threatened by conversion from their natural or recreational states to 
other uses.'' To date, Congress has appropriated over $250 million for 
CELCP. This funding has allowed for the completion of over 175 
conservation projects, with more in progress. CELCP projects in 28 of 
the Nation's 35 coastal States have already helped preserve more than 
100,000 acres of the Nation's coastal assets. All Federal funding has 
been leveraged by at least an equal amount of State, local, and private 
investments, demonstrating the broad support for the program, the 
importance of coastal protection throughout the Nation, and the 
critical role that Federal funding plays in reaching the conservation 
goals of our coastal communities. CELCP is the only Federal program 
entirely dedicated to the conservation of these vital coastal areas.
    The need for CELCP funding far exceeds federally appropriated funds 
in recent years. In the last two funding cycles (fiscal year 2012 and 
fiscal year 2014), NOAA, in partnership with the States, has 
identified, deemed eligible, and ranked over $64.1 million in projects 
with willing sellers and State funding match available. Adequate and 
sustained funding is needed to meet the demand of the increasingly 
high-quality projects developed by the States and submitted to NOAA. 
The importance of natural barriers in preventing and reducing storm 
impacts was recognized in the wake of Superstorm Sandy, when these 
types of areas provided buffers and increased resilience in the face of 
storm surge. Therefore, we request your support for minimally restoring 
funding at the fiscal year 2012 enacted level for CELCP.
                   regional coastal resiliency grants
    $10 million in grants for Regional Coastal Resiliency Grants is 
needed to provide competitive funding to ensure our States and 
communities are prepared to face changing ocean conditions, from 
acidification to sea level rise, changing economic conditions, from 
recession to emerging ocean uses, as well as major catastrophes, from 
tsunamis to marine debris clogging waterways. Resilient communities 
invest proactively to ensure they avoid unnecessary costs--economic, 
social, and environmental--in the future. These grants will help 
States, local communities, and other stakeholders produce on-the-ground 
results that benefit both the economy and the environment, including 
cutting edge science and practical tools like maps and surveys. This 
request is an increase above the President's request of $5,000,000 in 
order to fully establish this key competitive grant program that is 
designed to promote resilience and address shared risks of weather 
events and hazards on coastal communities and economies.
               national estuarine research reserve system
    The National Estuarine Research Reserve System (NERRS) partners 
with States and territories to ensure long-term education, stewardship, 
and research on estuarine habitats. Atlantic, Gulf, Pacific, Caribbean 
and Great Lakes reserves advance knowledge and stewardship of estuaries 
and serve as a scientific foundation for coastal management decisions. 
This unique site-based program around the Nation contributes to a 
systemic research, education and training on the Nation's estuaries.
    CSO greatly appreciates the support the subcommittee has provided 
in the past. Its support has assisted these programs to work 
collaboratively to protect our coasts, support coastal economies, and 
sustain our local communities. Without these competitive grant funds 
and key NOAA programs, States will not have the resources to help 
address local and regional coastal resilience needs and priorities, and 
leverage the Federal Government's support and expertise. Thank you for 
taking our requests into consideration as you move forward in the 
fiscal year 2015 appropriations process.
                                 ______
                                 
 Prepared Statement of the Columbia River Inter-Tribal Fish Commission
    The Columbia River Inter-Tribal Fish Commission (CRITFC) is pleased 
to share our views on the Department of Commerce's fiscal year 2015 
budget and has identified the following funding needs:
    $38.2 million for Salmon Management Activities ($11 million above 
the request) of which:
  --$26.6 million for the Columbia River Mitchell Act hatchery program 
        to implement reforms of which $6.7 million (or 25 percent of 
        the enacted amount) is directed to the tribes to enhance 
        supplementation (natural stock recovery) programs; and
  --$11.6 million for the Pacific Salmon Treaty Program, of which $9.76 
        million is for the implementation of the 2009-2018 Agreement, 
        and previous base programs; and $1,844,000 is for the Chinook 
        Salmon Agreement Implementation.
    $90 million for the Pacific Coastal Salmon Recovery Fund ($40 
million above the request) to support on-the-ground salmon restoration 
activities.
    Background.--The Columbia River Inter-Tribal Fish Commission 
(CRITFC) was founded in 1977 by the four Columbia River treaty tribes: 
Confederated Tribes of the Umatilla Indian Reservation, Confederated 
Tribes of the Warm Springs Reservation of Oregon, Confederated Tribes 
and Bands of the Yakama Nation, and Nez Perce Tribe. CRITFC provides 
coordination and technical assistance to the tribes in regional, 
national and international efforts to protect and restore the fisheries 
and fish habitat.
    In 1855, the United States entered into treaties with the four 
tribes.\1\ The tribes' ceded millions of acres of our homelands to the 
U.S. and the U.S. pledged to honor our ancestral rights, including the 
right to fish at all usual and accustomed places. Unfortunately, a long 
history of hydroelectric development, habitat destruction and over-
fishing by non-Indians brought the salmon resource to the edge of 
extinction with 12 salmon and steelhead trout populations in the 
Columbia River basin listed under the Endangered Species Act (ESA).
---------------------------------------------------------------------------
    \1\ Treaty with the Yakama Tribe, June 6, 1855, 12 Stat. 951; 
Treaty with the Tribes of Middle Oregon, June 25, 1855, 12 Stat. 963; 
Treaty with the Umatilla Tribe, June 9, 1855, 12 Stat. 945; Treaty with 
the Nez Perce Tribe, June 11, 1855, 12 Stat. 9.
---------------------------------------------------------------------------
    Today, the treaties form the bedrock of fisheries management. The 
CRITFC tribes are among the most successful fishery managers in the 
country leading restoration efforts and working with State, Federal and 
private entities. CRITFC's comprehensive plan, Wy-Kan-Ush-Mi Wa-Kish-
Wit, outlines principles and objectives designed to halt the decline of 
salmon, lamprey and sturgeon populations and rebuild the fisheries to 
levels that support tribal ceremonial, subsistence and commercial 
harvests. To achieve these objectives, the plan emphasizes strategies 
that rely on natural production, healthy rivers and collaborative 
efforts.
    Several key regional agreements were completed in 2008. The 
Columbia Basin Fish Accords set out parameters for management of the 
Federal Columbia River Power System for fish passage. New agreements in 
U.S. v. Oregon and the Pacific Salmon Commission established fishery 
management criteria for fisheries ranging from the Columbia River to 
Southeast Alaska. The U.S. v. Oregon agreement also contains provisions 
for hatchery management in the Columbia River Basin. The terms of all 
three agreements run through 2017. We have successfully secured other 
funds to support our efforts to implement these agreements, including 
funds from the Bonneville Power Administration (BPA), the Department of 
Interior, and the Southern Fund of the Pacific Salmon Treaty, to name 
just few. Continued Federal funding support is needed to accomplish the 
management objectives embodied in the agreements.
    Columbia River (Mitchell Act) Hatchery Program.--Restoring Pacific 
salmon and providing for sustainable fisheries requires using the 
Columbia River Mitchell Act hatchery program to supplement naturally 
spawning stocks and populations. To accomplish this goal, $26.6 million 
is requested for the tribal and State co-managers to jointly reform the 
Mitchell Act hatchery program. Of this amount, $6.7 million, or 25 
percent of enacted funding, will be made available to the Columbia 
River Treaty Tribes for supplementation (natural stock recovery) 
programs. The Mitchell Act program provides regional economic benefits. 
NOAA Fisheries estimates that the program generates about $38 million 
in income and supports 870 jobs.
    Since 1982, CRITFC has called for hatchery reform to meet recovery 
needs and meet mitigation obligations. In 1991, this subcommittee 
directed that ``Mitchell Act hatcheries be operated in a manner so as 
to implement a program to release fish in the upper Columbia River 
basin above the Bonneville Dam to assist in the rebuilding of upriver 
naturally-spawning salmon runs.''
    Since 1991, we have made progress in increasing the upstream 
releases of salmon including Mitchell Act fish that have assisted the 
rebuilding and restoration of naturally-spawning upriver runs of 
chinook and coho. These efforts need to continue.
    We now face the challenges of managing for salmon populations 
listed for protection under the ESA, while also meeting mitigation 
obligations. The Draft Environmental Impact Statement (DEIS) for 
operation of Columbia River basin hatcheries released by NOAA in 2010 
illustrates the conundrum we face. While the DEIS, which assumes level 
funding for Mitchell Act hatcheries, points out the need for hatchery 
reform, the implementation scenarios for the proposed alternatives to 
the status quo all call for substantial reductions in hatchery 
releases. From the tribal perspective the proposed alternatives will 
not result in the delisting of salmon populations or meet mitigation 
obligations. Under the proposed alternatives the future is increased 
regulation under the ESA, resulting in more constrained fisheries along 
the west coast The funding for the Mitchell Act program should be 
increased along with natural stock recovery program reform 
(supplementation) so that we can make progress towards ESA delisting. 
This would transition the Mitchell Act program to a much more effective 
mitigation program.
    We support hatchery reform to aid in salmon recovery, while meeting 
mitigation obligations. The CRITFC tribes are leaders in designing and 
managing hatchery facilities to aid in salmon restoration and believe 
similar practices need to be implemented throughout the basin to reform 
current hatchery production efforts. Additional funding is necessary to 
reform Mitchell Act hatcheries to accomplish conservation and 
mitigation objectives. Years of inadequate funding have taken a toll 
resulting in deteriorating facilities that do not serve our objectives.
    Evidence to Support Tribal Salmon Restoration Programs under the 
Mitchell Act.--The tribes' approach to salmon recovery is to put fish 
back in to the rivers and protect the watersheds where fish live. 
Scientific documentation of tribal supplementation success is available 
upon request. The evidence is seen by the increasing returns of salmon 
in the Columbia River Basin. Wild spring chinook salmon are returning 
in large numbers to the Umatilla, Yakima and Klickitat tributaries. 
Coho in the Clearwater River are now abundant after Snake River coho 
was once declared extinct. Fish are returning to the Columbia River 
Basin and it is built on more than 30 years of tribal projects.
    Once considered for listing under the ESA, only 20,000 fall chinook 
returned to the Hanford Reach on the Columbia River in the early 
1980's. This salmon run has been rebuilt through the implementation of 
the Vernita Bar agreement of the mid-1980s combined with a hatchery 
program that incorporated biologically appropriate salmon that spawn 
naturally upon their return to the spawning beds. Today, the Hanford 
Reach fall chinook run is one of the healthiest runs in the basin 
supporting fisheries in Alaska, Canada, and the mainstem Columbia 
River. In 2013, close to 700,000 Fall Chinook destined for the Hanford 
Reach entered the Columbia River, which was a record since the 
construction of Bonneville Dam. The predictions are for an even higher 
return this fall.
    In the Snake River Basin, fall chinook has been brought back from 
the brink of extinction. Listed as threatened under the ESA, the 
estimated return of naturally-spawning Snake River fall chinook 
averaged 328 adults from 1986-1992. In 1994, fewer than 2,000 Snake 
River fall chinook returned to the Columbia River Basin. Thanks to the 
Nez Perce Tribe's modern supplementation program fall chinook are 
rebounding and the Snake River fall chinook is well on their way to 
recovery and ESA delisting. In 2013 about 56,000 fall chinook made it 
past Lower Granite Dam. Of those, approximately 21,000 were wild, twice 
the previous record for wild returns since the dam was constructed in 
1975.
    A Request for Review of Salmon Mass-Marking Programs.--CRITFC 
endeavors to secure a unified hatchery strategy among tribal, Federal 
and State co-managers. To that end, we seek to build hatchery programs 
using the best available science and supported by adequate, efficient 
budgets. A Congressional requirement, delivered through prior 
appropriations language, to visibly mark all salmon produced in 
federally funded hatcheries should be reconsidered. We have requested 
that Federal mass-marking requirements, and correlated funding, be 
reviewed for compatibility with our overall objective of ESA delisting 
and with prevailing laws and agreements: U.S. v Oregon, Pacific Salmon 
Treaty and the Columbia Basin Fish Accords.\2\
---------------------------------------------------------------------------
    \2\ Letter from Bruce Jim, Chairman, Columbia River Inter-Tribal 
Fish Commission to U.S. House of Representatives Chairmen Frank Wolf, 
Mike Simpson and Doc Hastings, July 11, 2011.
---------------------------------------------------------------------------
    Salmon managers should be provided the latitude to make case-by-
case decisions whether to mark fish and, if so, in the appropriate 
percentages.
    Pacific Salmon Treaty Program.--CRITFC supports the U.S. Section 
recommendation of $11.6 million for Pacific Salmon Treaty 
implementation. Of this amount, $9.76 million is for the Pacific Salmon 
Treaty base program with Alaska, Oregon, Idaho, Washington, and NOAA to 
share as described in the U.S. Section of the Pacific Salmon 
Commission's Budget Justification. In addition, we support $1.9 million 
as first provided in 1997 to carry out necessary research and 
management activities to implement the abundance based management 
approach of the Chinook Chapter to the Treaty. Costs of the programs 
conducted by State agencies to fulfill national commitments created by 
the treaty are substantially greater than the funding provided in the 
NOAA budget. State agencies supplement the Federal appropriation from 
other sources including: State and Federal grants, and the Pacific 
Coastal Salmon Recovery Fund, to the extent those sources are 
available.
    Pacific Coastal Salmon Recovery Program (PCSRF)/Watershed 
Restoration.--Funding has been sought after by the State of Alaska, the 
Pacific Northwest States, and the treaty tribes since the renewal of 
the Pacific Salmon Treaty in 1995. This would serve critical unmet 
needs for the conservation and restoration of salmon stocks shared in 
these tribal, State, and international fisheries. The PCSRF program was 
developed in 2000 to contribute to the shared effort in accomplishing 
this goal. We recommend restoring the PCSRF fiscal year 2015 funding 
level to $90 million. Long-term economic benefits can be achieved by 
making PCSRF investments on the ground to rebuild sustainable, 
harvestable salmon populations into the future.
    The State and tribal co-managers have responded to concerns raised 
by Congress regarding accountability and performance standards to 
evaluate and monitor the success of this coast wide program. The co-
managers have developed an extensive matrix of performance standards to 
address these concerns, which includes the use of monitoring protocols 
to systematically track current and future projects basin-wide. 
Tribally sponsored watershed projects are based on the best science, 
are competently implemented and adequately monitored, and address the 
limiting factors affecting salmon restoration. Projects undertaken by 
the tribes are consistent with CRITFC's salmon restoration plan and the 
programmatic areas identified by Congress.
    In summary, the CRITFC and its four member tribes have developed 
the capacity and infrastructure to lead in restoring and rebuilding 
salmon populations of the Columbia Basin. Our collective efforts 
protect our treaty reserved fishing rights and we also partner with the 
non- Indian community to provide healthy, harvestable salmon 
populations for all citizens to enjoy. This is a time when increased 
effort and participation are demanded of all of us and we ask for your 
continued support of a coordinated, comprehensive effort to restore the 
shared salmon resource of the Columbia and Snake River Basins. We will 
be pleased to provide any additional information that this subcommittee 
may require.
                                 ______
                                 
       Prepared Statement of the Consortium for Ocean Leadership
    On behalf of the Consortium for Ocean Leadership, I appreciate the 
opportunity to discuss the fiscal year 2015 Federal science budget for 
the National Science Foundation (NSF), the National Oceanic and 
Atmospheric Administration (NOAA) and the National Aeronautics and 
Space Administration (NASA). Ocean Leadership represents 90 of the 
Nation's leading oceanographic research and education institutions and 
also manages several ocean research and education programs in the areas 
of scientific ocean drilling, ocean observing, oil spills, and ocean 
partnerships. We respectfully request $7.5 billion for the NSF; $1.9 
billion for Earth Sciences at NASA; and $5.6 billion for NOAA.
    As Congress prioritizes Federal investments in the face of 
constrained budgets, it is important to recognize and maintain support 
for basic research as a core Federal responsibility. Increasing this 
investment is a priority given the shift to a science and technology 
(S&T) based economy whose foundation is built on scientific advances, 
both within specific disciplines as well as across disciplines. The 
U.S. dominance in S&T is being challenged by accelerated investment by 
other nations, as evidenced by Battelle's recent research and 
development (R&D) Global Forecast, which states: ``At the current rates 
of growth and investment, China's total funding of R&D is expected to 
surpass that of the U.S. by about 2022.'' \1\
---------------------------------------------------------------------------
    \1\ Battelle and R&D Magazine, December 2013. http://
www.battelle.org/docs/tpp/2014_global_rd_funding_forecast.pdf?sfvrsn=4.
---------------------------------------------------------------------------
                       the role of ocean science
    Recent hypotheses suggest that the extreme weather events we have 
had this past year may be attributable to a persistent shift in the jet 
stream due to a rapidly melting polar region as well as a warmer North 
Pacific Ocean. If this is the case, ice storms in Mobile, Alabama or 
monsoon-like rain events in Boulder, Colorado, may become more 
frequent, along with their significant economic costs. Unfortunately, 
as the demand for more and better data and information to understand 
ocean and atmospheric trends increases, we are instead losing our 
capabilities to collect data at sea and from space to build more 
capable and accurate long-term forecasts. For instance, the inability 
to service the buoys comprising the TAO Array (Tropical Atmosphere 
Ocean project in the equatorial Pacific) has resulted in a degradation 
of the data return rate to just 40 percent capacity from an optimally 
operating system.\2\ This situation greatly reduces our ability to 
accurately forecast El Ninno and La Ninna strengths and thus risks 
proper preparation to deal with episodes of droughts and flooding.
---------------------------------------------------------------------------
    \2\ El Ninno monitoring system in failure mode, U.S. budget woes 
cripple a key mooring array in the tropical Pacific Ocean. Jeff 
Tollefson. Nature News, January 23, 2014. http://www.nature.com/news/
el-ninno-monitoring-system-in-failure-mode-1.14582.
---------------------------------------------------------------------------
    Given that the ocean absorbs, stores and transfers most of the heat 
(and a high percentage of the carbon) on our planet, the ability to 
understand, forecast and prepare for extreme weather events requires 
investments in basic research to better understand air-ice-sea 
interactions as well as observations of the physical environment from 
space, land and sea. Without this basic knowledge and prediction 
capabilities on regional and seasonal scales, we are essentially flying 
blind in terms of managing resources (e.g. agriculture, fisheries, 
freshwater) and protecting public health. There are many major natural 
threats facing our Nation and significant challenges ahead in 
understanding, forecasting and mitigating them, all of which require 
significant financial resources. We believe that our appropriations 
requests would enable our Nation to maintain the assets and 
capabilities necessary to better understand the physical, chemical, 
geological and biological changes to the natural environment and use 
this information to help Congress, State and local governments, 
businesses and private individuals make informed and fiscally 
responsible economic and national security, public health and safety, 
and resource management decisions.
                           nsf basic research
    The National Science Foundation (NSF) is our top funding priority 
as it is the premier Federal agency tasked with supporting basic 
research, which underpins all future scientific advances. As you know, 
NSF is the only Federal agency with the mission of supporting basic 
research, and has been a primary force in providing support for 
discoveries that have driven our Nation's economy through innovation. 
Historically, Congress has appropriated top line numbers for the agency 
and has refrained from directing the course of the agency's research 
agenda or setting science or infrastructure priorities for the agency. 
We hope that this policy will continue so the Foundation can continue 
to make decisions based on the highest quality peer reviewed science, 
rather than politics.
    Given the tremendous recent impact that natural hazards have had on 
our Nation's economy and public welfare, we believe that investing in 
the geosciences is critical to advance our knowledge of the physical 
world, while social and behavioral sciences can improve our ability to 
understand and communicate key scientific findings and risks to the 
public and policymakers, who must deal with a rapidly changing planet. 
We hope that NSF can continue to fund the best minds in the Nation 
through competitive research grants, while mission agencies such as 
NOAA and NASA can support applied research and observational 
requirements to ensure our Nation has the intellectual capacity to 
develop and deal with the next generation of challenges. Thus, we 
request that Congress appropriate $140 million in additional funding 
for the ``Research and Related Accounts'' to at least match anticipated 
inflationary costs, but preferably above this level to maintain a 
positive trajectory enhancing NSF capacity to support its research 
mission.
                     noaa research and observations
    The National Oceanic and Atmospheric Administration (NOAA) requires 
timely, accurate, and sensitive observations of the planet to meet its 
many missions and mandates. Given the austere budget environment, we 
believe that NOAA can better accomplish its scientific requirements in 
a more effective way through partnerships with the extramural academic 
and industrial communities, rather than relying solely on their own 
internal scientific capability. The majority of scientific research 
expertise in areas such as climate, ocean acidification, ocean 
exploration, instrument development, data dissemination and fisheries 
management resides in the academic and industrial sectors. A greater 
commitment to extramural competitive peer-review grant opportunities to 
answer the key questions necessary to assess trends, make forecasts, 
and manage resources in a changing environment would improve efficiency 
and extend NOAA's access to the best minds in the Nation.
    We remain concerned about the Nation's earth observing satellite 
programs and the ability to maintain continuity of long-term data sets. 
We encourage NOAA to follow the NESDIS Independent Review Team's (IRT) 
recommendations for procurement models for missions beyond J2 that will 
not only reduce costs but also mitigate against data gaps. Implementing 
all the missions as an integrated program could save the agency tens of 
millions of dollars. These savings could help address other needs, such 
as recapitalization of the oceanographic fleet to help service the TAO 
Array, or supporting a more robust ocean exploration program. 
Ultimately, we need the polar observing system to be more resilient and 
more capable, which requires a more integrated approach to weather and 
climate research, monitoring and modeling. Moving NOAA's climate 
sensors to NASA without the resources to support their construction and 
operation defeats this purpose. Consequently, we hope you will continue 
your close oversight of the Federal Earth observing programs to help 
ensure that satellite missions can be cost-efficient, reliable, and 
effective.
    Of course, the ocean also impacts life beyond weather, climate and 
extreme events. The Deepwater Horizon oil spill was a tragedy with loss 
of life, economic impacts and long-term ecological implications for the 
Gulf region. The fact that it took so long to identify and track the 
location of the massive subsurface oil plume in the water column or 
forecast its trajectory highlights the significant shortcomings of the 
existing ocean and coastal observing systems. Consequently, we need to 
make sure that we are better prepared for the next spill, especially 
given offshore oil exploration in the Arctic and now proposed for the 
Atlantic coast. Ideally, there should be significant coordination 
between NOAA and the National Academies of Sciences (NAS) with regards 
to the use of criminal and civil settlement funds and fines. We have a 
unique opportunity to build a sustainable ocean and coastal observing 
system that will better enable the Gulf region to identify and prepare 
for future problems, such as oil spills, red tides, and hypoxic events, 
while also better managing their marine living resources. I hope this 
opportunity is not lost given the significant funds that will flow into 
the region.
    We are disheartened by the administration's extremely low funding 
request for NOAA's Education programs, including the elimination of the 
competitive program, which in the past has supported successful 
initiatives such as the National Ocean Sciences Bowl (NOSB). For the 
last 16 years, NOSB has exposed 26,000 students to a field of study not 
commonly offered in high school, which enhances student understanding 
of all major areas of science, technology, engineering and mathematics. 
We greatly appreciate your historical support for education programs at 
the mission agencies, and we hope that the administration will take a 
more transparent and deliberative planned approach to improving our 
Nation's STEM education programs in the future.
                nasa earth science research and missions
    We are very concerned with the administration's proposal to cut 
Earth Science funding at the National Aeronautics and Space 
Administration's (NASA), particularly at a time when NASA is supporting 
several new Earth observing missions as well as providing unprecedented 
access to their archives of Earth data. NASA has been responsive to the 
2007 ``Decadal Survey,'' but a flat budget, as well as increased 
mission responsibilities, has delayed many critical missions. While we 
support NASA taking on additional responsibilities for developing 
climate sensors from NOAA, we believe that this obligation should be 
accompanied with adequate financial resources. NASA has shown itself to 
be an effective partner with other agencies, such as with the USGS and 
their Landsat-8 mission, and with NOAA and the NPP-Suomi satellite. 
Moreover, its Venture class missions are providing flight opportunities 
for the next generation of scientists and engineers. We also support 
two NASA satellite missions, Surface Water Ocean Topography (SWOT) and 
Pre-Aerosol, Clouds, and ocean Ecosystem (PACE), which are particularly 
important to the oceans community and are tentatively scheduled for 
launch by 2020. NASA supports the only truly global view of the Earth, 
so it is critical to support its Earth science missions and research at 
a time when we see such unprecedented change to the physical 
environment of our planet.
    Madame Chair and members of the subcommittee, I greatly appreciate 
the opportunity to share our recommendations, and I encourage you to 
continue your long-standing bipartisan support for science funding in 
the fiscal year 2015 budget and into the future.
    Below is a list of the institutions that are represented by the 
Consortium for Ocean Leadership.

      Alabama

Dauphin Island Sea Lab

      Alaska

University of Alaska Fairbanks
Alaska Ocean Observing System
North Pacific Research Board

      California

Bodega Marine Lab
Monterey Bay Aquarium Research Institute
Moss Landing Marine Laboratory
Naval Postgraduate School
Stanford University
University of California, Santa Barbara
University of California, Santa Cruz
University of California, San Diego (Scripps Institution of 
Oceanography)
University of Southern California
Aquarium of the Pacific
Hubbs-SeaWorld Research Institute
Romberg Tiburon Center for Environmental Studies
Esri
L-3 MariPro, Inc.
Liquid Robotics, Inc.
Teledyne RD Instruments

      Colorado

Cooperative Institute for Research in Environmental Sciences

      Connecticut

University of Connecticut
Mystic Aquarium & Institute for Exploration

      Delaware

University of Delaware
Mid-Atlantic Regional Association Coastal Ocean Observing System

      Florida

Florida State University
Harbor Branch Oceanographic Institute at FAU
University of Florida
University of Miami
University of South Florida
Earth2Ocean, Inc.
Florida Institute of Oceanography
Nova Southeastern University

      Georgia

Skidaway Institute of Oceanography of the University of Georgia
Savannah State University

      Hawaii

University of Hawaii

      Illinois

John G. Shedd Aquarium

      Louisiana

Louisiana Universities Marine Consortium
Louisiana State University

      Maine

Bigelow Laboratory for Ocean Sciences
University of Maine
The IOOS Association

      Maryland

University of Maryland Center for Environmental Science
Johns Hopkins University
Marine Technology Society
National Aquarium

      Massachusetts

Massachusetts Institute of Technology
University of Massachusetts, Dartmouth
University of Massachusetts, Lowell
Woods Hole Oceanographic Institution
Battelle

      Michigan

University of Michigan

      Mississippi

Mississippi State University
University of Mississippi
University of Southern Mississippi

      Nebraska

University of Nebraska, Lincoln

      New Hampshire

University of New Hampshire

      New Jersey

Rutgers University

      New York

Columbia University (LDEO)
Stony Brook University

      North Carolina

Duke University Marine Laboratory
East Carolina University
University of North Carolina, Chapel Hill
University of North Carolina, Wilmington
North Carolina State University

      Oregon

Oregon State University

      Pennsylvania

Pennsylvania State University

      Rhode Island

University of Rhode Island

      South Carolina

Belle W. Baruch Institute for Marine and Coastal Sciences
South Carolina Sea Grant Consortium

      Texas

Harte Research Institute
Texas A&M University
University of Texas, Austin
Fugro
Sonardyne, Inc.

      Virginia

College of William and Mary (VIMS)
Old Dominion University
CNA
Institute for Global Environmental Strategies
U.S. Arctic Research Commission
CARIS, USA
SAIC

      Washington

University of Washington
Sea-Bird Scientific

      Washington, DC

Southeastern Universities Research Association

      Wisconsin

University of Wisconsin-Milwaukee Great Lakes WATER Institute

      Australia

Institute for Marine and Antarctic Studies (IMAS) at the University of 
Tasmania

      Bermuda

Bermuda Institute of Ocean Sciences (BIOS)

      Canada

Dalhousie University
University of Victoria
                      
                                 ______
                                 
  Prepared Statement of the Consortium of Social Science Associations
    On behalf of the Consortium of Social Science Associations (COSSA), 
I am pleased to offer this written testimony to the Senate 
Appropriations Subcommittee on Commerce, Justice, Science and Related 
Agencies for inclusion in the official committee record. For fiscal 
year 2015, COSSA urges the subcommittee to appropriate $7.5 billion for 
the National Science Foundation (NSF), $47.5 million for the National 
Institute of Justice (NIJ), $55.4 million for the Bureau of Justice 
Statistics (BJS), and $107 million for the Bureau of Economic Analysis 
(BEA).
    COSSA is proud to serve as a united voice for the social and 
behavioral sciences, bridging the academic research community with 
Federal policymakers. Its membership consists of more than 100 
professional associations, scientific societies, universities, and 
research centers and institutes, representing thousands of scientists 
working in industry, government, and academia.
                      national science foundation
    First, I wish to thank the subcommittee for its longstanding 
support for Federal science agencies. Despite the tough, ongoing fiscal 
challenges, the subcommittee has remained vigilant in its efforts to 
ensure adequate funding for basic research, particularly at the 
National Science Foundation. Thank you.
    COSSA joins the broader scientific community and the 21 Senators 
who signed the April 11 letter to the subcommittee in support of $7.5 
billion for NSF in fiscal year 2015, an increase of 4.6 percent. This 
amount would return NSF to its fiscal year 2010 funding level when 
adjusting for inflation and would allow the agency to recover some of 
the purchasing power lost in recent years due to sequestration and caps 
on discretionary spending. The amount would also attempt to put NSF 
back on track with the vision of the America COMPETES Reauthorization 
Act of 2010, which authorized NSF at $7.4 billion in fiscal year 2011, 
$7.8 billion in fiscal year 2012, and $8.3 billion in fiscal year 2013. 
If the U.S. is to maintain its scientific competitiveness on the global 
stage, we as a nation must continue to prioritize investments in 
science and technology and not abandon the aspirations set forth in the 
original America COMPETES Act of 2007 and its reauthorization in 2011.
    The U.S. scientific enterprise must remain insulated from political 
and ideological pressure if we are to encourage the most innovative 
science. As you move through the appropriations process this year, 
COSSA urges you to discourage and object to amendments that would 
defund or otherwise compromise specific research areas or programs at 
NSF, as we saw with the political science amendment in fiscal year 
2013. At a time when we should be investing in our knowledge economy 
and doing all we can to encourage a diverse scientific workforce, such 
efforts would instead have a chilling effect, discouraging the next 
generation of researchers to embark on science careers.
    Unfortunately, some recent efforts in the House seek to further set 
back the U.S. scientific enterprise. COSSA is deeply concerned about 
the impacts the Frontiers in Innovation, Research, Science and 
Technology Act (H.R. 4186), or FIRST Act, would have on NSF, the 
scientific community overall, and American innovation and intellectual 
competitiveness. Not only does the FIRST Act lack vision for the U.S. 
scientific enterprise by authorizing levels for NSF that would cut 
funding to the agency in terms of real dollars, it would also degrade 
NSF's gold-standard merit review process by seeking to micromanage the 
agency's award-making process. Regrettably, the legislation serves as a 
soapbox for lawmakers wishing to hurl ideological attacks on specific 
research areas, such as social and behavioral science or climate 
science. The inclusion of specific authorization levels for NSF's 
individual science directorates would set a dangerous precedent by 
allowing Congress to legislate what qualifies as meritorious science, 
as opposed to continuing to rely on a process that has served this 
Nation well; that is, entrusting qualified experts to make such 
determinations. It would also place scientific disciplines (i.e. 
biology, engineering, chemistry, social science, etc.) in direct 
competition with one another for scarce resources, thereby discouraging 
interdisciplinary science, which is becoming increasingly necessary for 
answering complex societal challenges.
    Equally distressing are the attempts to single out the Social, 
Behavioral and Economic Sciences (SBE) Directorate. The 
shortsightedness of critics of social and behavioral science research 
is disappointing. Publicly holding up individual research grants for 
ridicule based solely on their titles--research projects that a 
distinguished panel of scientific peers has determined meritorious--
misleads the American public by asserting that taxpayer funding is 
being wasted without fully understanding the projects, their intent, 
and the benefit to society and/or the progress of science.
    While we understand that the FIRST Act is an authorization bill and 
currently has no legal bearing on the fiscal year 2015 appropriations 
process, we are nonetheless concerned by these efforts in the House and 
any impact they might have on Senators looking to further target social 
and behavioral science funding at NSF. COSSA is hopeful that the Senate 
will reject the FIRST Act should it pass the House this year, and 
object to additional efforts to defund or devalue these NSF programs 
that have proven their value to the U.S. economy, national security, 
and the health of our citizens.
    As the Senate negotiates the CJS Appropriations bill this year, 
please consider the value of the social and behavioral sciences in 
helping to answer questions of national importance, such as how to 
convince a community in the path of a tornado to seek cover, or 
statistical analyses that help local governments understand crime 
patterns, among others. Without this science, and without an 
understanding of the fundamental nature of who we are, policy-making on 
major national issues will not be based on evidence and billions of 
dollars will be wasted.
    Below are just a few examples \1\ of impactful social and 
behavioral science:
---------------------------------------------------------------------------
    \1\ Bringing People Into Focus: How Social, Behavioral and Economic 
Research Addresses National Challenges, National Science Foundation 
(NSF 13-62).
---------------------------------------------------------------------------
  --Research supported by NSF has provided the Federal Communications 
        Commission (FCC) with its current system for apportioning the 
        airwaves via a fruitful, practical application of game theory 
        and experimental economics. Since their inception in 1994, FCC 
        ``spectrum auctions'' have netted over $60 billion in revenue 
        for the Federal Government. The U.S. system of partitioning 
        airwaves is now emulated in several other countries around the 
        world, resulting in total worldwide revenues in excess of $200 
        billion.
  --Researchers at Indiana University, Drexel University, and Arizona 
        State University developed spatial models to help manage the 
        location of sex offenders. Their research addressed concerns 
        regarding the impact of sex offender residency laws on a 
        community, considering important factors such as whether 
        residency restrictions lead to high concentrations of offenders 
        in specific areas, distribute the risk across a community 
        equitably, and keep sex offenders from living near minors. 
        Improving the development and evaluation of sex offender 
        residency policies in advance of any legislation allows public 
        officials the opportunity to consider the resulting 
        distribution of offenders in terms of local residents, better 
        meeting the needs of communities.
  --Researchers at Washington University in St. Louis investigated 
        emotion recognition using nonverbal cues such as facial 
        expressions, vocal tones, and body language. Based on this 
        research, the Army Research Institute now incorporates 
        education on nonverbal communication into soldier training, 
        thereby assisting troops in understanding cross-cultural, 
        nonverbal communication with non-English speaking citizens with 
        whom they interact overseas. Thus, this research has the 
        potential to provide human solutions in military situations. It 
        has been demonstrated that enhancing troops' interpersonal 
        skills can enable them to anticipate and diffuse conflict, as 
        well as facilitate cooperation, negotiation and compromise.
     national institute of justice and bureau of justice statistics
                       u.s. department of justice
    COSSA urges the subcommittee to appropriate $47.5 million for the 
National Institute of Justice (NIJ) and $55.4 million for the Bureau of 
Justice Statistics (BJS) within the U.S. Department of Justice (DOJ). 
These levels are equal to the President's fiscal year 2015 budget 
request. Taken together--roughly $100 million--this modest investment 
represents the only source of Federal research dollars committed to 
enhancing our understanding of crime and the criminal justice system.
    As the research arm of DOJ, NIJ plays a critical role in helping us 
understand and implement science-based strategies for crime prevention 
and control. The President seeks additional investment for the 
Comprehensive School Safety Initiative in fiscal year 2015 as part of 
the Opportunity, Growth, and Security Initiative; the initiative 
received $75 million in fiscal year 2014. COSSA urges the subcommittee 
to continue its support for this critical activity, the research from 
which will help ensure that policies and investments made at U.S. 
schools to address the safety of students, teachers and administrators 
will be evidence-based.
    BJS' national data collections play an important role in providing 
statistical evidence needed for criminal justice policy decision 
makers. In particular, these programs provide the critical data 
infrastructure supporting the administration's commitment to focus on 
data-driven, evidence- and information-based, ``smart on crime'' 
approaches. COSSA supports the request for an additional $1 million for 
the National Survey of Public Defenders and an additional $1.5 million 
for the National Public Defenders Reporting Program. Further, we 
endorse the administration's efforts to ``explore the feasibility of 
statistical collections in important topical priority areas, including: 
recidivism and reentry, prosecution and adjudication, criminal justice 
data improvements and victimization statistics.''
    Increased investment in criminal justice science is needed to 
ensure future policies and decisions are evidence-based and to contain 
escalating costs associated with public safety. COSSA applauds NIJ's 
increased efforts to disseminate research results to practitioners, 
putting it in the hands of those who need it.
                      bureau of economic analysis
                         department of commerce
    COSSA urges the subcommittee to appropriate $107 million for the 
Bureau of Economic Analysis (BEA) within the U.S. Department of 
Commerce. This is equal to the amount included in the fiscal year 2015 
budget request. BEA plays a critical role in helping the Nation 
understand our economy through the National Income and Product 
Accounts, which provides economic data at the national as well as 
industry levels.
    Further, BEA proposes a new $1.9 billion initiative in fiscal year 
2015, ``Big Data for Small Business.'' This would allow BEA to create a 
new Small Business Gross Domestic Product to track the health of the 
U.S. small business sector, thereby addressing the need for more public 
data relating to small businesses. COSSA supports this activity.
    Thank you for the opportunity to express these views on behalf of 
the social and behavioral science community. Please do not hesitate to 
contact me should you require additional information.
                                 ______
                                 
Prepared Statement of Ford ``Bud'' Cross, Ph.D. National Oceanographic 
            and Atmospheric Administration (NOAA) (Retired)
    This testimony addresses the portion of the National Oceanic and 
Atmospheric Administration's (NOAA's) fiscal year 2015 Budget that 
proposes to close their research laboratory in Beaufort, North 
Carolina, where I served as Laboratory Director from 1985-2000.
    The purpose of this testimony is to enter my strong objection to 
the proposed closure of NOAA's Beaufort Laboratory, Norlth Carolina by 
NOAA's National Ocean Service (NOS). Having worked at the Lab for 33 
years that included serving as Laboratory Director for 15 years, I 
would like to provide you with my assessment of the validity of the 
NOAA justification for closing the Beaufort Laboratory. (I still 
interact with Lab staff and visit the lab frequently.)
    NOAA's Beaufort Laboratory is part of the NOS National Centers for 
Coastal Ocean Science (NCCOS) and the Lab's official name is the 
National Center for Fisheries and Habitat Research. In addition to NOS 
(42), staff from the National Marine Fisheries Service (NMFS) (51), and 
the State of North Carolina (8) share the Beaufort facility. NCCOS also 
has research Centers or Laboratories in Charleston, S.C., Oxford, 
Maryland, Kasitsna Bay, Alaska, and two Centers at NOAA Headquarters in 
Silver Spring, Maryland. In recent years, NOAA has tried unsuccessfully 
to close two other NOS laboratories, Oxford, MD, and Kasitsna Bay, 
Alaska.
    NOS claims that about $58 million is needed to upgrade the Beaufort 
facility. This estimate is based on an outdated (2010), and somewhat 
inaccurate, facilities assessment report that resulted from a site 
visit in 2009. Since 2000, about $14.5 million has been spent to 
upgrade many structural deficiencies, and two new buildings were 
constructed ($8 million). Also, almost $1 million of Hurricane Sandy 
funds currently are being used to further upgrade the facility for 
storm protection, and the State of North Carolina is spending about 
$500,000 for storm water improvements as well. That's over $23 million 
in upgrades in less than 15 years.
    Why were these upgrades not taken into account when the fiscal year 
2015 budget was submitted? In my opinion, the argument that the 
Beaufort facility is in poor shape and an unsafe work environment is 
not accurate. The figure of $58 million to repair the facility does not 
take recent upgrades into account, and does not reflect a more recent 
informal inspection of the Lab where ``no structural issues'' were 
found. Thus, the Beaufort facility is not in a rundown condition, nor 
is it an unsafe place to work. A visit to the facility will bear these 
points out. Most of funds currently being identified as needed to 
repair the facility were actually identified to replace older buildings 
with state-of-the-art facilities in order to allow the Beaufort Lab to 
take full advantage of its location.
                        impact on nccos programs
    If the Laboratory is closed, the impact on the NCCOS research there 
will be significant, as much of it must be conducted in a laboratory 
and field setting. Priority research in the following areas would be 
disrupted or eliminated: harmful algal blooms, coastal toxic metal 
pollution, sea level rise, invasive species (lionfish), mapping of 
seagrass beds, and coastal planning for sustainable marine aquaculture. 
(Yet, NOS/NCCOS is requesting an additional $4 million in fiscal year 
2015 for similar work.) Several of the NCCOS scientists at Beaufort 
have received national and international awards for research, and one 
received the NOAA Lifetime Scientific Achievement Award. Virtually all 
of this research is conducted cooperatively with universities, State 
agencies, other Federal agencies, or other NOAA programs. Again, much 
of this research cannot be conducted away from the coast.
    Is this research of low priority to NOAA/NOS/NCCOS?
                        impact on nmfs programs
    Since 1899, when the Beaufort Laboratory was created by Congress, 
until 2000, the Laboratory belonged to the National Marine Fisheries 
Service, or its precursor agencies. In the late 1990's, the 
Administrator of NOAA directed the Assistant Administrator (AA) for NOS 
to develop a research capability within NOS. To satisfy that request, 
five field laboratories were transferred in 2000 from NMFS to NOS, 
including Beaufort. However, NMFS fisheries and protected species 
research remained at the Lab. Their contribution to O&M costs is based 
on the ratio of NOS to NMFS staff. The NMFS fisheries and protected 
species research would be highly impacted if the Lab closed. Much of 
this research is used by fisheries and protected species managers, and 
primarily requires the coastal Lab.
                      fisheries stock assessments
    The primary fisheries research at the Beaufort Lab deals with stock 
assessments of more than 100 species of reef fish (mainly snappers and 
groupers) that exist between Cape Hatteras and the Florida Keys. The 
Lab monitors the catch of about 100 head boats along the southeast 
Atlantic coast. They then combine these data with estimates of the 
commercial catch and other recreational catch to produce an estimate of 
the total fishing effort on the populations of reef fish. These data 
are then coupled with economic information to estimate the economic 
effect of various management scenarios. This information is then 
provided to the South Atlantic Fisheries Management Council who has the 
responsibility to manage fisheries in the exclusive economic zone 
(EEZ).
    The South Atlantic Fishery Management Council depends on the 
Beaufort Laboratory for providing the science upon which these 
management recommendations are based for the reef fish fishery. 
Attempts to transfer this staff to another location will fracture it, 
disrupt the flow of information to the South Atlantic Council, and 
result in an unnecessary expenditure of relocation funds.
                                menhaden
    The Beaufort Laboratory is the only entity that monitors the catch 
of the Atlantic menhaden fishery (since 1955), and the Gulf of Mexico 
menhaden fishery (since 1964). Stock assessments are made periodically, 
and the information is provided to the Atlantic States Marine Fishery 
Commission and the Gulf States Marine Fisheries Commission for 
management purposes. Similar to reef fish, the unnecessary disruption 
of this research will be costly. It could result in the loss of the 
longest and most continuous data bases in the U.S., and essential 
management information to the Commissions would be delayed at best.
                           protected species
    The unique geological location of the NOAA's Beaufort Laboratory 
lends itself to one of the best locations along the Atlantic coast to 
conduct research on marine mammals and sea turtles. This is due to the 
unique mix of estuarine habitats that exists in coastal North Carolina 
and the opportunity to interact directly with commercial fishermen. The 
objectives of this research are to better understand the direct and 
indirect effects of fisheries, climate change, and other environmental 
factors in support of the conservation and recovery of these species as 
mandated by Federal law. This research cannot be done effectively from 
a non-coastal location or out of North Carolina.
     noaa sentinel site cooperative (http://oceanservive.noaa.gov/
   sentinelsites/north-carolina.htlm) (http://oceanservice.noaa.gov/
                             sentinelsites)
    NOAA's Beaufort Laboratory is one of only five such sites that NOAA 
has established in the United States. These sites were established to 
leverage existing research and monitoring resources to ensure resilient 
communities and coastal ecosystems in the face of changing 
environmental conditions. The focus of the North Carolina site is sea 
level change and coastal inundation adaptation and planning. About 20 
partners (Federal, State, and other organizations) are involved in this 
effort in which the NOAA Lab is a key player. For more information on 
this Program, see the links given above. Why would NOAA pull the 
Beaufort Lab out of one of only five sentinel sites in the Nation?
        north carolina marine science and education partnership 
                            (www.ncmsep.com)
    The central portion of the North Carolina coast has been a focus of 
marine research for well over 100 years. After the establishment of the 
Beaufort Lab in 1899, the Duke Marine Laboratory and the University of 
North Carolina's Institute were established in the late 1940's and the 
North Carolina State University Marine Lab (CMAST) was established in 
the 1990's, all within five miles of each other. This concentration of 
labs has resulted in a center of expertise in coastal North Carolina of 
international and national significance. In 2002, the Carteret County 
Economic Development Council convened a meeting of the leaders of 
marine institutions and organizations and community leaders in the 
county. From that meeting, the North Carolina Marine Science and 
Education Partnership (MSEP) was formed. Currently, there are 18 
organizations that comprise MSEP, including the Carteret Country Public 
School System. Members of MSEP meet regularly to discuss ways to better 
cooperate on research, education, and outreach projects. For example, 
MSEP developed and is running a Coastal Marine Science Competition for 
13-18 year old
students in the multi-County region (https://www.sites.google.com/site/
msepcompetition/). For NOAA to eliminate the Beaufort Laboratory from 
such an organization so closely tied to their overall missions is 
puzzling at best.
                                summary
    1.  In my opinion, the justification for closing NOAA's Beaufort 
Laboratory is weak. The facility report is not up to date, and not 
entirely accurate. The $58 million price tag includes replacing the two 
story research building that would be beneficial but the laboratory is 
operational and safe without it. Also, NOAA has constructed a new 
maintenance building and a $7 million building to house administrative 
staff, the library and the NEERS staff, and has spent an additional $14 
million in facility upgrades, since 2000. I strongly urge that a site 
visit be made so Congress can be assured that the Lab is functional and 
safe.
    2.  The closing of the Lab will destroy critical masses in habitat, 
fisheries, and protected species research. NOAA argues that the 
scientists and support staff will be moved to other locations, but 
there is no plan. Those scientists and staff who chose not to move will 
be riffed. There is no way NOAA can successfully move any part of the 
staff in its entirety to maintain any semblance of a critical mass in 
any one of the three research areas. The result will be a major 
disruption of research that is of high priority to NOAA, and again, not 
for a valid reason.
    3.  NOAA prides itself in its capacity to reach out and interact 
with constituents and partners. The Beaufort Laboratory is the epitome 
of those relationships. A high percentage of the research conducted 
there is with collaborators. Graduate students and post-doctoral 
students from various universities, sponsored by Lab staff, conduct 
their research at the Laboratory. As described above, the Lab is an 
integral part of the North Carolina Marine Science and Educational 
Partnership and NOAA Sentinel Site project. Is it in the best interests 
of NOAA to walk away from these relationships?
                            recommendations
    I would like to make the following three recommendations to the 
subcommittee:

    1.  For reasons given above, please do not close NOAA's Beaufort 
Laboratory. The level of unnecessary disruption to research, 
partnerships, and personal lives is far too great for the questionable 
justification given.
    2.  If the Laboratory remains in NOS, it should have its own line 
item in the NOS/NCCOS budget. This will prevent NOS/NCCOS from 
continually bleeding the Lab of money and positions.
    3.  And my most preferred recommendation is to move the Beaufort 
Laboratory back to the National Marine Fisheries Service, where it 
spent its first 100 years. I cannot believe that NMFS agreed up front 
to this proposed closure. The impact to their programs is too great. It 
would be interesting to know if a paper trail exits between NOS and 
NMFS on this matter.
                                 ______
                                 
  Prepared Statement of Michelle Duval, Morehead City, North Carolina
    As a resident of Carteret County and a fisheries management 
professional engaged at both the State and Federal levels, I want to 
express my opposition to the proposed closure of the National Oceanic 
and Atmospheric Administration (NOAA) Beaufort Lab. The lab has a rich 
history of conducting a wide variety marine science research. There are 
significant collaborations that occur between the Beaufort Lab and 
academic institutions in the area that inform the science used for 
management. Closure of the Beaufort Lab would eliminate those 
collaborations, simply due to the fact that those researchers will not 
be in close proximity to one another. Having received my doctorate in 
1997 from the Duke Marine Lab, which shares Pivers Island with the NOAA 
Beaufort Lab, I have witnessed these collaborations firsthand. However, 
I wanted to express a few very specific concerns regarding fisheries 
science and long term fiscal impacts of the lab closure that merit 
consideration. (Please note that I am not an employee of the Beaufort 
Lab).

    1.  Impacts to fishery-independent surveys.--Most of the federally-
managed fish species in the southeast are considered ``data poor'' when 
compared to other regions, particularly the snapper grouper complex. 
Information collected through fishery-independent surveys (i.e., 
surveys that do not rely on commercial and recreational catches) is 
critical to filling in knowledge gaps regarding species distribution, 
abundance, longevity and reproduction--essential elements for a stock 
assessment. There is only one fishery-independent survey for snapper 
grouper species in the southeast, and its geographic range has always 
been limited by available resources. Only since 2010 have the necessary 
staff resources been allocated to the Beaufort Lab to expand the 
northern range of this survey from just south of Cape Lookout, North 
Carolina north to Cape Hatteras, North Carolina (as well as add a video 
monitoring component to the survey). Closing the lab and relocating the 
staff would set this program back substantially through survey 
interruption and re-hiring of staff with the appropriate skills to 
replace those unable to relocate.
    2.  Impacts to fisheries stock assessments.--It has taken 10 years 
to build the necessary analytical capacity at the Beaufort Lab to 
conduct much-needed stock assessments for commercially and 
recreationally important fishes in the southeast. These scientists work 
together as a team in completing assessments; they also work side by 
side with the survey scientists mentioned above, as well as the 
scientists who process the biological samples collected to provide 
information critical for the assessments. The ability for the 
assessment team to interact directly with the other teams of scientists 
collecting the data is invaluable. Closing the Beaufort Lab and 
relocating personnel would have significant negative impacts on the 
efficiency and productivity of the process, at a time when the demands 
have never been greater. It will not be possible to relocate all 
personnel to a single location, and the fact is that not all personnel 
will be able to relocate due to spousal commitments, childcare 
obligations, etc. The existing team of assessment scientists are 
nationally and internationally respected and not easily replaced. Loss 
of specialized skill sets that have taken years to acquire is a very 
real risk.
    3.  Downstream fiscal impacts.--Closure of the lab and relocation 
of staff will have significant downstream fiscal impacts that do not 
appear to have been taken into consideration. The development of stock 
assessments in the southeast is a very collaborative process, involving 
the assessment team, other State and Federal agency scientists, and 
fishermen coming together in person to review and discuss data being 
considered for an assessment. Moving the staff from the Beaufort Lab to 
other locations (such as the NOAA lab in Pascagoula) will incur 
additional travel costs in the form of bringing those staff back into 
the region for stock assessments, (or transporting all other 
participants to where the assessment team is located). Similarly, there 
will be additional travel costs to bring fishery independent survey 
staff back to cruise deployment locations; this would likely reduce the 
magnitude of future sampling efforts at a time when they need to be 
expanded, both spatially and temporally.

        With regard to local impacts, even if all existing staff were 
able and willing to relocate (which is unlikely, as noted above), the 
cost of relocation and potentially buying those staff out of existing 
homes is not trivial. The economy and current real estate market simply 
cannot absorb such an influx of houses. At the local level, these NOAA 
employees are important, year-round contributors to an economy that is 
seasonally dependent on tourism.

    Finally, NOAA's proposal to close the lab would leave a notable 
absence in geographic coverage between Sandy Hook, New Jersey and 
Miami, Florida along the Atlantic coast. This is at odds with the NOAA 
presence along the Gulf of Mexico, with labs located in Panama City, 
Florida; Pascagoula, Mississippi; Stennis, Mississippi; Lafayette, 
Louisiana; and Galveston, Texas. This coverage along the Gulf coast 
represents a much larger investment of resources over a shorter stretch 
of coastline. Given the Beaufort Lab's location near the intersection 
of two major biological and oceanographic convergence zones, it seems 
the agency should be investing more in this facility rather than less, 
particularly in light of NOAA's commitment to determining the impacts 
of climate change on fisheries resources. In closing, the $54 million 
figure being cited as the cost of maintaining the Beaufort Lab appears 
excessive considering the condition of the facilities. While I 
appreciate the administration's desire to reduce its overall footprint, 
an updated maintenance estimate and comparison to similar NOAA 
facilities should be considered.
    I very much appreciate the opportunity to comment on such an 
important issue.
                                 ______
                                 
       Prepared Statement of the Entomological Society of America
    The Entomological Society of America (ESA) respectfully submits 
this statement for the official record in support of funding for the 
National Science Foundation (NSF). ESA requests a robust fiscal year 
2015 appropriation of $7.5 billion for NSF, including strong support 
for the Directorate for Biological Sciences (BIO).
    Advances in basic biological sciences, including entomology, 
provide the fundamental knowledge that is the basis for overall 
scientific progress and the development of new technologies and 
strategies that address societal challenges related to economic growth, 
security, and human health and well-being. Entomologists' basic 
research on insect anatomy, classification, and genetics improves our 
understanding of evolution and biodiversity. Better knowledge of insect 
behavior and the dynamics of insect populations is an important 
component to the study of ecosystems and the environment. Additionally, 
insects play a critical role in our ability to explore the 
underpinnings of biological processes at the cellular and molecular 
level. Insects including Drosophila flies have long served as model 
systems for animals that scientists use to study biochemistry, 
microbiology, molecular biology, and toxicology, among other subjects. 
In many cases, insects are ideal for use in laboratory experimentation 
because they are inexpensive, easy to handle, have relatively short 
life spans, and do not require special facilities required to maintain 
vertebrate animals.
    NSF is the only Federal agency that supports basic research across 
all scientific and engineering disciplines, except for the medical 
sciences. In fiscal year 2013, the foundation supported an estimated 
299,000 researchers, scientific trainees, teachers, and students, 
primarily through competitive grants to nearly 2,000 colleges, 
universities, and other institutions in all 50 States. NSF also plays a 
critical role in training the next generation of scientists and 
engineers, ensuring our Nation will remain globally competitive in the 
future. For example, the NSF Graduate Research Fellowship Program 
selects and supports science and engineering graduate students 
demonstrating exceptional potential to succeed in science, technology, 
engineering, and mathematics (STEM) careers.
    Through activities of its BIO Directorate, NSF advances the 
forefront of knowledge about complex biological systems at multiple 
scales, from molecules and cells to organisms and ecosystems. In 
addition, the directorate contributes to the support of research 
resources, including important biological collections and biological 
field stations. NSF BIO is also the Nation's primary funder of 
fundamental research on biodiversity and environmental biology.
    For example, NSF-funded researchers have recently examined the 
wide-ranging effects of an ongoing bark beetle invasion which threatens 
the destruction of millions of acres of forests in the Western United 
States.\1\ The death of pine trees caused by bark beetles has severe 
implications for the forest's canopy and water systems, and creates 
conditions that favor devastating forest fires. The study has provided 
new insights into how invasive insect species that damage or destroy 
plants can affect entire ecosystems at the watershed scale.
---------------------------------------------------------------------------
    \1\ Mikkelson, KM, et al. ``Bark beetle infestation impacts on 
nutrient cycling, water quality and interdependent hydrological 
effects.'' Biogeochemistry (2013).
---------------------------------------------------------------------------
    Another NSF-funded researcher \2\ is studying a phenomenon that 
allows a locust to change its color depending on how densely populated 
an area is with other locusts; this trait is believed to cause locust 
swarms, which can be very destructive to agriculture. Migratory locust 
swarms, one of the biblical plagues, continue to contribute to famine 
in Africa. The current research is examining how the locusts change 
their appearance, and whether these genetic traits can be manipulated 
to maintain an appearance that is not conducive to forming swarms. The 
results of this study could provide a new way to control locusts 
without relying on chemical pesticides, which can have negative effects 
on the surrounding ecosystem.
---------------------------------------------------------------------------
    \2\ CAREER: ``Evolution of locust swarms and phenotypic plasticity 
in grasshoppers.'' NSF Award Abstract #1253493.
---------------------------------------------------------------------------
    One example of how NSF's support for basic research using insects 
contributes to our understanding of human and animal biology is a 
recent NSF-funded study on the behaviors of Drosophila vinegar 
flies,\3\ which has advanced scientists' knowledge about neurobiology 
of insects, animals, and humans. The results of the research may also 
help inform the field of robotics; scientists believe that modeling the 
functions of the insect brain can help develop algorithms able to 
control robotic systems. Other NSF-funded research on Drosophila 
genetics \4\ is helping scientists understand gene mutations in humans, 
as humans and these tiny flies share conserved genetic similarities.
---------------------------------------------------------------------------
    \3\ van Breugel, F, et al. ``Plume-tracking behavior of flying 
Drosophila emerges from a set of distinct sensory-motor reflexes.'' 
Current Biology (2014).
    \4\ CAREER: ``Investigating the evolution of gene regulation at 
Drosophila Hox genes.'' NSF Award Abstract #0845103.
---------------------------------------------------------------------------
    Given NSF's critical role in supporting fundamental research and 
education across science and engineering disciplines, ESA supports an 
overall fiscal year 2015 NSF budget of $7.5 billion. Within this 
budget, ESA requests robust support for the NSF BIO Directorate, which 
funds important research studies and biological collections, enabling 
discoveries in the entomological sciences to contribute to our 
understanding of environmental and evolutionary biology, physiological 
and developmental systems, and molecular and cellular mechanisms.
    ESA, headquartered in Annapolis, Maryland, is the largest 
organization in the world serving the professional and scientific needs 
of entomologists and individuals in related disciplines. Founded in 
1889, ESA has nearly 7,000 members affiliated with educational 
institutions, health agencies, private industry, and government. 
Members are researchers, teachers, extension service personnel, 
administrators, marketing representatives, research technicians, 
consultants, students, pest management professionals, and hobbyists.
    Thank you for the opportunity to offer the Entomological Society of 
America's support for NSF. For more information about the Entomological 
Society of America, please see http://www.entsoc.org/.
                                 ______
                                 
    Prepared Statement of the Federation of American Societies for 
                          Experimental Biology
    The Federation of American Societies for Experimental Biology 
(FASEB) respectfully requests a fiscal year 2015 appropriation of a 
minimum of $7.6 billion for the National Science Foundation (NSF). This 
demonstrates commitment to the critical mission of the agency and is an 
important first step in returning to a model of sustainable growth.
    FASEB, a federation of 26 scientific societies, represents more 
than 120,000 life scientists and engineers, making it the largest 
coalition of biomedical research associations in the United States. Our 
mission is to advance health and welfare by promoting progress and 
education in biological and biomedical sciences.
    Progress in science and technology is becoming increasingly 
interdisciplinary, as discoveries in one field fuel progress in 
another. NSF is the only Federal research agency dedicated to advancing 
all fields of fundamental science and engineering. As a result, the 
broad research portfolio of NSF is critical for our Nation's capacity 
for innovation and essential for our prosperity, quality of life, and 
national security.
    The NSF Graduate Research Fellowship Program awards approximately 
2,500 3-year fellowships annually to outstanding graduate students 
pursuing advanced degrees in science, technology, engineering, or 
mathematics. These fellowships support the education and training of 
the next generation of researchers, ensuring a robust and competitive 
workforce. NSF graduate research fellows have become leaders in the 
scientific community.
    Of the U.S. Nobel Laureates in the sciences, 200 received NSF 
funding over the course of their careers, including the 2013 prize 
winners in physiology or medicine, chemistry, and economics.
    Recent examples of NSF-funded research include:
  --Harnessing More Solar Energy.--Researches have developed a new 
        material for solar panels that is cheaper, more efficient, and 
        can harness energy from visible and infrared light, unlike 
        previous materials that could only use ultraviolet light. The 
        new material, developed by NSF-funded researchers, increases 
        efficiency by absorbing and converting six times the energy of 
        its predecessors. Researches are currently scaling up the 
        prototype to a full size solar panel for implementation on the 
        national power grid.
  --New Microscope Detects the Movement of Atoms.--NSF-funded 
        researchers have developed a new electron microscope that can 
        detect the movement of atoms and molecules. The cutting-edge 
        technology allows users to observe the fundamental 
        transformations of matter: chemical reactions and the electric 
        charges of interacting atoms. The new microscope has immediate 
        applications in the clean energy industry, development of 
        nanotechnology, and countless other scientific endeavors.
  --Preventing Post-operative Infections.--Infection at the surgical 
        site is one of the most common types of post-operative 
        complications, which lengthens hospital stays and increases 
        healthcare costs. Scientists with NSF support have developed a 
        new antibiotic coating for surgical sutures. Lab tests have 
        shown that the new coating is 1,000 times more effective at 
        preventing infection than previous coatings, and even prevents 
        the spread of staphylococcus aureus, the variety of ``staph'' 
        that frequently causes virulent post-surgical infections.
  --New Storm Radar Saves Lives.--Researchers supported by NSF are 
        building an advanced radar network to detect severe storms 
        earlier. Using novel algorithms, the network can generate 
        information faster and with more geographic specificity, 
        enabling first responders to take action before a storm hits. 
        Researchers are currently testing the system in southwestern 
        Oklahoma and Dallas/Ft. Worth, Texas. Once it is broadly 
        implemented, the system will reduce injuries, enable first 
        responders to be more effective, and save lives.
  --Preserving Bat Colonies to Protect the Ecosystem.--Agricultural 
        pests cost the U.S. farm industry over $1 billion per year in 
        lost crop yield and additional cost of pesticide use. NSF-
        funded researchers studied bat colonies in the cotton and corn 
        growing region of southern Texas and found that bats are 
        valuable to farmers because they consume insects that destroy 
        crops, reducing the need to use pesticides. Protecting bat 
        colonies in crop-growing regions will both decrease pesticide 
        cost to farmers and reduce the presence of chemicals on food 
        people eat.
                     maintaining global leadership
    Scientific and technological advances keep our Nation 
internationally competitive by spurring the innovations that fuel 
economic growth. NSF's broad portfolio of fundamental research expands 
the frontiers of knowledge, opening the way to these innovations. 
Through its education initiatives, NSF ensures that the U.S. will 
continue to have an unrivaled scientific and engineering workforce.
    NSF-funded research leads to major scientific breakthroughs, many 
of which provide the basic knowledge that stimulates innovation in the 
private sector. We must build on prior NSF investment and provide an 
adequate funding level to advance discovery, educate the next 
generation of scientists and engineers, and retain our position as the 
global leader in innovation. In fiscal year 2015, FASEB recommends a 
minimum of $7.6 billion for the NSF. This is the level that the America 
COMPETES Act authorized for the agency for 2011 and is an important 
first step in returning to a model of sustainable growth.
    Thank you for the opportunity to offer FASEB's support and 
recommendations for the NSF.
                                 ______
                                 
   Prepared Statement of John Fieberg, Ph.D., Assistant Professor of 
 Quantitative Ecology, Department of Fisheries, Wildlife, Conservation 
                    Biology, University of Minnesota
    Dear Members of the Senate Appropriations Subcommittee of Commerce, 
Justice, Science, and Related Agencies: I recently became aware of the 
National Oceanic and Atmospheric Administration's (NOAA's) National 
Ocean Service's (NOS) request to close the Beaufort Laboratory. Having 
collaborated with scientists at the Beaufort lab, I am well aware of 
the many ways the laboratory's staff contribute to NOAA's mission: they 
provide state-of-the-art fishery stock assessments that help to 
determine how many fish can be sustainably caught in the southeast 
United States, they conduct fishery-independent surveys to collect the 
data necessary for conducting informative stock assessments, and they 
conduct cutting edge research aimed at improving the way we ``do'' 
science in support of fisheries management. In short, closing the 
Beaufort lab would be a significant loss, not only for the 100-110 
staff employed by the lab, but also the fishing and marine science 
communities that benefit from their work. Thus, I am writing to request 
that NOAA's Beaufort Laboratory closure proposed in the 2015 
President's Budget Request be removed from the NOS budget.
    The recommendation to close the laboratory was largely driven by 
financial considerations related to the long-term cost of maintaining 
the infrastructure at the laboratory. Unfortunately, this decision was 
based on inaccurate, outdated information that overstated the costs of 
maintaining the NOAA Beaufort Laboratory. Several recent investments in 
new construction and renovations, totaling approximately $14 million 
dollars, were not properly considered when making the recommendation. 
Recent facility improvements include:

  --2006: Administration Building replaced (with North Carolina NERRs)
  --2007: Bridge replaced--cost shared with Duke University
  --2008: Maintenance Building replaced
  --2009: Air conditioning/Air handler replacement and mold abatement
  --2009:  Sample Storage/Chemical Storage/Haz-Mat buildings 
        consolidated and replaced
  --2014:  Seawall repair, electrical upgrade and State of North 
        Carolina funded storm water control

    In addition, the NOS request underestimated the staff that would be 
impacted by the closure by not including the more than 40 National 
Marine Fisheries Service staff and staff members of the North Carolina 
National Estuarine Research Reserve co-located at the facility.
    It is surprising that the request for closure comes at a time when 
the National Ocean Service is requesting an increase of $4 million in 
funding for another center to support Ecological Forecasting of Harmful 
Algal Blooms (HAB), Hypoxia, pathogens and Species Distributions (see 
budget summary, page 8, paragraph 1). The Beaufort Laboratory has both 
the expertise and facilities required to address these issues. 
Researchers and research teams at the Beaufort Laboratory have 
repeatedly been recognized for their work. Further, the laboratory's 
excellent research capabilities and reputation also attract support, 
both from other branches of NOAA and from other organizations which 
have recognized potential benefits of the Laboratory's studies, and 
long have augmented the support provided by NOAA.
    In summary, the closing of the Beaufort Laboratory does not make 
economic sense, given the recent investments in facility infrastructure 
and the need to address emerging marine issues identified by the 
National Ocean Service. More importantly, closing the laboratory would 
have significant negative consequences for the 100-110 staff employed 
by the lab and also the large fishing and marine science communities 
that rely on the outstanding quality of work of the lab and its 
members.
                                 ______
                                 
     Prepared Statement of Dr. Janelle Fleming of Seahorse Coastal 
             Consulting, LLC and Discovery Diving Co., Inc.
In Re:  Potential closing of Beaufort, North Carolina laboratory of 
    NOAA, National Marine Fisheries Service, Southeast Fisheries 
    Science Center.

    Dear Committee on Appropriations Senators,

    This letter is not a formal testimony, but rather a comment on how 
this laboratory has guided some of my research as a student and as an 
independent consultant and how essential the lab is to the functioning 
of the local economy and research. You may or may not be aware of the 
fact that President Obama has targeted the closing of the Beaufort 
National Oceanic and Atmospheric Administration (NOAA) lab as part of 
the 2014-2015 budget proposal. This is the only Federal lab between 
Miami, Florida and Sandy Hook, New Jersey. This lab houses over 150 
scientists, technicians, and office personnel that conduct important 
research locally as well as nationally and internationally.
    In terms of ecology and physical oceanography, North Carolina is in 
a unique position because it maintains both tropical and temperate 
characteristics. During the summer, the Gulf Stream pushes up from 
Florida and winds bring it close to shore, bringing it with tropical 
species of algae and animals (fish, mammals, etc). During the winter, 
the Greenland current pushes down from the North Atlantic and brings 
the temperate species into the area. The capes also allow for a 
tremendous amount of recirculation within the area and these different 
species have learned to adapt to the changing currents found of the 
North Carolina coast. All this is to say that North Carolina is 
uniquely situated to study fisheries issues, sediment transport issues, 
wind energy issues, and sea level rise issues, just to name a few. The 
NOAA lab has been essential in understanding the scientific root cause 
of some of the major questions about physical circulation and its role 
governing the ecology of the area.
    As a graduate student, I had the fortune of working with some of 
the NOAA scientists on my Ph.D. project. Their advice in terms of data 
collection and analysis, were pivotal in determining some of the causes 
of wind-driven circulation in the Neuse River Estuary and how that 
might lead to fish kills. As the scientists were down the street, I 
could call them, make an appointment and meet with them that day. 
Nowhere else in the world, do you get that type of interaction. In 
Beaufort, we are able to do this because of the logistics.
    As an independent consultant, I was able to work with Dr. Pat 
Tester on Harmful Algal Blooms, both in North Carolina, South Carolina, 
Georgia and Florida, but also in Belize. Innovative measurement and 
monitoring techniques have been developed at the Beaufort NOAA lab in 
conjunction with the local universities in the area, Duke University, 
North Carolina State University, and University of North Carolina-
Chapel Hill.
    Finally, I have been collaborating with Dr. James Morris on the 
Lionfish invasive species epidemic that is affect the local fisheries 
in North Carolina as well as Florida and the Caribbean. We have just 
recently started an experimental project that seeks to develop a 
commercial fishery for the lionfish. Being able to communicate with the 
researchers face to face has lead to several advancements in our 
experimental techniques and furthered the studies.
    In closing, when you look at this item in the President's budget 
proposal, I would like you to think of three things:
    1. What would the removal of a vibrant research organization do on 
the ``brain drain'' within a local community, rich with university 
collaboration?
    2. Does it make sense to centralize and reduce the number of 
laboratories that cover the coast, given that each region has their own 
specific characteristics?
    3. If the laboratory is closed, more money and time would be lost 
in transitioning those full time Government employees to a different 
laboratory and the research that they are currently working on would be 
delayed 2-3 years.
    Please reconsider this budget as the Beaufort NOAA lab affects 
approximately $58 million into the local economy and aids in fisheries 
independent research such as advanced procedures in stock assessment, 
fisheries oceanographic research, and oceanic observations.
    Thank you,
                                 ______
                                 
        Prepared Statement of the Geological Society of America
                                summary
    The Geological Society of America (GSA) supports strong and 
sustained investments in earth science research and education at the 
National Science Foundation (NSF) and National Aeronautics and Space 
Administration (NASA). We believe investment in these agencies is 
necessary for America's future economic and science and technology 
leadership, both through discoveries that are made and the talent 
developed through their programs. In addition, this research addresses 
such critical societal issues as energy and mineral resources, water 
availability and quality, climate change, waste management, and natural 
hazards. The United States faces a looming shortage of qualified 
workers in these areas that are critical for national security. We are 
very concerned that cuts in earth science funding will cause students 
and young professionals to leave the field, potentially leading to a 
lost generation of professionals in areas that are already facing 
worker shortages and inhibit potential economic growth. GSA urges 
Congress to provide the National Science Foundation at least $7.5 
billion in fiscal year 2015.
                about the geological society of america
    The Geological Society of America, founded in 1888, is a scientific 
society with over 26,000 members from academia, government, and 
industry in all 50 States and more than 100 countries. Through its 
meetings, publications, and programs, GSA enhances the professional 
growth of its members and promotes the geosciences in the service of 
humankind.
    As the National Science Board's recent 2014 Science & Engineering 
Indicators reports, America's share of the world's R&D fell from 37 
percent to 30 percent from 2001 and 2012. As other nations have been 
increasing their support for long-term, high-risk research, we have 
been allowing ours to stagnate or decline. We must reverse that trend 
and tackle our mounting innovation deficit if we want to retain our 
global economic leadership.
                      national science foundation
    The Geological Society of America (GSA) urges Congress to provide 
the National Science Foundation (NSF) at least $7.5 billion in fiscal 
year 2015. GSA greatly appreciates your efforts to increase the NSF 
budget in recent years. Although NSF was able to regain some of its 
loss from sequestration in fiscal year 2014, GSA remains concerned 
about the impact of flat and declining research budgets on our Nation's 
future innovations and innovators. We feel that allowing NSF's budget 
to catch up with research inflation costs over the past few years is 
the first step to putting NSF back on the path necessary to maintain 
and regain America's future economic and science and technology 
leadership. We are concerned about the cuts to the Research and Related 
Activities Account and flat funding (0.1 percent increase) in 
geoscience research in the request, but appreciate that $552 million 
was proposed to allow growth in the agency in the Opportunity, Growth, 
and Security Initiative.
    The Earth sciences are critical components of the overall science 
and technology enterprise and NSF investment and should be increased. 
NSF's Directorate for Geosciences supports approximately 65 percent of 
all basic university research in the geosciences: the largest Federal 
support for Earth science research essential for developing policies 
regarding land, mineral, energy, public safety and water resources at 
all levels of government. This Directorate regularly receives a large 
number of exciting research proposals that are highly rated for both 
their scientific merit and their broader impacts; the funding rate for 
research grants dropped to 23 percent last year, leaving many 
meritorious projects unfunded.
    Increased investments in NSF's earth science portfolio are 
necessary to address such issues as natural hazards, energy, water 
resources, climate change, and education. Specific needs include:
  --Natural hazards remain a major cause of fatalities and economic 
        losses worldwide. Several areas in the United States are 
        vulnerable to damages from earthquakes, tsunamis, volcanoes, 
        and landslides--as evidenced by the recent landslide in 
        Washington. NSF research that improves our understanding of 
        these geologic hazards will allow for better planning and 
        mitigation in these areas that will reduce future losses. We 
        urge Congress to support NSF investments in fundamental earth 
        science research that underpin basic understanding and 
        innovations in natural hazards monitoring and warning systems.
  --Mineral resources are essential to modern civilization, and a 
        thorough understanding of their distribution, consequences of 
        their use, and the potential effects of mineral supply 
        disruption is important for sound public policy. The Division 
        of Earth Sciences supports proposals for research geared toward 
        improving the understanding of the structure, composition, and 
        evolution of the Earth and the processes that govern the 
        formation and behavior of the Earth's materials. This research 
        contributes to a better understanding of the natural 
        distribution of mineral and energy resources for future 
        exploration. In particular, GSA encourages support for research 
        on critical minerals, for which our Nation is dependent upon 
        foreign sources.
  --The devastating droughts in California highlight our dependence on 
        water. NSF's research addresses major gaps in our understanding 
        of water availability, quality, and dynamics, and the impact of 
        both a changing and variable climate, and human activity, on 
        the water system. Increased public investment is needed to 
        improve the scientific understanding of water resources, 
        including improved representation of geological, biological, 
        and ecological systems, for informed decisionmaking.
  --Forecasting the outcomes of human interactions with Earth's natural 
        systems, including climate change, is limited by an incomplete 
        understanding of geologic and environmental processes. Improved 
        understanding of these processes in Earth's deep-time history 
        can increase confidence in the ability to predict future states 
        and enhance the prospects for mitigating or reversing adverse 
        impacts to the planet and its inhabitants.
             national aeronautics and space administration
    GSA supports earth science and planetary exploration research at 
NASA and is concerned about cuts in the fiscal year 2015 request, 
although increases are proposed in the Opportunity, Growth, and 
Security Initiative. This research is important to understand the 
evolution of Earth; to deepen and expand human understanding of our 
place in the universe; to reinforce science, technology, engineering 
and math (STEM) education and effective training of the next generation 
of scientists; to increase U.S. competitiveness in science and 
technology development; and to enhance the quality of life through 
technological innovation. In addition, the discoveries and technologies 
of these programs form the basis of many industries and partnerships 
that drive economic growth.
    Planetary missions at NASA are designed to collect data to better 
understand the history and workings of the entire solar system, to gain 
insight into the formation and evolution of Earth and the other 
planets, to understand how life began on Earth, and to determine 
whether extraterrestrial habitable environments and life forms exist 
(or ever did exist) elsewhere in the solar system or beyond. To support 
these missions, planetary scientists engage in both terrestrial field 
studies and Earth observation to examine geologic features and 
processes that are common on other planets, such as impact structures, 
volcanic constructs, tectonic structures, and glacial and fluvial 
deposits and landforms. Geochemical studies include investigations of 
extraterrestrial materials now on Earth, including lunar samples, tens 
of thousands of meteorites, cosmic dust particles, and, most recently, 
particles returned from comets and asteroids.
    Exploration of other planets in the solar system requires major 
national and international initiatives, significant funding levels, and 
long timelines for mission planning and collaborative research. For 
scientists, the funding cycle is much shorter than typical mission 
cycles, and in particular, graduate student and career-development 
timelines are much shorter than mission timeframes. Therefore, the 
growth and continued development of a robust workforce capable of 
conducting complex space missions and analyzing the scientific data 
returned from such missions does not depend on individual missions as 
much as it depends upon a consistent, sustained program that educates 
and develops planetary scientists.
    GSA supports NASA earth observing systems, including Landsat, and 
their research into our planet. By providing adequate resources to 
maintain current and develop next-generation satellites, the Nation 
will continue to have access to data that is used by diverse 
stakeholders ranging from farmers to water managers to make critical 
decisions.
      support needed to educate future innovations and innovators
    Research in Earth science and geoscience education is fundamental 
to training the next generation of Earth science professionals. The 
United States faces a looming shortage of qualified workers in these 
areas that are critical for national security. We are very concerned 
that cuts in earth science funding will cause students and young 
professionals to leave the field, potentially leading to a lost 
generation of professionals in areas that are already facing worker 
shortages.
    A 2013 report by the National Research Council, ``Emerging 
Workforce Trends in the Energy and Mining Industries: A Call to 
Action,'' found, ``Energy and mineral resources are essential for the 
Nation's fundamental functions, its economy, and its security . . . In 
mining (nonfuel and coal) a personnel crisis for professionals and 
workers is pending and it already exists for faculty.''
    Another recent study, ``Status of the Geoscience Workforce 2011,'' 
by the American Geosciences Institute found: ``The supply of newly 
trained geoscientists falls short of geoscience workforce demand and 
replacement needs. . . . aggregate job projections are expected to 
increase by 35 percent between 2008 and 2018. . . . The majority of 
geoscientists in the workforce are within 15 years of retirement age. 
By 2030, the unmet demand for geoscientists in the petroleum industry 
will be approximately 13,000 workers for the conservative demand 
industry estimate.''
    Increased NSF and NASA investments in earth science education at 
all levels to meet these needs and develop an informed electorate. 
Knowledge of the earth sciences is essential to science literacy and to 
meeting the environmental and resource challenges of the twenty-first 
century. NSF's Education and Human Resources Directorate researches and 
improves the way we teach science and provide research and fellowship 
opportunities for students to encourage them to continue in the 
sciences. Similarly, NASA's educational programs have inspired and led 
many into science careers.
    Please contact GSA Director for Geoscience Policy Kasey White at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="751e021d1c01103512101a061a161c10010c5b1a0712">[email&#160;protected]</a> for additional information or to learn more about 
the Geological Society of America--including GSA Position Statements on 
water resources, planetary research, energy and mineral resources, 
natural hazards, climate change, and public investment in earth science 
research.
                                 ______
                                 
   Prepared Statement of John J. Govoni, Ph.D., Ecological Consultant
    In the President's Budget request for 2015, the National Oceanic 
and Atmospheric Administration (NOAA), National Ocean Service (NOS), 
proposes to close the NOAA Laboratory located in Beaufort, North 
Carolina (reference the President's fiscal year 2015 Budget for NOS, 
Coastal Science, Assessment, Response and Restoration: NOAA Blue Book, 
page 8). The reasons given are cost savings by closing an aged 
facility. The request does not, however, cite dollar amounts that would 
be incurred with closure, and ignores the $14 million dollars recently 
invested in infrastructure replacements and refurbishments at the 
Beaufort Laboratory. The United States Government can ill-afford to 
close the Beaufort Laboratory, as proposed in the President's fiscal 
year 2015 budget request.
    The Beaufort Laboratory located in Beaufort, North Carolina, was 
formerly named the U.S. Fisheries Commission Laboratory at Beaufort and 
the Beaufort Laboratory of the NOAA--National Marine Fisheries Service 
(NMFS), and is now formally named the NOAA, NOS, Center for Coastal 
Fisheries and Habitat Research (CCFHR). It is the second oldest Federal 
marine research Laboratory in the U.S. For the past 115 years, the 
Beaufort Laboratory has served the Nation by providing timely and much 
needed research products used to guide the effective management of the 
Nation's natural resources. The Beaufort Laboratory has gained 
prominent recognition, reputation, and credibility both nationally and 
internationally. It is the only Federal, coastal ocean, research 
laboratory between New Jersey and Miami, Florida.
    The Beaufort Laboratory operates research programs within three 
different NOAA components: NOS, NMFS, and the National Estuarine 
Research Reserve System (NERRS). No consideration of NMFS or NERRS 
operations, given the proposed closure, is reflected in the President's 
budget request for NOS fiscal year 2015. If enacted, the closure 
proposed to begin as early as October 2014, will have severe impacts on 
the multiple programs of NMFS, NOS, and NEERS.
    Curiously, in the same budget proposal, NOAA requests an increase 
of $4 million to support ecological forecasting. With this increase, 
NOAA and NOS' National Centers for Coastal Ocean Science (NCCOS) will 
develop and implement ecological forecasts for harmful algal blooms 
HABs), hypoxia, marine pathogens, and marine species distributions. 
Ironically, at the same time it is proposing to close the Beaufort 
Laboratory; the Beaufort Laboratory has well-established expertise and 
facilities required to address many of those very same issues, and is 
currently doing so. Closure of the Beaufort Laboratory would be 
operationally and fiscally irresponsible.
    The laboratory currently employs nationally and internationally 
known scientists, who are providing essential and necessary support for 
the resolution of other national issues (NOS). These issues include: 
the impacts of invasive species on marine ecological communities; 
ecological forecasting of the condition of habitats and ecosystems that 
support many commercially and recreationally exploited species; harmful 
algal blooms that can and do impact human health; and aquaculture 
planning and sustainability for the Atlantic and Pacific coasts, Gulf 
of Mexico, Caribbean (U.S. possessions), and the Hawaiian archipelago. 
The Beaufort Laboratory also supports efforts at recovery from oil 
spills, coral reefs, and sea-grass beds, and the restoration of the 
Nation's shorelines and marshes. The Beaufort Laboratory's excellent 
research capabilities and reputation have attracted, and continue to 
attract, support from other branches of NOAA, from other Federal 
Organizations, and from non-governmental organizations (NGO's) that 
have long recognized the benefits provided by the Beaufort Laboratory. 
This inter-agency cooperation, and the efficiency that this cooperation 
provides, would be lost with closure.
    The Beaufort Laboratory (NMFS) conducts fish stock assessments for 
the South Atlantic Fishery Management Council, the Caribbean Fisheries 
Management council, the Gulf States Marine Fisheries Council, and the 
Atlantic States Marine Fisheries Commission. These are all 
organizations mandated by Federal Law. The support of management 
councils and Commissions provided by the Beaufort Laboratory would be 
lost with the closure of the Beaufort Laboratory. Closure is thus 
organizationally irresponsible.
    The Beaufort Laboratory currently employs 71 Federal employees and 
33.5 contractors. Some of the Federal employees could be relocated, but 
contract employees would lose their jobs. Further, the cost of 
relocating permanent Federal employees is not accounted for in the 
President's budget request. Eight North Carolina State employees work 
at the Rachel Carson National Estuarine Research Reserve (a reserve 
within the NERRS System) headquartered at the Beaufort Laboratory. The 
impacts to the employees, their families, and the local community have 
not been evaluated in the proposed budget request. Thus, closure would 
be an embarrassment to a Government committed to increasing job 
opportunities and supporting economic recovery.
    The President's budget for fiscal year 2015 cites the age of the 
Beaufort Laboratory and the need for infrastructure repairs and 
improvements that exceed agency budget resources. Considerable tax 
dollars have been invested in renovating the Beaufort Laboratory; 
dollars invested toward this end since 2006 currently approach $14 
million. A new administration building, that serves not only NOS and 
NMFS operations at the Beaufort Laboratory, but also the North 
Carolina, Department of the Environment and Natural Resources, Division 
of Coastal Management and the Rachael Carson, has been constructed, and 
has been in operation for 10 years. A new Bridge that accesses Pivers 
Island--both the Beaufort Laboratory and the Duke University Marine 
Laboratory--has been constructed and is in operation. A new Maintenance 
Facility has been constructed. A new scientific collection storage 
building has been constructed. Storm-water drainage systems have been 
constructed. The seawall that surrounds the Federal half of Pivers 
Island is currently being renovated. Yet, the two extant, old 
structures that remain have been renovated and are fully functional and 
operable. Further, the Beaufort Laboratory contains a large and diverse 
array of valuable scientific equipment that cannot be maintained or 
effectively used with the loss of support staff. The large Government 
investment in facilities and equipment would be wasted should the 
Beaufort Laboratory close. Closure would be fiscally irresponsible.
    With the President's fiscal year 2015 budget request, NOAA proposes 
to shift the funding to the Washington, District of Columbia area, 
which is among the most expensive locations nationally: this is not 
cost effective! The cost of providing laboratory and office space at 
Beaufort is cheaper than most other coastal areas of the United States. 
In addition, the District of Columbia area has no access to the marine 
environments represented at Beaufort, and District of Columbia does not 
have the laboratory space and equipment to replace what would be lost 
with the closure of the Beaufort Laboratory.
    Since taking over the Beaufort Laboratory from the NMFS in 1998-99, 
NOS has withdrawn support and drained resources. There has been an 
approximate 45 percent reduction in NOS staff over the past 9 years and 
a concomitant approximate 35 percent reduction in funding. This steady 
withdrawal of support is inexplicable, counter-productive to NOAA's 
mission, and unwarranted.
    I urge this subcommittee to oppose the proposed closure of the 
Beaufort Laboratory when Congress considers the 2015 Appropriations 
Bill. I urge this subcommittee to encourage Congress to inform NOAA 
that requests for closure of the Beaufort Laboratory will not be 
entertained in the future, and that Congress should direct NOAA to 
restore the Beaufort Laboratory staffing, operational support, and 
research funding. I urge the U.S. Congress to restore budget line-item 
appropriations for the Beaufort Laboratory.
                                 ______
                                 
    Prepared Statement of the Great Lakes Indian Fish and Wildlife 
                          Commission (GLIFWC)
                            agency involved
    Department of Justice.
                            program involved
    COPS Tribal Resources Grant Program (TRGP) Hiring and Equipment/
Training Program under the Coordinated Tribal Assistance Solicitation 
(CTAS).
             summary of glifwc's fiscal year 2015 testimony
    GLIFWC appreciates the increase of $3.5 million proposed by the 
Administration for the Tribal Resources Grant Program (TRGP), providing 
a total of $20 million for this critical program. The TRGP has enabled 
GLIFWC to solidify its communications, training, and equipment 
requirements, essential to ensuring the safety of GLIFWC officers and 
their role in the proper functioning of interjurisdictional emergency 
mutual assistance networks in the treaty ceded territories. GLIFWC also 
supports the administration's recommendation to dedicate $15 million in 
COPS Hiring funds for hiring new law enforcement officers in tribal 
communities. This program currently allows GLIFWC to maintain one 
additional Conservation Enforcement Officer as well as to provide vital 
training and equipment for all its Officers.
            ceded territory treaty rights and glifwc's role
    GLIFWC was established in 1984 as a ``tribal organization'' within 
the meaning of the Indian Self-Determination Act (PL 93-638). It 
exercises authority delegated by its member tribes to implement Federal 
court orders and various interjurisdictional agreements related to 
their treaty rights. GLIFWC assists its member tribes in:
  --securing and implementing treaty guaranteed rights to hunt, fish, 
        and gather in Chippewa treaty ceded territories; and
  --cooperatively managing, restoring and protecting ceded territory 
        natural resources and their habitats.
    For over 25 years, Congress and various administrations have funded 
GLIFWC through the BIA, the Department of Justice and other agencies to 
meet specific Federal obligations under: (a) a number of U.S./Chippewa 
treaties; (b) the Federal trust responsibility; (c) the Indian Self-
Determination Act, the Clean Water Act, and other legislation; and (d) 
various court decisions, including a 1999 U.S. Supreme Court case, that 
affirm the treaty rights of GLIFWC's member tribes. Under the direction 
of its member tribes, GLIFWC operates a ceded territory hunting, 
fishing, and gathering rights protection/implementation program through 
its staff of biologists, scientists, technicians, conservation 
enforcement officers, and public information specialists.
                        community-based policing
    GLIFWC's officers carry out their duties through a community-based 
policing program. The underlying premise is that effective detection 
and deterrence of illegal activities, as well as education of the 
regulated constituents, are best accomplished if the officers work 
within the tribal communities they primarily serve. The officers are 
based in reservation communities of the following member tribes: in 
Wisconsin--Bad River, Lac Courte Oreilles, Lac du Flambeau, Red Cliff, 
Sokaogon Chippewa (Mole Lake) and St. Croix; in Minnesota--Mille Lacs; 
and in Michigan--Bay Mills, Keweenaw Bay and Lac Vieux Desert. To 
develop mutual trust between GLIFWC officers and tribal communities, 
officers provide outdoor skills workshops and safety classes (hunter, 
boater, snowmobile, ATV) to 300 tribal youth in grades 4-8 annually. 
GLIFWC's officers also actively participate in summer and winter youth 
outdoor activity camps, kids fishing events, workshops on canoe safety 
and rice stick carving, and seminars on trapping and archery/bow 
safety. GLIFWC officers also work to support drug and alcohol 
prevention efforts in the Lac du Flambeau school system by sponsoring a 
snowshoe making workshop for tribal youth.
    GLIFWC's member tribes realize it is critical to build 
relationships between tribal youth and law enforcement officers as a 
means of combatting gang recruitment and drug/alcohol abuse in 
reservation communities. GLIFWC is taking a pro-active approach to 
support these efforts and obtained fiscal year 2013 Department of 
Justice (DOJ) funding to hire a Youth Outreach Officer. Over the next 3 
years, this Officer will work to improve and expand youth outdoor 
recreation activities in partnership with the other GLIFWC officers. 
The program's goal is to build and expand these relationships to help 
prevent violations of tribal off-reservation codes, improve public 
safety and promote an outdoor lifestyle as an alternative to a 
lifestyle characterized by youth gangs \1\ and substance abuse.\2\
---------------------------------------------------------------------------
    \1\ The American Indian and Alaska Native (AI/AN) youth population 
is more affected by gang involvement than any other racial population. 
15 percent of AI/AN youth are involved with gangs compared to 8 percent 
of Latino youth and 6 percent of African American youth nationally. 
(National Council on Crime and Delinquency: Glesmann, C., Krisberg, 
B.A., & Marchionna, S., 2009).
    \2\ 22.9 percent of American Indian and Alaska Native (AI/AN) youth 
aged 12 and older report alcohol use, 18.4 percent report binge 
drinking and 16.0 percent report substance dependence or abuse. In the 
same group, 35.8 percent report tobacco use and 12.5 percent report 
illicit drug use. (2010 National Survey on Drug Use and Health: Summary 
of National Findings).
---------------------------------------------------------------------------
               interaction with law enforcement agencies
    GLIFWC's officers are integral members of regional emergency 
services networks in Minnesota, Michigan and Wisconsin. They not only 
enforce the tribes' conservation codes, but are fully certified 
officers who work cooperatively with surrounding authorities when they 
detect violations of State or Federal criminal and conservation laws. 
These partnerships evolved from the inter-governmental cooperation 
required to combat the violence experienced during the early 
implementation of treaty rights in Wisconsin. As time passed, GLIFWC's 
professional officers continued to provide a bridge between local law 
enforcement and many rural Indian communities.
    GLIFWC remains at this forefront, using DOJ funding to develop 
interjurisdictional legal training attended by GLIFWC officers, tribal 
police and conservation officers, tribal judges, tribal and county 
prosecutors, and State and Federal agency law enforcement staff. DOJ 
funding has also enabled GLIFWC to certify its officers as medical 
emergency first responders trained in the use of defibrillators, and to 
train them in search and rescue, particularly in cold water rescue 
techniques. When a crime is in progress or emergencies occur, local, 
State, and Federal law enforcement agencies look to GLIFWC's officers 
as part of the mutual assistance networks. In fact, the role of 
GLIFWC's officers in these networks was further legitimized in 2007 by 
the passage of Wisconsin Act 27, which affords GLIFWC wardens the same 
statutory safeguards and protections that are afforded to their 
Department of Natural Resources (DNR) counterparts. GLIFWC wardens will 
now have access to the criminal history database and other information 
to identify whom they are encountering in the field so that they can 
determine whether they are about to face a fugitive or some other 
dangerous individual.
    DOJ has acknowledged that, ``[t]he officer-to-population ratio 
still remains lower on Indian reservations than in other jurisdictions 
across the country. . . . tribal law enforcement has a unique challenge 
of patrolling large areas of sparsely populated land'' (DOJ 2014 Budget 
Summary--Public Safety in Indian Country). GLIFWC's participation in 
mutual assistance networks located throughout a 60,000 square mile 
region directly addresses this problem in an effective and cost 
efficient manner.
                     glifwc programs funded by doj
    GLIFWC recognizes that adequate communications, training, and 
equipment are essential both for the safety of its officers and for the 
role that GLIFWC's officers play in the mutual assistance networks in 
the ceded territories. GLIFWC's COPS grants have provided a critical 
foundation for achieving these goals. Significant accomplishments with 
Tribal Resources Grant Program funds include: (1) assisting the Apostle 
Island National Lakeshore in protecting 138,000 recent ice caves 
visitors on Lake Superior; (2) working in partnership with the United 
States Forest Service to combat illegal marijuana grow sites on public 
lands; and (3) participating in drug sweeps held on the Lac du Flambeau 
and the Menominee reservations that required large numbers of law 
enforcement officers to coordinate arrests simultaneously.
    Increased Versatility and Improving Public Safety.--Bayfield County 
is the third largest county in Wisconsin, covering 2,042 square miles, 
yet it possesses a population of only 15,014 residents.\3\ This vast, 
rural county is located on the shores of Lake Superior and contains the 
Apostle Island National Lakeshore, which typically hosts 150,000 
visitors throughout an entire year.
---------------------------------------------------------------------------
    \3\ 2010 census.
---------------------------------------------------------------------------
    In 2014, the cold winter and multi-media technology resulted in a 
dramatic increase in visitors to the ice caves at the Lakeshore. 
Suddenly, law enforcement needed to provide safety for the 138,000 
unexpected visitors who walked over a mile onto Lake Superior to view 
the ice caves. The National Park Service and local law enforcement 
quickly became overwhelmed with the large volume of visitors and 
requested GLIFWC assistance. GLIFWC responded with certified law 
enforcement officers trained in emergency ice rescue and wilderness 
first aid. Officers were also equipped with snowmobiles for patrol and 
emergency response. GLIFWC's incident command center trailer was used 
to provide a base for enforcement activities at the site and a 20-foot 
airboat was on standby to respond to medical emergencies. It was the 
COPS Tribal Resources Grant Program that provided training for GLIFWC 
officers and funding to purchase the snowmobiles, the incident command 
center trailer, and the 20-foot airboat.
    Partnerships combat illegal marijuana grow sites on public lands.--
With Federal, State and local law enforcement partners, GLIFWC officers 
have provided assistance in efforts to intervene in cannabis 
cultivation operations. Over the past 3 years, GLIFWC wardens have 
participated in three raids of such operations located on public land 
within treaty ceded territories, including: (1) an interagency cannabis 
arrest of 5 individuals in Ashland county and the destruction of 9,400 
plants in 2011; (2) an interagency cannabis arrest of 6 individuals in 
Langlade County and the destruction of 9,000 plants in 2012; and (3) 
joint grid patrols with the assistance of National Guard helicopters 
that identified 2 grow sites in 2013. In 2013, GLIFWC officers also 
participated in closing down an outdoor cannabis cultivation operation 
on the Menominee Reservation, resulting in the destruction of 1000 
plants and 2 arrests. GLIFWC has used DOJ COPS funding to provide 
equipment and tactical training to its wardens to enhance their 
effectiveness in these rural and heavily-wooded environments.
    Operation Pandora.--In 2011, GLIFWC officers utilized the COPS 
Tribal Resources Grant Program to participate in training with the 
North-Central Drug Enforcement Group to expand professional 
relationships and establish a foundation for cooperative initiatives to 
protect officers and improve community safety. In 2013, GLIFWC officers 
applied their training and participated in Operation Pandora, a multi-
agency effort that brought together 11 law enforcement agencies from 
seven counties. Approximately 40 officers and agents participated in 
early morning raids at local residences on the Lac du Flambeau 
Reservation, serving seven search warrants from an ongoing 
investigation into synthetic and prescription drug trafficking on the 
reservation. The operation resulted in 35 arrests.
    Looking to the Future.--In 2014, GLIFWC applied to the DOJ TRGP 
program for $301,071 to: (1) continue participation in the North-
Central Drug Enforcement Group and train GLIFWC officers to identify 
and safely control those suspected of using synthetic drugs; (2) 
purchase Tasers to improve officer safety; (3) provide training to 
maintain law enforcement, first aid, and emergency rescue 
certifications; (4) support interagency efforts to control illegal 
cannabis cultivation operations on public lands within the 1836, 1837 
and 1842 Chippewa ceded territories with training in human tracking 
skills and the purchase of night vision equipment; and (5) provide 
officers with trucks, boats and ATV's to improve and increase community 
policing efforts through safety programs. TRGP resources will allow 
GLIFWC conservation officers to conduct essential cooperative 
conservation, law enforcement, outreach, and emergency response 
activities. We ask Congress to support the DOJ COPS TRGP program at no 
less than its proposed fiscal year 2015 level.
                                 ______
                                 
       Prepared Statement of Jonathan Hansen, Madison, Wisconsin
    To whom it may concern,
    I am writing to discuss the proposed closure of the National 
Oceanic and Atmospheric Administration (NOAA) Beaufort Laboratory 
located in Beaufort, North Carolina. The lab is part of the Department 
of Commerce, National Oceanic and Atmospheric Administration and houses 
employees of the National Marine Fisheries Service (NMFS), National 
Ocean Service (NOS), and National Estuarine Research Reserve (NERR).
    I urge the proposed closure of NOAA's Beaufort Laboratory be 
removed from the NOS budget. Currently, the lab houses 108 employees 
from NMFS, NOS, and NERR. The costs associated with upkeep and 
maintenance of the lab were inaccurate and outdated in the NOAA 
explanation of budgetary items. There were mistakes in the number of 
employees at the facility and incorrect calculations used to detail the 
budget item. In the past several years, several activities have been 
completed to keep the facility in good working condition including the 
replacement of the administration building and maintenance building, 
replacement of the bridge to the facility, seawall repair, improvements 
to the air conditioning, and other improvements, which totaled 
approximately $14 million. Finally, an updated engineering report 
(2014) documents that the facility is NOT structurally unsound.
    Closing the Beaufort Lab would be a tragedy. The Beaufort Lab is a 
stalwart of fisheries and oceanic science that has produced many well 
known scientists. The Beaufort Lab has a good reputation for advancing 
science in population dynamics and stock assessments; Gulf and Atlantic 
menhaden biology, movement, and assessments; harmful algal blooms; 
hypoxia; pathogens; and snapper and grouper species. NOAA has 
repeatedly recognized individual researchers, research teams, and the 
Laboratory as a whole for the outstanding quality of scientific work 
completed. Several of the area fisheries labs have located in Beaufort 
due to the NOAA lab including Duke Marine Lab, North Carolina Division 
of Marine Fisheries, the Center for Marine Sciences and Technology 
(CMAST), and the Institute of Marine Science. The NOAA Beaufort 
Laboratory is the center of productive fisheries science informing 
fisheries management for the Atlantic and Gulf coasts and is currently 
the only NMFS lab between Sandy Hook, New Jersey, and Miami, Florida.
    Specific items of note from each line office include:
                                  nmfs
Stock Assessment Science
  --The NOAA Beaufort Laboratory provides the stock assessment science 
        that determines how many fish can be caught in the southeast 
        United States.

    The stock assessment science of the NOAA Beaufort Laboratory 
focuses on marine fish populations that are ecologically and 
economically vital to the region and Nation, including snapper-grouper 
and pelagic species managed by the South Atlantic Fishery Management 
Council, Atlantic menhaden managed by the Atlantic States Marine 
Fisheries Commission, and Gulf menhaden managed by the Gulf States 
Marine Fisheries Commission. Commercial landings from the South 
Atlantic have been valued at $176.5 million, supporting a centuries-old 
cultural way of life, and saltwater recreational fishing in this region 
tops the Nation for its economic impact on sales and jobs (East Florida 
and North Carolina generate $5.3 billion and 47,000 jobs). Atlantic 
menhaden support the largest fishery on the U.S. east coast, and Gulf 
menhaden support the largest fishery in the Gulf of Mexico, with a 
combined value of $127.7 million.
Fishery-Independent Surveys
  --Fishery-independent surveys collect data on fish populations for 
        stock assessments and research, using standardized sampling 
        gears and methodologies.

    The Southeast Fishery-Independent Survey (SEFIS), run out of the 
NOAA Beaufort lab, collects annual information on the abundance, 
distribution, sizes, and ages of economically-important reef fish 
species like groupers and snappers on the U.S. East Coast between North 
Carolina and Florida. Using fish traps and underwater video, SEFIS 
determines whether reef fish species are increasing or decreasing in 
abundance so fish stocks can be managed with much greater certainty. 
The SEFIS staff has developed a close working relationship with 
fishermen in the Carolinas due to their co location in Beaufort, North 
Carolina. NOAA's Beaufort Lab is ideally situated, centered in the 
middle of substantial commercial and recreational fishing industries 
and a thriving marine science community. If the SEFIS staff was forced 
to move out of their survey region, ties with the fishing industry and 
the marine science community would be effectively severed, ultimately 
resulting in a significant disconnect between the National Marine 
Fisheries Service and the communities to which they serve.
                                  nerr
    Impacts of Closure to the Reserve-Strategic Location and Facility 
for the Reserve:

  --North Carolina Coastal Reserve and National Estuarine Research 
        Reserve staff (7) are currently located at the NOAA Beaufort 
        Lab, which serves as the headquarters office for the program.
  --In 2002, Congress provided NOAA with ``. . .  $5,000,000 for the 
        Beaufort Laboratory for necessary repairs to existing 
        facilities and to construct a joint laboratory, dock, and other 
        facilities in collaboration with the Rachel Carson National 
        Estuarine Research Reserve.'' (Public Law 107-77, See S. Rept. 
        107-42, p. 106-108.) $1.32 million was invested in NOAA ($1.28 
        million) and State funds ($42,046) for the construction of a 
        joint building at the NOAA Beaufort Lab to serve the Reserve's 
        mission.
  --The joint building was completed in 2007 and was constructed 
        specifically with the Reserve's education programs in mind: the 
        auditorium regularly hosts coastal training program workshops 
        and the teaching classroom hosts school groups, teacher 
        workshops, field trips, and lectures to support K-12 Estuarine 
        Education Program activities.
  --The NOAA Beaufort Lab is a 5-minute boat ride from the Rachel 
        Carson component of the Reserve; this close proximity is 
        essential for conducting Reserve activities efficiently to 
        conduct mission-critical programming including educational 
        programs, water quality and habitat monitoring and research 
        programs, and stewardship of the site including species 
        monitoring, debris clean-ups, feral horse management, and 
        access point maintenance.
Reserve Activities at the NOAA Beaufort Lab, 2008-2013
            Education
                  K-12 field trips
              -- 177 educational programs
              -- 4947 participants
                  Teacher workshops
              -- 28 teacher workshops
              -- 412 participants
                  Summer camps
              -- 109 camp sessions
              -- 921 participants
                  Summer public field trips
              -- 96 field trips
              -- 1123 participants
            Stewardship
                  Volunteer service at the Rachel Carson Reserve
              -- 1170 volunteers
              -- 2873 volunteer hours
                  Site management
              -- The NOAA Beaufort Lab provides an ideal base from 
            which to manage the Rachel Carson Reserve due to its close 
            proximity to the Reserve site, location on calm inland 
            waters, and boat launching facilities. Additionally, many 
            NOAA staff conduct or have conducted research at the Rachel 
            Carson Reserve and are able to provide professional 
            perspectives that are valuable to Reserve research and 
            management.
            Research
                  Research permits
              -- 31 research permits issued for research conducted at 
            the Rachel Carson Reserve
                   Water quality monitoring
              -- Water quality inventory and monitoring stations at 
            Middle Marsh and Shackleford Banks, in partnership with the 
            National Park Service
            Coastal Training Program
                  Coastal Training Program workshops
              -- 31 workshops
              -- 1076 participants
                                  nos
    NOAA's HAB program was initiated at the Beaufort Laboratory from 
the work conducted in North Carolina in 1987 during the ``red tide'' 
that affected the central coast for more than 6 months. The Beaufort 
Lab continues to provide essential research and field data that inform 
Ecological Forecasting of HABs in Alaska, North Carolina, Florida, 
Guantanamo Bay, Cuba, Bay of Fundy, Gulf of Maine, Gulf of Mexico, and 
the Caribbean. Additionally, Beaufort Laboratory staff were recognized 
for conducting award winning science in elucidating the life history of 
Pfiesteria, a HAB species that inhabits estuaries and river systems up 
and down the eastern seaboard. The threat of Pfiesteria caused economic 
damages of $35 million a month to the seafood industry following 
publicity of local fish kills. Beaufort laboratory staff provided 
expertise and knowledge to local and State resource managers and 
University partners to educate the public about the real facts 
concerning Pfiesteria and the safety of their seafood. Beaufort staff 
have continued to provide their expertise and knowledge to the North 
Carolina River Keeper Alliance and North Carolina Department of Natural 
Resources, Division of Water Quality when fish kill events have 
occurred in local estuaries. This has helped to alleviate public 
anxiety regarding seafood safety.
    In conclusion, closure of the NOAA Beaufort Laboratory would be a 
poor choice scientifically, economically, and would leave a large part 
of the east coast without the science that they deserve. The numbers 
used to estimate the costs of maintaining the facility in good working 
order were incorrectly estimated and inaccurate numbers of current 
employees were provided for the budget. In addition, the Federal 
Government has invested in this laboratory over the long-term, and to 
close it now would be a gross misuse of Government resources.
                                 ______
                                 
    Prepared Statement of Craig A. Harms, D.V.M., Ph.D.; Diplomate, 
     American College of Zoological Medicine; Associate Professor, 
  Department of Clinical Sciences, College of Veterinary Medicine and 
               Center for Marine Sciences and Technology
    Dear Senate Subcommittee on Commerce, Justice, Science, and Related 
Agencies: In reference to the proposed closure of the National Oceanic 
Atmospheric Administration (NOAA) Laboratory in Beaufort, North 
Carolina, I urge you to ensure that does not occur. Closure of the NOAA 
Beaufort Laboratory would be a considerable blow to the marine sciences 
and education hub of Carteret County. With it's over 100 years of 
history, the NOAA Laboratory has been a catalyst for attracting 
excellent scientists and other marine science laboratories, and 
conducting important research on harmful algal toxins, invasive 
species, protected species, and stock assessments critical to fishery 
management decisions. The close aggregation of a slew of top flight 
marine laboratory and education facilities in Carteret County 
(including the NOAA Beaufort Laboratory, Duke Marine Laboratory, 
University of North Carolina (UNC) Institute of Marine Sciences, North 
Carolina State University (NCSU) Center for Marine Sciences and 
Technology, North Carolina Aquarium at Pine Knoll Shores, North 
Carolina Maritime Museum, North Carolina Division of Marine Fisheries, 
Carteret Community College Aquaculture Program, North Carolina 
SeaGrant) at the convergence of major marine life zones, is a 
tremendous asset. As determined by a recent American Association for 
the Advancement of Science (AAAS) study of the University of North 
Carolina System marine laboratories in North Carolina, the programs of 
these multiple facilities are not duplicative, but rather are 
synergistic. The loss of the NOAA Laboratory would weaken all aspects 
of scientific productivity, marine education, and the economic driver 
of marine sciences community.
    I moved to Morehead City in 2000 to take up a position at the NCSU 
Center for Marine Sciences and Technology (CMAST) as soon as it opened. 
As the only full time faculty member from the College of Veterinary 
Medicine based at CMAST, people wondered just what a veterinarian would 
be doing at a marine laboratory. There has been no shortage of 
veterinary applications to marine science to keep me busy. Much of my 
work has been shaped by collaborations with scientists at the NOAA 
Beaufort Laboratory, particularly at the outset working with scientists 
in the protected species division of the National Marine Fisheries 
Service (NMFS) on sea turtles and marine mammals, but extending to work 
on invasive lionfish and development of mariculture. Collaborating with 
the NOAA Beaufort Laboratory has lead to far flung collaborations 
including participating in the sea turtle rescue response to the 
Deepwater Horizon oil spill, follow-up monitoring of dolphin health in 
the Gulf of Mexico, and work with the International Whaling Commission 
improving humane responses to large whale live stranding events, among 
others.
    There are things that a Federal facility can do that academic and 
nonprofit institutions are less well equipped to handle. An example was 
a mass stranding of pilot whales on the Outer Banks in January 2005. 
Having the direct links in Washington both within NOAA and with other 
relevant Federal agencies was essential for timely information exchange 
as the response and investigation transpired. The area academic and 
State agencies could not have managed that response nearly so well 
without those links.
    Commercial fishermen with whom I served on the Sea Turtle Advisory 
Committee of the North Carolina Marine Fisheries Commission have 
similarly expressed concern about the possible closure of the NOAA 
Beaufort Laboratory. As much as they bristle at the regulatory arm of 
NOAA, they appreciate good science on fisheries stocks for framing the 
debates on management decisions. Because of the productive 
collaborations NOAA scientist have formed with commercial fishermen 
over the years, on both commercial fisheries species and protected 
species research, fishers know that NOAA Beaufort Laboratory scientists 
will produce good science with unbiased results, to the extent their 
resources allow. A recent intent to sue by commercial fishing groups 
against the North Carolina Division of Marine Fisheries (DMF), North 
Carolina Wildlife Resources Commission (WRC), and NOAA, seeks to 
require carrying out a stock assessment for sea turtles in North 
Carolina. The eventual outcome of that legal action is of course an 
open question, but if an effective and valid stock assessment of sea 
turtles is to be carried out, it would be nearly impossible without the 
people, expertise, and facilities currently in place at the NOAA 
Beaufort Laboratory, and trying to create that capacity from scratch 
would be prohibitive.
    With offshore energy exploration and development proposed off of 
the North Carolina coast, both fossil fuels and wind, having a Federal 
marine science laboratory on site will be vital to monitor effects and 
to facilitate responses to adverse events if necessary. This is not the 
time to close down a venerable and vital marine science research 
facility in this area of critical biogeographic and economic 
importance.
                                 ______
                                 
  Prepared Statement of Patricia Harms, Morehead City, North Carolina
    The Subcommittee on Commerce, Justice, Science, and Related 
Agencies:

    The Atlantic ocean off our East Coast is an irreplaceable treasure 
which requires our attention and care. The closure of the National 
Oceanic and Atmospheric Administration (NOAA) laboratory in Beaufort, 
North Carolina would be a tragic loss to the vital research it 
contributes on coastal and ocean issues. Please take this proposed 
closure out of the National Ocean Service (NOS) budget.
    I cannot believe siphoning off projects to non-agency scientists 
could have the value we have right here, right now. Do look at the 
quality research that has come from the Beaufort NOAA Laboratory. This 
lab is in an excellent location, the only lab between New Jersey and 
Florida, collaborating with Duke University, North Carolina State, and 
University of North Carolina marine scientists. all of whom have 
facilities in Beaufort and Morehead City. They do work together which 
multiplies their value. With concerns over climate change and sea level 
rise, it would seem of even more importance to support NOAA in its 
present location. Hurricanes and weather related issues are also of 
great concern to our maritime and coastal areas. A number of ventures 
proposed off our coast such as sonic testing, oil exploration, and wind 
turbines will require monitoring of their effects on the ocean and its 
inhabitants. I would expect NOAA to be necessary to these and other 
possible changes in the ocean and in the estuaries
    It is true that we have tourism and beaches, but marine science is 
of great importance to our economy as well. Residents and tourists are 
very attuned to the work of marine scientists in the area. Volunteers 
walk the beaches to spot sea turtle nest sites, our citizens know that 
their observations of the ocean and sea life are important. We also 
have the Aquarium in Pine Knoll Shores, a renowned Maritime Museum in 
Beaufort, the Rachel Carson Reserve, and the Beasley Sea Turtle 
Hospital nearby, which relies on NOAA and other marine science 
institutions here. Both commercial and recreational fishermen also 
depend on NOAA. It has been averred that maintaining the lab would 
require too much in infrastructure costs, but according to more recent 
appraisals this is not the case. There is an 2014 engineering report 
listing improvements that have been made. The loss of the NOAA lab in 
Beaufort would be a serious blow to the area and to the country.
    The NOAA lab in Beaufort should be supported and expanded, not 
removed.
                                 ______
                                 
 Prepared Statement of Howard F. Horton, Ph.D., Professor Emeritus of 
                   Fisheries, Oregon State University
    Dear Senators:

    This letter is to urge you to remove the closure of the Beaufort 
Laboratory in North Carolina from National Oceanic and Atmospheric 
Administration (NOAA's) National Ocean Service's budget request. I have 
had a long association with colleagues in the Beaufort Laboratory and 
consider their work to be essential to protecting and enhancing our 
marine species and their environment in coastal areas nationwide.
    In particular, their pioneering work in developing methods to 
detect the presence of and to assess the impacts of toxic marine algae 
is vital to the production of our marine fauna and for the safety of 
human and other affected birds, fish and animals. This important 
research has application throughout the northern and southern 
hemispheres and is not duplicated elsewhere. To stop this activity 
would be a major setback to our knowledge and management of toxic 
marine algae.
    In addition, the location of the laboratory fosters valuable 
research on sustainable fisheries; conservation of sea turtles, 
dolphins, seagrass estuaries, and offshore reefs; invasive species; and 
changes in climate and sea levels. These studies facilities and support 
research affecting not just North Carolina, but the East and West 
Coasts of the U.S. including Alaska.
    Furthermore, the laboratory provides employment for approximately 
108 scientists and staff to conduct this much needed research and their 
presence contributes over $58 million to the local economy.
    From the standpoint of its unique location, the cadre of excellent 
scientists producing much needed cutting edge science, and their 
contribution toward conserving our natural marine resources, I urge you 
to help support existence of this valuable research facility and its 
associated personnel.
                                 ______
                                 
   Prepared Statement of Dr. Donald E. Hoss, Beaufort, North Carolina
    Dear subcommittee members: My name is Don Hoss and I am writing 
this letter to strongly oppose the request by National Oceanic and 
Atmospheric Administration (NOAA)/National Ocean Service (NOS) to close 
the NOAA NOS/National Marine Fisheries Service (NMFS) laboratory in 
Beaufort, North Carolina (NOAA fiscal year budget summary, page 8, 
paragraph 3) because of the long-erm cost of maintaining the facility. 
I was employed at the Beaufort Laboratory from 1958 until my retirement 
in 2002. I spent my last years as Director of the Laboratory, so I am 
familiar with the physical condition of the facility. I also know of 
its importance to the marine science community and the local and 
national community in general. The Beaufort Laboratory is the second 
oldest Federal Fisheries Laboratory in the United States dating to 
1899. It was located at Beaufort because of the unique marine and 
estuarine ecosystem adjacent to the North Carolina coast. It is 
recognized as one of the most respected fisheries laboratories in this 
country, and in countries around the world, for the quality of its 
research on marine issues that affect the economy of sport and 
commercial fisheries, and the health of the marine waters of the United 
States.
    Statements have been made that this ``aging facility'' requires 
infrastructure repairs and improvements exceeding agency budget. 
Nothing could be further from the truth. The fact that the Beaufort 
Laboratory is the second oldest Federal fisheries laboratory in the 
country does not mean that it is operating out of a 19th century 
facility. Only two building on the facility dates to the late 1950's 
and it has had many renovations over the years. In 1963 a new two story 
laboratory was built and it was completely renovated in 1993-94. In 
recent years NOAA has invested approximately $14 million in new 
construction and renovations at the laboratory. A new administration 
building has been constructed with space for the North Carolina 
National Estuarine Research Reserve Program. The bridge to Pivers 
Island (cost shared with Duke Marine Laboratory) has been replaced and 
a new chemical storage building has been built. Other improvements 
include air conditioning/air handler replacement and mold abatement as 
well as seawall repair, electrical upgrade and State of North Carolina 
funded storm water control. An updated engineering report in 2014 
documented that the Beaufort facility is NOT unsound.
    In their closure request the National Ocean Service understated the 
number of Beaufort Laboratory employees that would be affected and the 
effect that it would have on them. They did not account for the more 
than 40 National Marine Fisheries Service staff or the 8 staff members 
of the North Carolina National Estuarine Research Reserve, located at 
the laboratory.
    The current staffing at the Laboratory is as follows: 70 full-time 
Federal employees (39 National Marine Fisheries and 31 National Ocean 
Service staff); 32.5 contract positions (full and part time); and 6 
North Carolina National Estuarine Research Reserve System (NERRS) 
staff. While the missions of the laboratory have been increased in 
recent years, the budget of the laboratory has decreased by 
approximately 30 percent and the NOS staff has decreased by 45 
positions. NOS States that all full-time employees will be offered 
other positions so that none will lose their jobs due to the closure. 
This is of little comfort to the contract employees, some of whom have 
worked at the facility for over 10 years. It is also not true (based on 
past experience) that all of the permanent employees will be able to 
move to other locations (due to various family matters) and, therefore, 
they will lose their jobs.
    It is ironic that while the National Ocean Service, NOAA is calling 
for the closure of one of the most respected NOAA scientific 
laboratories in the country it is, at the same time, requesting an 
increase of $4 million to another center (located in a more expensive 
region and in a non coastal area) to support the same type of research 
in which the Beaufort Laboratory is a recognized leader (see budget 
summary, page 8, paragraph 1).
    In its 100 plus years the Beaufort Laboratory has established an 
extraordinary record for scientific excellence in its research in 
critical problems related to the public concern for coastal and ocean 
issues. This includes, but is not limited to, fisheries stock 
assessment (i.e. reef fish and menhaden), species distribution and life 
history, hypoxia, marine mammals and sea turtles, critical habitat 
evaluation, pollution effects (including oil spills) and harmful algal 
blooms to name a few.
    NOAA has repeatedly recognized the laboratory, research teams and 
individual researchers for the outstanding quality of their work. It is 
hard to understand why NOAA would request an increase in funding for 
research in many of the above areas in fiscal year 2015 and then 
propose to close the Beaufort Laboratory, the very laboratory best 
positioned to do this research.
    I urge you to reject the proposed closure of the NOAA Beaufort 
Laboratory. Should you have additional questions I would be more than 
happy to address them.
                                 ______
                                 
              Prepared Statement of the Innocence Project
    On behalf of the Innocence Project, thank you for allowing me to 
submit testimony to the Senate Appropriations Subcommittee on Commerce, 
Justice, Science, and Related Agencies as it considers budget requests 
for fiscal year 2015, and thank you for the subcommittee's support of 
innocence and forensic science research programs in fiscal year 2014. I 
write to request fiscal year 2015 funding for the following programs, 
please:
  --$4 million for the Wrongful Conviction Review and Capital 
        Litigation Improvement Programs (the Wrongful Conviction Review 
        Program is a part of the Capital Litigation Improvement 
        Program), at the Department of Justice (DOJ), Bureau of Justice 
        Assistance;
  --$4 million for the Kirk Bloodsworth Post-Conviction DNA Testing 
        Program (the ``Bloodsworth Program'') at the DOJ, National 
        Institute of Justice (NIJ);
  --$12 million for the Paul Coverdell Forensic Sciences Improvement 
        Grant Program (the ``Coverdell Program'') at the NIJ;
  --$6 million for the Department of Justice to support the National 
        Commission on Forensic Science; research at the National 
        Institute of Justice; and related forensic science standards 
        setting activities at the National Institute of Standards and 
        Technology (NIST);
  --$11 million for NIST to support forensic science research and 
        measurement science.
    Freeing innocent individuals and preventing wrongful convictions 
through reform greatly benefits public safety. Every time DNA 
identifies a wrongful conviction, it enables the identification of the 
real perpetrator of those crimes. True perpetrators have been 
identified in approximately half of the over 300 DNA exoneration cases. 
Unfortunately, many of these real perpetrators had gone on to commit 
additional crimes while an innocent person was convicted and 
incarcerated in their place.
    To date, 316 individuals in the United States have been exonerated 
through DNA testing, including 18 who served time on death row. These 
innocents served on average more than 13 years in prison before 
exoneration and release. However, I want to underscore the value of 
Federal innocence programs not to just these exonerated individuals, 
but also to public safety, fairness, and achieving true justice for 
victims of violent crimes. It is important to fund these critical 
innocence programs because reforms and procedures that help to prevent 
wrongful convictions enhance the accuracy of criminal investigations, 
strengthen criminal prosecutions, and result in a stronger, fairer 
system of justice that provides true justice to victims of crime.
                   wrongful conviction review program
    Particularly when DNA is not available, or when DNA alone is not 
enough to prove innocence, proving one's innocence to a level 
sufficient for exoneration is difficult compared to ``simply'' proving 
the same with DNA evidence. Innocents languishing behind bars require 
expert representation to help navigate the complex issues that 
invariably arise in their bids for post-conviction relief. And the need 
for such representation is enormous when only a small fraction of cases 
involve evidence that could be subjected to DNA testing. (For example, 
it is estimated that among murders, only 10 percent of cases have the 
kind of evidence that could be DNA tested.) Realizing the imperative 
presented by such cases, the Bureau of Justice Assistance (BJA) 
dedicated part of its Capital Litigation Improvement Program funding to 
create the Wrongful Conviction Review program.\1\ The program provides 
applicants--non-profit organizations and public defender offices 
dedicated to exonerating the innocent--with funds for providing high 
quality and efficient representation for potentially wrongfully 
convicted defendants in post-conviction claims of innocence. The 
program's goals, in addition to exonerating the innocent, are 
significant: to alleviate burdens placed on the criminal justice system 
through costly and prolonged post-conviction litigation and to 
identify, whenever possible, the actual perpetrator of the crime.
---------------------------------------------------------------------------
    \1\ Reauthorization of the Innocence Protection Act. 111th Cong., 
1st Sess., 8 (2009) (testimony of Lynn Overmann, Senior Advisor, Office 
of Justice Programs).
---------------------------------------------------------------------------
    Numerous local innocence projects have enhanced their caseloads and 
representation of innocents as a result of the Wrongful Conviction 
Review grant program, including those in Florida, Ohio, and in North 
Carolina at Duke University School of Law. The Reinvestigation Project, 
run through the Office of the Appellate Defender in New York, used 
funding that led to the exonerations of Latisha Johnson and Malisha 
Blyden and the identification of one of the real perpetrators. The 
Arizona Justice Project recently exonerated four innocent Arizonians 
who had served over a combined 100 years. The Exoneration Initiative in 
New York, cleared a backlog of hundreds of cases which allowed them to 
secure three exonerations and provided critical support that led to two 
other exonerations. The grant also helped California Innocence Project 
(CIP) free Daniel Larsen after 13 years in prison, and helped Hawaii 
Innocence Project recently secure the release of the first Native 
Hawaiian exonerated by DNA testing.
    To help continue this important work, we urge you to please provide 
a total of $4 million for the Wrongful Conviction Review and the 
Capital Litigation Improvement Programs to help bring them to parity 
with the critical Bloodsworth Program, that focuses on post-conviction 
DNA testing and cases. (The Wrongful Conviction Review Program is a 
part of the Capital Litigation Improvement Program.)
                        the bloodsworth program
    The Bloodsworth Program provides hope to innocent inmates who might 
otherwise have none by helping States more actively pursue post-
conviction DNA testing in appropriate situations. These funds have led 
to great success, and many organizational members of the national 
Innocence Network have partnered with State agencies that have received 
Bloodsworth funding.\2\
---------------------------------------------------------------------------
    \2\ The Innocence Network is an affiliation of organizations 
dedicated to providing pro bono legal and investigative services to 
individuals seeking to prove innocence of crimes for which they have 
been convicted and working to redress the causes of wrongful 
convictions.
---------------------------------------------------------------------------
    The Bloodsworth Program does not fund the work of organizations in 
the Innocence Network directly, but State applicants which seek support 
for a range of entities involved in settling innocence claims, 
including law enforcement agencies, crime laboratories, and a host of 
others--often in collaboration with each other, and with Innocence 
Network organizations. For example, a Bloodsworth grant allowed the 
Arizona Attorney General's Office to partner with the Arizona Justice 
Project to canvass the Arizona inmate population, review cases, locate 
evidence and file joint requests with the court to have evidence 
released for DNA testing. In addition to identifying the innocent, 
Arizona Attorney General Terry Goddard has noted that the ``grant 
enable[d] [his] office to support local prosecutors and ensure that 
those who have committed violent crimes are identified and behind 
bars.'' \3\ Such joint efforts have also been pursued in Connecticut, 
Louisiana, Minnesota, North Carolina, and Wisconsin.
---------------------------------------------------------------------------
    \3\ Arizona receives Federal DNA grant, http://
community.law.asu.edu/news/19167/Arizona-receives-Federal-DNA-grant.htm 
(last visited Mar. 13, 2012).
---------------------------------------------------------------------------
    The Bloodsworth program is a relatively small yet powerful 
investment for States seeking to free innocent people who were 
erroneously convicted and to identify the true perpetrators of crime. 
The program has resulted in the exonerations of 22 wrongfully convicted 
persons in 10 States, and the true perpetrator was identified in 8 of 
those cases. We ask that you please provide $4 million to continue the 
work of the Bloodsworth Post-Conviction DNA Testing Program.
                         the coverdell program
    Recognizing the need for independent government investigations in 
the wake of forensic scandals, Congress created the forensic oversight 
provisions of the Coverdell Program, a crucial step toward ensuring the 
integrity of forensic evidence. Specifically, in the Justice for All 
Act, Congress required that

        [t]o request a grant under this subchapter, a State or unit of 
        local government shall submit to the Attorney General . . . a 
        certification that a government entity exists and an 
        appropriate process is in place to conduct independent external 
        investigations into allegations of serious negligence or 
        misconduct substantially affecting the integrity of the 
        forensic results committed by employees or contractors of any 
        forensic laboratory system, medical examiner's office, 
        coroner's office, law enforcement storage facility, or medical 
        facility in the State that will receive a portion of the grant 
        amount.\4\

    The Coverdell Program provides State and local crime labs and other 
forensic facilities with much needed funding to efficiently and 
effectively carry out their work. As forensic science budgets find 
themselves on the chopping block in States and localities, the survival 
of many crime labs may depend on Coverdell funds. To both support crime 
labs and help ensure the integrity of forensic investigations in the 
wake of allegations of negligence or misconduct, we ask that you please 
provide $12 million for the Coverdell Program.
---------------------------------------------------------------------------
    \4\ 42 U.S.C. Sec. 3797k(4) (emphasis added).
---------------------------------------------------------------------------
                      forensic science improvement
    To continue the critical work to improve forensic science, and help 
prevent wrongful convictions, we request:
  --$6 million for the Department of Justice, including:
    --$1 million for the DOJ-NIST National Commission on Forensic 
            Science to continue its work.
    --$2 million for the National Institute of Justice to conduct 
            laboratory efficiency and implementation research in this 
            area.
    --$3 million to go to NIST to support technical standards 
            development in forensic science through the proposed 
            Organization of Scientific Area Committees.
  --$11 million for the National Institute of Standards and Technology 
        (NIST) at the Department of Commerce. As the sole entity that 
        is both perfectly positioned and capable of conducting 
        measurement science and foundational research in support of 
        forensic science, NIST's work will improve the validity and 
        reliability of forensic evidence, a need cited by the National 
        Academy of Sciences 2009 report, ``Strengthening Forensic 
        Science in the United States: A Path Forward.'' NIST's 
        reputation for innovation will result in technolgical solutions 
        to advance forensic science applications and achieve a 
        tremendous cost savings by reducing court costs posed by 
        litigating scientific evidence and redirecting resources to 
        identifiying the true perpetrators of crime.
     additional note on the department of justice's budget requests
    DOJ's fiscal year 2015 budget proposal, as it has in past years, 
would defund the Coverdell and Bloodsworth Programs. Zeroing out these 
programs would negatively impact the State requirements and incentives 
to prevent wrongful convictions and ensure the integrity of evidence, 
which have been critical to the advancement of State policies to 
prevent wrongful convictions. Coverdell forensic oversight requirements 
have created State entities and processes for ensuring the integrity of 
forensic evidence in the wake of scandal and are essential to ensuring 
the integrity of forensic evidence in the wake of identified acts of 
negligence or misconduct. Innocence Project recommends that Congress 
fund these two programs by name, in order to preserve their important 
incentive and performance requirements, and to help to achieve their 
goals of providing access to post-conviction DNA testing and supporting 
State and local crime labs that process a significant amount of 
forensic evidence, helping to ensure public safety.
    Thank you so much for your time and consideration of these 
important programs, and the opportunity to submit testimony. We look 
forward to working with the subcommittee this year.
                                 ______
                                 
      Prepared Statement of the Institute of Makers of Explosives
                          interest of the ime
    IME is a nonprofit association founded over century ago to provide 
accurate information and comprehensive recommendations concerning the 
safety and security of commercial explosive materials. IME represents 
U.S. manufacturers, distributors and motor carriers of commercial 
explosive materials and oxidizers as well as other companies that 
provide related services. The majority of IME members are ``small 
businesses'' as determined by the U.S. Small Business Administration.
    Millions of metric tons of high explosives, blasting agents, and 
oxidizers are consumed annually in the United States. IME member 
companies produce 99 percent of these commodities. These products are 
used in every State and are distributed worldwide. The ability to 
manufacture, distribute and use these products safely and securely is 
critical to this industry.
    Commercial explosives are highly regulated by a myriad of Federal 
and State agencies. ATF plays a predominant role in assuring that 
explosives are identified, tracked, purchased, and stored only by 
authorized persons. We offer the following comments to give perspective 
about the need to ensure that ATF has sufficient funds to carry out its 
mission to ensure that commercial explosives are not misappropriated 
for criminal or terrorist purposes.
                  atf's explosives regulatory program
    The administration's fiscal year 2015 budget request envisions a 
current services appropriation for explosives industry operations. We 
understand the current pressure to reduce the Federal budget deficit 
and the shared sacrifice that all segments of the Government are being 
asked to make to help the economy recover. We also understand the 
public attention to other programmatic responsibilities of ATF, and the 
attendant pressure to divert resources to these responsibilities. 
However, the success of the Bureau's explosives industry programs in 
preventing the misappropriation of commercial explosives should not be 
used against us. ATF needs to retain a cadre of trained personnel to 
perform services needed by our industry. The commerce of explosives is 
so closely regulated that failure to provide adequate personnel and 
resources hurts our industry, our customers, and the U.S. economy.
    By law, ATF must inspect over 11,000 explosives licensees and 
permittees at least once every 3 years and conduct background checks of 
so-called ``employee possessors'' of explosives and ``responsible 
persons.'' \1\ ATF estimates that the requirement to inspect 100%of the 
licensees and permittees within their 3-year license/permit cycle 
consumes between 25 percent and 41 percent of available inspector 
resources per year.
---------------------------------------------------------------------------
    \1\ Fiscal year 2015 ATF Budget Submission, page 15.
---------------------------------------------------------------------------
    Unfortunately, ATF's fiscal year 2015 budget submission does not 
provide retrospective workload indicators such as the number of 
compliance inspections that were accomplished, the number of public 
safety violations, and what those violations were in fiscal year 2013. 
This data have been provided in prior budget submissions. In fiscal 
year 2014, ATF reported that, during fiscal year 2012, it:
  --Conducted 5,390 explosives licensee and permittee compliance 
        inspections that identified and corrected 1,528 public safety 
        violations;
  --Completed 1,249 Federal Explosive License (FEL) applicant 
        inspections;
  --Processed 4,222 FEL applications (new & renewal);
  --Completed 77,965 explosives employee/possessor background checks; 
        and
  --Completed 12,188 explosives responsible persons background 
        checks.\2\
---------------------------------------------------------------------------
    \2\ Fiscal year 2014 ATF Budget Submission, page 26.
---------------------------------------------------------------------------
    We are certain that the subcommittee appreciates the need for 
annual reporting of these workload indicators to establish trend-lines 
that may point to new resource needs or reallocation and whether or not 
new safety concerns are being recognized. For example, we are very 
interested in understanding what public safety violations were found in 
past inspections. This data helps us to determine whether we need to 
enhance our industry best practices. Looking at ATF's fiscal year 2013 
and 2014 budget submissions, the Bureau identified 1,392 public safety 
violations during fiscal year 2011,\3\ and, as noted above, during 
fiscal year 2012, this number rose to 1,528. The subcommittee should 
direct ATF to consistently report this data in future budget 
submissions.
---------------------------------------------------------------------------
    \3\ Fiscal year 2013 ATF Budget Submission, page 42.
---------------------------------------------------------------------------
    ATF did report that, in 2011, it met its statutory responsibilities 
95.8 percent of the time, and in 2012, 105.7 percent of the time. 
However, in 2013, this performance rate fell to 88.2 percent. With the 
budget agreement enacted earlier this year, ATF estimates that its 
productivity will increase to 92 percent in 2014 and has set a target 
of 94 percent in 2015, which, while it represents an improvement over 
the 2013 number, is still not optimum.\4\ When ATF is unable to meet 
its responsibilities, there are adverse impacts on our industry. 
Without approved licenses and permits from ATF, our industry cannot 
conduct business. Delays in servicing our needs may lead to disruptions 
in other segments of the economy that are dependent on the products and 
materials we provide.
---------------------------------------------------------------------------
    \4\ Fiscal year 2015 ATF Budget Submission, page 18.
---------------------------------------------------------------------------
    One key workload indicator is the number of background checks 
performed. One component of this investigation is determining whether 
any of our employees have terrorist ties. To make that determination, 
ATF submits names to the FBI to be run against the Terrorist Screening 
Database (TSDB). Currently, ATF does not follow the common practice of 
other Federal agencies with vetting programs that re-vet names at will. 
Rather, the agency runs the names in association with applications for 
new or renewal of ``FELs'' or Federal explosives permits. Because ATF 
does not re-vet names when information on the TSDB changes, ATF's 
program is not deemed equivalent to the vetting and clearance 
procedures used by other agencies. Harmonizing ATF's procedures with 
those used by these other programs will allow ATF's vetting program to 
be reciprocally recognized by these programs. This outcome would add 
intelligence value to all Government vetting programs sharing the same 
platform, and provide savings to the Federal Government and the 
regulated community. We urge the subcommittee to encourage ATF to 
enhance its vetting procedures.
    As the subcommittee considers ATF's budget request, we ask that the 
Bureau's ability to perform its regulatory oversight of the explosives 
industry in a timely fashion not be compromised in the push for fiscal 
discipline and that it be given the resources to preform to current 
state-of-the-art oversight practices.
                       atf's regulatory workload
    Since 2003 when ATF was transferred to the Department of Justice, 
the agency has issued eight rulemakings of importance to IME, including 
two which were interim final rules. It has finalized three, withdrawn 
two, merged two, and docketed but not published three. Of the four 
rulemakings still pending, one is an interim final rule which dates to 
2003. In the absence of a process to ensure timely rulemaking that is 
capable of keeping up with new developments and safety practices, 
industry must rely on interpretive guidance and variances based on 
outdated requirements in order to conduct business. While we greatly 
appreciate ATF's accommodations, these stop-gap measures do not afford 
the surety, continuity and protections that rulemaking would provide 
the regulated community, nor do they allow the oversight necessary to 
ensure that all parties are being held to the same standard of 
compliance. These regulatory tasks are critical to the lawful conduct 
of the commercial enterprises that the Bureau controls. ATF should be 
provided the resources needed to make timely progress in this area.
    ATF is also a key member of the Interagency Working Group (IWG) 
convened under Executive Order (EO) 13650.\5\ The EO tasked the IWG 
with identifying options to improve chemical security and safety after 
the tragic accidental explosion in West, TX as well as other recent 
industrial chemical accidents. Earlier this year, the IWG presented 
options for stakeholder comment.\6\ Among these options, several 
pertain to ATF.
---------------------------------------------------------------------------
    \5\ http://www.whitehouse.gov/the-press-office/2013/08/01/
executive-order-improving-chemical-facility-safety-and-security.
    \6\ https://www.osha.gov/chemicalexecutiveorder/
Section_6ai_Options_List.html.
---------------------------------------------------------------------------
  --ATF asks whether it should close the regulatory gap surrounding 
        black and smokeless powder. An examination of information from 
        the Bomb Data Center (BDC) on the type and frequency of fillers 
        used in bombings and attempted bombings supports closing this 
        regulatory gap. It makes little sense to impose stringent 
        controls on the explosives industry only to allow a consumer 
        exemption that can be exploited by those with criminal or 
        terrorist intent.
  --The IWG also asks about updating its regulatory requirements for 
        physical security at magazines. IME supports ATF's 
        consideration of the adequacy of current locking standards,\7\ 
        and supports the development of a rule on magazine key control. 
        IME is ready to assist in any other research projects to help 
        achieve our common goal of ensuring magazine integrity and 
        security.
---------------------------------------------------------------------------
    \7\ A study on this topic was conducted by an IME member company, 
and the results were reported at an IME meeting where ATF officials 
were in attendance.
---------------------------------------------------------------------------
  --The EO also directs ATF to determine the feasibility of sharing 
        information with States and localities. While we oppose the 
        sharing of security-sensitive information about explosives in 
        public forums, we do support enhancing communications with 
        local emergency responders. Specifically, we support annual FEL 
        reporting to local fire safety authorities of the type, 
        capacity, and location of magazines where explosives are 
        stored. Current rules require a one-time notification.\8\
---------------------------------------------------------------------------
    \8\ 27 CFR 555.210(f).
---------------------------------------------------------------------------
    Each of these options, if pursued, would add to ATF's regulatory 
workload. ATF should have the resources to keep its regulations up to 
date.
                        atf-industry partnership
    The BDC is the sole repository for explosives-related incident 
data, and contains information on thousands of explosives incidents 
investigated by ATF and other Federal, State, and local law enforcement 
agencies. While this data helps government entities to perform trend 
analysis and to compare incidents for similarities and crime 
methodologies, BDC data also helps our efforts to refresh and update 
best practice recommendations. Until 2006, this data was routinely 
provided to industry stakeholders. We are pleased that after an 8-year 
hiatus, ATF has again provided the regulated community with key data on 
bomb and improvised device fillers, as well as information on thefts, 
losses and recoveries categorized by the type and amount of explosives 
involved. The data also indicates the point in the supply chain where 
the reported thefts and losses occurred. ATF has committed to releasing 
this data on an annual basis and it needs the resources to continue 
this important service.
    Explosives manufacturers and importers are required to mark 
products with codes to aid domestic and foreign law enforcement 
agencies in tracing these materials if they are lost or stolen. 
Explosives manufacturers and importers and others in the global supply 
chain cooperate in tracing efforts. However, various government 
entities are imposing their own unique system of identification marks 
without reciprocally recognizing each other's marks. These redundant 
and competing marks are creating non-tariff barriers to trade. We have 
petitioned the United Nations to help develop a harmonized marking 
scheme and expect this issue to be considered by the international 
community at meetings in July 2014. We have asked ATF to join with us 
in working to harmonize a global marking standard.
    Since 2003, ATF, with our support, has required background checks 
of persons authorized to possess explosives. While, as noted above, 
this background check includes vetting against the TSDB, being named on 
the database does not disqualify individuals from possessing 
explosives. We think this is an oversight. The late-Senator Frank 
Lautenberg and Representative Peter King introduced legislation, S. 34 
and H.R. 720, respectively, to close this glaring security gap in the 
Federal explosives law. This legislative change, advocated by both 
Presidents Bush and Obama, will better harmonize the vetting and 
clearance procedures used by the ATF with other government agencies 
that perform security threat assessments of individuals seeking to 
engage in security-sensitive activities. As these standards are 
harmonized, opportunities to leverage other vetting programs and 
security credentials increase. This outcome would add intelligence 
value to all government vetting programs sharing the same platform, and 
provide savings to the Federal Government and the regulated community.
    Each of these collaborative initiatives requires resources. We 
request that ATF be given the requisite funds to advance these 
initiatives.
                           industry standards
    We take seriously the statutory obligation that ATF take into 
account industry's standards of safety when issuing rules and 
requirements.\9\ We continue to fulfill this obligation through our 
development of industry best practices for safety and security, 
membership in relevant standard-setting organizations, and active 
participation in forums for training. We have offered to ATF 
recommendations that we believe will enhance safety and security 
through our participation in the rulemaking process, in the Bureau's 
important research efforts, and in other standard-setting activities.
---------------------------------------------------------------------------
    \9\ 18 U.S.C. 842(j).
---------------------------------------------------------------------------
    In this regard, IME has spent years developing a credible 
alternative to strict interpretation of quantity distance tables used 
to determine explosives setback distances. IME continues to collaborate 
in this effort with the Department of Defense Explosives Safety Board 
as well as Canadian and U.S. regulatory agencies, including ATF. The 
result is a windows-based computer model for assessing the risk from a 
variety of commercial explosives activities called IMESAFR.\10\ ATF and 
other regulatory agencies recognize the value of IMESAFR and have 
participated in development meetings for Version 2.0. ATF is also 
evaluating existing licensed locations with this risk-based approach 
and has agreed to accept variance requests based on IMESAFR 
evaluations. These efforts are vital if ATF is to remain at the 
forefront of technologies designed to safeguard the public. We strongly 
encourage ATF's continued support of this project. The benefits of 
risk-based modeling should continue to be recognized by ATF and 
resources should be provided to develop policies that allow the use of 
such models to meet regulatory mandates.
---------------------------------------------------------------------------
    \10\ IMESAFR was built on the DDESB's software model, SAFER. The 
DDESB currently uses SAFER and table-of-distance methods to approve or 
disapprove Department of Defense explosives activities. Not only can 
IMESAFR determine the amount of risk presented, but it can also 
determine what factors drive the overall risk and what actions would 
lower risk, if necessary. The probability of events for the activities 
were based on the last 20 years of experience in the U.S. and Canada 
and can be adjusted to account for different explosive sensitivities, 
additional security threats, and other factors that increase or 
decrease the base value.
---------------------------------------------------------------------------
                               conclusion
    The manufacture and distribution of explosives is accomplished with 
a remarkable degree of safety and security. We recognize the critical 
role ATF plays in helping our industry achieve and maintain safe and 
secure workplaces. Industry and the public are dependent on ATF having 
adequate resources to fulfill its regulatory responsibilities. It is up 
to Congress and, in particular, this subcommittee to ensure that ATF 
has the resources it needs. We strongly recommend full funding for 
ATF's explosives program.
                                 ______
                                 
   Prepared Statement of Daniel Jensen, Morehead City, North Carolina
    I am writing to specifically discuss the proposed closure of the 
National Oceanic and Atmospheric Administration (NOAA) Beaufort 
Laboratory located in Beaufort, North Carolina. The lab is part of the 
Department of Commerce, National Oceanic and Atmospheric Administration 
and houses employees of the National Marine Fisheries Service (NMFS), 
National Ocean Service (NOS), and National Estuarine Research Reserve 
(NERR).
    I urge the proposed closure of NOAA's Beaufort Laboratory be 
removed from the NOS budget. Currently, the lab houses 108 employees 
from NMFS, NOS, and NERR. The costs associated with upkeep and 
maintenance of the lab were inaccurate and outdated in the NOAA 
explanation of budgetary items. There were mistakes in the number of 
employees at the facility and incorrect calculations used to detail the 
budget item. In the past several years, several activities have been 
completed to keep the facility in good working condition including the 
replacement of the administration building and maintenance building, 
replacement of the bridge to the facility, seawall repair, improvements 
to the air conditioning, and other improvements, which totaled 
approximately $14 million. Finally, an updated engineering report 
(2014) documents that the facility is NOT structurally unsound.
    Closing the Beaufort Lab would be a tragedy. The Beaufort Lab is a 
stalwart of fisheries and oceanic science that has produced many well 
known scientists. The Beaufort Lab has a good reputation for advancing 
science in population dynamics and stock assessments; Gulf and Atlantic 
menhaden biology, movement, and assessments; harmful algal blooms; 
hypoxia; pathogens; and snapper and grouper species. NOAA has 
repeatedly recognized individual researchers, research teams, and the 
Laboratory as a whole for the outstanding quality of scientific work 
completed. Several of the area fisheries labs have located in Beaufort 
due to the NOAA lab including Duke Marine Lab, North Carolina Division 
of Marine Fisheries, the Center for Marine Sciences and Technology 
(CMAST), and the Institute of Marine Science. The NOAA Beaufort 
Laboratory is the center of productive fisheries science informing 
fisheries management for the Atlantic and Gulf coasts and is currently 
the only NMFS lab between Sandy Hook, New Jersey, and Miami, Florida.
    Specific items of note from each line office include:
                                  nmfs
Stock Assessment Science
  --The NOAA Beaufort Laboratory provides the stock assessment science 
        that determines how many fish can be caught in the southeast 
        United States.

    The stock assessment science of the NOAA Beaufort Laboratory 
focuses on marine fish populations that are ecologically and 
economically vital to the region and Nation, including snapper-grouper 
and pelagic species managed by the South Atlantic Fishery Management 
Council, Atlantic menhaden managed by the Atlantic States Marine 
Fisheries Commission, and Gulf menhaden managed by the Gulf States 
Marine Fisheries Commission. Commercial landings from the South 
Atlantic have been valued at $176.5 million, supporting a centuries-old 
cultural way of life, and saltwater recreational fishing in this region 
tops the Nation for its economic impact on sales and jobs (East Florida 
and North Carolina generate $5.3 billion and 47,000 jobs). Atlantic 
menhaden support the largest fishery on the U.S. east coast, and Gulf 
menhaden support the largest fishery in the Gulf of Mexico, with a 
combined value of $127.7 million.
Fishery-Independent Surveys
  --Fishery-independent surveys collect data on fish populations for 
        stock assessments and research, using standardized sampling 
        gears and methodologies.

    The Southeast Fishery-Independent Survey (SEFIS), run out of the 
NOAA Beaufort lab, collects annual information on the abundance, 
distribution, sizes, and ages of economically-important reef fish 
species like groupers and snappers on the U.S. East Coast between North 
Carolina and Florida. Using fish traps and underwater video, SEFIS 
determines whether reef fish species are increasing or decreasing in 
abundance so fish stocks can be managed with much greater certainty. 
The SEFIS staff has developed a close working relationship with 
fishermen in the Carolinas due to their co location in Beaufort, North 
Carolina. NOAA's Beaufort Lab is ideally situated, centered in the 
middle of substantial commercial and recreational fishing industries 
and a thriving marine science community. If the SEFIS staff was forced 
to move out of their survey region, ties with the fishing industry and 
the marine science community would be effectively severed, ultimately 
resulting in a significant disconnect between the National Marine 
Fisheries Service and the communities to which they serve.
                                  nerr
    Impacts of Closure to the Reserve-Strategic Location and Facility 
for the Reserve:

  --North Carolina Coastal Reserve and National Estuarine Research 
        Reserve staff (7) are currently located at the NOAA Beaufort 
        Lab, which serves as the headquarters office for the program.
  --In 2002, Congress provided NOAA with ``. . .  $5,000,000 for the 
        Beaufort Laboratory for necessary repairs to existing 
        facilities and to construct a joint laboratory, dock, and other 
        facilities in collaboration with the Rachel Carson National 
        Estuarine Research Reserve.'' (Public Law 107-77, See S.Rept. 
        107-42, p. 106-108.) $1.32 million was invested in NOAA ($1.28 
        million) and State funds ($42,046) for the construction of a 
        joint building at the NOAA Beaufort Lab to serve the Reserve's 
        mission.
  --The joint building was completed in 2007 and was constructed 
        specifically with the Reserve's education programs in mind: the 
        auditorium regularly hosts coastal training program workshops 
        and the teaching classroom hosts school groups, teacher 
        workshops, field trips, and lectures to support K-12 Estuarine 
        Education Program activities.
  --The NOAA Beaufort Lab is a 5-minute boat ride from the Rachel 
        Carson component of the Reserve; this close proximity is 
        essential for conducting Reserve activities efficiently to 
        conduct mission-critical programming including educational 
        programs, water quality and habitat monitoring and research 
        programs, and stewardship of the site including species 
        monitoring, debris clean-ups, feral horse management, and 
        access point maintenance.
Reserve Activities at the NOAA Beaufort Lab, 2008-2013
            Education
                  K-12 field trips
              --177 educational programs
              --4947 participants
                  Teacher workshops
              --28 teacher workshops
              --412 participants
                  Summer camps
              --109 camp sessions
              --921 participants
                  Summer public field trips
              --96 field trips
              --1123 participants
            Stewardship
                  Volunteer service at the Rachel Carson Reserve
              --1170 volunteers
              --2873 volunteer hours
                  Site management
              -- The NOAA Beaufort Lab provides an ideal base from 
            which to manage the Rachel Carson Reserve due to its close 
            proximity to the Reserve site, location on calm inland 
            waters, and boat launching facilities. Additionally, many 
            NOAA staff conduct or have conducted research at the Rachel 
            Carson Reserve and are able to provide professional 
            perspectives that are valuable to Reserve research and 
            management.
            Research
                  Research permits
              -- 31 research permits issued for research conducted at 
            the Rachel Carson Reserve
                  Water quality monitoring
              -- Water quality inventory and monitoring stations at 
            Middle Marsh and Shackleford Banks, in partnership with the 
            National Park Service
            Coastal Training Program
                  Coastal Training Program workshops
              --31 workshops
              --1076 participants
                                  nos
    NOAA's HAB program was initiated at the Beaufort Laboratory from 
the work conducted in North Carolina in 1987 during the ``red tide'' 
that affected the central coast for more than 6 months. The Beaufort 
Lab continues to provide essential research and field data that inform 
Ecological Forecasting of HABs in Alaska, North Carolina, Florida, 
Guantanamo Bay, Cuba, Bay of Fundy, Gulf of Maine, Gulf of Mexico, and 
the Caribbean. Additionally, Beaufort Laboratory staff were recognized 
for conducting award winning science in elucidating the life history of 
Pfiesteria, a HAB species that inhabits estuaries and river systems up 
and down the eastern seaboard. The threat of Pfiesteria caused economic 
damages of $35 million a month to the seafood industry following 
publicity of local fish kills. Beaufort laboratory staff provided 
expertise and knowledge to local and State resource managers and 
University partners to educate the public about the real facts 
concerning Pfiesteria and the safety of their seafood. Beaufort staff 
have continued to provide their expertise and knowledge to the North 
Carolina River Keeper Alliance and North Carolina Department of Natural 
Resources, Division of Water Quality when fish kill events have 
occurred in local estuaries. This has helped to alleviate public 
anxiety regarding seafood safety.
    In conclusion, closure of the NOAA Beaufort Laboratory would be a 
poor choice scientifically, economically, and would leave a large part 
of the east coast without the science that they deserve. The numbers 
used to estimate the costs of maintaining the facility in good working 
order were incorrectly estimated and inaccurate numbers of current 
employees were provided for the budget. In addition, the Federal 
Government has invested in this laboratory over the long-term, and to 
close it now would be a gross misuse of Government resources.
                                 ______
                                 
   Prepared Statement of Nancy Jensen, Morehead City, North Carolina
    I am writing to specifically discuss the proposed closure of the 
National Oceanic and Atmospheric Administration (NOAA) Beaufort 
Laboratory located in Beaufort, North Carolina. The lab is part of the 
Department of Commerce, National Oceanic and Atmospheric Administration 
and houses employees of the National Marine Fisheries Service (NMFS), 
National Ocean Service (NOS), and National Estuarine Research Reserve 
(NERR).
    I urge the proposed closure of NOAA's Beaufort Laboratory be 
removed from the NOS budget. Currently, the lab houses 108 employees 
from NMFS, NOS, and NERR. The costs associated with upkeep and 
maintenance of the lab were inaccurate and outdated in the NOAA 
explanation of budgetary items. There were mistakes in the number of 
employees at the facility and incorrect calculations used to detail the 
budget item. In the past several years, several activities have been 
completed to keep the facility in good working condition including the 
replacement of the administration building and maintenance building, 
replacement of the bridge to the facility, seawall repair, improvements 
to the air conditioning, and other improvements, which totaled 
approximately $14 million. Finally, an updated engineering report 
(2014) documents that the facility is NOT structurally unsound.
    Closing the Beaufort Lab would be a tragedy. The Beaufort Lab is a 
stalwart of fisheries and oceanic science that has produced many well 
known scientists. The Beaufort Lab has a good reputation for advancing 
science in population dynamics and stock assessments; Gulf and Atlantic 
menhaden biology, movement, and assessments; harmful algal blooms; 
hypoxia; pathogens; and snapper and grouper species. NOAA has 
repeatedly recognized individual researchers, research teams, and the 
Laboratory as a whole for the outstanding quality of scientific work 
completed. Several of the area fisheries labs have located in Beaufort 
due to the NOAA lab including Duke Marine Lab, North Carolina Division 
of Marine Fisheries, the Center for Marine Sciences and Technology 
(CMAST), and the Institute of Marine Science. The NOAA Beaufort 
Laboratory is the center of productive fisheries science informing 
fisheries management for the Atlantic and Gulf coasts and is currently 
the only NMFS lab between Sandy Hook, New Jersey, and Miami, Florida.
    Specific items of note from each line office include:
                                  nmfs
Stock Assessment Science
  --The NOAA Beaufort Laboratory provides the stock assessment science 
        that determines how many fish can be caught in the southeast 
        United States.

    The stock assessment science of the NOAA Beaufort Laboratory 
focuses on marine fish populations that are ecologically and 
economically vital to the region and Nation, including snapper-grouper 
and pelagic species managed by the South Atlantic Fishery Management 
Council, Atlantic menhaden managed by the Atlantic States Marine 
Fisheries Commission, and Gulf menhaden managed by the Gulf States 
Marine Fisheries Commission. Commercial landings from the South 
Atlantic have been valued at $176.5 million, supporting a centuries-old 
cultural way of life, and saltwater recreational fishing in this region 
tops the Nation for its economic impact on sales and jobs (East Florida 
and North Carolina generate $5.3 billion and 47,000 jobs). Atlantic 
menhaden support the largest fishery on the U.S. east coast, and Gulf 
menhaden support the largest fishery in the Gulf of Mexico, with a 
combined value of $127.7 million.
Fishery-Independent Surveys
  --Fishery-independent surveys collect data on fish populations for 
        stock assessments and research, using standardized sampling 
        gears and methodologies.

    The Southeast Fishery-Independent Survey (SEFIS), run out of the 
NOAA Beaufort lab, collects annual information on the abundance, 
distribution, sizes, and ages of economically-important reef fish 
species like groupers and snappers on the U.S. East Coast between North 
Carolina and Florida. Using fish traps and underwater video, SEFIS 
determines whether reef fish species are increasing or decreasing in 
abundance so fish stocks can be managed with much greater certainty. 
The SEFIS staff has developed a close working relationship with 
fishermen in the Carolinas due to their co location in Beaufort, North 
Carolina. NOAA's Beaufort Lab is ideally situated, centered in the 
middle of substantial commercial and recreational fishing industries 
and a thriving marine science community. If the SEFIS staff was forced 
to move out of their survey region, ties with the fishing industry and 
the marine science community would be effectively severed, ultimately 
resulting in a significant disconnect between the National Marine 
Fisheries Service and the communities to which they serve.
                                  nerr
    Impacts of Closure to the Reserve-Strategic Location and Facility 
for the Reserve:

  --North Carolina Coastal Reserve and National Estuarine Research 
        Reserve staff (7) are currently located at the NOAA Beaufort 
        Lab, which serves as the headquarters office for the program.
  --In 2002, Congress provided NOAA with ``. . .  $5,000,000 for the 
        Beaufort Laboratory for necessary repairs to existing 
        facilities and to construct a joint laboratory, dock, and other 
        facilities in collaboration with the Rachel Carson National 
        Estuarine Research Reserve.'' (Public Law 107-77, See S.Rept. 
        107-42, p. 106-108.) $1.32 million was invested in NOAA ($1.28 
        million) and State funds ($42,046) for the construction of a 
        joint building at the NOAA Beaufort Lab to serve the Reserve's 
        mission.
  --The joint building was completed in 2007 and was constructed 
        specifically with the Reserve's education programs in mind: the 
        auditorium regularly hosts coastal training program workshops 
        and the teaching classroom hosts school groups, teacher 
        workshops, field trips, and lectures to support K-12 Estuarine 
        Education Program activities.
  --The NOAA Beaufort Lab is a 5-minute boat ride from the Rachel 
        Carson component of the Reserve; this close proximity is 
        essential for conducting Reserve activities efficiently to 
        conduct mission-critical programming including educational 
        programs, water quality and habitat monitoring and research 
        programs, and stewardship of the site including species 
        monitoring, debris clean-ups, feral horse management, and 
        access point maintenance.
Reserve Activities at the NOAA Beaufort Lab, 2008-2013
            Education
                  K-12 field trips
              -- 177 educational programs
              -- 4947 participants
                  Teacher workshops
              -- 28 teacher workshops
              -- 412 participants
                  Summer camps
              -- 109 camp sessions
              -- 921 participants
                  Summer public field trips
              -- 96 field trips
              -- 1123 participants
            Stewardship
                  Volunteer service at the Rachel Carson Reserve
              -- 1170 volunteers
              -- 2873 volunteer hours
                  Site management
              -- The NOAA Beaufort Lab provides an ideal base from 
            which to manage the Rachel Carson Reserve due to its close 
            proximity to the Reserve site, location on calm inland 
            waters, and boat launching facilities. Additionally, many 
            NOAA staff conduct or have conducted research at the Rachel 
            Carson Reserve and are able to provide professional 
            perspectives that are valuable to Reserve research and 
            management.
            Research
                  Research permits
              -- 31 research permits issued for research conducted at 
            the Rachel Carson Reserve
                  Water quality monitoring
              -- Water quality inventory and monitoring stations at 
            Middle Marsh and Shackleford Banks, in partnership with the 
            National Park Service
            Coastal Training Program
                  Coastal Training Program workshops
              -- 31 workshops
              -- 1076 participants
                                  nos
    NOAA's HAB program was initiated at the Beaufort Laboratory from 
the work conducted in North Carolina in 1987 during the ``red tide'' 
that affected the central coast for more than 6 months. The Beaufort 
Lab continues to provide essential research and field data that inform 
Ecological Forecasting of HABs in Alaska, North Carolina, Florida, 
Guantanamo Bay, Cuba, Bay of Fundy, Gulf of Maine, Gulf of Mexico, and 
the Caribbean. Additionally, Beaufort Laboratory staff were recognized 
for conducting award winning science in elucidating the life history of 
Pfiesteria, a HAB species that inhabits estuaries and river systems up 
and down the eastern seaboard. The threat of Pfiesteria caused economic 
damages of $35 million a month to the seafood industry following 
publicity of local fish kills. Beaufort laboratory staff provided 
expertise and knowledge to local and State resource managers and 
University partners to educate the public about the real facts 
concerning Pfiesteria and the safety of their seafood. Beaufort staff 
have continued to provide their expertise and knowledge to the North 
Carolina River Keeper Alliance and North Carolina Department of Natural 
Resources, Division of Water Quality when fish kill events have 
occurred in local estuaries. This has helped to alleviate public 
anxiety regarding seafood safety.
    In conclusion, closure of the NOAA Beaufort Laboratory would be a 
poor choice scientifically, economically, and would leave a large part 
of the east coast without the science that they deserve. The numbers 
used to estimate the costs of maintaining the facility in good working 
order were incorrectly estimated and inaccurate numbers of current 
employees were provided for the budget. In addition, the Federal 
Government has invested in this laboratory over the long-term, and to 
close it now would be a gross misuse of Government resources.
                                 ______
                                 
Prepared Statement of Dr. David F. Johnson, Former Director of the NOAA 
                     Beaufort Laboratory (Retired)
    Testimony.--My statement is submitted in strong and direct 
opposition to the closure of the National Oceanic and Atmospheric 
Administration (NOAA) marine science laboratory located in Beaufort, 
North Carolina, as is presently proposed in the President's fiscal year 
2015 Budget for:

  --NOAA
  --National Ocean Service (NOS)
  --Coastal Science, Assessment, Response and Restoration:
    --National Centers for Coastal Ocean Science (NCCOS), (NOAA Blue 
            Book, page 8), the cost is not specified in the Budget 
            document.

    The recommendation to close this laboratory is based on dated and 
faulty information, and has not been well justified in the 
administration's budget. I respectfully request this subcommittee to 
consider:

  --directing NOAA's National Ocean Service to withdraw the request for 
        closure of the Beaufort Laboratory, and
  --prevent the National Ocean Service from withdrawing support, 
        leading to an operational failure of the Laboratory.

    The balance of my statement will provide greater detail and 
justification for this position.
    The Beaufort Laboratory (the formal name is the NOAA, NOS, Center 
for Coastal Fisheries and Habitat Research located in Beaufort, North 
Carolina) is the second oldest Federal marine laboratory in the U.S., 
founded in 1899. This national laboratory is a prime location for 
marine science and provides the only Federal access to the most diverse 
marine ecosystem in the U.S. Within a short distance of the Beaufort 
Laboratory, ecological communities can be accessed which represent the 
northern extent of southern species and the southern extent of northern 
species. Offshore and adjacent to the Gulf Stream are reef communities 
representative of tropical environments. This location provides access 
to a ready supply of clean, high salinity, seawater which is so 
essential to marine cultures. In addition, this location provides ship 
access through a deep water inlet. I submit this location is an asset 
which should not be abandoned by NOAA.
    In the budget request, the National Ocean Service proposes ``to 
reduce its physical footprint and fixed costs by closing the Beaufort 
North Carolina laboratory''. A NOAA spokeswoman in Maryland, Ciaran 
Clayton (Director of Communications and External Affairs), was quoted 
in our local newspaper: ``this aging facility requires infrastructure 
repairs and improvements exceeding agency budget resources. . . .'' In 
subsequent discussions and clarifications for this budget, it seems 
this argument forms the basis for the requested closure. This argument 
is based on outdated information. A recent engineering survey indicates 
some previously reported structural concerns were minor and easily 
addressed without major cost. Please also be informed NOAA has been 
slowly upgrading the facility. In recent years, NOAA has provided 
approximately $14.5 million in infrastructure improvements, including 
three new buildings and a new bridge. In fact, NOAA just initiated a 
new construction project at the Beaufort Laboratory with more than a 
million dollars in funding. Under these present circumstances, closure 
would be a waste of recent Federal funding.
    The proposal for closure was revealed to the Laboratory's partners 
and public with the release of the President's budget for 2015. This 
was a surprise to the National Marine Fisheries Service (NMFS), NERRS 
and contract partners using the facility, and the many State and 
academic partners involved in joint scientific efforts. I am unaware of 
formal efforts to evaluate the costs and impacts of such a closure on 
these many partner organizations. The loss of the ongoing activities at 
the Laboratory and the disruption to partner activities will have 
effects which will ripple across numerous agencies and programs. This 
lack of evaluation seems programmatically and scientifically 
irresponsible.
    The Beaufort Laboratory has a long and extraordinary record for 
scientific excellence. The laboratory employs a number of 
internationally and nationally known scientists, who are providing 
support essential to international, U.S., and North Carolina issues. 
Without this ongoing support, NOAA programs like Harmful Algal Blooms, 
ecosystem forecasting and invasive species (lionfish) will be severely 
impacted. NMFS programs which, among others, represent management and 
recovery of key commercial species (snapper, grouper, menhaden) will be 
disrupted. The pioneering and essential work of these research teams 
(composed of leading scientists, junior scientists, technicians and 
essential support staff) will be terminated with the dissolution or 
dispersal of the teams. I am unaware of any NOAA efforts to evaluate 
the impacts to the many scientific programs through the loss of this 
scientific prestige.
    The local community will be severely impacted. The laboratory 
provides jobs for 108 people who include not only NOAA, but also State 
and private partners. Beaufort is a small community which would be 
heavily impacted by the economic losses associated with these jobs, and 
those of related family members. I am unaware of any analysis of the 
economic impacts to the community.
    The large Government investment in scientific equipment would be 
underutilized or wasted. The laboratory contains a large and diverse 
array of scientific equipment which cannot be maintained or effectively 
used with closure, or the loss of highly specialized support staff. I 
am unaware of any evaluation of the disposition of this equipment and 
the support requirements.
    The cost to provide laboratory and office space at Beaufort is 
cheaper than most areas of the United States. With tightening budgets, 
it would seem to make more sense to relocate employees to Beaufort. 
From this location, NOAA scientists would have access to facilities, 
equipment and ecosystems which are unavailable where many NOAA 
scientists are presently located.
    In summary, this proposal is ill conceived and not supported by any 
reasonable evaluation of the circumstances. I urge your subcommittee to 
oppose the closure of the Beaufort Laboratory.
                                 ______
                                 
      Prepared Statement of the Joint Ocean Commission Initiative
    Chairwoman Mikulski, Ranking Member Shelby, and other distinguished 
Members of the Subcommittee on Commerce, Justice, Science, and Related 
Agencies, we thank you for the opportunity to submit written testimony 
regarding the fiscal year 2015 Commerce, Justice, Science, and Related 
Agencies appropriations bill.
    The Joint Ocean Commission Initiative, a collaborative, bipartisan 
effort to catalyze ocean policy reform, urges incremental but 
significant increases for programs necessary to understand, protect, 
and restore our oceans and coasts, so vital to our Nation's economy and 
security. In particular we ask you to continue the progress made in the 
President's fiscal year 2015 budget request and provide $5.6 billion 
for NOAA to protect those core programs that sustain our oceans.
    We greatly appreciate your strong support of ocean and coastal 
issues over many years, and we understand the difficult choices made 
each year regarding scarce resources to address critically important 
issues under your jurisdiction. Our written testimony covers the 
following issues: coastal resilience; ocean observations; ocean 
acidification; STEM consolidation; ocean exploration; science, 
research, and education; and the Arctic.
                           coastal resilience
    The Joint Initiative strongly supports the Regional Coastal 
Resilience Grant program in NOAA's fiscal year 2015 budget, and we ask 
that you consider funding this program at $10 million, a $5 million 
increase from the President's fiscal year 2015 proposal. This program 
can provide competitive funding to support multi-State regional ocean 
partnerships that coordinate data sharing and decisionmaking across 
jurisdictions, implement innovative solutions to shared priorities, and 
effectively engage ocean and coastal stakeholders.
    These partnerships are critical as coastal States and communities 
confront challenges such as ocean acidification, sea level rise, 
growing ocean uses, burgeoning populations, and increasing threats from 
extreme weather events. Resilient coastal communities are not only able 
to minimize loss and negative impacts to life, property, and the 
coastal ecosystem, they are also able to quickly return residents to 
productive activities and restore essential services. This is 
imperative to facilitating full and timely economic, social, and 
environmental recovery. Recognizing the importance of regional 
solutions, Governors have already joined together to share information 
and coordinate with Federal agencies, businesses, nongovernmental 
organizations, and local governments to better adapt to changes 
underway in our oceans and on our coasts.
    Funding the Regional Coastal Resilience Grant program at $10 
million will still only address a small fraction of the demand, but it 
will enable partnerships to more efficiently apply limited resources to 
ensure the health of our oceans and coasts.
                      sustained ocean observations
    Sustained observations are vitally important to ensure coastal 
communities have the information necessary to increase overall 
resiliency. NOAA's Sustained Ocean Observations and Monitoring program 
funds global observing programs, including floats, drifters, and fixed 
moorings to provide information essential for accurate forecasting of 
hurricanes, typhoons, rivers and associated flooding, heat waves, and 
wildfires.
    Funding NOAA's Sustained Ocean Observations and Monitoring program 
at $41.3 million will help maintain the continuity of long-term data 
sets that are essential for ensuring that communities are able to 
respond and adapt to today's changing world.
                          ocean acidification
    The Joint Initiative encourages you, at a minimum, to include the 
$8.8 million increase in the President's fiscal year 2015 budget 
request for Integrated Ocean Acidification, bringing the total funding 
level to $15 million.
    As oceans become more acidic, there is an urgent need to understand 
the chemistry, variability, and impact of acidification on the marine 
environment. Ocean acidification is happening along every shoreline in 
the United States. In the Pacific Northwest, it is killing young 
oysters by the billions, threatening the shellfish industry. In 2011, 
the State of Washington convened a Blue Ribbon Panel on Ocean 
Acidification, which identified gaps in scientific knowledge and 
recommended strategies to mitigate immediate threats and improve 
industry resilience. While shellfish and coral reefs receive most of 
the attention related to ocean acidification, fisheries, aquaculture, 
and coastal ecosystems around the Nation will be greatly affected.
    While ocean acidification is a global problem needing global 
solutions, funding the Integrated Ocean Acidification program at NOAA 
at increased levels will allow us to measure and assess the emerging 
threat of ocean acidification, better understand the complex dynamics 
causing and exacerbating it, work to determine its impact, and develop 
mechanisms to address the problem.
                           stem consolidation
    The Joint Initiative is deeply alarmed by the major restructuring 
in the administration's proposal that would consolidate science, 
technology, engineering, and mathematics (STEM) programs, including the 
elimination of funding for ocean education programs in NOAA. We 
appreciate your thoughtful response to the STEM consolidation proposal 
in the fiscal year 2014 Omnibus Appropriations report, noting that the 
proposal ``failed to sufficiently recognize or support a number of 
proven, successful programs.'' We believe NOAA education programs--
specifically the NOAA Competitive Education Grants Program, Ocean 
Exploration and Research education, and Sea Grant STEM education 
activities including all State Sea Grant Program STEM activities-- fall 
into this category.
    By eliminating key ocean education programs at NOAA, we are 
concerned that ocean science content may be lost in the proposed 
consolidation, as it is not traditionally viewed as a ``core science.'' 
In addition, removing education programs from mission-driven agencies 
such as NOAA, where research is sponsored and conducted, will isolate 
scientific research and its results from ocean education efforts. 
Educating and cultivating current and future ocean stewards is 
critical, especially given the tremendous growth in careers that 
require ocean-related education and knowledge. A recent report by the 
statutorily-created Ocean Research Advisory Panel (ORAP) forecast a 
need for approximately one million more college graduates than 
currently estimated in STEM fields over the next decade. This report 
underscores the need for a STEM literate, and ocean literate, workforce 
to fill positions in commerce, energy, transportation, food production, 
national security, recreation, and tourism.
    The Joint Initiative strongly urges you to fund NOAA education 
programs at increased levels.
                           ocean exploration
    The Joint Initiative appreciates your long standing support of 
ocean exploration at NOAA and requests that you provide $30 million for 
the Ocean Exploration program to increase the pace, scope, and 
efficiency of exploration.
    A bipartisan effort since inception, the Ocean Exploration program 
was strongly endorsed by Congress when created in 2002. The program has 
greatly contributed to our knowledge of the ocean, including Arctic 
surveys that enabled the U.S. to argue for an extension of our 
Exclusive Economic Zone; baseline characterization of the Deepwater 
Horizon site in the Gulf before and after the oil spill; discovery of 
new gas hydrates stretching from Cape Cod to Cape Hatteras, with 
implications for ocean acidification; and new fishery habitat maps off 
the Northeast.
                    science, research, and education
    The Joint Initiative calls attention to the need for consistent and 
dedicated funding for ocean science, research, and education. We ask 
you to increase funding for ocean science research, infrastructure, and 
grant programs at NOAA, National Science Foundation (NSF), and National 
Aeronautics and Space Administration (NASA) that are working to improve 
our understanding of critical physical and biological ocean processes. 
These programs provide local, State, and national decision makers with 
the information they need to make informed decisions.
    In particular, we encourage you to provide $7.5 billion for the NSF 
to support core ocean and coastal research and research infrastructure, 
which are critical to understanding processes that impact the health of 
the ocean and its role as the ``flywheel'' that drives global 
environmental dynamics. Unfortunately, funding challenges within NSF 
have has significantly impacted the Geosciences Directorate and its 
Division of Ocean Science, thereby seriously eroding funds available to 
support core research. We also urge $1.8 billion in funding for the 
NASA's Earth Science Division to support critically important ocean and 
coastal science and education, including ground support and data 
processing for the multiple Earth observation missions scheduled for 
launch this year, and key missions currently under development.
                                 arctic
    The Joint Initiative recommends that the fiscal year 2015 
appropriations bill make a significant investment toward implementation 
of the National Strategy for the Arctic Region. This will enable the 
United States to prepare for taking over chairmanship of the Arctic 
Council in 2015 and lay the groundwork for sound international 
management of the region while protecting a sensitive and rapidly 
changing ecosystem.
    The changes occurring in the Arctic are not well understood. The 
area is seeing an influx of international activity as changes in sea 
ice coverage and thickness open new shipping routes and provide 
opportunities for energy exploration. Taking over chairmanship of the 
Arctic Council is a real opportunity to be an international leader in 
the Arctic; however, increased funding for Federal agencies operating 
in the Arctic under your jurisdiction, such as NOAA and NSF, is 
essential if we are to do so. NOAA provides a range of important 
services essential to our understanding of the Arctic including ocean 
observation services, weather and sea ice predictions, mapping and 
charting, and sound management of marine resources.
                           concluding remarks
    The Joint Initiative is acutely aware of the challenges you face 
addressing the funding needs of agencies and programs across the 
government. However, the Joint Initiative believes a commitment to 
understanding and protecting our Nation's ocean and coasts is an 
investment in the future of our country that will provide significant 
economic, social, ecological, and national security benefits.
    Thank you for considering our requests as the subcommittee begins 
it fiscal year 2015 appropriations process. The Joint Initiative 
sincerely appreciates your attention to this matter and stands ready to 
assist you in advancing positive and lasting changes in the way we 
manage our Nation's oceans and coasts.

       Joint Initiative Co-Chairs and Leadership Council Members

The Honorable William Ruckelshaus <rm-bond> The Honorable Norman Mineta

    Frances Beinecke <rm-bond> Don Boesch <rm-bond> Lillian Borrone 
                   <rm-bond> The Honorable Norm Dicks

 Vice Admiral Paul Gaffney <rm-bond> Robert Gagosian <rm-bond> Sherri 
                     Goodman <rm-bond> Scott Gudes

 Vice Admiral Conrad Lautenbacher <rm-bond> Margaret Leinen <rm-bond> 
                         Christopher Lischewski

  The Honorable Jane Lubchenco <rm-bond> Julie Packard <rm-bond> The 
                         Honorable Leon Panetta

   John Pappalardo <rm-bond> Pietro Parravano <rm-bond> Diane Regas 
                         <rm-bond> Randy Repass

    Andrew Rosenberg <rm-bond> Patten White <rm-bond> The Honorable 
                         Christine Todd Whitman

                                 ______
                                 
Prepared Statement of G. Todd Kellison, Carteret County, North Carolina 
    Resident and Chief, Fisheries Ecosystems Branch, NOAA Fisheries/
         Southeast Fisheries Science Center/Beaufort Laboratory
    Dear Members of the U.S. Senate Subcommittee on Commerce, Justice 
and Science, and Related Agencies: First, allow me to state that while 
I am a National Oceanic and Atmospheric Administration (NOAA) employee, 
I have written this letter on my own time, with my own resources and 
not as any part of my NOAA-related job. The comments I offer below are 
my personal opinion as a citizen regarding the proposed closure of the 
NOAA Beaufort Laboratory in Beaufort, North Carolina.
    I am gravely concerned about the proposal in the 2015 President's 
budget to close the NOAA Beaufort Laboratory. The Laboratory is part of 
the National Oceanic and Atmospheric Administration; it is administered 
by the National Ocean Service (NOS), but also houses the National 
Marine Fisheries Service (NMFS) and National Estuarine Research Reserve 
System (NERRS). The Laboratory is a stalwart of fisheries and oceanic 
science, with an outstanding national and international reputation for 
advancing science in numerous areas: population dynamics and stock 
assessments; Gulf and Atlantic menhaden biology, movement, and 
assessments; harmful algal blooms; hypoxia; habitat science; pathogens; 
and science to support management of economically important fisheries. 
NOAA and the President have repeatedly recognized individual 
researchers, research teams, and the Laboratory as a whole for its 
outstanding quality of scientific work. Furthermore, the Laboratory is 
the originator and centerpiece of an internationally esteemed 
consortium of marine science institutions, including the marine 
laboratories of Duke University, North Carolina State University, the 
University of North Carolina at Chapel Hill, and the North Carolina 
Division of Marine Fisheries. Beaufort was chosen because it is a prime 
location where northern and southern marine ecological communities 
intersect, and as such the Laboratory provides the only Federal access 
to the most diverse marine ecosystem in the United States. There is no 
other location where these opportunities can be accessed as easily or 
as cheaply. The Beaufort Laboratory is the only NMFS facility on the 
Atlantic coast between Sandy Hook, New Jersey and Miami, Florida, a 
stretch of over 1200 miles of coastline.
    The request to close the laboratory was based on current funding 
allocation, but inaccurate and outdated information that overstated the 
costs of maintaining the facility was used in the analysis that led to 
this request. Currently, the lab houses 108 employees from NOS, NMFS, 
and NERRS. The NOS initiated the proposed closure, but the request 
understated the number of NOS employees and did not account at all for 
employees from NMFS or NERRS. In effect, this mistake excluded more 
than half the staff of the Laboratory. Furthermore, the request was 
based on estimated costs for the Laboratory's upkeep and maintenance 
that were in error. Since 2006, several activities have been completed 
to keep the facility in good working condition, including replacement 
of the administration building, replacement of the maintenance 
building, replacement of the chemical storage building, replacement of 
the bridge to the facility, repair of the seawall, and other 
improvements (air conditioning, electrical, storm water runoff), which 
totaled approximately $14 million. After such investments, closing the 
Laboratory now would represent a conspicuous waste of tax-payer money. 
Finally, contrary to previous claims, an updated engineering report 
(2014) documents that the facility is NOT structurally unsound. Based 
on mistakes both in the number of staff at the facility and in the 
costs associated with its upkeep, the budgetary calculations used to 
justify the proposed closure were fundamentally flawed.
    I highlight below, by line office, the critical role that the NOAA 
Beaufort Laboratory has played in helping NOAA achieve its Strategic 
Mission (1) to understand and predict changes in climate, weather, 
oceans, and coasts, (2) to share that knowledge and information with 
others, and (3) to conserve and manage coastal and marine ecosystems 
and resources.
                                  nos
    While the National Ocean Service is calling for the closure of the 
Beaufort North Carolina laboratory, it is requesting an increase of $4 
million to another center to support Ecological Forecasting of Harmful 
Algal Blooms (HABs), Hypoxia, pathogens, and Species Distributions. 
These areas of research are the bread and butter of NOS at the Beaufort 
Laboratory. In fact, NOAA would not have the strength it currently has 
in forecasting HABs if it were not for the Laboratory's seminal and 
award-winning work that has been ongoing from the 1980s to this day. 
Furthermore, the Beaufort Laboratory initiated the first-ever study of 
the invasive lionfish in the U.S. South Atlantic, and it has continued 
to play a pivotal role in monitoring the distribution and abundance of 
this invasion throughout the South Atlantic, Gulf of Mexico, and 
Caribbean, providing information that has been critical for mitigation 
and management strategies. It is ironic and perplexing that the fiscal 
year 2015 President's budget requests increased research funding for 
coastal ocean issues, including harmful algal blooms, hypoxia, and 
coastal ecosystem management, while at the same time proposing to close 
an existing facility that already has both well-established expertise 
and facilities required to address many of those very same issues.
                                  nmfs
    The Beaufort Laboratory provides the stock assessment science that 
allows NOAA to fulfill its obligation toward the Magnuson-Stevens 
Fishery Conservation and Management Act, as mandated by Congress. The 
stock assessment science of the NOAA Beaufort Laboratory focuses on 
marine fish populations that are ecologically and economically vital to 
the region and Nation, including snapper-grouper and pelagic species 
managed by the South Atlantic Fishery Management Council, Atlantic 
menhaden managed by the Atlantic States Marine Fisheries Commission, 
and Gulf menhaden managed by the Gulf States Marine Fisheries 
Commission. Atlantic menhaden support the largest fishery on the U.S. 
Atlantic coast, and Gulf menhaden support the largest fishery in the 
Gulf of Mexico. To enable robust stock assessments, sampling of the 
Atlantic and Gulf menhaden fisheries has been conducted by the Beaufort 
Laboratory for decades, and monitoring of snapper-grouper species has 
been accomplished by the Laboratory's Southeast Fishery-Independent 
Survey. Removing this sampling and monitoring from the Beaufort 
Laboratory would not only result in a significant disconnect between 
NOAA and the communities that it serves, but would also degrade the 
quality of stock assessments at a time when Congress is rightly calling 
for improvements.
                                 nerrs
    NERRS is partnered with the North Carolina Coastal Reserve, with 
program headquarters at the NOAA Beaufort Laboratory. This program 
supports long-term research, water-quality monitoring, education, and 
coastal stewardship. In 2002, Congress provided NOAA with ``. . .  
$5,000,000 for the Beaufort Laboratory for necessary repairs to 
existing facilities and to construct a joint laboratory, dock, and 
other facilities in collaboration with the Rachel Carson National 
Estuarine Research Reserve.'' With this funding, NOAA invested $1.28 
million and the State of North Carolina invested $42,000 for the 
construction of a joint building at the NOAA Beaufort Laboratory to 
serve the Reserve's mission. The joint building was completed in 2007 
and was constructed specifically with the Reserve's education programs 
in mind: the auditorium regularly hosts coastal training program 
workshops and the teaching classroom hosts school groups, teacher 
workshops, field trips, and lectures to support K-12 Estuarine 
Education Program activities. The NOAA Beaufort Laboratory is a 5-
minute boat ride from the Rachel Carson component of the Reserve, and 
this close proximity is essential for performing Reserve activities 
efficiently to conduct mission-critical work, including educational 
programs, water quality and habitat monitoring, research programs, and 
stewardship of the site, which involves species monitoring, debris 
clean-ups, feral horse management, and access point maintenance. In 
short, NERRS activities in education, training, and stewardship have 
been extensive, and they would not be feasible from any other Federal 
laboratory.
    In conclusion, closure of the NOAA Beaufort Laboratory would be a 
detriment to NOAA's ability to accomplish its own Strategic Mission and 
to meet its obligations toward such congressional mandates as the 
Magnuson-Stevens Fishery Conservation and Management Act. The only 
argument for closing the laboratory was financial, but that argument 
was based on flawed estimates of maintenance costs and an outdated 
engineering report, which has since been revised with opposite 
conclusions regarding the lab's structural integrity. Relative to 
NOAA's budget, any cost savings associated with closing the Laboratory 
would be trivial; however the loss to the Nation would be significant.
                                 ______
                                 
        Prepared Statement of Mary E. Kentula, Corvallis, Oregon
    I am writing on opposition of the proposed closure of the National 
Oceanic and Atmospheric Administration (NOAA) Center for Coastal 
Fisheries and Habitat Research located in Beaufort, North Carolina 
(hereafter the Beaufort Lab), as recommended on page 8 of NOAA's 2015 
Budget Summary. As someone who has worked in the field of aquatic 
science for over 30 years, I am concerned that one of the Nation's 
premier research facilities may be closed. The Beaufort Lab is located 
strategically where the entire East and Gulf Coasts can be easily and 
cheaply accessed. The Lab is manned by an impressive team of nationally 
and internationally known scientists who conduct research critical to 
the understanding of the Nation's coastal ecosystems and the protection 
of our fisheries and other enterprises supporting the economy of 
coastal communities.
    I have had the opportunity to work with scientists from the 
Beaufort Lab throughout my career. I have been consistently impressed 
with the quality of their work and their commitment to the mission of 
NOAA. One of the invaluable services such facilities provide is the 
ability to assemble technical teams from a variety of backgrounds and 
organizations to address difficult problems. This includes expertise 
from academia, the private sector, and other government agencies, as 
well as scientists from the natural and social sciences. Because of the 
mix of skills and perspectives, these teams are highly creative and 
productive. The Beaufort team has been very successful in using this 
approach, for example, to address the protection and restoration of 
coastal ecosystems and to provide guidance to coastal communities on 
how best to manage their lands in a productive and sustainable way.
    I understand the intension is to move the Federal scientists to 
other laboratories; however, the teams that have formed over the years 
to conduct what NOAA deemed high priority research will be disbanded, 
along with the associated institutional history. The time and effort 
lost while the capability is rebuilt will be costly in real dollars as 
well as in delays to important work. In addition, the investment in the 
large and diverse array of equipment at the Beaufort Lab will be lost 
and the funds used to purchase and maintain the equipment wasted. In 
this time of budget constraints, it is ``penny wise and pound foolish'' 
to destroy a well-functioning unit and lose the investment in the staff 
and equipment.
    There is also the impact to the community of Beaufort to consider. 
I have read articles expressing concerns about the potential closure of 
the NOAA Lab. One account mentions the NOAA lab is the largest member 
of the North Carolina Marine Science and Education Partnership which 
accounts for over 58 million dollars in funding for research and, with 
the addition of the education component, more than 100 million dollars 
is brought into Carteret County. Loss of a key component of this hub 
for research and education would be devastating to the economy of the 
area and its citizens.
    I urge the Committee on Appropriations Subcommittee on Commerce, 
Justice, Science and Related Agencies to remove the recommendation to 
close the NOAA Center for Coastal Fisheries and Habitat Research from 
NOAA's budget for 2015 and thus prevent the loss of an outstanding 
center for high priority and critical research on coastal systems and 
fisheries.
    Thank you for your consideration.
                                 ______
                                 
 Prepared Statement of Nikolai Klibansky Ph.D., Atlantic Beach, North 
                                Carolina
    Dear subcommittee members,

    I am writing this letter as a private citizen using only my own 
resources on my own time. I write on behalf of myself and no other 
agency to express my opposition to the closure of the National Oceanic 
and Atmospheric Administration (NOAA) Beaufort Laboratory in Beaufort 
North Carolina, proposed in the fiscal year 2015 budget. The Beaufort 
Lab is a part of the National Oceanic and Atmospheric Administration 
within the U.S. Department of Commerce. Employees of National Estuarine 
Research Council (NERR), the National Marine Fisheries Service (NMFS), 
and the National Ocean Service (NOS) are housed at the Lab.
    Though I am currently a post-doctoral research associate for the 
National Research Council working at the Beaufort Lab I am there 
temporarily and closure of the lab would likely occur after I am gone. 
But as a citizen, a voter, and a scientist I find that closing the lab 
would be a loss for us all, for the gain of none.
    While I am strongly in favor of fiscal responsibility, and I 
appreciate public officials trying to save taxpayers money, it is clear 
to me that closure of the Beaufort Lab would cost far more in 
intellectual capital and scientific information than would be gained in 
dollars and cents. The Beaufort Lab is the second oldest marine lab in 
the United States, commemorated in downtown Beaufort by the kind of 
historical marker that honors battlefields and the birthplaces of 
presidents. It is the only lab of its kind on the East Coast from Cape 
May, New Jersey to Miami, Florida, situated in an ideal location near 
Cape Hatteras which serves as the most significant marine ecological 
boundary on this coast. As a North Carolina resident for nearly 7 
years, I assure you that this Federal facility is a point of pride to 
North Carolina voters, who live and breathe to enjoy a healthy ocean, 
and many who feed their families from it.
    The organizations housed within the Beaufort Lab perform essential 
functions for us all, providing information needed to properly manage 
marine fisheries like red snapper, mahi mahi, and shrimp; and to 
mitigate harmful algal blooms and the formation of marine dead zones. 
Other personnel dedicate their time to managing barrier beach islands 
and marshes that protect the mainland, human lives, and billions of 
dollars in coastal real estate from the damaging effects of massive 
hurricanes like Katrina and Sandy.
    Though the argument has been made that closure of the Beaufort lab 
would save money, this is apparently based on inaccurate numbers. In 
the budget it was claimed that the buildings are all falling apart and 
the costs to repair them would be prohibitively expensive, and yet the 
largest building on the property was built less than 10 years ago and 
houses the largest proportion of employees. Of all the NOAA labs on the 
East Coast, the Beaufort Lab is situated on some of the least expensive 
property. It seems highly unlikely that proper accounting would show a 
financial benefit of the closure the Lab that would come close to the 
damage it would inflict. I don't expect that the calculations in the 
budget were intentionally biased, but they are quite clearly wrong. 
Therefore I urge you to do what is in your power, to see that the 
Beaufort Lab is maintained and protected.
                                 ______
                                 
          Prepared Statement of Lund's Fisheries Incorporated
    Dear Chairwoman Mikulski and Ranking Member Shelby: On behalf of 
the 150 employees of our family-owned, vertically-integrated seafood 
processing facility and the company-owned and independently-owned 
commercial fishing vessels and crew whom work to support us here in the 
port of Cape May, New Jersey, I am writing in strong opposition to the 
fiscal year 2015 budget proposal to close the National Oceanic and 
Atmospheric Administration (NOAA) National Ocean Service (NOS)/National 
Marine Fisheries Service (NMFS) Fisheries Laboratory in Beaufort, North 
Carolina.
    While the Beaufort Fisheries Laboratory is the second oldest marine 
fisheries lab in the United States, contrary to the budget proposal's 
justification that the lab be closed because it is structurally 
unsound, a recent engineering report, reflecting more than $14 million 
in new construction and renovations, states that this is not an 
accurate description of the facility's capabilities or infrastructure.
    More importantly, from the perspective of our fishing company, the 
Beaufort Laboratory is strategically located, geographically, to 
monitor the ecological resources and communities of both the northern 
range of southern species and the southern range of northern species, 
which are vitally important to marine fisheries on both the Atlantic 
and Gulf coasts. This location is critical for continued study of 
emerging issues, like climate change-related warming of ocean habitats, 
so that fishery managers may be informed of resulting species regime 
shifts, which are challenging our ability to sustainably manage the 
region's living marine resources.
    Specifically, the Beaufort Laboratory houses a state-of-the-art 
population dynamics and stock assessment program that focuses on a 
number of important, regional commercial fishery species, including 
Atlantic and Gulf Menhaden, which provide a critical source of bait for 
the lobster fisheries of the northeast and the crab and crawfish 
fisheries of the mid-Atlantic, south and southeast.
    Atlantic menhaden, for example, support the largest fishery on the 
Atlantic coast, and Gulf menhaden support the largest fishery in the 
Gulf of Mexico, worth more than $125 million, combined, to local and 
regional coastal economies including the Port of Cape May. Decades of 
experience in assessing and monitoring these fishery resources is 
housed in Beaufort, the loss of which to the region would be 
significant and, we believe, unnecessary.
    Thank you for the opportunity to provide you with our view of this 
important budget issue. It is clear to us that this proposal should be 
rejected and that the Beaufort Fisheries Laboratory should be 
maintained by NOAA. We urge you and the other members of the 
subcommittee to adopt this point of view.
    Please do not hesitate to contact me if I can provide you or your 
staff with any additional information in support of maintaining the 
Beaufort Laboratory.
            With best regards,

                                        Jeffrey B. Reichle,
                                                         President.
                                 ______
                                 
        Prepared Statement of the Marine Conservation Institute
    Ms. Chairwoman and members of the subcommittee: Marine Conservation 
Institute, based in Seattle, Washington, is a nonprofit conservation 
organization that uses the latest science to identify important marine 
ecosystems around the world and advocates for their protection for us 
and future generations. We wish to thank the members of the 
subcommittee for the opportunity to submit written testimony on the 
fiscal year 2015 appropriations for the National Oceanic and 
Atmospheric Administration (NOAA).
    Marine Conservation Institute was instrumental in President Bush's 
designation of the Papahaanaumokuaakea Marine National Monument 
(Northwest Hawaiian Islands) and the Pacific Remote Island Marine 
National Monuments, which has given rise to our concern for the only 
species of endangered marine mammal, the Hawaiian Monk Seal, that is 
found entirely within U.S. territorial waters. Marine Conservation 
Institute supports $5.0 million in base funding for the Hawaiian Monk 
Seal recovery program, which is one element of the Marine Mammal 
program within the Protected Resources budget line. If funded at $5 
million, the Hawaiian Monk Seal program would receive approximately 35-
45 percent more than allocated in the fiscal year 2014 spending plan 
and about double what has been requested in the last two Presidential 
budgetn. Though these suggested percentage increases, by themselves, 
would seem large, the amount that the Protected Resources budget would 
increase in order to accommodate this request is quite small: 1.3 
percent ($2.5 million increase to $186 million).
              why hawaiian monk seal recovery is important
    NOAA is responsible for recovering populations of the Hawaiian monk 
seal, one of the most critically endangered marine mammals in the 
world. The monk seal is also the only marine mammal whose entire 
distribution range lies within our national jurisdiction; thus the U.S. 
is solely responsibility for its continued survival. Over the last 50 
years, the Hawaiian monk seal population has experienced a severe 
decline of 60 percent, and now the population is slightly more than 
1,000 individuals. Various factors have contributed to the seal's 
decline including: human hunting of the species to near extinction in 
the mid-1800's; entanglement in marine debris and fishing gear; loss of 
habitat for pupping and resting; and competition for food in the 
Northwestern Hawaiian Islands; to name a few.
    There is reasonable hope for the monk seal if a small subpopulation 
in the main Hawaiian Islands can continue to grow beyond its current 
level of 130-200 individuals. However, this population growth has 
generated increased conflicts with citizens and recreational fishermen 
who unintentionally hook or entangle monk seals. In 2012 alone, there 
were 15 confirmed hooking incidents, and three seals died as a result. 
Hostility toward the seal has become toxic in some communities, 
prompting at least four intentional seal killings on Kaua'i and 
Moloka'i in a little over a year. Due to the efforts of private 
foundations and funders, Marine Conservation Institute has been able to 
successfully conduct culturally appropriate anger reduction activities 
on Kaua'i in the last 2 years, and there has not been an intentional 
killing since then. But this kind of private funding is not a permanent 
solution for plugging a hole in NOAA's budget.
    It has been conservatively estimated that 30 percent of the monk 
seals are alive today due to direct actions by NOAA and its 
partners.\1\ However, we are concerned that funding for the monk seal 
has severely decreased in recent years (a level as low at $2.7 million 
in 2011). Furthermore, our analysis indicates that cuts to the monk 
seal program have been disproportionate compared to other marine mammal 
species under NOAA's jurisdiction.
---------------------------------------------------------------------------
    \1\ McAvoy, Audrey. ``Feds--Efforts to rescue monk seals helping 
species.'' Associated Press in West Hawaii Today, January 26, 2012.
---------------------------------------------------------------------------
    Lower funding levels in recent years have already severely affected 
recovery efforts by reducing seasonal field camps essential for 
population monitoring and seal protection in the Northwest Hawaiian 
Islands; hampering critical community liaison efforts to explore and 
explain the importance of the monk seal in Native Hawaiian culture; 
removing specialists who eliminate sharks preying on seal pups; and 
diminishing research programs that develop mitigation measures for 
fisheries interactions and other human-seal interactions.
             funding level necessary for monk seal recovery
    Marine Conservation Institute strongly recommends the subcommittee 
devote a modest absolute increase in funding, an additional $2.5 
million, to reach $5.0 million in fiscal year 2015 to begin to 
reinstate NOAA's lost capacity to recover the species.
                                 ______
                                 
 Prepared Statement of the National Association of Marine Laboratories
    The National Association of Marine Laboratories (NAML) is pleased 
to submit testimony to the subcommittee with a series of 
recommendations that we believe would strengthen the Nation's research 
and education enterprise. NAML is a nonprofit organization representing 
the ocean, coastal and Great Lakes interests of member laboratories 
that employ thousands of scientists, engineers and professionals 
nationwide. NAML labs conduct high quality research and education in 
the natural and social sciences and translate that science to improve 
decisionmaking on important issues facing our country. NAML requests 
the subcommittee to:
  --Provide strong support for competitive, merit-based ocean, coastal, 
        and Great Lakes research, infrastructure and education programs 
        at the National Oceanic and Atmospheric Administration (NOAA), 
        the National Science Foundation (NSF), and the National 
        Aeronautics and Space Administration (NASA). This issue is 
        discussed in detail later in this statement;
  --Support the research infrastructure of marine laboratories that 
        will lead to better integration of environmental data networks 
        into Federal information and observing system networks and in 
        so doing achieve cost effective science-based decisionmaking 
        regarding the management of marine, coastal and Great Lakes 
        ecosystems and related resources;
  --Increase the co-location of Federal scientists and Federal research 
        infrastructure initiatives at NAML laboratories as well as 
        increased coordination and cooperation between NOAA's ocean, 
        coastal and Great Lakes research and education programs; and
  --Advance a diverse, distributed ocean science education agenda 
        through strong support for ongoing programs within NSF, NOAA, 
        and NASA. NAML is concerned that the administration `s STEM 
        education consolidation plan will terminate K-12 STEM education 
        and fellowship activities within the Sea Grant program as well 
        as terminate important ocean literacy activities in the Office 
        of Education at NOAA. NAML urges the committee to reinstate 
        these activities within NOAA.
the role of marine laboratories in the nation's research and education 
                               enterprise
    Ocean, coastal and Great Lakes marine laboratories are vital, cost-
effective, place-based ``windows on the sea.'' They connect communities 
with cutting edge marine, coastal and social sciences, while also 
providing students and citizens with meaningful learning experiences. 
The members of the National Association of Marine Laboratories (NAML) 
work together to improve the quality and relevance of ocean, coastal 
and Great Lakes research, education and outreach. In particular, NAML 
laboratories compete for support for the:
  --Conduct of basic and applied research of the highest quality making 
        use of the unique capabilities of coastal laboratories;
  --Revitalization of research infrastructure through increased cost-
        effective networking of capabilities;
  --Unique role that coastal laboratories play in conducting education, 
        outreach and public service;
  --Encouragement of wise use and conservation of marine and coastal 
        habitats and resources using ecosystem-based management 
        approaches;
  --Coastal and other observing systems that collect front line data 
        needed to improve predictions of natural and human-caused 
        disasters, the management of marine resources, research, and 
        education; and
  --Increased public ocean and Great Lakes literacy to promote greater 
        environmental stewardship.
oceans, coasts and great lakes--vital for economic growth and enhanced 
                           coastal resiliency
    The ocean, coasts, coastal watersheds, and the Great Lakes play a 
central role in the well being of the Nation. Over 8.5 million people 
reside in the 100-year coastal flood hazard area. More than half of the 
United States population lives in 673 coastal watershed counties, and 
these counties generate 58 percent ($8.3 trillion) of the Nation's 
gross domestic product (GDP)--even though they comprise only 25 percent 
of the Nation's land area. Every day, the marine environment supplies a 
multitude of products and services that enhance and support the lives 
and livelihoods of citizens. In 2011, Americans, on average, ate 15 
pounds of fish and shellfish per person--4.7 billion pounds all 
together--making the U.S. second in the world in total seafood 
consumption. Offshore oil production in Federal waters accounts for 24 
percent of total U.S. crude oil production. If American coastal 
watershed counties were considered an individual country, that country 
would have a GDP higher than that of China. The United States has 
jurisdiction over 3.4 million square miles of oceans--an expanse 
greater than the land area of all 50 States combined. This vast marine 
area offers many environmental resources and economic opportunities, 
but also presents threats such as damaging tsunamis and hurricanes, 
industrial accidents and outbreaks of water borne pathogens. The 2010 
Gulf of Mexico Deepwater Horizon oil spill, the 2011 Japanese 
earthquake and tsunami, and the 2012 Superstorm Sandy are vivid 
reminders that our understanding of our oceans and coastal areas is far 
from complete. Developing sufficient capabilities to sustain ocean-
based economies and protect our coasts and coastal communities from 
natural and man-made hazards will require a sustained investment in 
research, infrastructure and education and training. NOAA's budget 
request contains several programs designed to reduce coastal and 
community vulnerability to future storms, inundation and sea level 
rise. NAML encourages the Committee to support these resilience 
programs
                  naml priority--investing in research
    NAML believes America is driven by innovation--advances in ideas, 
products and processes that create new industries and jobs, contribute 
to our Nation's health and security, and support a high standard of 
living. In the past half-century, educated people and the knowledge 
they produce have increasingly driven innovation. It is essential that 
the Nation reaffirms and revitalizes the unique partnership that has 
existed between the Federal Government, the States and business and 
industry with the Nation's research and education enterprise. In doing 
so, we encourage the innovation that leads to high-quality jobs, 
increased incomes, security, health, and prosperity for the Nation. 
Investing in the Nation's research enterprise should be seen as a high 
priority that has contributed significantly to our long-term prosperity 
and technological preeminence through interdisciplinary research 
spanning a landscape of disciplines, from physics to geology, chemistry 
to biology, engineering to social sciences and modeling to observation. 
NAML believes that research and education programs at the major Federal 
science agencies with ocean and coastal responsibilities should be 
viewed as priority investments in the future health and well being of 
the Nation.
    Programs that support the extramural community via competitive, 
merit-based research provide highly cost-effective returns on 
investment, leverage additional resources to meet science and 
management priorities, and distribute economic and societal benefits 
over a broad array of communities. While NOAA has acknowledged his 
assertion on many occasions, its support for its extramural partners 
has continued to decline. From background information developed for the 
NOAA Science Advisory Board's R&D Portfolio Review Task Force support 
by the Office of Oceanic and Atmospheric Research (OAR) for extramural 
R&D has declined by $60 million since 2005--from $171.6M to $107.1M 
while the percentage of OAR's research activities to support extramural 
programs has dropped from just over 50 percent down to 34 percent of 
the total. In the National Ocean Service (NOS), support for extramural 
R&D has declined from a level of $21.6M in 2005 to $13.7M in 2011 while 
intramural support has grown from a level of $53 million in 2005 to a 
level of $58 million in 2011. Moreover NOAA has repeatedly proposed the 
termination of numerous extramural programs--such as the John H. 
Prescott Marine Mammal Grants program--and the consolidation of 
research programs--such as Ocean Exploration and Research--which has 
led to the dramatic reduction in extramural research and education 
support.
    Beyond cutting back on its extramural support, NOAA now seeks 
permission to ``receive and expend funds made available by, any . . . 
private organization, or individual (proposed Section 108 of the 
General Provisions in the NOAA Section of the Appendix to the fiscal 
year 2015 Budget).'' This would enable NOAA to compete against non-
Federal and private entities for private sector support. Thus not only 
is NOAA cutting back its own support, it intends to further exacerbate 
the situation by competing against its partners for the limited 
available non-Federal resources needed to fill the gaps created by 
NOAA's decision to scale back its extramural support.
    NAML urges the Committee to restore to the maximum extent possible 
NOAA support for its extramural research, education, and other related 
programs while also limiting NOAA's ability to compete with the private 
sector for non-Federal resources needed for research, education, and 
conservation programs.
    Much attention has been justifiably focused on the need for our 
Nation to continue its support of premier basic research programs. It 
is also important to maintain strong support for mission-oriented 
ocean, coastal and Great Lakes research, observing and monitoring 
programs. Further, NAML believes that developing exchange programs 
between Federal agencies and marine laboratories--such as co-location 
of Federal scientists and Federal research infrastructure initiatives 
at NAML laboratories--will further strengthen the capacity of both 
sectors while also reducing costs by eliminating duplicative 
activities.
          naml priority--investing in research infrastructure
    NAML believes that a comprehensive range of ocean and coastal 
research infrastructure will be needed to meet growing demands for 
scientific information and to enable the safe, efficient, and 
environmentally sustainable use of the ocean. Institutional barriers 
have inhibited collaborative efforts to plan for the deployment, 
operation and maintenance of high-cost critical infrastructure assets 
such as ships, satellites, observing systems and cyber-infrastructure 
for data sharing, networking and collaborative use of available 
facilities. Marine laboratories often play a critical role in 
supporting studies that extend across decades. Marine laboratories can 
provide the infrastructure to collect data throughout a lifetime, and 
even maintain important data streams that extend well beyond any single 
researcher. Marine laboratories are often a hotbed of sensor 
development and testing. With technology changing rapidly, marine 
laboratories provide the expertise to maintain a level of 
standardization that ensures such data can be interpreted accurately 
even as protocols change in response to improving technology. Marine 
laboratories are playing an increasing important role in supporting 
networks that extend beyond any single lab. Because environmental 
processes occur on a wide range of spatial and temporal scales, data 
streams are standardized and networked to varying degrees to facilitate 
cross-site and long-term analyses. Finally, given the complexity and 
interconnected nature of many environmental processes, marine 
laboratories provide important opportunities to weave together the work 
of many researchers across diverse disciplines to detect patterns and 
understand processes that would not be apparent from any single study 
or data stream.
naml priority--science, technology, engineering and mathematics (stem) 
                               education
    NAML's education mission is two-fold: to enhance ocean STEM 
education to ensure that all citizens recognize the role of the oceans, 
coasts and Great Lakes in their own lives and the impacts they 
themselves have on these environments; and to provide formal research 
and training opportunities at K-12, college, and post-graduate levels 
to ensure a technically-qualified, and ethnically diverse workforce 
capable of solving problems and answering questions related to the 
protection, restoration and management of coastal and ocean resources, 
climate variability and society's needs. An informed and engaged public 
is essential to understand complex ocean- and coastal-related issues, 
balance the use and conservation of marine resources, and maximize 
future benefits from the ocean. The public should be armed not only 
with the knowledge and skills needed to make informed choices, but also 
with a sense of excitement about the marine environment. Public 
understanding of human impacts on the marine environment should be 
balanced with recognition of the benefits to be derived from well-
managed ocean resources. Inland communities need to be just as involved 
as seaside communities, because of the connection among the ocean, the 
atmosphere and the land. Ocean-related education also has the potential 
to help stem the tide of science illiteracy threatening to undermine 
the Nation's health, safety and security. The scientific literacy of 
U.S. high school graduates is well below the international average. 
This progressive loss of literacy weakens the Nation's ability to 
maintain its traditionally strong foundation in science and 
mathematics. NAML laboratories seek to expand the engagement of 
individuals from groups that have been historically under-represented 
in ocean research, education and outreach. This is particularly 
important in fulfilling the goal of achieving a diversified STEM 
pipeline to meet future science and ocean workforce needs.
    NAML remains concerned with certain elements of the 
administration's STEM Education Consolidation proposal for fiscal year 
2015. A total of 31 STEM education programs at nine key R&D mission 
agencies (including NOAA, NSF, and NASA) will be impacted by this 
proposal. It is important for mission agencies to help support the next 
generation of scientific and technical talent--much of which will be 
needed by these agencies in future years. We urge the subcommittee to 
reject these particular consolidation proposals and support the 
continuation of these programs within their current agencies.
    NAML appreciates the opportunity to present these views to the 
subcommittee as it begins work on the development of the fiscal year 
2015 appropriations bill.
    Thank you.
                                 ______
                                 
    Prepared Statement of the National Congress of American Indians
    On behalf of the National Congress of American Indians (NCAI), this 
testimony addresses important programs in the Department of Justice 
(DOJ) and Department of Commerce. NCAI is the oldest and largest 
American Indian organization in the United States. Tribal leaders 
created NCAI in 1944 as a response to termination and assimilation 
policies that threatened the existence of American Indian and Alaska 
Native tribes. Since then, NCAI has fought to preserve the treaty 
rights and sovereign status of tribal governments, while also ensuring 
that Native people may fully participate in the political system. As 
the most representative organization of American Indian and Alaska 
Native tribes, NCAI serves the broad interests of tribal governments 
across the Nation. As Congress considers the fiscal year 2015 budget 
and beyond, leaders of tribal nations call on decision-makers to ensure 
that the promises made to Indian Country are honored in the Federal 
budget.
                              introduction
    Annual funding decisions by Congress are an expression of our 
Nation's moral priorities. Numerous treaties, statutes, and court 
decisions have created a fundamental contract between tribal nations 
and the United States: tribes ceded millions of acres of land that made 
the United States what it is today, and in return tribes have the right 
of continued self-government and the right to exist as distinct peoples 
on their own lands. And for its part, the United States has assumed a 
trust responsibility to protect these rights and to fulfill its solemn 
commitments to Indian tribes and their members.
    Part of this trust responsibility includes basic governmental 
services in Indian Country, funding for which is appropriated in the 
discretionary portion of the Federal budget. Tribal governments exist 
to protect and preserve their unique cultures, identities, and natural 
environments for posterity. As governments, tribes must deliver a wide 
range of critical services, such as education, workforce development, 
and first-responder and public safety services, to their citizens. The 
Federal budget for tribal governmental services reflects the extent to 
which the United States honors its promises to Indian people.
                         department of justice
    The bi-partisan Indian Law and Order Commission (ILOC) recently 
released its report to Congress and the President emphasizing that 
``[n]ow is the time to eliminate the public safety gap that threatens 
so much of Native America.'' \1\ The public safety problems that 
continue to plague tribal communities are the result of decades of 
gross underfunding for tribal criminal justice systems; a uniquely 
complex jurisdictional scheme; and the historic, abject failure by the 
Federal Government to fulfill its public safety obligations on American 
Indian and Alaska Native lands. Residents and visitors on tribal lands 
deserve the safety and security that is taken for granted outside of 
Indian Country. The time is now to remedy the disparities.
---------------------------------------------------------------------------
    \1\ Indian Law & Order Commission. (November 2013). A roadmap for 
making Native America safer: Report to the President & Congress of the 
United States, Executive Summary, p. v. Retrieved on January 10, 2014, 
from www.aisc.ucla.edu/iloc/report/files/A_Roadmap_
For_Making_Native_America_Safer-Full.pdf.
---------------------------------------------------------------------------
    Congress has taken historic steps in recent years with the passage 
of the Tribal Law and Order Act in 2010 and the Violence Against Women 
Reauthorization Act of 2013 (VAWA 2013), both of which begin to address 
some of the structural barriers to public safety in tribal communities. 
For the promise of these laws to be fully realized, however, these laws 
must be fully implemented, which requires sufficient resources for 
tribal justice systems and ongoing coordination and consultation 
between various Federal agencies and tribal governments. The Department 
of Justice recognized this reality in its recently issued Proposed 
Statement of Principles. The Proposed Statement articulates DOJ's 
belief that stable funding at sufficient levels for essential tribal 
justice functions is critical to the long-term growth of tribal 
institutions.\2\
---------------------------------------------------------------------------
    \2\ U.S. Department of Justice. (November 2013). Proposed statement 
of principles for working with federally recognized Indian tribes, p. 
2. Retrieved on January 10, 2014, from www.justice.gov/tribal/docs/
statement-of-principles-for-working-with-tribes.pdf.
---------------------------------------------------------------------------
    Increased and targeted funding in the following program areas will 
have a huge impact on safety in tribal communities for tribal citizens, 
residents, and visitors to tribal lands. This would also help foster 
economic development on tribal lands and improve the quality of life in 
immeasurable ways. As the Federal Government balances the Federal 
budget, it must also pledge to honor its distinct legal, treaty, and 
trust obligations to assist tribal nations in providing public safety 
to their citizens. Highly-functioning criminal justice systems and 
basic, on-the-ground police protection are fundamental priorities of 
any government; tribal governments are no different.
    As the ILOC asserts, ``[h]ow we choose to deal with the current 
public safety crisis in Native America--a crisis largely of the Federal 
Government's own making over more than a century of failed laws and 
policies-- can set our generation apart from the legacy that remains 
one of [the] great unfinished challenges of the Civil Rights Movement. 
Lives are at stake, and there is no time to waste.'' \3\
---------------------------------------------------------------------------
    \3\ Indian Law & Order Commission.
---------------------------------------------------------------------------
    Provide at least $395.4 million for the Department of Justice (DOJ) 
public safety initiatives in Indian Country (including $375.4 million 
in discretionary funds and $20 million from the Crime Victims Fund, a 
mandatory account).--The Crime Victims Fund, administered by the Office 
for Victims of Crime (OVC) within DOJ's Office of Justice Programs 
(OJP) includes the $20 million set-aside for tribal victim assistance 
within the Crime Victims Fund, which was initiated in fiscal year 2014. 
The Crime Victims Fund was initially established to address the need 
for victim services programs, and to assist tribal, State, and local 
governments in providing appropriate services to their communities. The 
Fund is financed by collections of fines, penalty assessments, and bond 
forfeitures from defendants convicted of Federal crimes, but until last 
year, tribes have only been eligible to receive a very small portion of 
the discretionary funding from the Fund. The tribal funding is 
requested as part of OVC's Vision 21 Initiative, a strategic planning 
initiative based on an 18-month national assessment by OJP that 
systematically engaged the crime victim advocacy field and other 
stakeholder groups in assessing current and emerging challenges and 
opportunities facing the field. The initiative focuses on supplemental 
victims services and other victim-related programs and initiatives in 
areas like research, legal services, capacity building, national and 
international victim assistance, and--of course--tribal assistance.
    The Department proposes bill language for a 7 percent tribal set-
aside from all discretionary Office of Justice Programs to address 
Indian Country public safety and tribal criminal justice needs. Under 
the fiscal year 2015 request, the 7 percent set-aside totals 
approximately $102.8 million--a slight increase from last year's 
request.
    This year's DOJ budget also requests a total of $1.6 million for 
the Office of Tribal Justice (OTJ) to, amongst other things, help fund 
a total of six attorney positions in fiscal year 2015. This request is 
identical to fiscal year 2014. The request for additional staffing 
resources was made in recognition of the increased workload and duties 
of OTJ staff in recent years, particularly since the Tribal Law & Order 
Act of 2010 established OTJ as a permanent component of the Department. 
Hundreds of Federal cases, in addition to other conflicts needing 
resolution are generated in Indian Country each year, and OTJ serves as 
the primary point of contact between all 566 federally recognized 
tribes and DOJ on these matters. Additionally, with the special 
domestic violence criminal jurisdiction (SDVCJ) tribal provisions of 
the Violence Against Women Reauthorization Act of 2013, OTJ plays an 
important role in implementation. OTJ coordinates these complex 
matters, the underlying policy, and emerging legislation between more 
than a dozen DOJ components active in Indian Country. As such, it is 
imperative that OTJ has the necessary resources to sufficiently fulfill 
all of these obligations.
    Additionally, the fiscal year 2015 budget request for tribes under 
the Community Oriented Policing Services (COPS) program to fund tribal 
law enforcement expenses is $35 million, an increase of $15 million 
from the fiscal year 2014 requested amount. This program provides 
funding and resources to meet the public safety needs of law 
enforcement and advance community policing on tribal lands. The 
President's fiscal year 2015 increase brings the amount closer to his 
request in fiscal year 2012 (which was closer to $42 million). These 
funds are critical for the hiring and retention of tribal law 
enforcement officers.
    DOJ's fiscal year 2015 Budget Request for Indian Country programs 
is an increase over its fiscal year 2014 numbers, which is particularly 
encouraging given the current budget climate in Washington, DC. 
Moreover, DOJ's request provides tribes with more flexibility in how 
they spend their DOJ grant dollars, demonstrating the Justice 
Department's continued commitment to tribal self-determination and the 
improved administration of justice on Indian lands.
    office on violence against women--violence against native women
    NCAI urges Congress to fully fund the programs authorized in the 
Violence Against Women Act (VAWA), including the funds authorized for 
tribal implementation of VAWA special domestic violence criminal 
jurisdiction. In fiscal year 2015, VAWA in CJS should be funded at the 
authorized level of $569.5 million instead of $422.5 million. Tribes 
receive statutory set-asides.
    VAWA is a cornerstone of our Nation's response to domestic 
violence, sexual assault, dating violence, and stalking. Its effective 
coordinated community response model helps hundreds of thousands of 
victims find safety and receive services while holding thousands of 
perpetrators accountable for their actions. VAWA also supports victims' 
long-term stability and security, and it addresses the unique barriers 
that many victims face in accessing services and finding justice.
    It is estimated that one in three Indian women will be raped and 
that 6 in 10 will be physically assaulted in their lifetimes. This 
violence threatens the lives of Native women and the future of American 
Indian tribes and Alaska Native villages. No area of need is more 
pressing or compelling than the plight of American Indian and Alaska 
Native women and children fleeing physical and sexual violence.
    On March 7, 2013, President Obama signed into law the Violence 
Against Women Reauthorization Act (VAWA 2013) which recognizes and 
affirms the inherent sovereign authority of Indian tribes to exercise 
Special Domestic Violence Criminal Jurisdiction (SDVCJ) over all 
persons--Indian and non-Indian--who commit crimes of dating violence, 
domestic violence, and violations of protection orders within Indian 
Country. The bill authorized $5 million for tribes to implement the new 
VAWA provisions and otherwise strengthen tribal justice systems.


                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
                                                                                       Present
               Name of Grant Program                  Fiscal year     Fiscal year    fiscal year     Authorized
                                                    2013 enacted *    2014 budget        2015          level
----------------------------------------------------------------------------------------------------------------
COMMERCE, JUSTICE, SCIENCE APPROPRIATIONS
STOP--Grants......................................         $176.18         $193            $193           $222
Sexual Assault Services Program (SASP)............           23.30           27              27             40
Services for Rural Victims........................           34.02           36              33             50
Civil Legal Assistance for Victims................           38.22           37              42.5           57
Transitional Housing (OVW)........................           23.30           24.75           25             35
Grants to Encourage Arrest Policies...............           46.61           50              50             73
CHOOSE Youth Program..............................            4.66            5               5             15
SMART Program.....................................            4.66            5               5             15
Grants to Support Families in the Justice System..           14.45           15              16             22
Research on Violence Against AIAN Women...........            0.93            1               1              1
Nat'l Clearinghouse on Sexual Assault of AI/AN                0.47            0.5             0.5            0.5
 Women............................................
National Tribal Sex Offender Registry.............            0               0              --              1
Tribal Jurisdiction...............................           --              --              --              5.0
                                                   -------------------------------------------------------------
      VAWA CJS Total..............................          388.24          417.0           422.5          569.5
----------------------------------------------------------------------------------------------------------------
* With sequestration and rescissions.

                         department of commerce
    Provide $35 million for the Minority Business Development Agency 
(MBDA).--Created by Executive Order in 1971, the MBDA was established 
to support minority business development centers and received funding 
of almost $63 million to carry out this mission. Since then, MBDA's 
funding has shrunk by over 50 percent to an estimated $30.5 million for 
fiscal year 2013 and $29.3 million for fiscal year 2014. After MBDA 
revamped its cooperative assistance grants to Minority Business Centers 
(MBCs), the Native American Business Enterprise Centers (NABECs) were 
eliminated and their services were consolidated with the MBCs. About 
$13 million of MBDA's budget is disbursed to the MBCs to provide 
business consulting; advice on business financing; and some procurement 
technical assistance to minority businesses, entrepreneurs, and tribal 
enterprises.
    With the service gap created by the elimination of NABECs, the need 
for an increased level of funding for MBDA is even greater. MBDA must 
sustain and expand support for these centers, which provide important 
assistance to businesses that help them grow and develop, thereby 
creating a stronger private sector and healthier national economy. The 
MBDA also supports minority contractors' teaming efforts to pursue 
Federal contracts, directs efforts to track minority business data, 
collaborates with the Office of Native American Affairs, and is 
increasing its focus on global trade.
    Fund the Office of Native American Affairs (ONNA) at a minimum of 
$1.25 million as part of the Commerce Department Management Budget.--In 
the late 1990s, the Secretary of Commerce established ONAA) within the 
Secretary's office that was codified by the enactment of the Native 
American Business Development, Trade Promotion and Tourism Act of 2000 
(Public Law 106-464) (the 2000 Act). Since then, funding for the Office 
has been partial and very limited. In order to carry out its mission, 
ONAA must receive adequate support to implement Indian policy 
initiatives and expand Native American business development initiatives 
both domestically and internationally. Funding made available through 
Commerce's Departmental Management budget would help ONAA's efforts, 
particularly given the reduced focus of MBDA on specific Native 
American business assistance.
                               conclusion
    Thank you for your consideration of this testimony. For more 
information, please contact Natasha Anderson, Staff Attorney, at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="721c131c161700011d1c321c11131b5c1d0015">[email&#160;protected]</a>, Amber Ebarb, NCAI Budget and Policy Analyst, at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="32535750534050725c51535b1c5d4055">[email&#160;protected]</a> or Brian Howard, Legislative Associate, at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="54363c3b23352630143a37353d7a3b26337a">[email&#160;protected]</a>
                                 ______
                                 
  Prepared Statement of the National Court Appointed Special Advocate 
                              Association
    Chairwoman Mikulski, Vice Chairman Shelby, members of the 
subcommittee, thank you for the opportunity to submit remarks on the 
Department of Justice (DOJ) fiscal year 2015 budget. On behalf of the 
National Court Appointed Special Advocate (CASA) Association's network 
of 933 State and local CASA and guardian ad litem (GAL) programs in 49 
States, including Maryland and Alabama, I strongly urge the 
subcommittee to fully fund the Court Appointed Special Advocates 
program through DOJ's Office of Juvenile Justice and Delinquency 
Prevention at the Congressionally authorized level of $12 million. This 
funding, along with significant local and State sources, will be used 
to expand advocacy on behalf of abused and neglected children, a 
vulnerable population that is highly at-risk of juvenile delinquency 
and incarceration.
    We appreciate the subcommittee's long standing recognition of the 
overwhelmingly positive impact CASA programs have in the lives of 
abused and neglected children, and we urge your ongoing support as we 
strive to achieve our national goal of providing a CASA volunteer for 
every child in foster care. In the U.S. today, too many of our 646,000 
foster youth are going it alone. They want and need advocates to help 
them reach their full potential, and every day, CASA programs across 
the country provide an important voice in the lives of children beyond 
the walls of the courtrooms in which their cases are heard.
    The effectiveness of the CASA/GAL program model in achieving 
positive, long-term outcomes for children in care is well documented 
and well supported. CASA volunteer advocates are an influential 
protective factor in children's lives. A child with a CASA/GAL 
volunteer is more likely to receive needed counseling services, less 
likely to experience disruptive changes of placement, and more likely 
to pass all their courses in school. As community members with a vested 
stake in the long-term success of the children they serve, CASA 
volunteers advocate against tremendous odds for the fundamental right 
of every individual to live in a safe and secure environment.
    As the subcommittee is acutely aware, foster youth face an 
extensive range of risk factors, including a much greater chance of 
juvenile delinquency and incarceration than the general youth 
population. According to data last collected by the National Institute 
of Justice in 2011, children who suffer from abuse and neglect are 28 
percent more likely to be arrested as adults and 59 percent more likely 
to be arrested as juveniles.
    Through smart, targeted investments in a program that provides a 
stable, supportive advocacy-based presence in children's lives, 
together, we can stem the tide of youth delinquency in this Nation and 
move our young people--high-risk foster youth included--toward a safe 
and promising future. The value of saving a high risk youth from a life 
of crime has been reliably estimated to range between $2.6 and $5.3 
million. Our programs provide one-on-one advocacy and mentoring 
throughout the course of a child's case that is critical to keeping the 
lives of foster youth on a positive trajectory and away from a 
devastating future.
    As with a number of programs across the Federal Government, the 
Court Appointed Special Advocate program has weathered its share of 
funding cuts over the past few fiscal years as Congress works to 
achieve deficit reduction. I assure you that our programs have left no 
stone unturned in our quest to serve children, but we need the support 
of Congress to help vulnerable children, a population to whom we all 
share a significant obligation. These Federal funds, which are 
leveraged with other State and local resources, have been a significant 
driver of increased service to children.
    While CASA funding has decreased by half of the fiscal year 2011 
enacted level, the need for effective advocacy for foster youth in the 
courtroom--and the need for the robust training, technical assistance, 
and other resources that make this advocacy possible--has not at all 
diminished. Additionally, CASA/GAL programs across the Nation are 
reporting that their cases are increasingly complex and challenging--
including cases involving the overmedication of foster youth as just 
one example--which require additional time, energy, and resources, all 
of which are stretched significantly across our programs.
    We ask the subcommittee to provide funding for a program that not 
only transforms the lives of foster youth, but is also an effective 
cost investment of taxpayer dollars at a time in which every single one 
of those dollars must be spent wisely. CASA/GAL programs, in addition 
to advocating for a child's best interest in the courtroom and ensuring 
that he/she has the services needed to succeed, work to move the child 
out of the foster care system as quickly and as safely as possible. 
Less time in care is a better outcome for the child and it is a better 
outcome for State governments and Federal child welfare programs, 
compared to the cost of keeping a child in care.
    CASA volunteers save tens of millions of dollars in child welfare 
and other costs to society, as we work to keep at-risk youth out of the 
burgeoning prison system and on the path to promising, fulfilling 
futures. More than 90 percent of children with CASA volunteers never 
re-enter the foster care system. By reducing long-term placements, 
subsequent victimization, and reentry into the system, the CASA program 
substantially reduces foster care costs and significant costs 
associated with long-term services for children who have endured 
traumatic and difficult circumstances through no fault of their own.
    To put this in simple accounting terms, it costs the Federal 
Government $3,250 per month to keep a child in the foster care system. 
Every child with a CASA volunteer saves the taxpayer approximately 
$24,375 per year, because our volunteers are moving these children 
safely out of the system. While a more efficient use of resources is of 
paramount importance, let me also emphasize the value of our work in 
purely human terms. Every day a child spends in the foster care system, 
is a day he or she can never get back. It is a day that they are unable 
to do many of the things that we take for granted in the lives of our 
own children--making lasting friendships, forming a bond with a 
teacher, enjoying the movements of everyday life with a loving family 
that is truly their own. All children deserve a safe, nurturing, 
permanent home.
    I would also like to thank the subcommittee for continuing to 
provide strong funding for DOJ's competitive youth mentoring grants 
program. This funding is critical to strengthening and expanding the 
reach of organizations across the country that positively impact the 
lives of at-risk and underserved youth through one-on-one mentoring. 
The mentoring programs funded through these grants build needed assets 
in young people and change their lives for the better.
    We again ask the subcommittee to fund the Court Appointed Special 
Advocates program at $12 million in fiscal year 2015 to address an 
overwhelming need for advocacy on behalf of abused and neglected 
children. Thank you for your consideration of our request.
                                 ______
                                 
   Prepared Statement of the National Crime Prevention Council (NCPC)
    Thank you, Chairwoman Mikulski and Ranking Member Shelby, for the 
opportunity to submit testimony to the subcommittee in support of 
funding for the U.S. Department of Justice's crime prevention programs. 
In fiscal year 2015, we respectfully urge the subcommittee to 
appropriate $25 million for the Byrne Memorial Competitive Grants 
Program, $15 million for the Economic, High-Technology, Cybercrime 
Prevention program, and $75 million to continue the Comprehensive 
School Safety Program.
    Within the funds for the Byrne Competitive Grants program, we 
respectfully request that the subcommittee provide specific guidance to 
the Office of Justice Programs (OJP) to continue its historic support 
for two essential crime prevention functions. The first is ensuring the 
existence of independent, non-governmental national repositories of 
best practices and evidence-based crime prevention. This ensures that 
State and local law enforcement have access to the best materials on 
effective crime prevention practices--to get the best possible outcomes 
from the subcommittee's investments in Byrne Justice Assistance Grants 
and in OJP's other State and local assistance programs. The second 
essential function is a strong national public education campaign to 
reach the general public with evidence-based crime prevention 
messages--a tactic which has been shown to have tremendous impact in 
changing individual and collective behavior to prevent crime.
    We also want to applaud the Department of Justice (DOJ) for a well 
thought out, comprehensive grants program that supports the work of its 
Intellectual Property Crimes Task Force. In the last few years, OJP has 
awarded grants to State and local law enforcement to encourage strong 
investigations and effective prosecutions of Intellectual Property 
crimes, which cost our economy 373,000 jobs and $58 billion per year, 
and pose serious threats to Americans' health and safety.
    The Department also wisely included a demand reduction component to 
this comprehensive effort. In partnership with DOJ, late in 2011 NCPC 
launched a public education campaign to increase public awareness of 
the consequences of purchasing counterfeit and pirated products. The 
campaign addresses the impacts to health and safety, support for 
organized criminal elements, and job loss. We hope the subcommittee 
will support this effort and encourage OJP to continue this sensible 
approach of including demand reduction and public education in the 
effort to fight Intellectual Property crime. Grants through the 
Economic, High-Technology, Cybercrime Prevention program can continue 
this important purpose.
    Like all Americans, we remain troubled by the increase of violent 
activity in our schools, and support efforts to continue the 
Comprehensive School Safety Initiative with $75 million in fiscal year 
2015. School safety must be addressed through a sustained commitment 
nationally--both to reassure schools that they have a partner, and to 
reassure parents that work is being done to make their schools a safe 
place for their children. Though new, the initiative is a research-
focused plan to increase the safety of schools nationwide. DOJ has just 
begun work to detail the root causes of school violence, develop 
technologies and strategies for increasing school safety, and provide 
pilot grants to test innovative approaches to enhance school safety 
across the Nation. Significant funding in fiscal year 2015 will 
continue this commitment and realize the gains made in fiscal year 
2014.
    School safety has been at the heart of NCPC's work for much of our 
history. Our signature Be Safe and Sound in School (B3S) initiative 
combines target hardening and Crime Prevention Through Environmental 
Design techniques with concrete ideas on engaging the school and 
surrounding community in activities to promote a culture of respect in 
schools. These techniques include: participation by students, staff, 
parents, teachers and administrators in strategic planning for school 
safety; improved surveillance and maintenance; training; and ongoing 
evaluation.
    Background.--NCPC's mission is to be the Nation's leader in helping 
people keep themselves, their families, and their communities safe from 
crime. Through different media and methods, NCPC enables communities 
and law enforcement to work together to create safe environments, 
especially for children and youth. Established in 1980, the NCPC-led 
National Citizens' Crime Prevention Campaign and related initiatives 
have featured our beloved icon McGruff the Crime Dog and his signature 
message that beckons all Americans to ``Take a Bite Out of Crime.''
    McGruff has had lasting impact. Eighty-three percent of adult 
Americans recognize McGruff. Over 80 percent of kids would follow his 
advice on crime prevention. Over 90 percent of adults describe McGruff 
as informative, trustworthy, and effective. And 72 percent think he's 
cool. Further, Federal resources invested in the National Citizens' 
Crime Prevention Campaign have been well leveraged. For every $1 of 
Federal investment, the Campaign generated $100 or more in donated 
media. Over its history, the Campaign has produced $1.4 billion worth 
of donated advertising.
    Since the inception of the Campaign, NCPC, a private, non-profit, 
tax-exempt 501(c)(3) organization, has maintained a close partnership 
with DOJ and local law enforcement. Together we create cost-effective 
and award-winning public education campaigns, launch groundbreaking and 
comprehensive support initiatives for crime-besieged cities, provide 
training and technical assistance, produce and distribute hundreds of 
ready-to-use publications filled with practical tips, expand the reach 
of crime prevention tools through online resources, conduct 
conferences, and more. Our goal is to give Americans the tools they 
need on the ground and in the field.
    Supporting Crime Prevention Practitioners.--To the greatest extent 
possible, NCPC designs messages and trains law enforcement, community 
leaders, and other individuals on crime prevention practices with 
proven outcomes based on the highest standards of research. NCPC's 
commitment to promoting the most effective crime prevention tools is 
based our capacity to monitor crime prevention research and translate 
that research into practice.
    With additional support from DOJ, NCPC provides National Training 
and Technical Assistance to address the nationwide gap in education 
opportunities for new law enforcement officers, which was a result of 
local department cuts in training and crime prevention budgets. NCPC 
has also recorded or released five podcast interviews with experts in 
the field on topics such as Neighborhood Watch and Citizen Corps, 
crime-free multi-housing, and what a crime prevention officer is worth. 
Soon NCPC will develop a toolkit for new officers, which will include 
PowerPoint presentations, fact sheets, and resources on basic crime 
prevention that they can share with their communities.
    National Crime Prevention Activities.--NCPC works closely with 
State and local law enforcement and their national organizations to 
anticipate and respond to persistent crime challenges, emerging crime 
trends, and changing crime prevention needs nationwide.
    Through a Byrne Competitive grant, NCPC is working with DOJ and a 
number of other partners to conduct a crime prevention awareness 
campaign to address the dangerous and costly problem of intellectual 
property (IP) crime, such as pirating and counterfeiting. Our goal for 
the campaign is to engage the public in demand reduction and decrease 
threats to public health and safety. We are also working with law 
enforcement to bring the consequences of IP theft to the forefront for 
the public. Through focus groups and survey assessments NCPC uncovered 
that consumers do not expect to get caught. They do not believe that 
law enforcement is overly concerned about this problem because if law 
enforcement were concerned, the public would be more aware of the crime 
and subsequent IP prosecutions. In order to educate the public, we need 
to encourage and equip those officers and agencies who understand the 
impact to talk about IP investigations and arrests in the same way they 
would about a big drug bust or capture of a violent criminal.
    We are also working on several other public education campaigns to 
help people protect themselves, particularly from fraud. In 2013, NCPC 
hosted a virtual conference for consumers and organizations that 
support them in avoiding and recovering from mortgage fraud. It 
provided valuable information to homeowners on how to protect 
themselves against mortgage scams. This complements our individual- and 
community-focused work on foreclosure fraud and vacant property crime. 
Its reach will soon be expanded through public service advertising.
    Additionally, we are tailoring crime prevention information to the 
overlooked population of young people ages 18 to 24. As teens and young 
adults leave their homes to pursue education and employment for the 
first time they are often the victims of criminals and scams that prey 
on their inexperience. That is why we are developing programs to help 
these young people ``Be Smarter,'' live safely and protect themselves 
as they handle their first credit cards, first apartments, first cars, 
first college campuses, first vacations on their own, and first jobs.
    We are providing practical, ready-to-use resources on crimes 
against senior citizens. Senior citizens are vulnerable to 
telemarketing and financial fraud that threaten their financial 
stability. We are also educating the public on the underreported crime 
of elder abuse. An alarming number of senior citizens are physically, 
emotionally, sexually, or financially abused--frequently by people they 
trust. We are striving to ensure that people of all ages can speak out 
and act to prevent abuse and victimization and live in safe 
communities. On April 10, we held a virtual conference to protect 
senior citizens from physical abuse and financial exploitation. For law 
enforcement and direct service organizations, this is also a wonderful 
opportunity to learn how to better serve the victims of such scams. It 
remains available online at http://engage.vevent.com/rt/
ncpcsafeseniors.
    Four years ago, NCPC set out to work on a new crime prevention 
initiative that would ``inspire us to live in ways that embody 
respect... where we live, learn, work, and play.'' That is our vision 
for the Circle of Respect. Lack of respect contributes to school 
violence, property theft, online aggression, and cyberbullying among 
teens. Studies show that young people join gangs because it is the only 
place they get respect.
    The Circle of Respect is a national initiative that engages and 
challenges children, young people, adults, families, and communities to 
promote a culture of respect that transcends what has been a 
traditional tolerance of unacceptable behavior. The Circle of Respect 
website will also host VOICES--a user-generated site for teens to speak 
about personal experiences of respect within their families, peers, and 
communities. We will use their submitted artwork, poetry, short 
stories, music, and films to guide development on respect-centered 
materials for other youth, service providers, and crime prevention 
practitioners.
    When McGruff and NCPC came on the scene almost 35 years ago, 
community groups and individual citizens thought that crime prevention 
was the sole responsibility of law enforcement. Working together with 
DOJ, local law enforcement, and communities all across the Nation, we 
have ``moved the needle'' so that today, we know that crime prevention 
is everyone's business. McGruff has carried the message that all 
people--whether they are 7 or 107--can do their part to prevent crime 
and make America safer. That's what ``Take A Bite Out of Crime'' means. 
Three out of four adults now know they have a personal responsibility 
for helping to keep their communities safe from crime.
    New forms of crime are growing, such as identity theft, mortgage 
and foreclosure fraud, and cybercrimes of every stripe. We must 
effectively deploy our tightening resources to combat crime. Crime 
extracts a significant financial cost--approximately $3.2 trillion per 
year--borne by victims and their families, employers, communities, and 
taxpayers. In 2011, governments at all levels spent more than $236 
billion for police protection, correctional facilities, and legal and 
judicial costs--corrections alone costs $81 billion annually. In 2010 
violent crimes (murder, rape, assault, and robbery) cost Americans $42 
billion. In 2011, consumers lost an estimated $1.5 billion to fraud. 
There is also an unknowable opportunity cost both financial and social. 
We cannot afford these upwardly trending costs in today's economy. 
Research concludes that crime prevention initiatives are cost 
effective; we can pay modest costs now or exorbitant ones later.
    Crime Prevention in fiscal year 2015.--In an era of tightening 
budgets, investment in prevention initiatives reduces the need for 
government spending on intervention, treatment, enforcement, and 
incarceration. Therefore, investment in crime prevention has never been 
more critical. There is no doubt that when individuals, community 
groups, and businesses work closely with law enforcement to help keep 
watch over their communities, crime is prevented.
    Though most crime prevention activities are local, the Federal 
Government sets the tone by promoting crime prevention strategies that 
work. It provides leadership through funding, education, technical 
assistance, and support for State and local programs. Research and 
identification of what works, and translation and transmission of 
evidence-based best practices and lessons learned to and among the 
field require national leadership.
    Thank you again for allowing NCPC to submit written testimony and 
for your ongoing commitment to State and local crime prevention 
programs. NCPC is proud to have worked with Congress, DOJ, State and 
local law enforcement and other agencies, and the private sector in the 
past, and we believe we can continue to be an effective partner going 
forward. As Congress continues its work to prevent crime, please 
consider NCPC and McGruff as a resource and as your active 
collaborators in building safer communities.
                                 ______
                                 
     Prepared Statement of the National Estuarine Research Reserve 
                              Association
    Chairman and members of the subcommittee, my name is William Reay 
and I am the Director of the Chesapeake Bay National Estuarine Research 
Reserve in Virginia, administered by the Virginia Institute of Marine 
Science. I submit this testimony in my capacity as President of the 
National Estuarine Research Reserve Association (NERRA). NERRA is a 
not-for-profit scientific and educational organization dedicated to the 
protection, understanding, and science-based management of our Nation's 
estuaries and coasts.
    For fiscal year 2015, NERRA strongly recommends the following 
reserve system programs and funding levels within the National Oceanic 
and Atmospheric Administration (NOAA):

 
 
 
NERRS Operations..........................  $22.9 million
NERRS Procurement, Acquisition, and         $1.7 million
 Construction (PAC).
 

    The National Estuarine Research Reserve System (NERRS) program and 
its sites bring the strength of NOAA science and stewardship to 
important coastal regions across the Nation. NERRS encompasses 28 
protected reserves located in estuaries that are home to our most 
productive habitats and populated communities--that support science-
based coastal resource management, research, and education to meet 
national priorities as mandated by Congress in the Coastal Zone 
Management Act (CZMA) of 1972. The States have been entrusted to 
operate and manage NOAA's program in 22 States and Puerto Rico, where 
over 1.3 million acres of land and water are protected in perpetuity. 
What distinguishes the NERRS is the community and State implementation 
of programs and local control of these places that form this Federal-
State partnership program.
    The administration's fiscal year 2015 request for the NERRS is a 
total of $21.3 million. This amount will result in a reduction of 
funding to each State because a 29th reserve, located in Hawaii, will 
be added this year. Therefore, the administration's budget represents 
reduced funding to States from last year's appropriation (enacted 
fiscal year 2014 budget at $21.3 million). After reviewing the detailed 
NOAA budget request sent to the Congress, it is clear that States 
implementing this national program are left short-changed in their 
ability to fulfill the vision of Congress in its creation of the NERRS 
program.
    NERRA is deeply concerned with the administration's funding levels 
that we believe are inconsistent with key tenants of NOAA's own 
strategic plan--specifically, enhancing community and economic 
resiliency and strengthening science in support of coastal management. 
The administration's fiscal year 2015 requested funding level will 
diminish the NERRS's capacity to deliver important research, education 
and training to its State, local, and regional partners.
    First, the administration budget requests flat-funds the program at 
the fiscal year 2014 level of $21.3 million. Flat-funding in the face 
of the program adding a 29th reserve in fiscal year 2015 will in effect 
result in reduced budgets for each of the current reserves. This 
funding level is problematic because in addition to the new Hawaii 
reserve that is on track to join the system in fiscal year 2015, there 
are two more known--one in Louisiana, and one in Connecticut--in 
process for future years. Equally troubling is the absence of any 
mention of the expected expansions in NOAA's fiscal year 2015 budget 
submission. In addition to projected losses to the States operating 
NERRS sites, the administration's budget will mean less funding for 
science and monitoring of sea level rise change impacts at a time when 
community need is great.
    Investments in the NERRS are dollar-smart because funding for the 
program is matched by the States and leveraged significantly, resulting 
in an average of more than five other local and State partners 
contributing to the work at each reserve. Funding of $22.9 million for 
the NERRS would be a minimal level to provide each reserve with the 
necessary funding to assist our coastal communities, industries and 
resource managers to enhance coastal resiliency in a changing 
environment.
    Second, within the budget request for NOAA, the administration is 
again proposing the elimination of funding for the Bay-Watershed 
Education and Training (B-WET) regional programs--a reduction of $7.2 
million in funding. The rationale provided for program reductions is 
misleading in stating that NOAA education experiences will continue to 
be provided by programs including the NERRS. Where States are eligible 
for B-WET funding, reserves are able to increase their educational 
capacity by as much as 50 percent, as documented in the Chesapeake Bay 
NERR (VA) for example. NERRA strongly opposes the cut of B-WET regional 
programs and any of the other NOAA STEM educational programs.
making coasts more resilient and saving the nation dollars through the 
               national estuarine research reserve system
    NERRS assists our coastal communities, industries and resource 
managers to enhance coastal resiliency in a changing environment. As 
severe weather events become more common, Federal, State, and local 
officials are recognizing that estuaries have the capacity to provide 
green resilience infrastructure. Through NERRS, NOAA can tailor science 
and management practices to enable local planners to use estuarine 
habitat as a tool for resilience and adaptation.
    Through science and science-based management of more than 1.3M 
acres of protected land, NERRS provides numerous benefits to 
communities that result in improved water quality, increased upland 
flood and erosion control, and improved habitat quality that support 
local fisheries and provide storm protection to coastal communities. 
The approximate $10 million Federal contribution in science supports 
NERRS research and a coastal observing system capacity that informs 
regional policy that saves communities money. For example, research 
conducted by the Rookery Bay NERR at Naples, Florida, resulted in 
modified best management practice training for Florida's landscape 
industry, thus saving local businesses hundreds of thousands of 
dollars. It is important to emphasize that the work at each reserve 
goes beyond its property boundaries and creates a number of 
environmental and economic benefits for the communities and regions 
where they exist.
    Additionally, NERRS supports community planning initiatives by 
providing training to local officials and residents about critical 
resource management issues such as impending hazards, storm water 
control, shoreline management, and habitat restoration. The NERRS 
training is designed to help people on the ground and to get resources 
in the hands of the community--all of which amount to saving States and 
local communities more than $13.4 million annually.
    The reserves have a tremendous positive impact on our economy 
including work to maintain clean water, keep the seafood and fishing 
industry viable, provide opportunities for local tourism, and provide 
communities with practical help and science-based information to 
address coastal hazards. Estuaries, where rivers meet the sea, provide 
nursery ground for two-thirds of commercial fish and shellfish. 
Protected and well managed estuaries including those managed by the 
NERRS keep commercial and recreational fishermen sustainable, 
contributing over $2.7B to the shellfish and seafood industry in 2012 
and 2009 respectively in States that have a reserve and over $28 
billion in ocean-dependent industries in 2011 along our coasts (Source: 
National Ocean Economic Program and NOAA Fisheries, Office of Science 
and Technology). In 2010, coastal counties that included a NERR 
supported more than 468,000 jobs in ocean-dependent industries (Source: 
Bureau of Labor Statistics; NOAA).
    Protection of these important estuaries within the NERRS can have a 
significant impact on specific ecologically and economically important 
species. For example, Apalachicola Bay, Florida, home to one of three 
reserves in the State, produces approximately 90 percent of Florida's 
oyster harvest and 10 percent of the total U.S. harvest (Source: 
Wilber, 1992).
    Beyond the economic benefits to our national, State, and local 
economies, reserves operate national infrastructure that brings science 
to the management of our coasts and helps our communities prepare for 
weather and accident related disasters. NERRS is a leader in coastal 
monitoring that provides immediate and long-term data to assess water 
quality in support of State environmental programs and water dependent 
industries, enhance understanding of harmful algal blooms, guide and 
track habitat restoration and reconstruction strategies, identify 
ecosystem impacts from changing sea levels and temperature, aid in 
weather and marine forecasting, and improve emergency and insurance 
industry response to storm surges and inundation.
    Being integral members of coastal communities is a key element to 
NERRS successful delivery of science and monitoring data as evidenced 
in the Deep Water Horizon Oil Spill of 2010, a coastal area that is 
home to five reserves. We know that the billion dollar tourism and 
seafood industries depend upon clean water, and during the Deep Water 
Horizon Oil Spill crisis the communities and industries along the Gulf 
Coast relied on disaster support efforts including the wide variety of 
data supplied by the five Gulf Coast NERRs, some of which continues 
today.
    Each reserve receives operation funds from NOAA that are matched by 
the States and are used to leverage significantly more private and 
local investments that results in each reserve having, on average, more 
than five program partners assisting to implement this national 
program. In addition, the program significantly benefits from 
volunteers that are engaged in habitat restoration, citizen science and 
education which offset operation costs at reserves by donating 
thousands of hours. Annually, volunteers contribute more than 100,000 
hours to the NERRS with an estimated value of over $2.2 million.
    NERRS have made countless economic contributions to their local 
communities, States, and the Nation. In the aftermath of Superstorm 
Sandy, the Jacques Cousteau Reserve in New Jersey was cited by CNN as 
being ``a natural sponge . . . for absorbing storm and tidal surges.'' 
(November 3, 2012). In the category of eco-tourism, more than 2 million 
people annually visit the NERRS: an estimated more than $20 million is 
generated annually in direct benefit from these visitor use 
opportunities (estimated using Federal, State, and local park entry 
fees). Visitors to our reserves walk and snowshoe the trails, paddle 
the waterways, watch wildlife, hunt and fish, engage in community 
stewardship and restoration programs, and participate in numerous 
public outreach activities and events at each of our 28 reserves.
    In addition, NERRS strategically contributes more than $4.9M 
annually in education relief to offset costs to communities that face 
tight budgets in meeting the needs of local school districts. Through 
Estuaries 101 curriculum, NERRS prepares the next generation workforce 
in the key disciplines of science, technology, engineering and math 
(STEM education). The B-WET regional program funding is money that is 
spent in addition to the annual NERRS money invested in the education 
programs. The NERRS educate more than 83,000 children annually.
    The NERRS Procurement, Acquisition, and Construction (PAC) funding 
is designated for land conservation, through acquisition of priority 
lands, and essential facilities construction and upgrades. This 
competitive funding program is matched by State funds and has resulted 
in not only the preservation of critical coastal lands as described 
above, but also in the increase of construction jobs. For example NERRS 
creates more than 60 jobs for each $1 million of Federal construction 
(PAC) money spent. In addition, NERRS leveraged investments of more 
than $115 million to purchase over 30,000 acres of coastal property 
over the last 12 years.
                               conclusion
    NERRA greatly appreciates the past support the subcommittee has 
provided. This support is critical to sustain and increase the economic 
viability of coastal and estuary-based industries.
    With NERRA's fiscal year 2015 request of $22.9 million for the 
NERRS and $1.7 million for NERRS PAC, the program will be able to 
maintain delivery of credible scientific research that contributes to 
the resiliency of the natural and built communities and that yields a 
high rate of return to the 28, soon to be 29, coastal gems around the 
country. We urge the subcommittee to support this request, and to 
restore funding for the B-WET regional programs.
    Thank you for the opportunity to present these remarks. On behalf 
of NERRA, I would be happy to answer questions or provide additional 
information to the subcommittee.
                                 ______
                                 
     Prepared Statement of the National Marine Sanctuary Foundation
                fiscal year 2015 appropriations request
    The National Marine Sanctuary Foundation (NMSF) works with Congress 
and the National Oceanic and Atmospheric Administration (NOAA) to 
connect fellow citizens to the underwater places that define the 
American ocean--the National Marine Sanctuary System. We remain 
concerned that NOAA's Office of National Marine Sanctuaries (ONMS) has 
not received sufficient appropriations for several budget cycles. 
Recognizing the coastal job creation benefits provided by sanctuaries, 
NMSF respectfully requests that the subcommittee remedy this situation 
by appropriating:
  --$5.5 million to the National Marine Sanctuary Program--
        Construction/Acquisition Base, within NOAA's Procurement, 
        Acquisition, and Construction account; and
  --$51 million to the Sanctuaries and Marine Protected Areas Base, 
        within NOAA's Operations, Research, and Facilities account.
    Joining NMSF in this request is the national network of community-
based, non-profit organizations that support sites within the sanctuary 
system. On behalf of their members, the Channel Islands Sanctuary 
Foundation (California), Cordell Marine Sanctuary Foundation 
(California), Farallones Marine Sanctuary Association (California), 
Friends of Thunder Bay National Marine Sanctuary (Michigan), Hawai`i 
National Marine Sanctuary Foundation (Hawaii), Monterey Bay Sanctuary 
Foundation (California), Olympic Coast Alliance (Washington), Sanctuary 
Friends Foundation of the Florida Keys (Florida), and Stellwagen Alive! 
(Massachusetts) support funding the National Marine Sanctuary System at 
these levels (Appendix I).
    While we recognize the challenges of providing increased funding in 
the current budget climate, we believe that the President's fiscal year 
2015 budget request fails to address critical sanctuary contributions 
to job creation and economic growth. It also continues a disturbing 
trend of underfunding the sanctuary program--despite signals from 
Congress that the program warrants additional funds.
  the national marine sanctuary system and noaa's office of national 
                           marine sanctuaries
    Encompassing over 170,000 square miles of marine and Great Lakes 
waters, the National Marine Sanctuary System includes 13 national 
marine sanctuaries and Papahaanaumokuaakea Marine National Monument. 
Sanctuaries protect vibrant ocean ecosystems, conserve essential 
habitat for endangered and commercially important marine species, and 
safeguard historical and cultural resources.
    Congress provides funding to ONMS through separate accounts for 
operations and procurement; both are vital components for maintaining a 
robust and effective sanctuaries program.
  --The Operations, Research and Facilities (ORF) account funds 
        operation of a variety of education, research, monitoring and 
        management programs managed by ONMS, including development and 
        implementation of research and monitoring programs, cultural 
        resource programs, education and outreach activities; 
        permitting; and management of volunteer programs and citizen 
        advisory councils.
  --The Procurement, Acquisition and Construction (PAC) account funds 
        the purchase and overhaul/restoration of assets managed by 
        ONMS, including construction of vessels, visitor facilities, 
        and exhibits; development of partnerships for education and 
        outreach; and safety improvements and repairs to NOAA-owned 
        facilities.
      national marine sanctuaries are unique and successful ocean 
                           conservation tools
    Generations of Americans have grown up, worked jobs, and supported 
their families on the waters of our national marine sanctuaries. Among 
all the statutes enacted by Congress to govern ocean resources, the 
National Marine Sanctuaries Act stands alone in terms of the 
comprehensiveness, community participation, transparency and balanced 
approach provided for all stakeholders. An independent legal analysis 
concluded that ``the National Marine Sanctuaries Act is the best 
existing mechanism available for preserving ocean ecosystems,'' due to 
sanctuaries' commitment to public participation, community engagement, 
and use of a place- and ecosystem-based approach.\1\
---------------------------------------------------------------------------
    \1\ Perkins Coie LLP. (2013)'' Area-Based Management of Marine 
Resources: A Comparative Analysis of the National Marine Sanctuaries 
Act and Other Federal and State Legal Authorities.'' Available: http://
www.nmsfocean.org/files/ABMReport.pdf.
---------------------------------------------------------------------------
    Unlike other ocean resource laws, the National Marine Sanctuaries 
Act protects nationally significant places and their natural, 
historical, and cultural riches. Experience shows that this approach is 
vital to maintaining the healthy seascapes that underpin our productive 
economies, supporting thousands of businesses while maintaining public 
access for recreation, research, and education.
     national marine sanctuaries are economic engines for coastal 
                              communities
    National marine sanctuaries are vital to the success of coastal 
businesses and job creation. According to the National Ocean Economics 
Program, 70 percent of ocean and coastal employment in the tourism and 
recreation sector depend on visitor opportunities requiring clean 
beaches, clean water, and abundant fish and wildlife promoted by 
national marine sanctuaries. Benefits of funding national marine 
sanctuaries far outweigh the Federal outlays that support them:
  --Over 64,000 jobs and $4.5 billion in GDP contributed annually from 
        the marine tourism and recreation sector in the two counties 
        adjacent to Florida Keys National Marine Sanctuary.\2\
---------------------------------------------------------------------------
    \2\ National Ocean Economics Program. (2011) ``Ocean Economy 
Data.'' Available: http://www.oceaneconomics.org.
---------------------------------------------------------------------------
  --Over $126 million in whale watching revenue and 600 jobs at 31 
        businesses resulting from less than $2 million invested in the 
        Stellwagen Bank National Marine Sanctuary off of 
        Massachusetts.\3\
---------------------------------------------------------------------------
    \3\ O'Connor, Simon et al (2009). Whale Watching Worldwide: tourism 
numbers, expenditures and expanding economic benefits, a special report 
from the International Fund for Animal Welfare. Prepared by Economists 
at Large. Available: http://www.ifaw.org/Publications/Program
_Publications/Whales/asset_upload_file841_55365.pdf.
---------------------------------------------------------------------------
  --2,100 jobs and a $291 million budget from marine science and 
        education at the Monterey Bay National Marine Sanctuary, more 
        than 100 times the $3 million investment by taxpayers.\4\
---------------------------------------------------------------------------
    \4\ Monterey Bay Crescent Ocean Research Consortium. (2012) ``Major 
Marine Sciences Facilities in the Monterey Bay Crescent- 2012.'' 
Available: http://web.me.com/paduan/mbcorc/
Membership_Info_files/MontereyBayLabs2012-2.pdf.
---------------------------------------------------------------------------
    national marine sanctuaries start and stay in local communities
    Public participation is a hallmark of the sanctuary program. 
Coastal communities have a controlling influence on sanctuary 
priorities to ensure unique, local circumstances are addressed. All 
sanctuary rules and regulations are developed on a site-by-site basis, 
and, from the outset, sanctuaries are designed to accommodate multiple 
uses of the ocean.
    National marine sanctuaries are created by and for the people: 
citizens and communities around the Nation recognized the benefits of 
sanctuaries and expressed strong interest in establishing sanctuaries 
in their own coastal waters. Over 700 Sanctuary Advisory Council 
representatives from the fishing, tourism, and maritime commerce 
industries; Tribes, State and local government; and researchers, 
educators, and conservationists help manage sanctuary operations. Over 
100,000 hours are contributed by local sanctuary volunteers each year.
               national marine sanctuaries and education
    Through education and outreach programs, sanctuaries function as 
living classrooms that provide students with the knowledge and tools to 
act as responsible ocean stewards. Science, technology, engineering and 
mathematics (STEM) education programs are a key part of national marine 
sanctuaries mission. Eliminating important education infrastructure, 
such as NOAA Office of Education's Bay Watershed Education and Training 
(B-WET) and NOAA's Teacher at Sea program, hinders the ability to 
deliver meaningful watershed education initiatives in sanctuaries.
    We strongly encourage you to oppose any efforts to move or 
terminate the Dr. Nancy Foster Scholarship Program (NFSP). The direct 
connections between students and researchers in sanctuaries are 
critical for the effectiveness of the NFSP. While we support the 
administration's efforts to recognize efficiencies across STEM 
education initiatives, NFSP should remain administered by ONMS, as 
consistent with the National Marine Sanctuaries Act.
national marine sanctuaries' programmatic outlook under reduced fiscal 
                        year 2015 funding levels
    Funding decreases and level-funding have resulted in layoffs and 
cutbacks to mission critical sanctuary programs. A lack of funds 
results in cuts to public access and recreation opportunities, 
cancellation of partnerships that leverage private funds for taxpayer 
benefit, and the dismantling of successful education initiatives. 
Budget cuts may result in reduced operations at visitor centers; a lack 
of contingency funding needed in case of emergencies like oil spills; 
and additional inoperable vessels. Of particular concern are proposals 
to reduce funding for necessary and ongoing renovation and construction 
projects.
    The potential impact of reducing sanctuary appropriations goes far 
beyond the individual sanctuaries themselves: limiting visitor center 
hours, eliminating research programs, and diminishing enforcement 
capacities prevents ONMS from fulfilling its statutory mandates, while 
also reducing the economic activity and job creation from which healthy 
communities benefit. Funding sanctuaries below recommended levels could 
force the program to:
    Reduce public access and recreation opportunities for all 
Americans.--Funding cuts risk the Florida Keys National Marine 
Sanctuary's 767 mooring buoys, which provide public access and 
recreational opportunities within the sanctuary while protecting coral 
reefs and shipwrecks from anchor damage.
    Restrict enforcement operations that protect legal fishermen.--Lack 
of funding jeopardizes on-water patrols for illegal fishermen in the 
Florida Keys National Marine Sanctuary. In a single 2013 case, illegal 
fishermen were charged with over 1,300 violations for pilfering 664 
yellowtail snapper from a closed area that was shown to have provided 
benefits to both fish populations and commercial and recreational 
anglers.
    Cut visitor center hours.--Sanctuary visitor centers act as a 
public face of NOAA to over 350,000 visitors per year, including 
Monterey Bay National Marine Sanctuary Exploration Center (California), 
Mokupaapapa Discovery Center (Hawaii), Great Lakes Maritime Heritage 
Center (Michigan), and Florida Keys EcoDiscovery Center (Florida).
    Cancel education and outreach programs that leverage private 
funds.--Reduced funding jeopardizes education and outreach activities 
on the water, at sanctuaries and visitor centers, and in classrooms.
  noaa needs sufficient funds to fulfill its responsibilities to the 
                            american people
    We strongly support the Friends of NOAA Coalition request to fund 
the agency at no less than $5.6 billion in fiscal year 2015.--From 
weather forecasts to fisheries management, NOAA provides decision 
makers with critical data, products, and services that promote and 
enhance the Nation's economy, security, environment, and quality of 
life. Insufficient funding will only serve to diminish the economic 
activity and job creation that is successfully revitalizing communities 
across America.

                                              Jason Patlis,
                                                 President and CEO.
 letter from the national marine sanctuary foundation, cordell marine 
sanctuary foundation, farallones marine sanctuary association, friends 
   of thunder bay national marine sanctuary, hawai`i national marine 
    sanctuary foundation, monterey bay & channel islands sanctuary 
 foundations, olympic coast alliance, sanctuary friends foundation of 
                the florida keys, and stellwagen alive!
                                                    April 25, 2014.

Hon. Barbara Mikulski,
Chairwoman, Appropriations Subcommittee on Commerce, Justice, Science, 
Dirksen Senate Office Building, Washington, DC.
Hon. Richard C. Shelby,
Ranking Member, Appropriations Subcommittee on Commerce, Justice, 
Science, Hart Senate Office Building, Washington, DC.

    Dear Chairwoman Mikulski and Ranking Member Shelby:

    As Congress begins negotiations on the fiscal year 2015 Commerce, 
Justice, Science, and Related Agencies Appropriations bill, we 
respectfully request that you prioritize programmatic requests for:
  --National Marine Sanctuary Program--Construction/Acquisition, within 
        the National Oceanic and Atmospheric Administration's (NOAA) 
        Procurement, Acquisition, and Construction (PAC) account at a 
        level of $5.5 million; and
  --Sanctuaries and Marine Protected Areas Base, within NOAA's 
        Operations, Research, and Facilities (ORF) account, at a level 
        of $51 million.
    We are deeply concerned by recent decreases to sanctuaries' PAC 
account, which result in multiple, unfinished construction projects, 
and prevent NOAA's Office of National Marine Sanctuaries (ONMS) from 
acquiring the vessels necessary to complete core research, education, 
and law enforcement missions that simply cannot be accomplished from 
land alone. Facilities supported by PAC funds anchor tourism and 
recreation economies and serve as the public face of the government's 
ocean management. We strongly encourage you to support PAC funds that 
provide critical links between our ocean and the millions of Americans 
who visit the coast each year.
    Among all the statutes enacted by Congress to govern ocean 
resources, the National Marine Sanctuaries Act stands alone for its 
comprehensive, community-driven, transparent and balanced approach. 
While seeking to sustainably protect resources within sanctuaries, the 
law allows compatible commercial and recreational activities. 
Sanctuaries serve as economic engines for our communities and 
businesses, supporting thousands of jobs and generating billions of 
dollars in local revenues. Sanctuaries serve as living laboratories for 
research and centers for civic pride.
    Sanctuaries are making essential contributions to marine ecosystem 
health and coastal job creation, and sufficient ORF funding will allow 
ONMS to sustain progress to date. ONMS has not received adequate 
appropriations in past budget cycles, despite the program's increased 
responsibilities. Lack of funds will force ONMS to cut public access 
and recreation opportunities, cancel collaborative efforts with museums 
and universities that leverage private funds for taxpayer benefits, and 
terminate education initiatives. We strongly encourage you to ensure 
that funding for these priorities is added to the base level for the 
Marine Sanctuary Program.
    Closing visitor centers, eliminating research programs, diminishing 
enforcement capacities, and abolishing education initiatives will 
prevent ONMS from implementing management plans--driven and informed by 
local communities--for yet another year. We strongly urge you to remedy 
this situation by supporting an overall appropriation of $56.5 million 
for sanctuaries in fiscal year 2015.
    Thank you for your consideration. We wish you all the best for the 
remainder of the 113th Congress.
    Sincerely,

                    Jason Patlis, National Marine Sanctuary Foundation; 
                            Tom Lambert, Cordell Marine Sanctuary 
                            Foundation; Chris Kelley, Farallones Marine 
                            Sanctuary Association; Charles N. Wiesen, 
                            Friends of Thunder Bay National Marine 
                            Sanctuary; Lynette Poncin, Hawai`i National 
                            Marine Sanctuary Foundation; Dennis J. 
                            Long, Monterey Bay & Channel Islands 
                            Sanctuary Foundations; Jill Silver, Olympic 
                            Coast Alliance; George Neugent, Sanctuary 
                            Friends Foundation of the Florida Keys; and 
                            William Grafton, Stellwagen Alive!
                                 ______
                                 
  Prepared Statement of the National Network to End Domestic Violence
    Chairwoman Mikulski, Vice Chairman Shelby and distinguished members 
of the Appropriations Committee, thank you for this opportunity to 
provide testimony on the importance of investing in Violence Against 
Women Act programs and the Victims of Crime Act. I sincerely thank the 
Committee for its ongoing support for these lifesaving programs.
    I am the President and CEO for the National Network to End Domestic 
Violence (NNEDV), the Nation's leading voice for victims of domestic 
violence and their advocates. We represent the 56 State and territorial 
domestic violence coalitions, their over 2,000 member domestic violence 
and sexual assault programs, and the millions of victims they serve. 
Our direct connection with victims and those who serve them gives us a 
unique understanding of their needs and the vital importance of these 
continued investments.
    The purpose of this testimony is to request an investment of the 
full authorized amount of $569.5 million in the Violence Against Women 
Act (VAWA) and the release of $1.5 billion from the Victims of Crime 
Act Fund administered by the U.S. Department of Justice in the fiscal 
year 2015 Budget.
    Incidence, Prevalence, Severity and Consequences of Domestic and 
Sexual Violence.--The crimes of domestic and sexual violence are 
pervasive, insidious and life-threatening. In 2011, the Centers for 
Disease Control and Prevention (CDC) released the first-ever National 
Intimate Partner and Sexual Violence Survey, which found that domestic 
violence, sexual violence, and stalking are widespread. Domestic 
violence affects more than 12 million people each year, and nearly 
three in ten women and one in four men have experienced rape, physical 
violence, or stalking in his or her lifetime. The terrifying conclusion 
of domestic violence is often murder, and every day in the U.S. an 
average of three women are killed by a current or former intimate 
partner.\1\ The cycle is perpetuated as approximately 15.5 million 
children are exposed to domestic violence every year.\2\ One study 
found that men exposed to physical abuse, sexual abuse and adult 
domestic violence as children were almost four times more likely to 
have perpetrated domestic violence as adults.
---------------------------------------------------------------------------
    \1\ Bureau of Justice Statistics (2008). Homicide Trends in the 
U.S. from 1976-2005. U.S. Dept. of Justice.
    \2\ McDonald, R., et al. (2006). ``Estimating the Number of 
American Children Living in Partner-Violence Families.'' Journal of 
Family Psychology, 30(1), 137-142.
---------------------------------------------------------------------------
    In addition to the terrible cost of domestic and sexual violence to 
individual victims and their families, these crimes cost taxpayers and 
communities. According to the Centers for Disease Control, based on 
1999 figures, the cost of intimate partner violence exceeds $5.8 
billion each year, $4.1 billion of which is for direct healthcare 
services.\3\ Translating this into 2012 dollars, based on share of GDP, 
the annual cost to the Nation is over $9 billion per year, more than 
two-thirds of which is for direct healthcare services. In addition, 
domestic violence costs U.S. employers an estimated $3 to $13 billion 
annually.\4\
---------------------------------------------------------------------------
    \3\ National Center for Injury Prevention and Control. Costs of 
Intimate Partner Violence Against Women in the United States. Atlanta 
(Georgia): Centers for Disease Control and Prevention; 2003.
    \4\ Bureau of National Affairs Special Rep. No. 32, Violence and 
Stress: The Work/Family Connection 2 (1990); Joan Zorza, Women 
Battering: High Costs and the State of the Law, Clearinghouse Rev., 
Vol. 28, No. 4, 383, 385.
---------------------------------------------------------------------------
    Despite this grim reality, we know that when a coordinated response 
is developed and immediate, essential services are available, victims 
can escape from life-threatening violence and begin to rebuild their 
lives. To address unmet needs and build upon their successes, VAWA 
programs and the Victims of Crime Act fund release should receive 
significant increases in the fiscal year 2015 Commerce, Justice, 
Science Appropriations bill.
    The Need for Increased Funding to Maintain Programs and Bridge the 
Gap.--At a Congressional briefing in March, NNEDV released Domestic 
Violence Counts (the Census), a 24-hour national snapshot of domestic 
violence services. The report revealed that in just one day in 2013, 
while more than 66,000 victims of domestic violence received services, 
over 9,640 requests for services went unmet due to lack of funding and 
resources. In 2013, domestic violence programs reported that they had 
laid off nearly 1,700 staff positions, including counselors, advocates 
and children's advocates, and also had to reduce or completely 
eliminate over 1,280 services, including emergency shelter, legal 
advocacy, and counseling. I strongly encourage you to read the Census 
at www.nnedv.org/census2013 to learn more. Additionally, since 2011, at 
least 19 local domestic violence programs have been forced to close 
entirely and sequestration meant that approximately 140,000 more 
victims were unable to access services last year.
    For those individuals who are not able to find safety, the 
consequences can be dire, including homelessness or continued exposure 
to life-threatening violence. In order to meet the immediate needs of 
victims in danger and to continue to prevent and end domestic violence, 
VAWA funding must be increased and additional funds must be released 
from VOCA.
                   violence against women act (vawa)
    Violence Against Women Act (VAWA)--$569.50 million funding 
request.--Since its passage in 1994, VAWA has been the cornerstone of 
our Nation's response to domestic violence. Now in its 20th year, VAWA 
has contributed to substantial progress toward ending domestic 
violence. Despite this progress, an unconscionable need remains for 
victim services. The progress and promise of VAWA, and related programs 
aimed at addressing domestic and sexual violence, can only be only be 
fulfilled if the programs receive continued investment through the 
appropriations process. We have highlighted the following programs as 
key priorities and we urge you to support full funding for these and 
all VAWA programs as you work on the fiscal year 2015 CJS bill.
    VAWA STOP Program--$222 million funding request.--VAWA's STOP Grant 
Program is at the core of effective coordinated community responses to 
domestic violence and sexual assault. These coordinated responses help 
hundreds of thousands of victims find safety and get the services they 
need to start over, while holding perpetrators accountable. As the 
foundational VAWA program, the STOP program awards funds to every State 
and territory through a formula-based system. States use this STOP 
funding for law enforcement, prosecution, and courts training and 
response. Many States establish special units in law enforcement 
agencies and prosecutors' offices to address domestic and sexual 
violence. Victims benefit from services including advocacy, crisis 
intervention, local crisis hotlines, counseling and support, and victim 
witness notification. We urge you to provide $222 million to support 
these essential, comprehensive services.
    Additionally, we urge you to include report language that would 
exempt the STOP program from the Prison Rape Education Act (PREA) 
penalty, which would cut 5 percent of the STOP funding in States that 
are not in compliance with PREA.
    Legal Assistance for Victims (LAV)--$57 million funding request.--
Research indicates that the practical nature of legal services gives 
victims long-term alternatives to their abusive relationships. However, 
the retainers or hourly fees for private legal representation are 
beyond the means of most victims of domestic violence, dating violence, 
sexual assault and stalking. In fact, almost 70 percent of all victims 
are without legal representation. The Civil Legal Assistance for 
Victims Program is the only federally funded program designed to meet 
the legal needs of victims. Due to the high demand for these services, 
the Office on Violence Against Women receives almost 300 applications 
per year, and only one-third of these are funded. Last year, funding 
for LAV was cut by $4 million despite its efficacy and the great demand 
for these services. Targeted increases to the LAV program are a sound 
investment in long-term solutions to violence. We urge you to provide 
$57 million for this program.
    Rural Grant program--$50 million funding request.--The Rural Grant 
Program supports services for victims of domestic violence and sexual 
assault living in rural and isolated areas. Rural victims face unique 
barriers including lack of access to child care, legal services, and 
public transportation, under-resourced law enforcement, and a shortage 
of safe shelter and services. Funding for this program has either been 
cut or remained stagnant for the last several years despite the great 
need and a number of States becoming newly eligible through the most 
recent VAWA reauthorization. We urge you to provide $50 million for 
this program.
    Transitional Housing program--$35 million funding request.--This 
vital VAWA program helps communities in every State offer victims a 
safe place to begin to rebuild their lives. In just one day in 2013, 
5,270 adults and 7,561 children were housed in domestic violence 
transitional housing programs. On the same day, however, 5,778 requests 
(60 percent of the unmet requests) for emergency shelter or 
transitional housing were denied due to a lack of capacity. The extreme 
dearth of affordable housing produces a situation where many victims of 
domestic violence must return to their abusers because they cannot find 
long-term housing, while others are forced into homelessness. Increased 
investment in the Transitional Housing program will allow more States 
and localities to ensure that victims indo not have to make these 
unfathomable choices. We urge you to provide $35 million for this 
program.
    Grants to Encourage Arrest (GTEAP)--$73 million funding request.--
GTEAP helps communities develop and sustain a seamless and 
comprehensive criminal justice response to domestic violence, enhancing 
victims' safety and holding perpetrators accountable. GTEAP encourages 
State, local, and tribal governments and State, local, and tribal 
courts to treat domestic violence, dating violence, sexual assault, and 
stalking as serious violations of criminal law requiring the 
coordinated involvement of the entire criminal justice system. The 
homicide reduction initiative set aside ($4 million) is designed to 
address the risk of homicide of abuse victims, especially those in 
escalating domestic violence situations. Increased investment in GTEAP 
at $73 million will allow communities to continue this lifesaving work.
    Sexual Assault Services Program--$40 million funding request.--The 
Sexual Assault Services Program (SASP) is the only Federal funding 
source dedicated to providing direct services to adult and minor 
victims of sexual violence and is distributed through a State formula 
grant. Services include hotlines, crisis intervention, advocacy, and 
accompaniment through medical and legal systems. Increased funding will 
help eliminate waiting lists and respond to the unmet needs of victims. 
We urge you to provide $40 million for this vital program.
    Remaining VAWA programs--full funding (see chart below).--All VAWA 
programs work together to improve the system-wide response domestic and 
sexual violence and to meet the unique and pressing needs of victims. 
VAWA programs should be funded at their full authorization levels, as 
indicated in the table below.

    VAWA AND OTHER RELATED PROGRAMS--Appropriations for Fiscal Years 2012, 2013, 2014, and 2015--Campaign for
                                   Funding to End Domestic and Sexual Violence
                        [All numbers are expressed in millions.]--Updated: March 6, 2014
----------------------------------------------------------------------------------------------------------------
                                                            Fiscal year
                                                          2013 reduced by               President's
     Name of Grant Program      Fiscal year  Fiscal year   sequestration   Fiscal year  fiscal year   Authorized
                                2012 budget  2013 budget  and rescissions  2014 budget  2015 budget     level
                                                                \1\
----------------------------------------------------------------------------------------------------------------
COMMERCE, JUSTICE, SCIENCE APPROPRIATIONS.......................................................................
----------------------------------------------------------------------------------------------------------------
STOP--Grants to Combat              $189.00      $189.00        $176.18        $193.00      $193.00      $222.00
 Violence Against Women.......
Sexual Assault Services               23.00        25.00          23.30          27.00        27.00        40.00
 Program (SASP)...............
Services for Rural Victims....        34.00        36.50          34.02          36.00        33.00        50.00
Civil Legal Assistance for            41.00        41.00          38.22          37.00        42.50        57.00
 Victims......................
Transitional Housing (OVW)....        25.00        25.00          23.30          24.75        25.00        35.00
Grants to Encourage Arrest            50.00        50.00          46.61          50.00        50.00        73.00
 Policies \2\.................
CHOOSE Youth Program \3\......         5.00         5.00           4.66           5.00         5.00        15.00
SMART Program \3\.............         5.00         5.00           4.66           5.00         5.00        15.00
Grants to Support Families in         16.00        15.00          14.45          15.00        16.00        22.00
 the Justice System...........
Violence on College Campuses           9.00         9.00           8.39           9.00        11.00        12.00
 (Campus Grants)..............
Protections and Services for           5.75         5.75           5.36           5.75         5.75         9.00
 Disabled Victims.............
Elder Abuse Grant Program.....         4.25         4.25           3.96           4.25         4.25         9.00
National Institute of Justice          3.00         3.50           3.26           3.25         3.00        --
 (NIJ)........................
Research on Violence Against           1.00         1.00           0.93           1.00         1.00         1.00
 Indian Women.................
National Resource Center on            1.00         0.50           0.47           0.50         0.50         1.00
 Workplace Responses..........
Nat'l Clearinghouse on Sexual          0.50         0.50           0.47           0.50         0.50         0.50
 Assault of American Indian
 and Alaska Native Women......
Outreach to Underserved                0.00         0.00           0.00           0.00        --            2.00
 Populations..................
National Tribal Sex Offender           0.00         0.00           0.00           0.00        --            1.00
 Registry.....................
Tribal Jurisdiction...........        --           --             --             --           --            5.00
                               ---------------------------------------------------------------------------------
      VAWA CJS Total..........       412.50       416.00         388.24         417.00       422.50       569.50
----------------------------------------------------------------------------------------------------------------


----------------------------------------------------------------------------------------------------------------
                                                           Fiscal year
                                Fiscal year  Fiscal year   2013 reduced  Fiscal year  President's     Funding
                                2012 budget  2013 budget        by       2014 budget  fiscal year     request
                                                          sequestration               2015 budget
----------------------------------------------------------------------------------------------------------------
VOCA Fund Cap \4\.............      $705.00      $730.00        N/A          $745.00      $810.00        $1.50B
    State Victim Assistance          379.00       425.20        N/A            --           --          500.00
     Grants...................
    Tribal VOCA Funding Stream        --           --            --            --           20.00        20.00
    Vision 21 & Trafficking           --           --            --            12.50        35.00        35.00
     Initiatives..............
----------------------------------------------------------------------------------------------------------------


----------------------------------------------------------------------------------------------------------------
                                                          Fiscal year
                                                        2013 reduced by               President's
    Name of Grant Program     Fiscal year  Fiscal year   sequestration   Fiscal year  fiscal year    Authorized
                              2012 budget  2013 budget  and rescissions  2014 budget  2015 budget      level
                                                              \1\
----------------------------------------------------------------------------------------------------------------
LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION APPROPRIATIONS..................................................
----------------------------------------------------------------------------------------------------------------
                            ADMINISTRATION FOR CHILDREN AND FAMILIES............................................
----------------------------------------------------------------------------------------------------------------
Family Violence Prevention        $129.50      $129.50        $121.19        $133.50      $135.00      $175.00
 and Services Act (FVPSA)
 \5\/Domestic Violence
 Shelters...................
National Domestic Violence           3.20         3.20           3.04           4.50         5.00         5.00
 Hotline \5\................
----------------------------------------------------------------------------------------------------------------
                                  CENTERS FOR DISEASE CONTROL...................................................
----------------------------------------------------------------------------------------------------------------
Rape Prevention and                $41.70       $41.70         $39.39         $38.00       $38.00       $50.00
 Education..................
DELTA--Domestic Violence             5.40         5.40           5.13           5.20         5.20         6.00
 Prevention Enhancement and
 Leadership Through
 Alliances \5\..............
Preventive Health and Health         7.00         7.00           7.00           7.00         0.00         7.00
 Services Block Grant
 (PHHSBG) Sex Offense Set-
 Aside \6\..................
----------------------------------------------------------------------------------------------------------------
                                   OFFICE ON WOMEN'S HEALTH.....................................................
----------------------------------------------------------------------------------------------------------------
Violence Against Women              $2.30        $2.30          $2.30          $2.30        $2.30       $10.00
 Health Initiative..........
----------------------------------------------------------------------------------------------------------------
      L-HHS Total...........       189.10       189.10         178.05         190.50       185.50       253.00
----------------------------------------------------------------------------------------------------------------
PLEASE NOTE: This chart will continue to be updated throughout the fiscal year 2015 Appropriations process.
Updates can be found at www.nnedv.org/funding.
\1\ Rescissions and sequestration: The L-HHS programs were reduced by a 0.189 percent across the board cut for
  fiscal year 2012. In fiscal year 2012, VAWA DOJ programs were subject to an across-the-board rescission of
  1.877 percent. In fiscal year 2013, most discretionary programs, including those at OVW, were subjected to
  Sequestration cuts between 5-7 percent. Also, in fiscal year 2013 and fiscal year 2014, the final bills each
  included a $12 million rescission from OVW from unobligated or deobligated funds.
\2\ In fiscal years 2012, 2013, and 2014, and in the President's fiscal year 2015 budget, $4 million has been
  set aside in GTEAP for a homicide reduction initiative.
\3\ VAWA 2013 consolidated youth and prevention programs into two programs. Appropriations funded these programs
  as one consolidated program for the past several years. The chart above divides the amounts given to the
  Consolidated Youth program into the two new programs to demonstrate the funding history. Both the President's
  fiscal year 2014 budget and the final fiscal year 2014 bill consolidated these programs and funded them at $10
  million overall. This chart estimates that roughly $5 million will be spent on each.
\4\ VOCA Notes: State victim assistance grants are a portion of the total VOCA ``cap'' and are distributed to
  States on a population-based formula. The total annual amount for State victims assistance grants is
  determined by a formula and is not specified in Appropriations bills or Presidential budgets. We highlight
  this portion of VOCA because it funds local victim service programs and is a priority for the field. Vision
  21: The President's fiscal year 2014 and fiscal year 2015 Budgets proposed setting aside $25 million dollars
  from the amount of money released from the VOCA fund for the Vision 21 initiative, $20 million for tribal
  victim services and $10 million to address trafficking. In the final fiscal year 2014 bill, Congress
  appropriated $12.5 million for the Vision 21 initiative from its general CJS funds and not as a set-aside of
  VOCA funds. We support $35 million for Vision 21 through CJS funds. Tribal funding: We support the President's
  request for a VOCA Tribal funding set-aside.
\5\ FVPSA, the National Domestic Violence Hotline, and DELTA are authorized through the Family Violence
  Prevention and Services Act (FVPSA).
\6\ PHHSBG is authorized through the Public Health Services Act and includes a mandatory set-aside for providing
  services to rape victims and for rape prevention. The sex-offense set-aside was not cut by sequestration in
  2013.

                  victims of crime act (voca) funding
    VOCA uses non-taxpayer money from the Crime Victims Fund for 
programs that serve victims of crime, including State formula victim 
assistance grants. These funds, which are generated by fines paid by 
Federal criminals, provide support for services to four million victims 
of all types of crimes annually, through 4,400 direct service agencies 
such as domestic violence shelters, rape crisis centers, and child 
abuse treatment programs. Additional VOCA funds are critically needed 
to respond to the crisis caused by the dangerous lack of services for 
victims of domestic and sexual violence.
    With an obvious need for increased funding, and a more than ample 
balance of at least $11 billion in the Fund, now is the time to 
establish a long-term, logical and consistent basis for determining the 
annual VOCA cap in order to release additional money for the purpose 
Congress intended and for which it has been collected. The balance in 
the Crime Victims Fund is more than enough to significantly increase 
VOCA funding without jeopardizing the Fund's future sustainability.
    We urge you to request that the committee set the annual VOCA 
funding release level at no less than the amount deposited into the 
Fund during the previous full fiscal year. This number is approximately 
$1.5 billion for fiscal year 2014. We urge you to release $1.5 billion 
from the VOCA fund in fiscal year 2015 to address the needs of victims 
of crime.
    In addition, once at least $500 million is guaranteed for the State 
victim assistance grants, we request that there also be a Native 
American tribal funding stream for victim services. We also request 
funding for the Office for Victims of Crime's Vision 21 Initiative 
through CJS appropriations.
                               conclusion
    These programs work together to prevent and end domestic and sexual 
violence. While our country has made continued investments in the 
criminal justice response to these heinous crimes, we need an equal 
investment in the human service, public health and prevention responses 
in order to holistically address and end the violence. These vital, 
cost-effective programs help break the cycle, reduce related social 
ills, and will save our Nation money now and in the future.
                                 ______
                                 
         Prepared Statement of the Native American Rights Fund
    The Native American Rights Fund (NARF) \1\ submits this written 
statement for the record. We respectfully request this subcommittee's 
consideration as you develop the fiscal year 2015 Commerce, Justice, 
Science and Related Agencies appropriations bill of maintaining funding 
within the Department of Justice (DOJ), the Office of Justice Program's 
State and Local Law Enforcement Assistance account, at approximately $3 
million as provided in recent years to the Bureau of Justice Assistance 
(BJA), within assistance to Indian tribes, for the Tribal Civil and 
Criminal Legal Assistance, Training and Technical Assistance grant 
program.
---------------------------------------------------------------------------
    \1\ Founded in 1970, the Native American Rights Fund (NARF) is the 
oldest and largest nonprofit law firm dedicated to asserting and 
defending the rights of Indian tribes, organizations and individuals 
nationwide. NARF's practice is concentrated in five key areas: the 
preservation of tribal existence; the protection of tribal natural 
resources; the promotion of Native American human rights; the 
accountability of governments to Native Americans; and the development 
of Indian law and educating the public about Indian rights, laws, and 
issues.
---------------------------------------------------------------------------
    Twenty-five Indian Legal Services programs, which are the Indian 
program components of the Legal Services Corporation, operate in 23 
States. They annually provide both civil and criminal legal 
representation in tribal courts to hundreds of individual Native 
American clients, including juveniles, who meet Federal poverty 
guidelines.\2\ Legal work encompasses a broad array of cases, including 
domestic violence, pro se assistance, family member prisoner visitation 
and re-entry, child welfare and adoption, employment and home 
foreclosure assistance.
---------------------------------------------------------------------------
    \2\ In 2000, Congress enacted the Indian Tribal Justice Technical 
and Legal Assistance Act (Public Law 106-559), which specifically 
authorized the Department of Justice to provide grants to ``non-profit 
entities . . . which provide legal assistance services for Indian 
tribes, members of Indian tribes, or tribal justice systems pursuant to 
Federal poverty guidelines'' [emphasis added]. The Indian Tribal 
Justice Technical and Legal Assistance Act of 2000 was reauthorized 
through fiscal year 2015 as part of the Tribal Law and Order Act 
(Public Law 111-211).
---------------------------------------------------------------------------
    In addition to individual representation, these Indian Legal 
Services programs are currently assisting more than 160 tribes and/or 
tribal judicial systems in such activities as tribal court development 
and improvement, development of tribal dispute resolution and 
peacemaker/mediation systems, drafting of civil and criminal codes and 
rules of procedure and other structural development for court 
implementation, and training of tribal court and justice systems 
personnel and tribal court lay advocates and guardians ad litem.
    Specific project examples with recent funding from BJA include a 
State-wide tribal court support group; a video-conferencing system for 
court appearance; development of Domestic Violence ordinances; work 
with a newly-established Tribal Wellness Drug and Alcohol Court; 
helping to review a tribal criminal and juvenile justice system and to 
recommend reforms based on traditional tribal values and restorative 
justice concepts; assisting juvenile clients who have severe truancy, 
chemical dependency, and mental health issues to receive education, 
treatment, counseling, and other holistic wraparound services to avoid 
out of home placements and further criminal/delinquent behavior and 
consequences; and partnering with a tribal court and tribal college on 
a tribal advocacy certificate program.
    In many instances, these Indian Legal Services programs have been 
``on the ground,'' in these tribal communities, for decades, an 
integral part of the legal structure of the reservation communities 
they serve. The programs' representation of individual tribal citizens 
and training for and assistance to tribal governments and tribal 
judicial systems help keep citizens safe, help assure that tribal 
justice systems are grounded in solid codes and laws so that those 
communities can better attract business investments, and provide 
economic opportunities by training tribal citizens to work in the 
justice system as advocates and judges. The Indian Legal Services 
programs' work in developing and strengthening the institutions of 
tribal justice and creating a solid legal infrastructure on the 
reservations ultimately builds sustained economic opportunity and 
growth in those tribal communities.
    Between fiscal year 2010 and fiscal year 2013, these Indian Legal 
Services programs have competed with other non-profit entities and 
received grant funding under DOJ's Office of Justice Programs' Bureau 
of Justice Assistance's Tribal Civil and Criminal Legal Assistance, 
Training and Technical Assistance (TCCLA) grant program to supplement 
Legal Services Corporation resources and other Federal grant funds in 
order to expand services to tribal citizens and tribal justice 
systems.\3\ The Native American Rights Fund serves as the administering 
agency for these grant funds to the National Association of Indian 
Legal Services (NAILS), an umbrella association of the Indian Legal 
Services programs.
---------------------------------------------------------------------------
    \3\ In fiscal year 2010, under TCCLA, NAILS was awarded $1.25 
million for civil legal assistance and $1.1 million for criminal legal 
assistance; in fiscal year 2011, NAILS was awarded $536,363 for tribal 
civil legal assistance, and $1.1 million for tribal criminal legal 
assistance; in fiscal year 2012, NAILS was awarded $850,659 for tribal 
civil legal assistance, and $875,000 for tribal criminal legal 
assistance; and in fiscal year 2013, NAILS was awarded $715,944 for 
tribal civil legal assistance, and $515,940 for tribal criminal legal 
assistance. We are awaiting announcement of an fiscal year 2014 
solicitation, upon which the Indian Legal Services programs plan to 
submit applications for both tribal civil and criminal legal assistance 
for fiscal year 2014 funding.
---------------------------------------------------------------------------
    The fiscal year 2014 Consolidated Appropriations Act (Public Law 
113-76) provided $30 million for ``assistance to Indian tribes.'' We 
have not yet learned in full detail how DOJ intends to allocate these 
funds. However, we note that the reports of both the House and Senate 
Appropriations Committees accompanying your stand-alone fiscal year 
2014 CJS appropriations bills directed again that DOJ allocate fiscal 
year 2014 funds based on tribal consultation for such purposes as 
tribal courts, alcohol and substance abuse reduction grants, tribal 
detention facilities, and tribal civil and criminal legal assistance. 
We are hopeful that this report language will encourage the Department 
to allocate some fiscal year 2014 funding for the TCCLA grant program.
    With respect to the fiscal year 2015 budget request, the 
administration has again proposed bill language in General Provisions--
Department of Justice for several setasides for DOJ funding, including 
a setaside of 7 percent for tribal criminal (note: not criminal AND 
civil, as provided now, through TCCLA) justice assistance.
    Because the Indian Legal Services programs are not tribal 
governments, and do not want to have to compete with tribes for DOJ 
funding,\4\ what is most helpful is to have a specific funding amount 
for tribal civil and criminal legal assistance, a reference to the 
authorizing statute that allows DOJ to award grants for these services 
(Public Law 106-559), and a mention of the inclusion of the purpose of 
providing tribal civil and criminal legal assistance.
---------------------------------------------------------------------------
    \4\ Having to compete with tribal governments for a portion of the 
overall DOJ funds for Indian Country assistance is, as a policy matter, 
something that the Indian Legal Services programs have worked hard over 
the years to avoid, and which led us to get the initial authorizing 
legislation enacted in 2000, Public Law 106-559.
---------------------------------------------------------------------------
    If in fiscal year 2015, as in fiscal year 2014, (though at a lesser 
percentage than the administration requested), the Senate 
Appropriations Committee should agree with DOJ's request for a tribal 
set-aside, or if, as under the final fiscal year 2014 Consolidated 
Appropriations Act, you should, instead, provide an overall ``lump 
sum'' amount to OJP for ``assistance to Indian tribes,'' we would ask 
for your consideration of report language, as included in recent years, 
that would encourage DOJ to make some funding available to non-tribal 
governmental entities such as Indian Legal Services programs for the 
purpose of the provision of tribal civil and criminal legal assistance 
services.
    Prior years' instructive report language of the Appropriations 
Committees has directed the Office of Justice Programs to consult with 
tribal stakeholders in determining how the overall amount of funding 
for tribal assistance will be allocated, and has specifically mentioned 
tribal civil and criminal legal assistance. That report language has 
been helpful in ensuring that the Department of Justice provide 
approximately $3 million in funding to the Tribal Civil and Criminal 
Legal Assistance, Training and Technical Assistance grant program, for 
which Indian Legal Services has competed for funding awards.
    Funding of approximately $3 million should be appropriated in 
fiscal year 2015, as in recent years, for tribal civil and criminal 
legal assistance, and tribal court development work, as undertaken by 
Indian Legal Services programs. Thank you for your attention to and 
consideration of this submission.
                                 ______
                                 
    Prepared Statement of the Northwest Indian Fisheries Commission
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to provide testimony on the National Oceanic and 
Atmospheric Administration fiscal year 2015 appropriations. My name is 
Billy Frank, Jr. and I am the Chairman of the Northwest Indian 
Fisheries Commission (NWIFC). The NWIFC is comprised of the 20 tribes 
that are party to the United States v. Washington \1\ (U.S. v. 
Washington). I am providing written testimony for the record in support 
of funding for the National Oceanic and Atmospheric Administration 
(NOAA)/National Marine Fisheries Service (NMFS) and National Ocean 
Service (NOS).
---------------------------------------------------------------------------
    \1\ United States v. Washington, Boldt Decision (1974) reaffirmed 
Western Washington Tribes' treaty fishing rights.
---------------------------------------------------------------------------
          summary of fiscal year 2015 appropriations requests
  --$110.0 million for the Pacific Coastal Salmon Recovery Fund (NOAA/
        NMFS)
  --$14.7 million for the Pacific Salmon Treaty, including the 
        Additional $3.0 million for the 2008 Chinook Salmon Agreement 
        (NOAA/NMFS)
  --$15.8 million for the Mitchell Act Hatchery Program (NOAA/NMFS)
  --$20.0 million for the Regional Ocean Partnership Grants Program 
        (NOAA/NOS)

    We are generally pleased with the President's fiscal year 2015 
budget request as it establishes a good starting point. However, it's 
just that--a starting point--much more needs to be done. It promotes a 
strong stewardship in sustaining our vital natural resources. The 
natural resources that we depend on are vital to our tribal 
communities, economies and jobs. The President's budget provides for 
economic growth by paying for new investments while protecting the 
environment. Our economy depends on a healthy natural environment. The 
land and the many natural resources we depend on are a necessity for 
our communities to thrive. We need to continue to improve the condition 
of our changing environment for the benefit of future generations.
    The western Washington treaty tribes brought to the Federal 
Government our Treaty Rights at Risk (TRAR) initiative almost 3 years 
ago. We are slowly creating change in the manner in which government 
agencies operate but it has not yet been enough to change the 
trajectory of salmon recovery in our region from a negative to a 
positive direction. In this initiative we asked the Federal Government 
to take charge of salmon recovery because it has the obligation and 
authority to ensure both the recovery of salmon and the protection of 
tribal treaty rights. We requested that the Federal Government 
implement their fiduciary duties by better protecting salmon habitat 
and the tribes' treaty-reserved resources. The treaty-reserved right of 
the western Washington treaty tribes to harvest salmon is at risk. The 
danger exists due to diminishing salmon populations, which limits or 
eliminates our right to harvest. All of this is due to the inability to 
restore salmon habitat faster than it is being destroyed. Wild salmon 
and their habitat continue to decline despite massive reductions in 
harvest and a significant investment in habitat restoration. We have 
all made a huge investment in the recovery of salmon and their habitat. 
These good investments must continue and will contribute to recovery as 
we work to slow down the continued loss of habitat. Fulfilling these 
Federal obligations is not an option and by addressing our TRAR--we 
will recover the salmon populations.
    Adequate funding is needed in order to restore salmon habitat. A 
critical funding source for this work is the Pacific Coastal Salmon 
Recovery Fund (PCSRF). The PCSRF assists tribes in the implementation 
of salmon recovery plans and moves us in the direction of achieving the 
recovery goals, which is a direct request in our TRAR initiative. As 
Congress considers the fiscal year 2015 budget, we ask you to consider 
our requests that are further described below.
                       justification of requests
Provide $110.0 million for NOAA Pacific Coastal Salmon Recovery Fund

    We support the restoration of the PCSRF to the $110.0 million 
level, an increase of $60.0 million over the President's request. These 
funds have decreased from the peak of $110.0 million in fiscal year 
2002. We continue to support the original congressional intent of these 
funds that would enable the Federal Government to fulfill its 
obligations to salmon recovery and the treaty fishing rights of the 
tribes.
    The PCSRF is a multi-State, multi-tribe program established by 
Congress in fiscal year 2000 with a primary goal to help recover wild 
salmon throughout the Pacific coast region. The PCSRF supports projects 
that restore, conserve and protect Pacific salmon and steelhead and 
their habitats. PCSRF is making a significant contribution to the 
recovery of wild salmon throughout the region by financially supporting 
and leveraging local and regional efforts. Salmon restoration projects 
not only benefits fish populations and their habitat but provides much 
needed jobs for the local communities.
    The tribes' overall goal in the PCSRF program is to restore wild 
salmon populations. The key tribal objective is to protect and restore 
important habitat in Puget Sound and along the Washington coast that is 
essential for western Washington tribes to exercise their treaty-
reserved fishing rights consistent with U.S. v. Washington and Hoh v. 
Baldrige \2\ and also promotes the recovery of ESA listed species and 
other salmon populations. These funds support policy and technical 
capacities for tribes to plan, implement, and monitor recovery 
activities. The tribes use these funds to support the scientific salmon 
recovery approach that makes this program so unique and important. In 
addition to watershed restoration and salmon recovery work they also 
help fund fish hatchery reform efforts to allow for the exercise of 
tribal treaty fishing rights. It is for these reasons that the tribes 
strongly support the PCSRF.
---------------------------------------------------------------------------
    \2\ Hoh v. Baldrige--A Federal court ruling that required fisheries 
management on a river-by-river basis.
---------------------------------------------------------------------------
Provide $14.7 million for NOAA Pacific Salmon Treaty, including the 
        Additional $3.0 million associated with the 2008 Chinook Salmon 
        Agreement
    We support the Pacific Salmon Commission (PSC)/U.S. Section's 
request of $14.7 million, an increase of $3.9 million over the 
President's request. We also support as part of their request $1.5 
million for the Puget Sound Critical Stock Augmentation Program and 
$1.5 million for the Coded Wire Tag (CWT) Program as required by the 
2008 Pacific Salmon Treaty (PST) Chinook Annex Agreement. The Puget 
Sound Critical Stock funding covers the operation and maintenance costs 
for the hatchery augmentation programs established for Dungeness, 
Stillaguamish, and Nooksack Chinook. These hatchery efforts were 
initiated in connection with the 2008 Chinook Agreement of the U.S./
Canada PST as the conservation needs of these populations could not be 
met by harvest restriction actions alone. The CWT funding allows for 
continued maintenance and efficiency improvements of the coast-wide CWT 
program. This is essential for the sustainability and management of our 
fisheries resources. Currently there is not enough funding allocated to 
carry out the requirements of the PST, which causes the PSC to not be 
able to perform all of its responsibilities required in the treaty and 
its Chinook and coho annexes.
    The PST was implemented in 1985 through the cooperative efforts of 
tribal, State, U.S. and Canadian Governments, and sport and commercial 
fishing interests. The PSC was created by the United States and Canada 
to implement the treaty, which was most recently updated in 2008. The 
PSC establishes fishery regimes, develops management recommendations, 
assesses each country's performance and compliance with the treaty, and 
is the forum for all entities to work towards reaching an agreement on 
mutual fisheries issues. As co-managers of the fishery resources in 
western Washington, tribal participation in implementing the PST is 
critical to achieve the goals of the treaty to protect, share and 
restore salmon resources.
    Adult salmon returning to most western Washington streams migrate 
through U.S. and Canadian waters and are harvested by fisherman from 
both countries. For years, there were no restrictions on the 
interception of returning salmon by fishermen of neighboring countries. 
The 2008 update of the treaty gave additional protection to weak runs 
of Chinook salmon returning to Puget Sound rivers. The update also 
provided compensation to Alaskan fishermen for lost fishing 
opportunities, while also funding habitat restoration in the Puget 
Sound region.
Provide $15.8 million for NOAA Mitchell Act Hatchery Programs
    We support the President's request of $15.8 million for the 
Mitchell Act Hatchery Programs. Funding is provided for the operation 
of 17 fish hatcheries that release between 50 and 60 million juvenile 
salmon and steelhead in Oregon, Washington, and Idaho. This program has 
historically provided fish production for tribal treaty fisheries, and 
recreational and commercial fisheries in the Columbia River and the 
ocean. It is especially important to us in that they provide 
significant fish production for harvest opportunities for tribal treaty 
fisheries along the Washington coast. Providing adequate funding to 
maintain the current production levels from the Mitchell Act hatcheries 
on the Columbia River is important as this production not only supports 
coastal salmon fisheries but dampens the impact of Canadian fisheries 
under the terms of the PST Chinook Annex on Puget Sound and coastal 
stocks.
    Overall production from these hatcheries has been reduced from more 
than 100 million to fewer than 60 million fish. This hatchery 
production is intended to mitigate for the lost production caused by 
the hydropower dam system on the Columbia River. Substantial changes 
have been made, and will continue to be required of the Mitchell Act 
Program, due to the application of the ESA throughout the Columbia 
Basin. Adequate funding will also allow these facilities to be 
retrofitted to meet current ESA standards as identified through the 
hatchery reform process.
Provide $20.0 million for NOAA Regional Ocean Partnership Grants 
        Program
    We request $20.0 million for the Regional Ocean Partnership. It 
appears the President's fiscal year 2015 budget didn't include a 
request for this program but we feel it is necessary to highlight it 
since it is so critical to our regional approach to coastal management. 
Funding for this competitive grant program has in the past been 
included within the National Ocean Service/Coastal Management account 
and supports regional ocean partnerships, including coastal and marine 
spatial planning. This program was developed to advance effective 
coastal and ocean management through regional ocean governance by 
improving communications, aligning priorities and enhancing resource 
sharing.
    The Hoh, Makah, and Quileute Tribes, and the Quinault Indian Nation 
helped form the Intergovernmental Policy Council with the intent to 
strengthen management partnerships through coordination and focus of 
work efforts. They have pioneered cooperative partnerships with the 
State of Washington and the Federal Government in an effort to advance 
management practices in the coastal waters. Through this partnership, 
the entities hope to coordinate rockfish research, habitat mapping, and 
deep sea coral and climate change considerations. The four coastal 
tribes and the State also wish to engage in an ocean monitoring and 
research initiative to support and transition into an ecosystem-based 
fisheries management plan for the Washington coast. This tribal-State 
effort would be in collaboration with NOAA and consistent with regional 
priorities identified by a regional ocean planning body. Effective 
management of the ocean ecosystem and its associated resources requires 
the development of baseline information against which changes can be 
measured. For the tribes and State to conduct an ocean monitoring and 
research initiative off the Washington coast, they will need funding to 
support this effort. Healthy oceans are essential if we value stable 
climates that will sustain our economies and our lives. Tribes must be 
partners in the efforts to research, clean up and restore the 
environment in order to deal with identified problems.
                               conclusion
    We are sensitive to the budget challenges that Congress faces. 
However, we need your continued support in upholding the treaty 
obligations and fulfilling the trust responsibility of those treaties 
in order for tribes to be successful. We respectfully urge you to 
continue to support our efforts to protect and restore our great 
natural heritage that in turn will provide for thriving economies. 
Thank you.
                                 ______
                                 
              Prepared Statement of the Ocean Conservancy
    Thank you for this opportunity to provide Ocean Conservancy's 
recommendations for fiscal year 2015 funding for National Oceanic and 
Atmospheric Administration (NOAA). Ocean Conservancy has worked for 40 
years to address ocean threats through sound, practical policies that 
protect our ocean and improve our lives. We support funding for NOAA at 
or above the President's request of $5.5 billion, and we support 
balanced investments across NOAA's atmospheric and oceanic missions. We 
recommend the following funding levels for specific programs.


----------------------------------------------------------------------------------------------------------------
                                           Fiscal year 2014         Fiscal year 2015         Fiscal year 2015
     Account, Program or Activity              enacted            President's request       recommended level
----------------------------------------------------------------------------------------------------------------
OPERATIONS RESEARCH AND FACILITIES
National Ocean Service:
  Coastal Science, Assessment,
   Response, and Restoration:
    Marine Debris....................  $6 million.............  $6 million.............  $8 million
    Arctic Spill Preparedness........             --            $1.315 million increase  $1.315 million increase
  Coastal Management Grants:
    Regional Coastal Resilience                   --            $5 million.............  $10 million
     Grants.
National Marine Fisheries Service:
  Marine Mammals.....................  $49.717 million........  $47.217 million........  $49.717 million
  Fisheries Research and Management    $177.833 million.......  $181.833 million.......  $181.833 million
   Programs.
  Expand Annual Stock Assessments....  $69.745 million........  $72.245 million........  $75.6 million
  Fisheries Statistics...............  $22.361 million........  $22.361 million........  $23.9 million
  Climate Regimes & Ecosystem          $2.031 million.........  $2.879 million.........  $2.879 million
   Productivity.
    Distributed Biological Obs.                   --            $848,000 increase......  $848,000 increase
     (Arctic).
Office of Oceanic and Atmospheric
 Research:
  Integrated Ocean Acidification.....  $6.051 million.........  $14.922 million........  $15 million
  Regional Climate Data and            $37.312 million........  $52.312 million........  $52.312 million
   Information.
    NOAA Arctic Research Program.....             --            $2.190 million increase  $2.190 million increase
Program Support:
  NOAA Wide Corporate Services &       $113.139 million.......  $125.139 million.......  $125.139 million
   Agency Mgmt. Base.
  Marine Operations & Maintenance....  $172.181 million.......  $175.032 million.......  $175.032 million
----------------------------------------------------------------------------------------------------------------

            regional coastal resilience grants: $10 million
    The resilience of our coastal communities is a critical mission for 
NOAA and the National Ocean Service. But resilience means more than 
just storm-ready; truly resilient communities are prepared to face 
changing ocean conditions, from acidification to sea level rise, 
changing economic conditions, from recession to emerging ocean uses, as 
well as major catastrophes, from Superstorm Sandy to marine debris 
clogging waterways. Resilient communities invest up-front today to 
ensure they avoid unnecessary costs--economic, social, and 
environmental--in the future. Regional approaches are an effective and 
efficient way to address the full range of changing ocean and coastal 
conditions and risks--bringing communities, States, and Federal 
agencies together to share their collective knowledge and experience 
and move forward on shared priorities. Regional Coastal Resilience 
Grants from NOAA support work to advance resilience by supporting 
regional priorities for ocean and coastal science and activities.
    Because regional grants were left unfunded for the first time in 
fiscal year 2014, ongoing efforts through States and partnerships (like 
the Regional Ocean Partnerships) have been threatened--interfering with 
progress to support local and regional ocean and coastal needs and 
priorities, or leverage the Federal Government's expertise and data 
collection capacity. Failure to restore the regional competitive grant 
funding and provide an increase to $10 million will undermine and 
threaten the progress these partnerships have made. For these reasons, 
we request that the Regional Coastal Resilience Grants within NOAA's 
National Ocean Service be funded at $10 million.
                    preparing for a changing arctic
    We support the three funding increases requested by NOAA in fiscal 
year 2015 that make investments we need now to be prepared for economic 
and ecological challenges of a changing Arctic.
  --Arctic Spill Preparedness: $1.315 million increase.--Currently, 
        there is no demonstrated technology, technique or 
        infrastructure to respond effectively to an oil spill in icy 
        Arctic waters. Funding to support improved models, increased 
        capacity and coordination, and research is urgently needed. 
        Along with a precautionary approach, these efforts can guide 
        decisions about whether development activities should occur in 
        the Arctic and, if so, when, where, and how they occur.
  --Distributed Biological Observatory (Arctic): $848,000 increase.--
        The Arctic marine ecosystem provides irreplaceable benefits, 
        but our understanding of this ecosystem is hampered by a lack 
        of reliable baseline data, critical science gaps, and limited 
        documentation and application/use of traditional knowledge. 
        Funding will provide much-needed support for collection of 
        baseline data and analysis of ecosystem functions in Arctic 
        marine waters so we better understand Arctic fisheries and 
        other valuable ecosystem services. Without this better 
        understanding our ability to make informed decisions is 
        compromised.
  --NOAA Arctic Research Program: $2.190 million increase.--
        Temperatures in the Arctic are warming at twice the rate of the 
        global average and seasonal sea ice is diminishing rapidly. 
        Funding to expand and improve NOAA's Arctic Observing Network 
        is critical to track and understand these profound changes and 
        provide products that inform industries and decision-makers and 
        support our ability to adapt.
                       marine debris: $8 million
    Marine debris has become one of the most pervasive pollution 
problems facing the world's oceans, coasts and waterways. Research has 
demonstrated that persistent debris has serious effects on the marine 
environment, wildlife and the economy. Marine debris causes wildlife 
entanglement, ghost fishing, destruction of habitat, navigational 
hazards, vessel damage and pollutes coastal areas. There is also 
increasing concern over the threat of microplastics to the marine food 
web and potentially humans. NOAA's Marine Debris program supports 
existing monitoring and research efforts to better understand 
accumulation rates of debris and debris source and sink dynamics. The 
program catalyzes scientific research efforts to quantify the direct 
and indirect economic impacts caused by marine debris on coastal 
communities and economies that rely on them. And increasingly, NOAA's 
program is emphasizing research on microplastics in the ocean and their 
toxicological impacts on marine organisms. NOAA's Marine Debris program 
was originally authorized at a level of $10 million. We support funding 
for this program at $8 million, a $2 million increase over fiscal year 
2014.
                    marine mammals: $49.717 million
    We do not support NOAA's proposed cut of $2.5 million dollars from 
the John H. Prescott Marine Mammal Rescue Assistance Grant Program. 
This cut would harm marine mammal stranding networks, which are the 
first responders for sick or dying marine mammals. Marine mammals face 
significant threats in the Gulf of Mexico, with the Galveston Bay Spill 
providing the latest example. Programs in Texas and Florida in 
particular would be harmed by this cut because they are not currently 
benefitting from BP Natural Resource Damage Assessment dollars that are 
temporarily filling funding gaps in northern Gulf rescue centers, but 
not elsewhere.
                   fisheries science and information
    We support funding for programs that implement the ``Magnuson-
Stevens Fishery Conservation and Management Act''. As we review the Act 
for reauthorization, it is important to note that the Act is working--
NOAA has made great strides towards ending overfishing and continued 
investments in these programs are needed.
  --Expand Annual Stock Assessments: $75 million.--This funding line 
        provides critically needed resources for fisheries managers to 
        assess priority fish stocks, implement the requirement for 
        annual catch limits (ACLs), and ensure the successful recovery 
        of overfished populations. The survey and monitoring and stock 
        assessment activities funded under this line give fishery 
        managers greater confidence that their ACLs will avoid 
        overfishing while providing optimal fishing opportunities. 
        Because the information provided by stock assessments is so 
        vital for sustainable management of U.S. fisheries, increased 
        funding for stock assessments should remain among the highest 
        priorities in fiscal year 2015.
  --Marine Operations and Maintenance: $175.032 million.--Marine 
        Operations and Maintenance should be funded at or above the 
        President's Request level of $175.032 million. Days at sea 
        funded by this line are functionally tied to fishery stock 
        assessments, and the two programs must be viewed together. In 
        addition, while not currently requested in the NOAA budget, we 
        encourage Congress to consider the needs of the NOAA fleet as 
        well.
  --Fisheries Statistics (Marine Recreational Information Program): 
        $23.9 million.--Despite their often sizeable economic and 
        biological impacts, much less data are collected from 
        recreational saltwater fisheries than commercial fisheries due 
        to the sheer number of participants and limited sampling of 
        anglers' catches. The low level of data collection and lack of 
        timely reporting of data in these fisheries is a large source 
        of uncertainty and has become a flashpoint for controversy in 
        regions where catch restrictions have been adopted to rebuild 
        overfished stocks, particularly in the Southeast. By all 
        accounts, improved sampling and timelier reporting of catch 
        data are needed for successful management of marine 
        recreational fisheries.
  --Fisheries Research & Mgmt. Programs (elec. monitoring): at least 
        $181.833 million.--We support increasing funding for electronic 
        monitoring and reporting by at least the $4 million requested 
        by NOAA. This funding has been requested for nationwide 
        efforts, but in the Gulf of Mexico alone, where managers need 
        electronic monitoring to keep track of catch and prevent 
        overruns in the red snapper fishery, there is significant need 
        for additional funding. In conjunction with the charter-for-
        hire, seafood, environmental and regulatory communities across 
        all five Gulf States, we recommend that NOAA direct $2 million 
        of increased funding to create an electronic data collection 
        program for the federally-permitted charter boat fishery in the 
        Gulf of Mexico.
                     integrated ocean acidification
    In recent years, scientists have raised the alarm about ocean 
acidification--a process whereby ocean waters' absorption of carbon 
dioxide emissions alters marine acidity. These changes can have far-
reaching consequences for marine life, including economically important 
species like shellfish. For example, the shellfish industry in the 
Pacific Northwest has been devastated in recent years as increasingly 
acidic water impacted oyster hatcheries, nearly wiping out several 
years-worth of oyster ``seed.''
    Given the magnitude of the potential impacts of ocean acidification 
we believe this area warrants significantly more research investment. 
The President's fiscal year 2015 request of $15 million is a good step 
in the right direction of the actual on-the-ground needs for Ocean 
Acidification research. Funding at the $15 million level will allow 
NOAA to improve the understanding of ocean and coastal acidification 
impacts and to develop tools and adaptive strategies for vulnerable 
industries and stakeholders. These tools may include advanced 
technologies to enhance the U.S. Ocean Acidification Observing System, 
develop models to better understand carbonate chemistry dynamics and 
impacts, and provide valuable data products for coastal resource 
managers and other stakeholders. By increasing funding for Integrated 
Ocean Acidification to this level, NOAA will be able to take these 
concrete actions to more effectively tackle the economic, on-the-ground 
implications of ocean acidification and better plan for future 
strategies that will protect our Nation's key ocean and coastal 
economic assets.
noaa wide corporate services & agency management base: $125.139 million
    We support the administration's request for a $12 million increase 
for NOAA wide Corporate Services & Agency Management Base. As 
Administrator Sullivan said recently, it is rarely popular to invest in 
back-of-house functions, but if you do not support these critical 
functions, program delivery suffers. Appropriate funding for 
organizational hygiene ultimately allows the agency to more effectively 
carry out its mission, and thus results in benefits to ocean programs.
                                 ______
                                 
Prepared Statement of Dr. James Oliver, University of North Carolina at 
                               Charlotte
    Dear Sirs: The President's 2015 budget lists closure of the Center 
for Coastal Fisheries and Habitat Research, National Centers for 
Coastal Ocean Programs, National Ocean Science, National Oceanic and 
Atmospheric Administration (NOAA), at Beaufort North Carolina. I wish 
to strongly voice my opposition to this aspect of the budget, which I 
feel is not in our Nation's best interests.
    The Government has invested heavily in this facility: The Beaufort 
Laboratory facility has, over the last few years, had major upgrades of 
approximately $14 million. The lab is also rich in manpower, with a 
total of 108 staff and contractors who would be directly affected by 
the proposed closure.
    Scientific expertise.--The President's same budget also includes an 
increase of $4 million to another center to support ecological 
forecasting of harmful algal blooms (HABs), the effects of the 
decreasing levels of oxygen in our coastal waters, and an increase in 
human and animal pathogens. This is ironic in that the Beaufort 
Laboratory is a recognized leading facility for such studies, and has 
the expertise and facilities needed to address them. Their acknowledged 
reputation attracts support from other NOAA offices and other 
organizations that realize the benefits of this laboratory's 
experience.
    Along with numerous other ocean scientists, many of whom like 
myself who enjoy scientific collaborations with the Beaufort Lab, I 
plead for Congress to direct NOAA to restore support and funding to 
full operational levels in order to fully utilize the capacity of the 
NOAA Beaufort Laboratory.
    Thank you for studying this issue for the benefit of our country's 
scientific efforts.
                                 ______
                                 
 Prepared Statement of Omega Protein, Inc. and Daybrook Fisheries, Inc.
                                                    August 8, 2014.
    Dear members: This letter is submitted on behalf of the roughly 
1500 men and women employed by the menhaden industry in the Gulf of 
Mexico and the Mid-Atlantic, many if not most of whom work and fish 
here in Louisiana. The two remaining commercial menhaden fisheries, 
Omega Protein, Inc. and Daybrook Fisheries, Inc., which combined, 
produce an economic impact in excess of $1 billion to these regions and 
manufacture products that support domestic and foreign agriculture, 
aquaculture, and human health and nutrition industries, among many 
others. To do so, our industry must depend on credible and accurate 
scientific and commercial information, which for over a half century 
has been provided by the scientists and researchers at the National 
Oceanic and Atmospheric Administration (NOAA) Southeast Fisheries 
Science Center's (``SEFSC'') Beaufort, North Carolina Lab.
    In his fiscal year 2015 budget, President Obama proposes to close 
the Beaufort Lab and consolidate its operations at other SEFSC 
facilities to be determined in the future. While the President does not 
include a separate line item in his budget for this proposal, the 
closing accounts for a fraction of the $14 million projected savings 
from the Department of Commerce's reorganization of six science and 
technology programs; perhaps a million dollars per year, according to 
staff. We respectfully and urgently request that you oppose this 
proposal and continue funding the Beaufort Lab in the fiscal year 2015 
budget and beyond.
    The Beaufort Lab and its staff of over 100 employees support the 
management activities of the Gulf States and Atlantic States Marine 
Fisheries Commissions, primarily by conducting and leading the menhaden 
stock assessment (the Southeast Data Analysis and Review, or ``SEDAR'') 
for each region. It also collects, digitizes, and analyzes commercial 
catch data provided by the companies' captains in detailed logbook 
form. This information is an essential component of the joint Federal/
State menhaden management system and critical for continuing science-
based, sustainable management of these economically and ecologically 
important stocks.
    As such, we are concerned that the Beaufort Lab's closure presents 
a serious risk of disruption and loss of menhaden expertise. The Lab 
currently houses personnel with nearly a century of combined experience 
with the Atlantic and Gulf menhaden fisheries-biologists who provide 
aging data for the stock assessment and who have tracked and analyzed 
the fisheries for decades. It is nearly a certainty that longest 
serving and most knowledgeable staff will not make transition to a new 
location. If the assessment scientists likewise choose to remain in 
North Carolina, the National Marine Fisheries Service (``NMFS'') would 
essentially be faced with starting its menhaden program from the 
ground-up, if it chooses to continue it at all.
    While the menhaden industry has received assurances that NOAA 
Fisheries is committed to continuing to provide support for these 
fisheries, we remain concerned for the future. Given that the States 
take the lead in managing the Gulf and Atlantic menhaden fisheries, it 
is not difficult to imagine NMFS deciding, as an additional cost-
cutting measure, to forgo its role entirely.
    It also should not be overlooked that Beaufort Lab is one of the 
few remaining scientific institutions NMFS has in the Mid-Atlantic 
region. Beaufort is the center of research on Southeast U.S. 
Continental Shelf Large Marine Ecosystem. It houses NMFS scientific and 
management personnel from SEFSC's Miami and Pascagoula Labs doing 
research on fisheries, marine mammals (such as on Northern right 
whales, whose calving areas are off the North Carolina coast), sea 
turtles, and habitats unique to the area. Beaufort is the only NMFS lab 
located in the breeding areas of loggerhead, green, and Kemp's Ridley 
sea turtles in the Northern Recovery Unit. In order to continue these 
lines of study, NMFS would essentially have to recreate the Beaufort 
Lab.
    In short, the Beaufort Lab's closure would create a significant gap 
in our scientific understanding of the Gulf and Mid-Atlantic marine 
systems and fisheries. This action also unnecessarily jeopardizes 
America's largest fishery by volume, the Gulf and Atlantic menhaden 
fisheries. This is simply too much for such negligible potential 
savings. We strongly urge you to support its continued funding.
            Sincerely,
                                             Bret Scholtes,
                               President & CEO, Omega Protein, Inc.
                                              Gregory Holt,
                                President, Daybrook Fisheries, Inc.
                                 ______
                                 
              Prepared Statement of the Planetary Society
    The Planetary Society has serious concerns for the future of NASA's 
Planetary Science Division as proposed in the fiscal year 2015 NASA 
budget request. For the 3rd year in a row, the White House has proposed 
cuts to the program that will ensure the decline of planetary 
exploration over the course of this decade. The core recommendation of 
the National Academy's planetary science decadal survey--the crucial 
balance of small, medium, and flagship missions, combined with steady 
research and technology funding--is not supported by this request, 
which, at $1.28 billion, is nearly $220 million below the recommended 
$1.5 billion per year needed to implement a program consistent with the 
intent of the decadal survey.
    NASA's Planetary Science program has a clear direction provided by 
the Visions and Voyages planetary science decadal survey and has 
maintained a productive, successful, and unprecedented program of 
exploration throughout the past decade. The Curiosity rover is 
approaching the base of an 18,000-foot Martian mountain; the Cassini 
spacecraft has confirmed an underground ocean on Saturn's moon, 
Enceladus; New Horizons will fly by Pluto next year for the first time 
in human history. These are highly engaging, exciting, and compelling 
events delivered by NASA's planetary program. They inspire generation 
after generation of students and the public to embrace science and 
engineering. They dramatically demonstrate the United States' 
engineering and scientific prowess. But despite this, the White House 
has proposed cuts year after year that threaten the health of this 
program.
    Previous actions by the Senate and House Appropriations Committees 
have mitigated the losses to planetary science that would have come 
about had the White House's original requests in fiscal year 2013 and 
fiscal year 2014 been enacted. But even with these partial 
restorations, the United States' scientific exploration of the solar 
system is approaching a nadir not seen since the 1980s. The number of 
new missions launching during the period covered by the current decadal 
survey has dropped by half compared to the previous decade [Figure 1]. 
When Cassini at Saturn and Juno at Jupiter end their missions in 2017, 
there will be no NASA missions exploring the outer planets for the 
first time since the 1970s. Decades of hard-earned capability and 
engineering know-how will be placed at risk just as Europe, India, 
Russia, and China are committing to solar system exploration.
    Even if a new mission to the outer planets were selected tomorrow, 
the United States would still face a minimum 6-year gap. The ``fade to 
black'' predicted by respected NASA veterans Bobby Braun and Noel 
Hinners \1\ has come to pass. The question facing NASA and the Congress 
is how long to make this period last.
---------------------------------------------------------------------------
    \1\ U.S. Planetary Science: Fading to Black. Space News, April 22, 
2013.
---------------------------------------------------------------------------
    The administration's budget proposal ensures a long period of 
darkness. Based on statements within the budget document, the number of 
new planetary science missions in development dwindles to two (Mars 
2020 and the next small-class Discovery mission) by 2016, the lowest 
level in decades. While NASA officials have stated their intention to 
increase the cadence of the Discovery missions by the end of the 
decade, the budget makes no statement to this effect. It also suspends 
one of the major components of a balanced planetary program: the 
medium-class ``New Frontiers'' mission line. If this occurs, exactly 
zero of the competitively-selected medium-class missions recommended by 
the decadal survey for 2013-2022 will be implemented. This represents a 
notable change in policy, as all previous budgets anticipated a new New 
Frontiers opportunity in 2016.
    The administration did take a tentative step towards a mission to 
explore Europa, which would help address the lack of outer planets 
exploration. The Planetary Society wishes to recognize the importance 
of this mission, and we are happy to see NASA and the White House take 
this step.
    Europa, the moon of Jupiter with a vast liquid water ocean, is a 
destination long sought by the scientific community. It ranked as the 
most important flagship mission in the first decadal survey and the 
second-most important in the current decadal survey. Last year's 
discovery of likely water plumes erupting from Europa's south pole only 
served to increase the moon's scientific importance. These plumes 
significantly lower the cost of performing initial analysis of Europa's 
water, as a spacecraft could far more easily fly through and collect 
plume samples instead of landing and boring through a thick ice sheet.
    But the White House requests a mere $15 million to study a low-cost 
Europa mission concept, despite having received over $140 million in 
the past 2 years to advance the Europa Clipper concept mission from the 
Jet Propulsion Laboratory and the Applied Physics Laboratory, which had 
already reduced the cost of a major scientific mission by over 50 
percent from the original decadal concept. To reduce it further, as 
NASA is proposing, raises serious questions of the scientific return 
possible from such a mission. We are all for cost-savings, but we must 
ensure that this once-in-a-generation opportunity to explore Europa 
achieves the preponderance of scientific goals as defined in the 
decadal survey, and sufficiently moves our understanding of Europa to 
the point where NASA could subsequently attempt a landing on the 
surface.
    The timing for the Europa mission, not mentioned in the fiscal year 
2015 request but stated by NASA officials as ``mid-2020s,'' is also a 
concern. We support section 321 of H.R. 2687, the NASA Authorization 
Act of 2013, which sets key policies for planetary missions, including 
the goal to launch by 2021 a major Europa mission that is responsive to 
the decadal survey. A similar provision is now the 2014 NASA 
Authorization bill currently working its way through the House Science 
Committee.
    The administration's budget deserves praise for funding continued 
operations for several existing planetary science missions, notably the 
popular Curiosity rover on Mars and the long-lived Cassini orbiter at 
Saturn. The next major mission to Mars appears to have a reasonable, if 
tight, budget profile that supports its launch in 2020. Additionally, 
the request provides adequate funding to maintain the Department of 
Energy's Plutonium-238 infrastructure and restart program, crucial for 
continued access to destinations where solar power is not feasible. We 
strongly support these decisions, and urge Congress to do so as well.
    But the budget proposal does place the continued operation of two 
functioning planetary spacecraft at risk. Both the Opportunity rover 
and the Lunar Reconnaissance Orbiter are zeroed out in the base 
proposal. Instead, they are moved to the President's Opportunity, 
Growth, and Security Initiative. The Planetary Society believes in 
maximizing taxpayer value for NASA assets by continuing operations as 
long as missions remain scientifically valuable. We fully expect the 
upcoming senior review at NASA to validate the scientific returns of 
both missions, and strongly recommend that both continue operations 
whether or not the OGSI is passed into law.
    The major NASA achievements in planetary exploration slated for 
fiscal year 2015--Curiosity at Mt. Sharp, New Horizons at Pluto, Dawn 
orbiting Ceres--represent what's great about the country. They are bold 
feats of engineering and scientific prowess. They are optimistic--each 
one faced immense challenges that were overcome by careful thought and 
planning. They engage the public with their bold feats of discovery. 
They are also all initiatives from the previous Presidential 
administration.
    Spacecraft take time to design, build, and fly. We are not so much 
concerned for the health of the current set of missions (Opportunity 
and LRO are notable exceptions) so much as we are concerned for the 
health of the program going forward. NASA already faces the biggest gap 
in solar system exploration in decades, and has dropped its launch rate 
for this decade by half, but this can still change. Wise action by the 
Congress and a receptive administration can embrace planetary science 
for what it is: a unique and hard-earned capability that is worth a 
small investment--$1.5 billion per year, less than 9 percent of NASA's 
total budget--to maintain a peerless program of exploration that 
inspires the country.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Figure 1: Funding level of NASA's Planetary Science Division from 2003-
2019, adjusted for inflation and displaying the number of missions 
planned to be in development according to NASA Budget requests during 
this period. The average budget for 2003-2013 is $1.5 billion per year. 
Modifications to the budget have been made to preserve programmatic 
consistency. Note that by the end of the decade the Division is working 
on only two new missions while maintaining an aging set of spacecraft 
and funding Pu-238 development, scientific research, NEO detection, and 
instruments on foreign missions. Raw data and methods are available at 
http://planetary.org/planetary-funding-chart.

Note: funding projections suggest that the Discovery 14 mission could 
begin development in fiscal year 2018 or fiscal year 2019, though this 
is unstated in the budget request and therefore not represented here.
                      about the planetary society
    The Planetary Society has inspired millions of people to explore 
other worlds and seek other life. Today, its international membership 
of over 40,000 individuals makes the non-governmental Planetary Society 
the largest space interest group in the world. Carl Sagan, Bruce Murray 
and Louis Friedman founded the Planetary Society in 1980. Bill Nye, a 
long time member of the Planetary Society's Board, serves as CEO.
                                 ______
                                 
 Prepared Statement of the Regional Information Sharing Systems (RISS) 
                                Program
    RISS serves thousands of law enforcement and public safety agencies 
across the country in their effort to successfully resolve criminal 
investigations, apprehend and prosecute offenders, maintain security, 
and ensure officer safety through nationwide deconfliction. Agencies, 
officers, and public safety professionals turn to and rely on RISS to 
access intelligence systems, investigative databases, analytical 
support, training, and a host of other services and resources. RISS is 
a leader and an innovator in technology and investigative support and 
has enabled law enforcement to significantly improve information 
sharing across jurisdictions, resulting in thousands of arrests and 
prosecutions and millions of dollars in seizures. It is imperative that 
these advances continue and be built upon in order to ensure a safer 
Nation. Fiscal year 2015 funding for RISS is requested at $45 million. 
This funding will support the continued operation of the six regional 
intelligence centers, the RISS Technology Support Center, and all of 
RISS's technology, investigative, and deconfliction services and 
resources.
    In fiscal year 2012, RISS's funding was reduced 40 percent from $45 
million to $27 million. RISS continued to provide the best possible 
service and solutions to its agencies and partners. RISS worked 
diligently to maintain its core services and secure infrastructure. In 
addition, RISS was asked by numerous agencies, including many Federal 
agencies, to participate in initiatives and help identify solutions. 
However, in some cases, agencies experienced decreases in analytical 
and investigative case support, training, and other investigative 
services. The RISS fiscal year 2013 appropriation was $35 million, a 
significant increase over fiscal year 2012. Because of sequestration 
and administrative fees, however, RISS's net funding for fiscal year 
2013 was $29.5 million. The fiscal year 2014 appropriation included 
RISS at $30 million. After administrative fees are applied, however, 
RISS's allocation will be $27 million--less than fiscal year 2013. The 
fiscal year 2015 President's budget includes RISS at $25 million, which 
at that level would exacerbate an already critical situation for the 
local, State, Federal, and tribal agencies RISS serves.
 riss provides secure information and intelligence sharing capabilities
    RISS operates the RISS Secure Cloud (RISSNET)--a sensitive but 
unclassified (SBU) law enforcement cloud provider. RISSNET connects 
disparate systems, provides bidirectional sharing, and offers a 
federated search of connected systems. RISSNET serves as the secure 
infrastructure for hundreds of critical resources and investigative 
tools. The owners of these resources rely on RISSNET for its secure 
infrastructure. Currently, 84 systems are connected or pending 
connection to RISSNET. Without RISSNET and the hundreds of resources it 
supports, agencies would be greatly limited in their ability to 
retrieve, exchange, and use information to prevent and solve crimes.
    Examples of RISS-developed resources accessible via RISSNET include 
the RISS Criminal Intelligence Database (RISSIntel), the RISS Officer 
Safety Event Deconfliction System (RISSafe), the RISS Officer Safety 
Web site, the RISS National Gang Program (RISSGang), the RISS Automated 
Trusted Information Exchange (ATIX), and the RISSLeads Investigative 
Website. RISS also develops secure hosted websites for partners to 
share information, post materials, and communicate. There are more than 
30 sites housed on RISSNET, including the Assured SBU Network 
Interoperability Working Group, the National Interagency Fire Center, 
the Medicaid Fraud Control Units, the Medicaid Integrity Institute, and 
the Federal Law Enforcement Training Center.
    The RISSIntel user interface provides for a real-time, online 
federated search of more than 35 RISS and partner intelligence 
databases, including State systems, the California gang intelligence 
system (CalGang), and systems connected via the National Virtual 
Pointer System (NVPS). This search does not require the RISSNET user to 
have a separate user account with the respective partner systems. This 
simplified sign-on approach enables officers to save time and quickly 
retrieve critical information. Millions of records are available via 
RISSIntel and bidirectionally from connected partner systems.
    The RISSGang Program consists of the RISS National Gang 
Intelligence Database, the RISSGang Website, and information resources. 
The database provides law enforcement agencies with access to gang 
records, including suspects, organizations, weapons, photographs, and 
graffiti. The website provides resources, information, and 
publications. RISS completed a system-to-system interface between 
RISSIntel/RISSGang and CalGang, enabling authorized users to initiate a 
federated search. RISS completed the connection to the Bureau of 
Alcohol, Tobacco, Firearms and Explosives' GangNet and is working to 
connect other gang systems.
    RISS ATIX provides a secure platform for law enforcement, public 
safety, first responders, and the private sector involved in securing 
our Nation from terrorism and other disasters to share information. 
Community groups include local, county, State, and tribal levels of 
emergency management, law enforcement, and government, as well as 
public and private utilities, transportation, agriculture, chemical 
manufacturing, private security, environmental protection, banking and 
finance, and hospitality industries. The RISS ATIX resources include 
secure Web pages, secure discussion forums, a document library, and 
secure e-mail.
    Each RISS Center maintains a secure Web site to provide users with 
access to RISSIntel, other RISSNET resources, and investigative 
systems, such as the RISS Property and Recovery Tracking System, the 
Cold Case Database, and the Pseudo Violator Tracking System. The number 
of investigative records available through these different systems 
exceeds 37 million. During fiscal year 2013, more than 73 million 
transactions occurred via RISSNET.
            riss supports the nation's public safety mission
    RISS is a key player in Federal information sharing initiatives. 
RISS supports and partners with Federal agencies, such as the Law 
Enforcement National Data Exchange (N-DEx); the Federal Law Enforcement 
Training Center; the Office of the Program Manager, Information Sharing 
Environment (PM-ISE); the Homeland Security Information Network (HSIN); 
the National Criminal Intelligence Resource Center; the United States 
Secret Service's Targeted Violence Information Sharing System; the 
Medicaid Fraud Control Units; and the National Motor Vehicle Title 
Information System.
    The N-DEx and RISS Information Sharing Partnership aims to expand 
the availability of case management, investigative, and intelligence 
data as well as critical analytical tools. Access to N-DEx will be 
available to authorized RISSNET users via the Law Enforcement 
Enterprise Portal without requiring an additional username or password. 
This capability enables officers to obtain needed information quickly, 
saves officers' time, streamlines operations, and enhances law 
enforcement's ability to respond to crime in their community 
effectively and efficiently. This effort was launched in the Rocky 
Mountain Information Network (RMIN), a RISS Center, and plans are under 
way to expand it to the other RISS Center regions throughout 2014.
    RISS is the only non-Federal entity participating in the Assured 
SBU Interoperability Initiative under the auspices of the White House 
and the PM-ISE. This initiative seeks to expand federated access to 
resources and to provide simplified sign-on capabilities for officers 
to access multiple systems simultaneously. RISS is at the forefront in 
providing simplified, federated access. More than 18,000 users from 
trusted partner systems are using Federated Identity to access RISSNET 
resources. In addition, RISS built and hosts the NVPS Message Hub to 
provide access to the NVPS participant agencies and to RISS member 
agencies that submit records to the RISSIntel databases via RISSNET. 
Through these partnerships, RISS offers cost-effective and time-saving 
solutions while further strengthening information sharing, public 
safety, and officer safety.
    The RISS Centers have strong partnerships with fusion centers. 
Almost all fusion centers have access to RISSNET. RISS intelligence 
analysts interact daily with staff at various fusion centers. Some 
analysts are collocated. RISS provides technical on-site assistance to 
fusion centers to integrate RISS services and resources into their 
daily operations and coordinates the delivery of RISS services with 
fusion center personnel. During fiscal year 2013, RISS initiated the 
Northeast Fusion Center Intelligence Project, which will connect 17 
existing fusion centers' intelligence systems to RISSIntel via RISSNET. 
By leveraging RISSNET and RISSIntel, fusion centers can securely share 
intelligence data among themselves and other entities and analyze 
criminal and terrorism data across jurisdictional boundaries, while 
safeguarding privacy and civil liberties.
    RISS is supported by the International Association of Chiefs of 
Police, the National Sheriffs' Association, the National Narcotic 
Officers' Associations' Coalition, the National Alliance of Gang 
Investigators Associations, and many others. RISS's partnerships have 
resulted in an unprecedented level of information and intelligence 
sharing.
           riss enhances officer safety through deconfliction
    RISSafe is an essential component in helping to ensure officer 
safety. RISSafe stores and maintains data on planned law enforcement 
events--such as raids, controlled buys, and surveillances--with the 
goal of identifying and alerting affected agencies and officers of 
potential conflicts impacting law enforcement efforts. The interaction 
between RISSafe and RISSIntel provides comprehensive officer safety 
event and subject deconfliction services. RISSafe Mobile enables 
officers to access RISSafe from their smartphones and other mobile 
devices. RISSafe is accessible and monitored on a 24/7/365 basis and 
available at no cost to all law enforcement agencies regardless of RISS 
membership. It is impossible to put a monetary value on the number of 
officers that RISSafe has helped protect from harm or, worse, death.
    Since its inception, more than 757,000 operations have been entered 
into RISSafe, resulting in more than 263,000 identified conflicts. 
Currently, 22 RISSafe Watch Centers are operational, 16 of which are 
operated by organizations other than RISS, such as State agencies, 
fusion centers, and High Intensity Drug Trafficking Areas (HIDTA). As 
of March 4, 2014, RISSafe and HIDTA's Case Explorer have been connected 
in the six RISS regions. Work is under way to expand connectivity with 
other deconfliction partners.
    The RISS Officer Safety Website serves as a nationwide repository 
for issues related to officer safety, such as concealments, hidden 
weapons, armed and dangerous threats, officer safety videos, special 
reports, and training.
         riss provides critical investigative and case support
    RISS offers law enforcement agencies and officers comprehensive 
investigative services, from the beginning of an investigation to the 
ultimate prosecution and conviction of criminals. An officer can 
simultaneously query connected intelligence databases; retrieve 
information from specialized investigative databases and resources; use 
analytical products, such as crime scene diagrams, link-analysis 
charts, digital forensics, and audio/video services; solicit assistance 
from research staff to help sift through information, conduct research, 
and help identify the missing piece of the puzzle; borrow surveillance 
and investigative equipment; obtain training on new and emerging 
topics; and access critical publications and law enforcement-sensitive 
briefings. In fiscal year 2013, the RISS Centers developed 27,015 
analytical products, loaned 4,062 pieces of specialized equipment, 
responded to 210,404 requests for research and technical assistance, 
and trained 46,579 individuals.
    RISS is an excellent return on investment for our Nation. Over the 
last 10 years, officers leveraging RISS's services arrested almost 
48,000 offenders and seized more than $765.8 million in narcotics, 
property, and currency. Without RISS's services and resources, 
criminals, drugs, stolen property, and other contraband might still be 
on our streets. Every day, officers use RISS to help solve cases and 
stay safe. To view success stories from every State and other 
information regarding RISS, visit www.riss.net/Impact.
    It would be counterproductive to require local and State RISS 
members to self-fund match requirements or to reduce the amount of 
Bureau of Justice Assistance discretionary funding. Agencies require 
more funding to fight the Nation's crime problem. RISS is unable to 
make up the decrease in funding that a match would cause, for it has no 
revenue source of its own. RISS has been instrumental in breaking down 
the communications barriers among the criminal justice community and 
providing seamless access to critical information, intelligence, and 
investigative resources. RISS is A Proven Resource for Law Enforcement. 
RISS's services and programs directly impact law enforcement's ability 
to successfully resolve investigations and prosecute criminals while 
providing the critical resources and officer safety deconfliction 
necessary to safeguard law enforcement officers and citizens. With the 
ongoing threats to our communities and Nation, more support for RISS is 
needed, not less. RISS is grateful to provide this testimony at your 
request and appreciates the support this committee continuously 
provides to the RISS Program.
                                 ______
                                 
                 Prepared Statement of Research!America
    Research!America, a public education and advocacy alliance 
committed to advancing medical and other scientific research and 
development, appreciates the Senate Committee on Appropriations 
Subcommittee on Commerce, Justice, Science and Related Agencies' 
stewardship over such a critical subset of our Nation's discretionary 
funding priorities. As the subcommittee begins the process of 
prioritizing fiscal year 2015 funding, we urge you to consider the 
following thoughts on the National Science Foundation (NSF) which is 
entrusted with sustaining our Nation's sophisticated research 
infrastructure, partnering with the private sector to accelerate 
innovation, and maintaining our global leadership. For fiscal year 
2015, we request that the National Science Foundation receive at least 
$7.6 billion in Federal funding to allow its continued growth as a 
driver for basic research.
    The National Science Foundation (NSF) plays a pivotal role in 
advancing basic and social sciences research. The funding, or lack of 
it, allocated to NSF will bear on our Nation's ability to compete in 
key export markets within the global economy, foster business 
development that grows and maintains jobs across the country, utilize 
social sciences research for more efficient Federal spending based on 
advanced understanding of the use of social services, devise evidence-
based strategies for empowering Americans to overcome the need for such 
services, meet our solemn obligations to our troops, bolster national 
security, and ensure top-line education for scientists and medical 
researchers at our Nation's colleges and universities. The stakes truly 
are that high.
                     nsf as an innovation incubator
    In fiscal year 2015, we urge you to fund NSF with at least $7.6 
billion to continue the trajectory of increased basic research which is 
so critical to society. NSF supports research in fundamental sciences 
and engineering to keep the United States at the forefront of 
scientific discovery. The source of approximately 21 percent of all 
federally funded basic research, NSF funds over 300,000 scientists, 
engineers, educators, and basic researchers through more than 11,000 
grants annually. The fruits of NSF basic research are integral to our 
Nation's innovation cycle. Countless innovations that Americans depend 
on every day, like laser technologies and Internet search functions, 
are products of NSF-supported research. NSF has also supported the work 
of more than 200 Nobel Prize winners in the past 60 years.
nsf as a conduit to evidence-based, strategic use of government dollars
    NSF's support of social sciences research is grossly underestimated 
in its value to taxpayers, the wellbeing of children and other 
vulnerable populations, and the prosperity of our Nation. Designing and 
executing social services programs without evidence-based foundations 
is akin to shooting in the dark, wasting resources, and comprising the 
mission. When you think of child welfare programs, the need for social 
sciences research is crystal clear. It would be tragic if programs 
inadvertently created disincentives for proper foster care, for 
example. Social sciences research enables a better understanding of 
international markets, boosting the ability of businesses to succeed in 
our globalized economy. It is a dangerous mistake to dismiss the 
importance of such research.
                           nsf as an educator
    In an era when a capable scientific workforce is crucial, NSF funds 
the education and training of the future STEM staff and leaders through 
various K-12, undergraduate, and graduate education programs. The only 
agency with a federally-mandated mission requiring incorporation of 
science and engineering education in all funded research, NSF helps to 
develop skilled researchers who not only extend scientific innovations 
but also educate future generations. For more than 20 years, the 
Advanced Technological Education program (ATE) has offered scientific 
educational support and opportunities to more than 54,000 undergraduate 
and associate degree students via almost 300 active grants. Without 
sufficient Federal funding, fundamental educational programs like ATE 
are at risk for cutbacks which will weaken the future scientific 
workforce of America and hinder our countries growth as a global 
innovator.
                  the threat of sequestration's return
    The Ryan-Murray Bipartisan Budget Act provided America with 2 years 
of partial relief from sequestration after across the board budget cuts 
dramatically impacted the Nation's research capability in March 2013. 
Unfortunately, sequestration will go back into full effect in 2016 
unless Congress takes action, and it will be in effect for 2 years 
longer than originally established under the 2011 Budget Control Act. 
The return of sequestration's budget cuts to discretionary spending, 
including that for NSF, poses potentially devastating setbacks to our 
Nation's research. Short-changing scientific innovation and basic 
research is not a solution to the Federal deficit or debt. For example, 
neglecting medical research undercuts strategies to fight chronic 
disease and the multipronged Federal costs that arise from it, while 
squandering opportunities to increase private sector and Federal 
revenues through new medical innovations.
    Research!America appreciates the difficult task facing the 
subcommittee as it seeks to simultaneously confront the budget deficit, 
strengthen the United States, and promote the well-being of Americans. 
There are few Federal investments that confer as many benefits as 
medical research--new cures, new businesses, new jobs, new solutions to 
healthcare cost inflation, and new fuel to drive U.S. leadership in a 
global economy shaped by the ability of countries to continuously 
innovate. We firmly believe that investing in NSF is a means of 
advancing our Nation's innovative capacity in both the short- and long-
term. Thank you for your leadership and consideration; we know that 
your task is extraordinarily difficult, and that our Nation is 
fortunate to have such pragmatic, committed and gifted leaders at the 
helm.
                                 ______
                                 
           Prepared Statement of Restore America's Estuaries
    Restore America's Estuaries is a nonpartisan, nonprofit 
organization that has been working since 1995 to restore our Nation's 
greatest estuaries. Our mission is to restore and protect estuaries as 
essential resources for the Nation. Restore America's Estuaries is a 
national alliance of community-based coastal conservation organizations 
across the Nation that protect and restore coastal and estuarine 
habitat. Our member organizations include: American Littoral Society, 
Chesapeake Bay Foundation, Coalition to Restore Coastal Louisiana, Save 
the Sound--a program of the Connecticut Fund for the Environment, 
Conservation Law Foundation, Galveston Bay Foundation, North Carolina 
Coastal Federation, EarthCorps, Save The Bay--San Francisco, Save the 
Bay--Narragansett Bay, and Tampa Bay Watch. Collectively, we have over 
250,000 members nationwide.
    As you craft your fiscal year 2015 Commerce, Justice, Science and 
Related Agencies appropriations bill, Restore America's Estuaries 
encourages you to provide the funding levels below within the 
Department of Commerce, National Oceanic and Atmospheric Administration 
(NOAA) for core programs which greatly support coastal community 
economies:

  --$24 million for Fisheries Habitat Restoration
    (CJS: NOAA: ORF: NMFS: Habitat Conservation & Restoration: 
        Fisheries Habitat Restoration)

  --$3 million for the Coastal and Estuarine Land Conservation Program 
        (CELCP)
    (CJS: NOAA: PAC: NOS: CELCP Acquisition)

  --$22.9 million for National Estuarine Research Reserve System
    (CJS: NOAA: ORF: NOS: Ocean and Coastal Management and Services: 
        National Estuarine Research Reserve System)

  --$1.7 million for National Estuarine Research Reserve Construction
    (CJS: NOAA: PAC: NOS: NERRS Construction)

    These non-regulatory investments strengthen and revitalize 
America's communities by buffering against storms, supporting 
commercial fisheries, preventing erosion, protecting vital 
infrastructure, eliminating public safety hazards, and providing new 
recreational opportunities.
   noaa, fisheries habitat restoration--community-based restoration 
                                program
(CJS: NOAA: ORF: NMFS: Habitat Conservation & Restoration: Fisheries 
        Habitat Restoration)
    NOAA's Fisheries Habitat Restoration line provides critical funding 
for the Community-based Restoration Program and newly transferred 
Estuary Restoration Program which was transferred to NMFS in fiscal 
year 2014 from the National Ocean Service. The request includes a 
modest $3.3 million increase above fiscal year 2014 enacted levels for 
the Community-based Restoration Program to allow funding of new 
projects in fiscal year 2015, while maintaining current funding levels 
for the Estuary Restoration Program.
    NOAA's Community-based Restoration Program (CBRP), accomplishes on-
the-ground projects to restore the Nation's coastal, marine, and 
migratory fish habitat. The program provides technical expertise--
including engineering, construction, and monitoring--as well as funding 
to regional and national partners, and directly to local communities to 
carry out science-based restoration projects. Federal investments in 
restoration are highly leveraged with local, State, and private funds 
to provide long-lasting benefits to communities and economies.
    The community-engagement aspect of the program is critical to long-
term restoration efforts because restoration projects occur over time 
and require long-term community support. To date, the program has been 
highly successful at improving the health of coastal habitats across 
the Nation, benefiting both the environment and the economy through 
partnerships involving community members in direct, hands-on service. 
By working collaboratively with more than 1,500 organizations, the 
program has restored over 97,000 acres of habitat and involved more 
than 290,000 volunteers, contributing more than 1 million volunteer 
hours.
    We also request the committee include report language strongly 
encouraging NOAA to implement programmatic enhancements in fiscal year 
2015 to ensure inclusion of a broader, ecosystem-based management 
philosophy and expand their selection criteria. We would strongly 
support the following report language and urge the committee to include 
the following:
        The Committee maintains strong support for the Community-based 
        Restoration program. The committee recognizes the importance of 
        fish habitat restoration for threatened and endangered species. 
        The Committee also recognizes the importance of habitat 
        restoration activities for protecting communities, preventing 
        species from being listed, and providing enhanced tourism and 
        recreational opportunities. Moving forward, the committee urges 
        NOAA to implement the following recommendations: (A) Expand 
        criteria for project selection to include a broader ecosystem-
        based management philosophy and expand criteria to 
        recreationally important species, managed commercial species, 
        and their forage species; (B) Select diversity of project sizes 
        based on watershed impact and prioritize proposals that include 
        multiple projects in single watersheds, in addition to 
        individual large projects; (C) Encourage public and direct 
        community engagement: from training seminars to volunteer 
        engagement; (D) Support overarching science investments to 
        advance monitoring, improve techniques, and advance valuation.
    In the fiscal year 2014 omnibus appropriations, the Estuary 
Restoration Program was transferred from the National Ocean Service to 
the National Marine Fisheries Service under the Fisheries Habitat 
Restoration line without additional funding. The Estuary Restoration 
Act established a comprehensive interagency organization, the Estuary 
Habitat Restoration Council, which is comprised of five key Federal 
restoration agencies and leads a coordinated approach to enhance 
estuary habitat restoration. Under the Act, NOAA is responsible for 
maintaining the National Estuaries Restoration Inventory (NERI).
    In November 2012, the Estuary Habitat Restoration Council approved 
the 2012 Estuary Habitat Restoration (EHR) Strategy and 5-year action 
plan. The action plan identifies outcomes and milestones to ensure that 
restoration efforts are coordinated, evaluated, and tracked across 
agencies with the goal of ensuring efforts are effective and efficient. 
Without modest funding, cross-agency collaboration will be disrupted, 
causing duplicative and potentially clashing efforts.
    Restore America's Estuaries urges your continued support of the 
Estuary Restoration Council and NOAA's Estuary Restoration Program and 
asks that you provide no less than $500,000 within requested funding 
for fiscal year 2015.
     noaa, coastal and estuarine land conservation program (celcp)
(CJS: NOAA: PAC: NOS: CELCP Acquisition)
    The Coastal and Estuarine Land Conservation Program (CELCP) was 
created in 2002 to provide State and local governments with matching 
funds needed to protect the most significant coastal and estuarine 
areas under threat of development and not presently protected through 
regulatory mechanisms. CELCP is the only Federal land protection 
program with an explicit focus on coastal lands and natural resources.
    The program is implemented cooperatively with willing sellers and 
matched with State and local funds, often playing a key role in uniting 
local, State and Federal efforts to protect an area. While our Nation's 
coastal protection need is far greater, Restore America's Estuaries 
respectfully requests $3 million in funding for the program in fiscal 
year 2015 to ensure the future of this critical tool for coastal 
habitat conservation. This investment will allow the program to 
continue to address our Nation's most pressing coastal resource needs, 
especially in an age of increasing extreme weather and other coastal 
hazards.
        noaa, national estuarine research reserve system (nerrs)
(CJS: NOAA: ORF: NOS: Ocean and Coastal Management and Services: 
        National Estuarine Research Reserve System)/(CJS: NOAA: PAC: 
        NOS: NERRS Construction)
    The National Estuarine Research Reserve System (NERRS) is comprised 
of 28 protected reserves that support long term research, education, 
training, and stewardship. Through an effective partnership between 
NOAA and coastal States, the NERRS plays a critical role in sustaining 
resilient coasts and coastal communities.
    The States have been entrusted to operate and manage NOAA's program 
in 22 States and Puerto Rico, where over 1.3 million acres of land and 
water are protected in perpetuity.
    Restore America's Estuaries respectfully requests $22.9 million for 
NERRS operations in fiscal year 2015. At this funding level, the 28 
existing reserves will maintain level funding and provide support for 
the addition of the 29th reserve in Hawaii. The designation of a Hawaii 
NERR will fill an unrepresented bio-geographic region in the NERR 
system.
    NERRS assists our coastal communities, industries and resource 
managers to enhance coastal resiliency in a changing environment. As 
severe weather events become more common, Federal, State, and local 
officials are recognizing that estuaries have the capacity to provide 
green resilience infrastructure. Through NERRS, NOAA can tailor science 
and management practices to enable local planners to use estuarine 
habitat as a tool for resilience and adaptation.
    Through science and science-based management of more than 1.3 
million acres of protected land, NERRS provides numerous benefits to 
communities that result in improved water quality, increased upland 
flood and erosion control, and improved habitat quality that support 
local fisheries and provide storm protection to coastal communities.
                               conclusion
    Restore America's Estuaries greatly appreciates the support this 
subcommittee has provided in the past for these important programs. 
These programs help to accomplish on-the-ground restoration work which 
results in major benefits:

  --Jobs.--Coastal habitat restoration projects create between 17-33 
        jobs per $1 million invested. That's more than twice as many 
        jobs as the oil and gas sector and road construction industries 
        combined.

  --More fish.--Traditional fisheries management tools alone are 
        inadequate. Fish need healthy and abundant habitat for 
        sustainable commercial and recreational fisheries.

  --Resiliency.--Restoring coastal wetlands can help knock down storm 
        waves and reduce devastating storm surges before they reach the 
        people and property along the shore.

  --Leverage.--Community-based restoration projects leverage 3-5 times 
        the Federal investment through private matching funds, 
        amplifying the Federal investment and impact.

    Thank you and we greatly appreciate you taking our requests into 
consideration as you move forward in the fiscal year 2015 
appropriations process. We stand ready to work with you and your staff 
to ensure the health of our Nation's estuaries and coasts.
                                 ______
                                 
 Prepared Statement of Roffer's Ocean Fishing Forecasting Service, Inc.
                                                    April 22, 2014.
    Dear Senators: I am president of Roffer's Ocean Fishing Forecasting 
Service, Inc. I am writing this testimony to ask you to keep the 
Beaufort, North Carolina National Marine Fisheries Laboratory open.
    This lab has a long history of cooperative research with the Duke 
University, North Carolina State University, and University of North 
Carolina-Chapel Hill, among many others. We have had positive 
experiences working with staff at this lab over many years. While being 
well known for working with Atlantic menhaden, sea grasses, red tide, 
and salt marshes they are integrated in the stock assessment process of 
many species from king mackerel to snappers and groupers, triggerfish 
and other coral reef species, shrimp, as well as, turtles and marine 
mammals. See http://www.sefsc.noaa.gov/labs/beaufort/ for more details 
on their important work including their work with the Chevron fishery 
independent survey. They work with the head boat fisheries as well.
    National Oceanic and Atmospheric Administration (NOAA) had recently 
invested in approximately $14 million in upgrades. It has been 
estimated that this lab affects $58 million into the local economy 
(http://www.newsobserver.com/2014/04/01/3750561/false-savings-in-
cutting-beaufort.html) and it seems to us that this investment should 
be allowed to generate intellectual profit.
    These are critical times in fisheries management and we need the 
contributions from these scientists and staff. This important research 
laboratory has had a renowned history since its origin in 1899. It is 
the second oldest marine laboratory in the United States. It presently 
employs approximately numerous people, including scientists who are 
recognized both internationally, nationally and regionally for the 
excellent quality work they do to support objective ecosystem based 
fisheries management. They may not be seen as a high profile lab. as is 
the Miami Laboratory, but they are the only Federal Fisheries lab 
between Miami, Florida, and Sandy Hook, New Jersey. In my opinion we 
don't need less labs studying fish and our fisheries for improved 
management, we need more. Present employees at other National Marine 
Fisheries Service (NMFS) labs are already over subscribed and stretched 
thin.
    It seems to me that this laboratory may be being closed more for 
political reasons rather than objective ones.
    Bottom line: Keep this laboratory open. Perhaps assign it 
completely to NOAA NMFS and not NOAA National Ocean Service (NOS). Also 
more money should be invested in fisheries independent research, 
advanced procedures in stock assessment, fisheries oceanographic 
research, and for ocean observations.
            Sincerely,
                                 Mitchell A. Roffer, Ph.D.,
                                                         President.
                                 ______
                                 
              Prepared Statement of the Sac and Fox Nation
    Chairman Wolf and distinguished members of the subcommittee, I am 
George L. Thurman, Principal Chief of the Great Sac and Fox Nation. 
Thank you for accepting this written testimony which presents to you 
our tribal priorities for funding programs with the Office of Justice 
Services, Department of Justice.
    We understand the fiscal constraints of the country but feel that 
there is budget inequity for tribal program funding which has been 
further impacted with the cuts we incurred due to the 2013 sequester. 
Tribes should not be unfairly targeted for reductions and rescissions 
and forced to bear the fiscal constraints of this country alone. A key 
intent of the Murray/Ryan budget deal was to soften the blow of the 
sequester for Indian Country but unfortunately that was not the case.
    As you consider the 2015 appropriations for the Office of Justice 
Programs, we ask that you exempt tribes from any further sequestration.

    1.  Fully fund the Tribal Law and Order Act as authorized.
    2.  Fully fund the Violence Against Women Act.
    3.  Tribal Grants--Utilize the Department of Justice (DOJ) 
appropriations as base funding with tribes setting own priorities.
    4.  Tribal set-aside from all discretionary Office of Justice 
programs.

    The Sac and Fox Nation also support the appropriations requests of 
the National Congress of American Indians.
                      about the sac and fox nation
    The Sac and Fox Nation is headquartered in Stroud, Oklahoma, and 
our tribal jurisdictional area covers Lincoln, Payne, and Pottawatomie 
Counties. Of the 4,000 enrolled tribal members, 2,600 live in Oklahoma. 
We are proud to pay tribute to a Sac and Fox descendent and Great 
Native American, Jim Thorpe. One of the most revered Olympic athletes 
who has ever represented the United States; Mr. Thorpe won the 
pentathlon and decathlon in the 1912 Olympics.
           fully fund tribal law and order act as authorized
    The Tribal Law and Order Act (TLOA) had three basic purposes:

    1.  Make Federal departments and agencies more accountable for 
serving Native peoples and land;
    2.  Provide greater freedom for Indian tribes and nations to design 
and run their own justice systems; and
    3.  Enhance cooperation among tribal, Federal and State officials 
in key areas such as law enforcement, training, interoperability and 
access to criminal justice information.

    The Sac and Fox Nation operates a Juvenile Detention Center which 
provides services to 46 tribes in Oklahoma, Kanas and Texas, as well as 
the State of Oklahoma. We are anxious to advance the opportunities that 
TLOA can offer to further expand and increase access to our facility. 
However, unless TLOA is fully funded, facilities such as ours will not 
be able to attain the full potential and help to guide children in the 
system towards a successful future.
    The full potential of TLOA cannot be realized or implemented 
without sufficient resources for tribal justice systems and ongoing 
coordination and consultation between tribal governments and various 
Federal agencies. DOJ recognizes the importance of completing the 
circle when it issued the ``Proposed Statement of Principles'', in 
which is referenced that a stable funding at sufficient levels for 
essential tribal justice functions is critical to the long-term growth 
of tribal institutions.
          fully fund violence against women act as authorized
    We applaud the work of Indian Country and Congress to successful 
get a comprehensive Violence Against Women Act reauthorized. Prior to 
this bill Native women were denied equal access to justice. Thank you 
for helping us to protect our mothers, daughters, sisters and wives 
from jurisdictional gaps or safe havens for criminals. But without 
appropriations, this is an idle victory. We urge you to fully fund at 
the authorized amount.
 tribal grants--utilize doj appropriations as base funding with tribes 
                         setting own priorities
    Eliminate the competitive grant funding process and utilize Justice 
Department appropriations as base funding where tribes and tribal 
courts themselves determine their own priorities.
    Competitive funding for tribal priorities is a no win situation 
that continues to pit tribe against tribes. One of the biggest issues 
with DOJ funding is that it is competitive. In order to obtain the 
funding--on behalf of their tribal courts--tribes must compete against 
each other based on DOJ's priorities and guidelines rather than 
identifying their own priorities to best serve their citizens at the 
local level.
    Instead the approach should be to utilize DOJ appropriations as 
base funding so that tribes are encouraged to determine their 
priorities. It appears that DOJ understands this concept inasmuch as it 
posed the idea of base funding in the form of a block grant during 
tribal consultation on the Office of Violence Against Women (OVW). We 
propose that DOJ not merely propose this for OVW but consider this for 
appropriations across the board.
            tribal set-aside from office of justice programs
    Create a 7 percent tribal set-aside from all discretionary Office 
of Justice programs funding. Ensure that they are allocated as flexible 
base funding. Also, provide funding above the fiscal year 2010 level 
for each formerly separate program area including tribal courts, jail 
construction, legal assistance, juvenile delinquency prevention and 
substance abuse prevention.
    The 7 percent set-aside was cut in the passage of the fiscal year 
2012 Consolidated and Further Continuing Appropriations Act. As a 
result tribal justice programs were cut across the board and continue 
to struggle to address the increasing need of these funds which were 
further impacted by the sequestration.
    Again, thank you for this opportunity.
                                 ______
                                 
   Prepared Statement of Zeb Schobernd, Morehead City, North Carolina
    Dear members of the subcommittee,

    I am writing to strongly urge the subcommittee to reject the 
proposal in the President's fiscal year 2015 budget to close the 
National Oceanic and Atmospheric Administration (NOAA) laboratory in 
Beaufort, North Carolina, and to instead fund this facility so that the 
crucial work being done there can continue on into the future. This 
laboratory is uniquely located to address key marine science issues 
throughout the east coast of the U.S., and its loss would represent a 
devastating blow to the fisheries interests in the region. The decision 
to try and close the Beaufort facility represents a narrow-minded 
approach to a temporary funding concern that is dwarfed in comparison 
by the potential damage done to the research conducted on the marine 
resources in the southeast. While I am addressing the subcommittee as a 
private citizen concerned about this issue and not representing the 
interests of any Federal agency or my employer, I have been a 
contractor for NOAA for most of the past decade and can attest to both 
the quality of the research done at this facility and the harm that 
would be caused by its closing.
    The financial reasons given by the leadership of the National Ocean 
Service (NOS) for closing the Beaufort facility and have been 
misrepresented and overblown. In their justification for closing the 
lab, NOS cited only the NOS employees that would be impacted, grossly 
underestimating the total number of workers at the site. In addition to 
NOS, the lab also houses National Marine Fisheries Service (NMFS) and 
National Estuarine Research Reserve System (NERRS) programs; between 
the three groups there are 108 Federal, State, and contract employees 
at the facility, a much larger disruption of staff than initially 
claimed. Additionally, NOS cited a cost of future maintenance repairs 
to the facility that was outdated and did not take into account recent 
work that has been done to upgrade the laboratory and its 
infrastructure. Since 2006, approximately $14 million in repairs and 
upgrades have been accomplished, including the replacement of multiple 
buildings. The closure of this facility, after so much has been 
invested in its improvement in recent years, seems like a clear waste 
of taxpayer money, especially given that a 2014 report showed that the 
facility is structurally sound.
    Beyond the financial considerations, however, the closure of the 
Beaufort lab would be a grave error because of the loss of high-quality 
science and scientists associated with the facility. Located at the 
intersection of two distinct marine environments, the NOAA laboratory 
in Beaufort is uniquely situated to study one of the most diverse 
ecosystems in the country. The lab is an international leader in 
studies of harmful algal blooms (HABs) and the invasion of lionfish 
into the waters of the Atlantic Ocean, both of which are currently 
having a significant impact on the fisheries resources of the United 
States. The NMFS programs at the lab are responsible for the assessment 
of the major marine fisheries stocks in the southeast, including 
menhaden (the largest fishery along the Atlantic coast as well as in 
the Gulf of Mexico) and the commercially and recreationally important 
snapper and grouper fisheries. NMFS in Beaufort also provides the only 
up-to-date information on the currently-closed red snapper fishery 
along the southeast coast through its SouthEast Fishery-Independent 
Survey. All of these programs would suffer irreparable damage were the 
lab to close because NOAA would be unlikely to retain the world-class 
scientists performing this research in the event their Federal 
positions were transferred to other NOAA facilities in the southeast; 
the NOAA lab is part of a unique conglomeration of research facilities 
in the Beaufort area, and the majority of employees would very likely 
try and remain in the area at a different institution rather than 
relocate to a less desirable location. Thus, NOAA (and NMFS in 
particular) would be forced to rebuild these programs from scratch, 
programs that are required to meet congressional mandates laid out in 
the Magnuson-Stevens Fishery Conservation and Management Act. Just as 
importantly for NMFS, the closure of the Beaufort facility would mean 
that the Fisheries Service would not have a presence along the coast 
between Sandy Hook, New Jersey and Miami, Florida--an extent that 
covers over two-thirds of the United States east coast. It is difficult 
for the agency to claim they are interested in conserving the marine 
resources of the southeast with such a large spatial gap in 
representation, especially compared to five NMFS research facilities in 
the Gulf of Mexico and another five in the northeast.
    In summary, the closing of the NOAA facility in Beaufort is bad 
policy--it is a squandering of taxpayer funds, it is a major detriment 
to the science being conducted in the southeast, and it makes it more 
difficult for NMFS to maintain the quality of the work it is federally 
mandated to achieve. The laboratory in Beaufort has been operating 
continually since 1899 and was sited here specifically because of its 
advantageous position so close to so many of our Nation's valuable 
marine resources; Congress owes it to our country to make sure the 
high-quality work done here continues on for the next 115 years.
                                 ______
                                 
 Prepared Statement of Dr. Amy M. Schueller, Research Fishery Biologist
    I am writing the following letter as a private citizen on behalf of 
myself during off-duty hours using only personal resources. I am not 
speaking for the Federal Government or any of its agencies in any 
capacity.
    I am writing to specifically discuss the proposed closure of the 
National Oceanic and Atmospheric Administration (NOAA) Beaufort 
Laboratory located in Beaufort, North Carolina. The lab is part of the 
Department of Commerce, National Oceanic and Atmospheric Administration 
and houses employees of the National Marine Fisheries Service (NMFS), 
National Ocean Service (NOS), and National Estuarine Research Reserve 
(NERR).
    I urge the proposed closure of NOAA's Beaufort Laboratory be 
removed from the NOS budget. Currently, the lab houses 108 employees 
from NMFS, NOS, and NERR. The costs associated with upkeep and 
maintenance of the lab were inaccurate and outdated in the NOAA 
explanation of budgetary items. There were mistakes in the number of 
employees at the facility and incorrect calculations used to detail the 
budget item. In the past several years, several activities have been 
completed to keep the facility in good working condition including the 
replacement of the administration building and maintenance building, 
replacement of the bridge to the facility, seawall repair, improvements 
to the air conditioning, and other improvements, which totaled 
approximately $14 million. Finally, an updated engineering report 
(2014) documents that the facility is NOT structurally unsound.
    Closing the Beaufort Lab would be a tragedy. The Beaufort Lab is a 
stalwart of fisheries and oceanic science that has produced many well 
known scientists. The Beaufort Lab has a good reputation for advancing 
science in population dynamics and stock assessments; Gulf and Atlantic 
menhaden biology, movement, and assessments; harmful algal blooms; 
hypoxia; pathogens; and snapper and grouper species. NOAA has 
repeatedly recognized individual researchers, research teams, and the 
Laboratory as a whole for the outstanding quality of scientific work 
completed. Several of the area fisheries labs have located in Beaufort 
due to the NOAA lab including Duke Marine Lab, North Carolina Division 
of Marine Fisheries, CMAST, and the Institute of Marine Science. The 
NOAA Beaufort Laboratory is the center of productive fisheries science 
informing fisheries management for the Atlantic and Gulf coasts and is 
currently the only NMFS lab between Sandy Hook, New Jersey, and Miami, 
Florida.
    Specific items of note from each line office include:
                                  nmfs
Stock Assessment Science
  --The NOAA Beaufort Laboratory provides the stock assessment science 
        that determines how many fish can be caught in the southeast 
        United States.

    The stock assessment science of the NOAA Beaufort Laboratory 
focuses on marine fish populations that are ecologically and 
economically vital to the region and Nation, including snapper-grouper 
and pelagic species managed by the South Atlantic Fishery Management 
Council, Atlantic menhaden managed by the Atlantic States Marine 
Fisheries Commission, and Gulf menhaden managed by the Gulf States 
Marine Fisheries Commission. Commercial landings from the South 
Atlantic have been valued at $176.5 million, supporting a centuries-old 
cultural way of life, and saltwater recreational fishing in this region 
tops the Nation for its economic impact on sales and jobs (East Florida 
and North Carolina generate $5.3 billion and 47,000 jobs). Atlantic 
menhaden support the largest fishery on the U.S. east coast, and Gulf 
menhaden support the largest fishery in the Gulf of Mexico, with a 
combined value of $127.7 million.
Fishery-Independent Surveys
  --Fishery-independent surveys collect data on fish populations for 
        stock assessments and research, using standardized sampling 
        gears and methodologies.

    The Southeast Fishery-Independent Survey (SEFIS), run out of the 
NOAA Beaufort lab, collects annual information on the abundance, 
distribution, sizes, and ages of economically-important reef fish 
species like groupers and snappers on the U.S. East Coast between North 
Carolina and Florida. Using fish traps and underwater video, SEFIS 
determines whether reef fish species are increasing or decreasing in 
abundance so fish stocks can be managed with much greater certainty. 
The SEFIS staff has developed a close working relationship with 
fishermen in the Carolinas due to their co location in Beaufort, North 
Carolina. NOAA's Beaufort Lab is ideally situated, centered in the 
middle of substantial commercial and recreational fishing industries 
and a thriving marine science community. If the SEFIS staff was forced 
to move out of their survey region, ties with the fishing industry and 
the marine science community would be effectively severed, ultimately 
resulting in a significant disconnect between the National Marine 
Fisheries Service and the communities to which they serve.
                                  nerr
    Impacts of Closure to the Reserve-Strategic Location and Facility 
for the Reserve:

  --North Carolina Coastal Reserve and National Estuarine Research 
        Reserve staff (7) are currently located at the NOAA Beaufort 
        Lab, which serves as the headquarters office for the program.
  --In 2002, Congress provided NOAA with ``. . . $5,000,000 for the 
        Beaufort Laboratory for necessary repairs to existing 
        facilities and to construct a joint laboratory, dock, and other 
        facilities in collaboration with the Rachel Carson National 
        Estuarine Research Reserve.'' (Public Law 107-77, See S.Rept. 
        107-42, p. 106-108.) $1.32 million was invested in NOAA ($1.28 
        million) and State funds ($42,046) for the construction of a 
        joint building at the NOAA Beaufort Lab to serve the Reserve's 
        mission.
  --The joint building was completed in 2007 and was constructed 
        specifically with the Reserve's education programs in mind: the 
        auditorium regularly hosts coastal training program workshops 
        and the teaching classroom hosts school groups, teacher 
        workshops, field trips, and lectures to support K-12 Estuarine 
        Education Program activities.
  --The NOAA Beaufort Lab is a 5-minute boat ride from the Rachel 
        Carson component of the Reserve; this close proximity is 
        essential for conducting Reserve activities efficiently to 
        conduct mission-critical programming including educational 
        programs, water quality and habitat monitoring and research 
        programs, and stewardship of the site including species 
        monitoring, debris clean-ups, feral horse management, and 
        access point maintenance.
Reserve Activities at the NOAA Beaufort Lab, 2008-2013
            Education
                  K-12 field trips
              -- 177 educational programs
              -- 4947 participants
                  Teacher workshops
              -- 28 teacher workshops
              -- 412 participants
                  Summer camps
              -- 109 camp sessions
              -- 921 participants
                  Summer public field trips
              -- 96 field trips
              -- 1123 participants
            Stewardship
                  Volunteer service at the Rachel Carson Reserve
              -- 1170 volunteers
              -- 2873 volunteer hours
                  Site management
              -- The NOAA Beaufort Lab provides an ideal base from 
            which to manage the Rachel Carson Reserve due to its close 
            proximity to the Reserve site, location on calm inland 
            waters, and boat launching facilities. Additionally, many 
            NOAA staff conduct or have conducted research at the Rachel 
            Carson Reserve and are able to provide professional 
            perspectives that are valuable to Reserve research and 
            management.
            Research
                  Research permits
              -- 31 research permits issued for research conducted at 
            the Rachel Carson Reserve
                  Water quality monitoring
              -- Water quality inventory and monitoring stations at 
            Middle Marsh and Shackleford Banks, in partnership with the 
            National Park Service
            Coastal Training Program
                  Coastal Training Program workshops
              -- 31 workshops
              -- 1076 participants
                                  nos
    NOAA's HAB program was initiated at the Beaufort Laboratory from 
the work conducted in North Carolina in 1987 during the ``red tide'' 
that affected the central coast for more than 6 months. The Beaufort 
Lab continues to provide essential research and field data that inform 
Ecological Forecasting of HABs in Alaska, North Carolina, Florida, 
Guantanamo Bay, Cuba, Bay of Fundy, Gulf of Maine, Gulf of Mexico, and 
the Caribbean. Additionally, Beaufort Laboratory staff were recognized 
for conducting award winning science in elucidating the life history of 
Pfiesteria, a HAB species that inhabits estuaries and river systems up 
and down the eastern seaboard. The threat of Pfiesteria caused economic 
damages of $35 million a month to the seafood industry following 
publicity of local fish kills. Beaufort laboratory staff provided 
expertise and knowledge to local and State resource managers and 
University partners to educate the public about the real facts 
concerning Pfiesteria and the safety of their seafood. Beaufort staff 
have continued to provide their expertise and knowledge to the North 
Carolina River Keeper Alliance and North Carolina Department of Natural 
Resources, Division of Water Quality when fish kill events have 
occurred in local estuaries. This has helped to alleviate public 
anxiety regarding seafood safety.
    In conclusion, closure of the NOAA Beaufort Laboratory would be a 
poor choice scientifically, economically, and would leave a large part 
of the east coast without the science that they deserve. The numbers 
used to estimate the costs of maintaining the facility in good working 
order were incorrectly estimated and inaccurate numbers of current 
employees were provided for the budget. In addition, the Federal 
Government has invested in this laboratory over the long-term, and to 
close it now would be a gross misuse of Government resources.
                                 ______
                                 
         Prepared Statement of Scientific Diving International
    Dear Chairwoman Mikulski: I am a marine scientist who has had 
extensive experience in marine bivalve fisheries. I write to offer my 
opinion regarding the proposed closing of the National Oceanic and 
Atmospheric Administration (NOAA) Beaufort laboratory in Beaufort, 
North Carolina. This laboratory has a long and storied history and a 
reputation for excellence within the scientific community. It is also 
positioned in an excellent place to conduct needed research on marine 
finfish and shellfish populations. As these populations come under 
increasing pressure from both commercial and recreational interests the 
work of fisheries scientists become vastly more important.
    The National Marine Fisheries Service (NMFS) has an unparalleled 
staff of scientists that perform critical and necessary work on fish 
and shellfish stocks. Their work has allowed populations of many 
animals to recover and become stable along a number of regions of the 
U.S. coast. NMFS scientists have a completely unforgiving task and that 
is to prevent the collapse of fisheries stocks and thereby to prevent 
the degradation of coastal marine ecosystems. I say unforgiving because 
although this seems like an honorable goal it means that NMFS 
scientists have to say no to a lot of people, there simple are not 
enough fish to go around.
    Electronics and the Internet have made adequate fishers out of 
people who would have starved in the past. I once visited the small 
town of Cortez in Florida and spoke with a member of one of the 
original Cortez fishing families. When they arrived in Cortez a 
fisherman could feed his family using a row boat or a small sailing 
skiff. The area in front of this gentleman's home he called ``the 
kitchen'' because they could reliably get a family meal from there if 
all else failed. This is not the case any longer nor has it been for 
decades, however in many areas fisheries management has prevented the 
complete collapse of coastal ecosystems. Despite their valiant effort 
fish and shellfish stocks are under constant attack from development 
and overzealous fishers whose only understanding of fisheries 
management boils down to some scientist in a white lab coat taking 
``our'' fish.
    The United States put a lot of effort and financial resources into 
the NMFS and NOAA in the 1960s-1980s but, like any issue, people lose 
interest in issues that are still relevant. Marine research, not just 
for exploitation of resources, is an area that has and will pay 
dividends to our Nation and also to the environment. It is not a time 
to retrench and look only to the bottom line, it is time to renew our 
commitment to a healthy marine environment and ecosystems that can 
sustain reasonable harvest. Please keep the Beaufort Lab open, we 
cannot afford to lose it.
    Sincerely,
                                     Dan C. Marelli, Ph.D.,
                                      President and Diving Officer.
                                 ______
                                 
            Prepared Statement of the Sea Grant Association
    Madam Chair and members of the subcommittee, my name is LaDon Swann 
and I am the director of the Alabama-Mississippi Sea Grant Consortium. 
I submit this testimony in my capacity as president of the Sea Grant 
Association (SGA). The SGA appreciates very much the steadfast support 
this subcommittee has provided the National Sea Grant College Program 
over the years. As a result, Sea Grant has been able to deliver a 
number of quantifiable benefits to the residents of our ocean and 
coastal communities, which are documented below.
    To continue to achieve a high rate of return on Federal investment 
and to produce meaningful and quantifiable benefits to coastal 
residents in the future, the SGA recommends that the National Sea Grant 
College Program within National Oceanic and Atmospheric Administration 
(NOAA) be funded in fiscal year 2015 at $80 million. The request is 
consistent with the guidance provided in the fiscal year 2012 
conference report that said:

        The Committee recognizes the important role the Sea Grant 
        program plays in connecting coastal and Great Lakes communities 
        with practical research and results, and encourages the growth 
        of this program in future budget requests.

    The National Sea Grant College Program addresses national 
priorities at the local level, by identifying citizens' needs in order 
to help guide State and national research agendas. Sea Grant funds the 
best competitive science at our Nation's colleges and universities. The 
scientific discovery is effectively delivered through Sea Grant's 
robust extension, outreach and education programs to inform public and 
private decisionmaking in order to enhance the practical use and 
conservation of coastal, marine, and Great Lakes resources while also 
expanding economy and maintaining a sustainable environment.
    The administration's fiscal year 2015 request for the National 
College Sea Grant Program is a total of $63.4 million of which $2 
million is for marine aquaculture. This represents a total reduction 
from last year's appropriation of $4 million (from $67.4 million to 
$63.4 million). After reviewing the detailed NOAA budget request sent 
to the Congress, it is clear that important changes to the Sea Grant 
program proposed by the administration are obscured within the bottom 
line requested for the program.
    The Sea Grant Association is deeply concerned with several of the 
proposed changes and believes they are inconsistent with NOAA's own 
strategic plan and reduces Sea Grant's effectiveness at delivering 
important research, education and extension to its State, local, and 
regional partners.
    First, within the budget request NOAA is proposing to terminate 
funding within Sea Grant for all State Sea Grant Program STEM 
activities such as K-12 teacher training, curricula development, and 
education; and Sea Grant/National Marine Fisheries Service (NMFS) 
Graduate Fellowships. This proposal is part of the administration's 
fiscal year 2015 proposal to reorganize Federal funding for STEM 
education, where a total of 31 STEM education programs at nine key R&D 
mission agencies (including NOAA, National Science Foundation (NSF), 
and National Aeronautics and Space Administration (NASA)) will be 
terminated. The Sea Grant Association strongly opposes the termination 
of the education programs both within Sea Grant and elsewhere in NOAA.
    It is important for mission agencies to help support the next 
generation of scientific and technical talent--much of which will be 
needed by these agencies in future years. Education (particularly STEM 
education) within the Sea Grant program is explicitly authorized in the 
legislation enacted by Congress to create the Sea Grant Program. The 
Sea Grant statute recognizes and reinforces the linkage between 
research, education and extension by relying on the land-grant college 
and university model of research and education in service to the 
public. We urge the subcommittee to reject these particular 
consolidation proposals and support the continuation of these programs 
within their current agencies.
    Second, within the budget request for Sea Grant, the administration 
is proposing a $1 million reduction (from last year's level) in 
research funding available for competitively awarded projects under two 
specific focus areas: Healthy Coastal Ecosystems; and Resilient Coastal 
Communities and Economies. This proposed reduction is inconsistent with 
NOAA's stated priorities and strategic plan. Because of Sea Grant's 
prior accomplishment (detailed elsewhere in this testimony) NOAA should 
be strengthening Sea Grant's role in coastal resiliency as a way to 
help make the Nation's ocean, coastal, and Great Lakes economies more 
productive.
    Third, within the budget request for Sea Grant, the administration 
is proposing to reduce marine aquaculture research by $2.5 million; 
down to a total of $2 million. This funding decrease is shortsighted 
and will reduce the number of external grants NOAA provides for 
decision support tools and technology transfer related to sustainable 
domestic marine aquaculture. It will also reduce base-funded 
sustainable seafood industry research performed for NMFS.
    The SGA's proposal for fiscal year 2015 is $80 million, which 
includes a specific enhancement of the Resilient Coastal Communities 
and Economies focus area. Funding Sea Grant at $80 million would also 
allow for the restoration of funding for STEM education, healthy 
coastal ecosystems, and marine aquaculture at levels at least equal to 
fiscal year 2014 levels.
        the return on investment to the nation through sea grant
    The rationale behind the SGA's proposed growth for Sea Grant is 
related to the specific metrics developed that can be used to assess 
the value of this program. In fiscal year 2013, Sea Grant returned the 
following quantifiable benefits to the Nation in return for the Federal 
investment:
  --$485 million in direct economic benefits to the Nation, which 
        represents a 7 to 1 return on the Federal investment;
  --3,400 new businesses were created or retained, and more than 15,000 
        jobs were created or retained due to Sea Grant efforts;
  --600 communities across the Nation have adopted more sustainable 
        economic or environmental development practices and policies;
  --Sea Grant expanded the Nation's workforce by supporting more than 
        900 undergraduate and more than 980 graduate students, 
        resulting in 335 graduate or undergraduate degrees awarded; and
  --Nearly $100 million annually in additional public and private 
        sector investments in Sea Grant supported activities are 
        leveraged by the subcommittee's annual appropriation for the 
        Sea Grant program.
    Approximately 95 percent of the Federal funding provided to Sea 
Grant leaves Washington and goes primarily to State university-led 
programs where it is used to conduct research, carry out extension, and 
education programs, and deliver valuable services to States that 
participate in this program. In addition, Federal funding through the 
Sea Grant program has a significant leveraging impact with every 
Federal dollar invested attracting more than two additional dollars in 
matching funds and other public and private sector resources.
                  the role of sea grant in supporting
    the nation's coastal communities--increasing coastal resiliency
    In addition to the annual positive scientific and economic impacts 
delivered by the National Sea Grant College Program summarized above, 
the relationships formed in coastal communities and with local 
stakeholders have proved extremely beneficial and supportive in 
disaster response. Beginning with hurricane Katrina and including the 
major disasters of the Deepwater Horizon oil spill and most recently 
hurricane Sandy, the Sea Grant network has provided substantial and 
much needed ``boots-on-the-ground'' assistance to affected communities. 
Following each of these disasters, it was often Sea Grant extension, 
outreach and education programs that brought the first response to 
these impacted communities.
    Sea Grant works with Federal and State agencies to provide critical 
information following natural and man-made disasters. In the wake of 
these events, Sea Grant programs assist affected communities and States 
by facilitating community planning and capacity building by working 
with Department of Commerce Disaster Response Teams, Federal Emergency 
Management Agency (FEMA) mitigation assessment teams, State resource 
agencies for fishery and aquaculture impacts, local governments, 
industry groups, as well as others in addressing coastal impacts.
    Immediately following every event, Sea Grant extension 
professionals and scientists were there, helping communities assess 
impacts to coastal businesses including commercial fishing, tourism, 
local marinas, and aquaculture businesses. Sea Grant also helped 
determine the extent of changes in coastal geology, barrier islands, 
beach erosion, and sand dune migration. Sea Grant capabilities allows 
the program to provide expertise and experience in assessing other 
environmental impacts such as marine debris and changes to water 
quality and communicating the results to affected coastal communities. 
Sea Grant adds to its ongoing efforts of providing coastal communities 
with technical assistance, helping to prepare community recovery plans, 
long-term resilience plans, and explaining the consequences of future 
mitigation choices ranging from seawalls to green infrastructure. Sea 
Grant has expanded its role to include the development of tools and 
programs that address the long-term health impacts of disasters on 
coastal residents and help these communities to be better prepared for 
these disasters.
                          concluding thoughts
    America must use its coastal resources wisely to increase the 
economic development and resilience of our coastal communities and U.S. 
working waterfronts while sustaining the health and productivity of the 
ecosystems on which they depend.
    With the SGA's fiscal year 2015 request of $80 million for Sea 
Grant, the National Sea Grant College Program will be uniquely 
positioned to continue to make significant contributions to improve the 
lives and livelihoods of the Nation's coastal communities and 
economies. We hope the subcommittee will be able to support this 
request and restore funding for Sea Grant STEM and other NOAA education 
activities, the NMFS Fellowship program, research in the key Sea Grant 
focus areas, and marine aquaculture.
    Thank you for the opportunity to present these views. The SGA would 
be happy to answer questions or provide additional information to the 
subcommittee.
                                 ______
                                 
 Prepared Statement of the National Consortium for Justice Information 
                             and Statistics
                              introduction
    Thank you, Madam Chair and members of the subcommittee, for the 
opportunity to submit testimony on the Department of Justice (DOJ) 
funding to be provided for in the fiscal year 2015 Commerce, Justice, 
Science, and Related Agencies appropriations bill. In particular, 
SEARCH recommends that the National Criminal History Improvement 
Program (NCHIP) receive an appropriation of $50 million, and the 
National Instant Criminal Background Check System (NICS) Act Record 
Improvement Program (NARIP) receive an appropriation of $5 million.
    SEARCH, The National Consortium for Justice Information and 
Statistics (SEARCH), is a nonprofit membership organization created by 
and for the States. SEARCH's Governor-appointed, dues-paying members 
from the States and territories have the responsibility, among other 
things, to oversee both NCHIP and NARIP within their States.
    Over the years, States have made great strides in meeting their 
criminal history record improvement goals under both programs. Last 
year's increase in funding for these programs as reflected in the 
fiscal year 2014 Commerce, Justice, Science and Related Agencies 
appropriations was welcomed by the States who continue to use the 
funding to modernize, enhance and more effectively share data for 
critical criminal justice and public safety decisions.
    With recent NCHIP and NARIP funding, for example, the Kentucky 
State Police (KSP) has created a firearms application database which 
collects and houses mental health records, judgments and citations used 
for supporting documentation when entering denied persons in NICS 
Index. Funding also allowed for an interface with the State Department 
of Corrections to obtain offender records and update criminal history 
dispositions, as well as focus on NICS Index entries. With these 
efforts, over 22,500 State criminal histories were reviewed, resulting 
in over half being entered into NICS Index, ultimately keeping guns out 
of the hands of persons prohibited from receiving or possessing 
firearms. Kentucky anticipates applying for future funding to improve 
upon their demonstrated success in enhancing records in these 
databases.
    Maryland has used NCHIP and NARIP funding over the past 2 years to 
focus on missing disposition issues, completeing thousands of 
incomplete records, and now over 90 percent of arrests in the State 
database have a final disposition. This updated information is 
available for critical decisions like gun sales, employment for persons 
working with vulnerable populations, and overall criminal justice 
business on the State and Federal level.
    Georgia is actively using NCHIP funding to ensure synchronization 
of State and Federal criminal history files and to provide accurate and 
complete criminal history record information for both criminal justice 
and public safety decisionmaking.
    There is still work to be done to realize a truly complete and 
accurate national criminal history background check system. That system 
not only informs a variety of critical public safety decisions, but 
also noncriminal justice decisions, such as those regarding applicants 
for employment and licensing, to volunteers who work with children and 
other vulnerable populations, to individuals purchasing firearms. In 
light of recent, tragic events due to gun violence, and the 
simultaneous demand for accurate, complete and timely criminal records 
for a range of decisions, a priority placed on NCHIP and NARIP funding 
is essential.
    The States are eager to leverage fiscal year 2014 and new funds in 
fiscal year 2015 funding to engage in broad-scale initiatives and 
partnerships with other State agencies to improve and enhance chriminal 
history record information collection and sharing.
    SEARCH appreciates the subcommittees' recognition that while both 
NCHIP and NARIP each focus on improvements to the efficiency, 
effectiveness, timeliness and accuracy of criminal history record and 
associated data for decisionmaking purposes, each program emphasizes 
specific and distinct goals. NARIP funding has been heavily focused on 
enhancing decisionmaking for firearms purchases, such as increasing the 
number of disqualifying mental health records available to the system. 
NCHIP is focused on a broader range of criminal history improvements 
that individual States have prioritized (improving arrest and 
disposition matching, increasing conviction record availability in the 
Federal systems, etc.). Perhaps most significantly, by current law, 
still less than half of the States qualify for NARIP funding to improve 
their contributions to NICS.\1\ Thus, the majority of the States rely 
on NCHIP for criminal history record and repository improvements 
related to all criminal and non-criminal justice decisionmaking. As 
such, SEARCH makes two key recommendations:
---------------------------------------------------------------------------
    \1\ NARIP has two main requirements: States must (1) establish a 
process where those adjudicated as ``mentally defective'' can seek to 
reinstate their right to purchase a firearm, and (2) comply with a 
process to estimate the number of NICS disqualifying records they 
maintain. Only 20 States have met requirement #1.
---------------------------------------------------------------------------
1. Support NCHIP funding for improvements to State criminal history 
        record information so that States can effectively exchange 
        information witho ther States and the FBI.
    The NCHIP program has been successful in helping States to improve 
the accuracy, reliability and completeness of their automated, criminal 
history record systems. It is important to note that information stored 
in the State's criminal history record repositories is the same 
information that is used for criminal justice decisionmaking (such as 
at arrest, filing of charges, sentencing and inmate housing) as well as 
for other public safety and civil decisions (such as decisions 
regarding firearms transfers, or for individuals applying for 
employment or volunteer work with vulnerable populations).
    Unlike the NARIP, all States qualify for funding under NCHIP to 
improve their criminal history record systems. States who cannot 
qualify for NICS funding will be significantly hampered in their 
efforts to help improve the Nation's criminal history record system if 
they cannot access sufficient resources via NCHIP.
    NCHIP's broad objective is to enhance the criminal justice 
capabilities of State governments by improving the accuracy, 
completeness and timeliness of criminal history records. These State 
systems support Federal records systems, including the Federal Bureau 
of Investigation (FBI) Interstate Identification Index (III).\2\ 
Indeed, 70 percent of all III records are maintained by the States and 
30 percent are maintained by the FBI.\3\
---------------------------------------------------------------------------
    \2\ The Interstate Identification Index is the national system 
designed to provide automated criminal history record information of 
Federal offenders and records of offenders submitted by all States and 
territories.
    \3\ Survey of State Criminal History Information Systems 2010, 
Bureau of Justice Statistics, U.S. Department of Justice, Office of 
Justice Programs (November 2011) (https://www.ncjrs.gov/pdffiles1/bjs/
grants/237253.pdf).
---------------------------------------------------------------------------
    Indeed States have used NCHIP funding to solve a variety of 
information sharing problems. Virginia used the funding to provide 
electronic access to criminal history records on-site at gun shows, 
ensuring a rapid check to prevent the transfer of firearms to 
prohibited persons.
    States have used NCHIP widely to improve the completeness and 
accuracy of criminal history record as well as to create links with the 
courts to allow automated updates and disposition reporting. In 
Florida, such work over the past several years resulted in updates to 
over 2.5 million dispositions.
    The increase in funding for NCHIP in fiscal year 2014 and, 
hopefully, in fiscal year 2015, will reinvigorate a program that had 
suffered in years past from considerably reduced funding. Because State 
criminal history records are the primary source for the FBI III 
database, any constraints on the States weakens the ability of many 
State and Federal programs to identify threats and keep our Nation 
safe.
2. Continue to invest in background screening for firearms purchases.
    One of the key tools in keeping firearms out of the hands of those 
who should be prohibited from having them is a robust National Instant 
Criminal Background Screening System (NICS). Given the tragedies of 
recent years, significant focus has been placed on our Nation's 
background screening system for firearms purchases.
    Approximately 90 percent of records used to make firearms transfer 
determinations are records maintained and made available by the States. 
And, therefore, the overwhelming majority of firearms transfer denials 
are based on State records. Continued funding to improve the system's 
effectiveness for existing requirements related to background screening 
for firearms purchases is essential.
    For example, in New York, NARIP grant funds have significantly 
improved the records that New York State makes available to the NICS 
Index. New York built and deployed the NICS Transmission System to 
allow New York State to efficiently transmit mental health involuntary 
admissions records, civil guardianships and order of protections to 
provide better safeguards that prevent firearms from getting into the 
wrong hands. The State also completed system changes to collect and 
report Misdemeanor Crimes of Domestic Violence (MCDV) convictions to 
NICS as firearm permit prohibitors so that vulnerable spouses, children 
and intimate partners are further protected. The State also completed 
analysis and significant system enhancements to improve the accuracy 
and completeness of disposition data made available to NICS via New 
York's Criminal History Reports.
    Today, the accuracy, completeness and reliability of the Nation's 
criminal history record system is more important than ever before, for 
law enforcement investigations; officer safety; sentencing and other 
criminal justice purposes; for expungement and other reentry 
strategies; for homeland security and anti-terrorism purposes; for 
public non-criminal justice purposes, such as security clearances and 
employment suitability; and for research and statistical programs that 
provide critical guidance for justice assistance decisions and for 
shaping law and policy. Without an adequate level of funding for the 
States, the quality of criminal records available nationwide will 
continue to be negatively impacted.
    As you can see from the examples above, for both of NICS and NCHIP, 
SEARCH encourages Congress to allow States to use funding at their 
discretion to address the specific challenges each State faces in 
making more records available to the national system. Funding should 
also encourage adherence to performance metrics and accountability 
measures. SEARCH supports that Congress should expect, and States 
should define, specific and measurable goals for which they will use 
the funding to demonstrate progress and impact. SEARCH also encourages 
Congress to fund technical assistance and technology investments for 
States to improve automated information sharing systems in support of 
NICS.
                               conclusion
    SEARCH thanks the Chairman and members of the subcommittee for 
their steadfast support of these programs in the face of daunting 
budget challenges. Given the reliance on criminal history record 
systems for critical decisions that keep our citizens safe from guns, 
predators, terrorists and other criminals, it is a worthwhile and 
needed investment.
    We urge Congress to continue the investment in the Federal-State 
criminal background screening partnership that comprises NICS. NICS is 
a critical tool in the fight against gun violence, but funding for its 
improvement must envision a national scope that is inclusive of all the 
States. As Florida representatives noted, their successes with 
information sharing would not have been possible without the support of 
NARIP and NCHIP funding.
    Meaningful NCHIP funding will more broadly improve this Nation's 
criminal justice information sharing backbone. And the Federal 
investment can be leveraged many times over by contributing to the 
ability of State and local criminal justice agencies to provide timely, 
accurate and compatible information to Federal programs such as III. As 
Kentucky representatives stated, none of the improvements they had made 
would be possible without this funding.
    On behalf of SEARCH's governor's appointees, and the thousands of 
criminal justice officials who participate in the SEARCH network and 
who benefit from SEARCH's efforts, we thank you for your consideration.
                                 ______
                                 
 Prepared Statement of Dr. Kyle Shertzer, Morehead City, North Carolina
    Dear Subcommittee on Commerce, Justice, Science, and Related 
Agencies: I am gravely concerned about the proposal in the 2015 
President's budget to close the National Oceanic and Atmospheric 
Administration (NOAA) Beaufort Laboratory located in Beaufort, North 
Carolina. This lab is part of the National Oceanic and Atmospheric 
Administration; it is administered by the National Ocean Service (NOS), 
but also houses the National Marine Fisheries Service (NMFS) and 
National Estuarine Research Reserve System (NERRS). Although I am 
writing this letter as a private citizen, and the views expressed are 
not intended to represent those of any government agency, I am a 
scientist at the NOAA Beaufort Lab and therefore have firsthand 
knowledge regarding the value of this laboratory to the Nation, in 
terms of its contributions toward marine science, natural resource 
management, and public outreach. The proposal to close this laboratory 
is a short-sighted reaction to a short-term problem.
    Closing the Beaufort Lab would be a tragedy. The Beaufort Lab is a 
stalwart of fisheries and oceanic science, with an outstanding national 
and international reputation for advancing science in numerous areas: 
population dynamics and stock assessments; Gulf and Atlantic menhaden 
biology, movement, and assessments; harmful algal blooms; hypoxia; sea 
grass; pathogens; and snapper and grouper monitoring and ecology. NOAA 
and the President have repeatedly recognized individual researchers, 
research teams, and the Laboratory as a whole for its outstanding 
quality of scientific work. Furthermore, this lab is the originator and 
nexus of an internationally esteemed consortium of marine science 
institutions, including the marine laboratories of Duke University, 
North Carolina State University, the University of North Carolina, and 
the North Carolina Division of Marine Fisheries. Beaufort was chosen 
because it is a prime location where northern and southern marine 
ecological communities intersect, and as such this lab provides the 
only Federal access to the most diverse marine ecosystem in the United 
States. There is no other location where these opportunities can be 
accessed as easily or as cheaply. It is the only NMFS facility on the 
Atlantic coast between Sandy Hook, New Jersey and Miami, Florida, a 
stretch of over 1200 miles of coastline.
    The request to close the laboratory was based on current funding 
allocation to NOS, but inaccurate and outdated information that 
overstated the costs of maintaining the facility was used in the 
analysis that led to this request. Currently, the lab houses 108 
employees from NOS, NMFS, and NERRS. The NOS initiated the proposed 
closure, but the request understated the number of NOS employees and 
did not account at all for employees from NMFS or NERRS. In effect, 
this mistake excluded more than half the staff of the lab. Furthermore, 
the request was based on estimated costs for the lab's upkeep and 
maintenance that were in error. Since 2006, several activities have 
been completed to keep the facility in good working condition, 
including replacement of the administration building, replacement of 
the maintenance building, replacement of the chemical storage building, 
replacement of the bridge to the facility, repair of the seawall, and 
other improvements (air conditioning, electrical, storm water runoff), 
which totaled approximately $14 million. After such investments, 
closing the lab now would represent a conspicuous waste of tax-payers' 
money. Finally, contrary to previous claims, an updated engineering 
report (2014) documents that the facility is NOT structurally unsound. 
Based on mistakes both in the number of staff at the facility and in 
the costs associated with its upkeep, the budgetary calculations used 
to justify the proposed closure were fundamentally flawed.
    I highlight below, by line office, the critical role that the NOAA 
Beaufort Laboratory has played in helping NOAA achieve its Strategic 
Mission (1) to understand and predict changes in climate, weather, 
oceans, and coasts, (2) to share that knowledge and information with 
others, and (3) to conserve and manage coastal and marine ecosystems 
and resources.
                                  nos
    While the National Ocean Service is calling for the closure of the 
Beaufort North Carolina laboratory, it is requesting an increase of $4 
million to another center to support Ecological Forecasting of Harmful 
Algal Blooms (HABs), Hypoxia, pathogens, and Species Distributions. 
These areas of research are the bread and butter of NOS at the Beaufort 
Lab. In fact, NOAA would not have the strength it currently has in 
forecasting HABs if it were not for the lab's seminal and award-winning 
work that has been ongoing from the 1980s to this day. Furthermore, the 
Beaufort Lab initiated the first-ever study of the invasive lionfish in 
the U.S. South Atlantic, and it has continued to play a pivotal role in 
monitoring the distribution and abundance of this invasion throughout 
the South Atlantic, Gulf of Mexico, and Caribbean, providing 
information that has been critical for mitigation and management 
strategies. It is ironic and perplexing that the fiscal year 2015 
President's budget requests increased research funding for coastal 
ocean issues, including harmful algal blooms, hypoxia, and coastal 
ecosystem management while at the same time proposing to close an 
existing facility that already has both well-established expertise and 
facilities required to address many of those very same issues.
                                  nmfs
    The Beaufort Laboratory provides the stock assessment science that 
allows NOAA to fulfill its obligation toward the Magnuson-Stevens 
Fishery Conservation and Management Act, as mandated by Congress. The 
stock assessment science of the NOAA Beaufort Laboratory focuses on 
marine fish populations that are ecologically and economically vital to 
the region and Nation, including snapper-grouper and pelagic species 
managed by the South Atlantic Fishery Management Council, Atlantic 
menhaden managed by the Atlantic States Marine Fisheries Commission, 
and Gulf menhaden managed by the Gulf States Marine Fisheries 
Commission. Atlantic menhaden support the largest fishery on the U.S. 
Atlantic coast, and Gulf menhaden support the largest fishery in the 
Gulf of Mexico. To enable robust stock assessments, sampling of the 
Atlantic and Gulf menhaden fisheries has been conducted by the Beaufort 
Lab for decades, and monitoring of snapper-grouper species has been 
accomplished by the lab's Southeast Fishery-Independent Survey. 
Removing this sampling and monitoring from the Beaufort Lab would not 
only result in a significant disconnect between NOAA and the 
communities that it serves, but would also degrade the quality of stock 
assessments at a time when Congress is rightly calling for 
improvements.
                                 nerrs
    NERRS is partnered with the North Carolina Coastal Reserve, with 
program headquarters at the NOAA Beaufort Lab. This program supports 
long-term research, water-quality monitoring, education, and coastal 
stewardship. In 2002, Congress provided NOAA with ``. . . $5,000,000 
for the Beaufort Laboratory for necessary repairs to existing 
facilities and to construct a joint laboratory, dock, and other 
facilities in collaboration with the Rachel Carson National Estuarine 
Research Reserve.'' With this funding, NOAA invested $1.28 million and 
the State of North Carolina invested $42,000 for the construction of a 
joint building at the NOAA Beaufort Lab to serve the Reserve's mission. 
The joint building was completed in 2007 and was constructed 
specifically with the Reserve's education programs in mind: the 
auditorium regularly hosts coastal training program workshops and the 
teaching classroom hosts school groups, teacher workshops, field trips, 
and lectures to support K-12 Estuarine Education Program activities. 
The NOAA Beaufort Lab is a 5-minute boat ride from the Rachel Carson 
component of the Reserve, and this close proximity is essential for 
performing Reserve activities efficiently to conduct mission-critical 
work, including educational programs, water quality and habitat 
monitoring, research programs, and stewardship of the site, which 
involves species monitoring, debris clean-ups, feral horse management, 
and access point maintenance. In short, NERRS activities in education, 
training, and stewardship have been extensive, and they would not be 
feasible from any other Federal laboratory.
    In conclusion, closure of the NOAA Beaufort Laboratory would be 
devastating scientifically and economically. It would cripple NOAA's 
ability to accomplish its own Strategic Mission and to meet its 
obligations toward such congressional mandates as the Magnuson-Stevens 
Fishery Conservation and Management Act. As I understand it, the only 
argument for closing the laboratory was financial, but that argument 
was based on flawed estimates of maintenance costs and an outdated 
engineering report, which has since been revised with opposite 
conclusions regarding the lab's structural integrity. To be blunt: 
Relative to NOAA's budget, cost savings associated with closing the 
lab, if any, would be trivial; however the loss to the Nation would be 
monumental.
                                 ______
                                 
     Prepared Statement of the Society for Industrial and Applied 
                           Mathematics (SIAM)
    Summary.--This written testimony is submitted on behalf of the 
Society for Industrial and Applied Mathematics (SIAM) to ask you to 
continue your support of the National Science Foundation (NSF) in 
fiscal year 2015 by providing NSF with $7.5 billion. In particular, we 
urge you to provide strong support for key applied mathematics and 
computational science programs in the Division of Mathematical Sciences 
and the Division of Advanced Cyberinfrastructure.
    Full Statement.--We are submitting this written testimony for the 
record to the subcommittee on Commerce, Justice, Science, and Related 
Agencies of the Committee on Appropriations of the U.S. Senate on 
behalf of the Society for Industrial and Applied Mathematics (SIAM).
    SIAM has approximately 14,000 members, including applied and 
computational mathematicians, computer scientists, numerical analysts, 
engineers, statisticians, and mathematics educators. They work in 
industrial and service organizations, universities, colleges, and 
government agencies and laboratories all over the world. In addition, 
SIAM has almost 500 institutional members, including colleges, 
universities, corporations, and research organizations.
    First, we would like to emphasize how much SIAM appreciates your 
subcommittee's continued leadership on and recognition of the critical 
role of the National Science Foundation (NSF) and its support for 
mathematics, science, and engineering in enabling a strong U.S. 
economy, workforce, and society.
    Today, we submit this testimony to ask you to continue your support 
of NSF in fiscal year 2015 and beyond. In particular, we join with the 
research and higher education community and request that you provide 
NSF with $7.5 billion.
    As we are reminded every day, the Nation's economic strength, 
national security, and public health and welfare are being challenged 
in profound and unprecedented ways. Addressing these challenges 
requires that we confront fundamental scientific questions. 
Computational and applied mathematical sciences, the scientific 
disciplines that occupy SIAM members, are particularly critical to 
addressing U.S. competitiveness and security challenges across a broad 
array of fields: medicine, engineering, technology, biology, chemistry, 
computer science, and others. SIAM recognizes the challenging fiscal 
situation; however, we also face an ``innovation deficit,'' the 
widening gap between the actual level of Federal Government funding for 
research and what the investment needs to be if the U.S. is to remain 
the world's innovation leader. Federal investments in mathematics, 
science, and engineering remain crucial as they power innovation and 
economic growth upon which our economy and fiscal health depend.
                      national science foundation
    NSF provides essential Federal support for applied mathematics and 
computational science, including more than 60 percent of all Federal 
support for basic academic research in the mathematical sciences. Of 
particular importance to SIAM, NSF funding supports the development of 
new mathematical models and computational algorithms, which are 
critical to making substantial advances in such fields as neuroscience, 
energy technologies, genomics, analysis and control of risk, and 
nanotechnology. In addition, new techniques developed in mathematics 
and computing research often have direct application in industry. 
Modern life as we know it--from search engines like Google to the 
design of modern aircraft, from financial markets to medical imaging--
would not be possible without the techniques developed by 
mathematicians and computational scientists. NSF also supports 
mathematics education at all levels, ensuring that the next generation 
of the U.S. workforce is appropriately trained to participate in 
cutting-edge technological sectors and that students are attracted to 
careers in mathematics and computing.
    Below are highlights of the main budgetary and programmatic 
components at NSF that support applied mathematics and computational 
science.
                 nsf division of mathematical sciences
    The NSF Division of Mathematical Sciences (DMS) in the Directorate 
for Mathematical and Physical Sciences (MPS) provides the core support 
for all mathematical sciences. DMS supports areas such as algebra, 
analysis, applied mathematics, combinatorics, computational 
mathematics, foundations, geometry, mathematical biology, number 
theory, probability, statistics, and topology. In addition, DMS 
supports national mathematical science research institutes; 
infrastructure, including workshops, conferences, and equipment; and 
postdoctoral, graduate, and undergraduate training opportunities.
    The activities supported by DMS and performed by SIAM members, such 
as modeling, analysis, algorithms, and simulation, provide new ways of 
obtaining insight into the nature of complex phenomena, such as the 
power grid, software for military applications, the human body, and 
energy efficient building systems. SIAM strongly urges you to provide 
DMS with the highest possible funding level to reverse the damaging 
cuts of recent years and enable critical mathematical research and 
related mathematical education and workforce development programs.
    In particular, investment in DMS is critical because of the 
foundational and cross-cutting role that mathematics and computational 
science play in sustaining the Nation's economic competitiveness and 
national security, and in making substantial advances on societal 
challenges such as energy, the environment, and public health. NSF, 
with its support of a broad range of scientific areas, plays an 
important role in bringing U.S. expertise together in interdisciplinary 
initiatives that bear on these challenges. DMS has traditionally played 
a central role in such cross-NSF efforts, with programs supporting the 
interface of mathematics with a variety of other fields. SIAM endorses 
DMS participation in NSF-wide initiatives such as Cyber-enabled 
Materials and Manufacturing for Smart Systems (CEMMSS), to develop 
computational tools for transforming materials discovery, and BioMaPS, 
to advance research at the intersection of biology, mathematical and 
physical sciences, and engineering.
              nsf division of advanced cyberinfrastructure
    Work in applied mathematics and computational science is critical 
to enabling effective use of the rapid advances in information 
technology and cyberinfrastructure. Programs in the NSF Division of 
Advanced Cyberinfrastructure (ACI) in the Directorate for Computer and 
Information Science and Engineering (CISE) focus on providing research 
communities access to advanced computing capabilities to convert data 
to knowledge and increase our understanding through computational 
simulation and prediction.
    SIAM strongly urges you to provide ACI with the highest possible 
level of funding to invest in the computational resources and science 
needed to solve complex science and engineering problems. In addition, 
SIAM strongly endorses ACI's role as steward for computational science 
across NSF, strengthening NSF support for relevant activities and 
driving universities to improve their research and education programs 
in this multidisciplinary area.
    SIAM strongly supports ACI data activities, including data 
infrastructure, tools, and repositories, as well as the NSF-wide Big 
Data initiative. The explosion in data available to scientists from 
advances in experimental equipment, simulation techniques, and computer 
power is well known, and applied mathematics has an important role to 
play in developing the methods and tools to translate this shower of 
numbers into new knowledge. The programs in ACI that support work on 
software and applications for the next generation of supercomputers and 
other cyberinfrastructure systems are also very important to enable 
effective use of advances in hardware, to facilitate applications that 
tackle key scientific questions, and to better understand increasingly 
complex software systems.
    SIAM continues to support the agency-wide initiative 
Cyberinfrastructure Framework for 21st Century Science and Engineering 
(CIF21). This program works to develop comprehensive, integrated, 
sustainable, and secure cyberinfrastructure to accelerate research and 
capabilities in computational and data-intensive science and 
engineering.
        supporting the pipeline of mathematicians and scientists
    Investing in the education and development of young scientists and 
engineers is a critical role of NSF and a major step the Federal 
Government can take to ensure the future prosperity and welfare of the 
U.S. SIAM strongly supports significant funding for the Graduate 
Research Fellowship (GRF) program and the Faculty Early Career 
Development (CAREER) program. Strong investments in these programs will 
support thousands of new graduate students, which will help develop the 
country's next generation of scientists.
    Before reaching the graduate and early career stage, young 
mathematicians and scientists gain critical interests and skills as 
undergraduates. SIAM supports efforts by NSF to improve undergraduate 
science, technology, engineering, and mathematics (STEM) education, and 
notes the key role that mathematicians play in training for these 
fields.
         mathematics and international science and engineering
    Science knows no borders, and nowhere is this truer than in 
mathematics. Mathematical research typically advances through the close 
collaboration of small groups of researchers, without the need for 
expensive equipment and using universal mathematical notation to 
minimize language obstacles. In addition, mathematics, as an enabling 
discipline for all of science and technology, and as a foundation for 
science education, plays a key role in addressing many of the most 
challenging problems that the world faces, such as infectious disease 
and sustainable energy generation. International scientific cooperation 
is not just good science, however; it can also foster understanding and 
goodwill between societies more broadly. Mathematical and scientific 
activities can aid in promoting United States international policy 
goals by building relationships and trust with other countries, 
enhancing the global image of America, and spurring global development.
    SIAM believes strongly in the Federal Government's support of 
international science and technology initiatives that help advance U.S. 
foreign policy and security, including cooperative research programs 
that further scientific knowledge applicable to major societal 
challenges, promote development of research and education capabilities 
abroad, and introduce U.S. students to global issues and collaborative 
relationships.
                               conclusion
    We would like to conclude by thanking you again for your ongoing 
support of NSF that enables the research and education communities it 
supports, including thousands of SIAM members, to undertake activities 
that contribute to the health, security, and economic strength of the 
United States. NSF needs sustained annual funding to maintain our 
competitive edge in science and technology, and therefore we 
respectfully ask that you continue robust support of these critical 
programs in fiscal year 2015.
    We appreciate the opportunity to provide testimony to the 
subcommittee on behalf of SIAM. SIAM looks forward to providing any 
additional information or assistance you may ask of us during the 
fiscal year 2015 appropriations process.
                                 ______
                                 
           Prepared Statement of the Society for Neuroscience
    Mr. Chairman and members of the subcommittee, my name is Carol Ann 
Mason, Ph.D. I am a professor of pathology and cell biology, 
neuroscience, and ophthalmic science at Columbia University. I study 
the development of visual pathways in mammalian brains, with a focus on 
how neurons in the eye are encoded to project to the correct side of 
the brain, setting up the circuit for binocular vision. This statement 
is in support of increased funding for the National Science Foundation 
(NSF) for fiscal year 2015. I am pleased to submit this testimony in my 
capacity as president of the Society for Neuroscience (SfN). On behalf 
of the nearly 40,000 members of SfN, thank you for your past support of 
neuroscience research at NSF.
    The Society stands with others in the research community in 
requesting at least the President's budget request of $7.3 billion for 
NSF for fiscal year 2015. Sequestration has taken an enormous toll on 
the research enterprise, coming on top of recent years when funding has 
failed to keep pace with the cost of research--let alone the scientific 
opportunities that are available. SfN urges Congress to reverse the 
current course and find ways to invest more in scientific discovery. 
Let's work to put research on a trajectory of sustained growth that 
recognizes its promise and opportunity as a tool for economic growth 
and, ultimately to advancing the health and well-being of Americans.
               neuroscience: an investment in our future
    Even in the face of the difficult funding situation, the last 
several years have been a tremendously exciting and productive time for 
neuroscience discoveries. Major research advances on brain development, 
imaging, genomics, circuits, computational neuroscience, neural 
engineering, and many other disciplines are leading to new tools, new 
knowledge, and greater understanding that were unimaginable even a few 
years ago.
    All told, there are more than 1,000 debilitating neurological and 
psychiatric diseases that strike over 100 million Americans each year, 
costing an estimated $760 billion a year. Advances made possible by 
publicly-funded research will help us maintain and restore healthy 
brain function. Now more than ever, it is time to fan the flames of 
research in order to ensure life-changing breakthroughs continue.
    Resources provided to NSF will support the Nation's best and 
brightest researchers at the forefront of promising discoveries, 
graduate students at the start of their careers, and the development of 
advanced scientific tools and infrastructure that will be broadly 
available to the research community. These researchers are the ones who 
will be answering some of the vexing questions facing the field of 
neuroscience: how do the genetic, molecular, and cellular elements of 
the brain interact to allow for brain function and behavior? How will 
new tools such as brain-machine interfaces, computational models, and 
advanced imaging techniques deepen scientific capacity for inquiry, and 
contribute to better health and quality of life in the years ahead? NSF 
is uniquely positioned to address questions of this kind because of its 
emphasis on integrative and interdisciplinary research and its long 
history of funding research that leads to the development of life-
changing neurotechnologies.
    NSF funding is an investment in America. Funding for research 
supports quality jobs and increases economic activity. In fiscal year 
2012 alone, NSF supported 39,862 senior personnel, 4,596 postdoctoral 
fellows, and 25,550 graduate students through 11,524 awards. Ninety 
percent of the NSF budget goes right back to fund extramural research 
in every State. Many of my colleagues can point to their first NSF 
grant as the launching pad for a career in science.
    Finally, without robust, sustained investment, America's status as 
the preeminent leader in biomedical research is at risk. Other 
countries are investing heavily in biomedical research to take 
advantage of new possibilities. Even with the growing philanthropic 
support, private sector cannot be expected to close the gap. The lag 
time between discovery and profitability means that the pharmaceutical, 
biotechnology, and medical device industries need federally-funded 
basic (also known as fundamental) research to develop products and 
treatments. The foundation that basic research provides is at risk if 
federally-funded research declines.
                          the brain initiative
    The Brain Research through Application of Innovative 
Neurotechnologies (BRAIN) Initiative--announced by the President last 
April--will enable NSF and other Federal agencies to develop tools and 
plans that will help accelerate fundamental discoveries in 
neuroscience. The scientific community is providing direction through 
diverse workshops being held throughout the country.
    The overarching goal of the BRAIN Initiative is to integrate across 
scales (genes to behavior) and disciplines (engineering and life 
sciences) to establish predictive theories of brain structure and 
function, and the use of these theories to maintain and restore the 
healthy brain. The Initiative has a strong focus on technology and 
cyber tool development and the training of new generations of 
scientists to use the resources that emerge from the BRAIN Initiative, 
both of which have the potential to benefit all of neuroscience and 
even non-neuroscience research.
    BRAIN--as with all the neuroscience research that takes place with 
Federal support--can only be successful if it is part of a broad effort 
by Congress and the administration to prioritize biomedical research so 
that it can reach its full potential. Such an investment will also help 
ensure the U.S. remains a global leader, even as other nations ramp up 
their investments in neuroscience research.
                    cross-disciplinary neuroscience
    NSF-funded basic research continues to be essential for discoveries 
that will inspire scientific and medical progress for generations. The 
work supported by NSF has led to the development of new technologies 
that have revolutionized neuroscience research. The following examples 
are just a few of the many basic research success stories in the 
science of the brain emerging now thanks to interdisciplinary research 
funded by a strong historic investment in NSF and other research 
agencies.
                       green florescent proteins
    Basic research funded by NSF creates revolutionary advances in 
science, such as green florescent protein (GFP)--a transformative tool 
in cellular biology which allows scientists to look at the brain in 
unprecedented detail. The works that lead to its discovery and 
development for use in research received the Nobel Prize in Chemistry 
in 2008.
    The discovery of GFP revolutionized scientists' view of the nervous 
system allowing them to add an incredible range and depth to images of 
the brain. With this protein and others like it, researchers are 
applying colors to brain cells to look at under the microscope. This 
enables them to map intricate details of brain cells, in particular, 
how brain cells connect to each other. Understanding these connections 
and their susceptibility to change help researchers better understand 
the healthy brain and how they might be damaged in a variety of 
disorders.
    More than 100 years ago, scientists got their first glimpse at 
brain cells under a microscope after successfully staining cells with 
dark pigment. This and similar techniques are limited because they 
can't be used in living cells and they can only stain in a single 
color. GFP is a molecule that glows green under blue or ultraviolet 
light. Since its discovery, scientists have developed similar molecules 
that glow many different colors. Moreover, GFP can be used to visualize 
activity of a living cell. These light-emitting proteins have been used 
to illuminate the inner workings of brain cells by letting scientists 
track the movement of molecules inside the cells or watch how neurons 
react to environmental stimulation in living brains. Scientists have 
also used GFP to help answer questions about brain structure by using 
it to identify specific cells in specific areas and trace connections 
between two brain areas.
    Recently, GFP has been adapted to help trace many brain regions at 
a time. In 2007, researchers found a way to make brain cells emit one 
of nearly 100 colors. They genetically engineered mice to carry 
multiple copies of a chain of three or four genes for different colored 
fluorescent proteins. In each cell, the combination of the colors 
emitted from each chain led to unique color blends. Just as a 
television produces a wide spectrum of colors by mixing red, green, and 
blue pixels, this so-called ``brainbow'' technique cast neighboring 
cells in colors from aquamarine to magenta. This technique allows 
scientists to map many pathways in the brain to a much larger extent 
than before and has allowed for a deeper understanding of brain 
circuits. GFP is now widely used to track everything from how nerve 
cells develop to how cancer spreads through the body to how HIV travels 
from infected to non-infected cells. In the field of neuroscience 
specifically, this technology will continue to evolve and will be 
instrumental in our efforts to understand brain structure and function.
                        brain-machine interface
    The brain is in constant communication with the body in order to 
perform every minute motion from scratching an itch to walking. 
Paralysis occurs when the link between the brain and a part of the body 
is severed, and eliminates the control of movement and the perception 
of feeling in that area. Almost 2 percent of the U.S. population is 
affected by some sort of paralysis resulting from stroke, spinal cord, 
or brain injury, or other cause. Basic research funded by the NSF has 
provided fundamental understanding of how the brain controls movement, 
which in turn has led to advances in next-generation prosthetics.
    In the 1990s, scientists developed an array of electrodes that 
allowed them to study an unprecedented number of nerve cells at once--
almost 50 at a time. This research demonstrated that brain cells 
communicate in clusters, not in isolation. In other words, cells work 
together to direct complex behaviors. Since then, scientists have found 
ways to translate messages from clusters of neurons into a language 
that an artificial device can understand and convert into movement. 
Fundamental research in humans and animals led to the discovery that 
thinking of a motion activates neurons in the same way that actually 
making the movement would--opening the possibility for thought to 
operate robotic devices.
    Thanks to successes in animal research, brain-controlled 
prosthetics are now being piloted in humans. Paralyzed humans implanted 
with electrodes can learn to guide a machine to perform various motor 
tasks such as picking up a glass of water. These advances, while small, 
enable substantial improvements in the quality of life for people 
suffering from paralysis. As deeper understanding of the language of 
the brain occurs in concert with advances in biomaterials, 
neurotechnologies, and computational power, scientists hope to 
eventually broaden the abilities of such devices to include thought-
controlled speech and more.
                understanding the development of vision
    My own area of research is the development of the circuits 
underlying vision. For binocular vision to function, the brain must 
receive information from both eyes. Nerve fibers from each retina grow 
to the `optic chiasm,' at the midline of the bottom of the brain. Here, 
nerve fibers from each eye cross to the other side of the brain. Other 
axons, however, are repelled at the midline and project to the same 
side of the brain. These connections underlie binocular vision which 
enables animals, including humans, to calculate how far objects lie in 
the distance.
    One area of my research focuses on this question and the molecular 
mechanisms that prompt some growing nerve fibers to ``stop in their 
tracks'' and reroute to the same side. These two groups of cells in the 
eye, each taking different routes, are endowed with distinct genes that 
direct their time of birth and their growth to the regions where they 
make their synaptic connections. Understanding their genetic 
``signatures'' and growth helps us to learn how to encourage stem cells 
to be integrated into the diseased eye and injured nerve fibers to 
regrow in the correct circuits. We also investigate how the retinal 
pigment epithelium (RPE) surrounding the eye, directs retinal 
development. Perturbations in the RPE occur in albinism and in juvenile 
forms of macular degeneration, the latter leading to blindness, and our 
gene identification efforts are important for gene therapy at early 
stages of the disease. Moreover, understanding how tracts are laid down 
is essential for unraveling the basis of defects in fiber pathways and 
synapse formation in neurodevelopmental disorders such as autism. This 
research is made possible with support primarily from NIH, especially 
the National Eye Institute and with a team of innovative and 
collaborative scientists and trainees in my lab and in our community, 
and provides a foundation for future discovery and new understanding 
about diseases of the eye and other neurodevelopmental conditions.
                     the future of american science
    As the subcommittee considers this year's funding levels, please 
consider that significant advancements in the biomedical sciences often 
come from young investigators. The current funding environment is 
taking a toll on the energy and resilience of these young people. 
America's scientific enterprise--and its global leadership--has been 
built over generations. NSF alone has awarded over 46,500 Graduate 
Research Fellowships since 1952. Many young scientists receive their 
first grants from NSF on their way to having careers as independently-
funded investigators. Without sustained investment, we will quickly 
lose that leadership. The culture of entrepreneurship and curiosity-
driven research could be hindered for decades.
    We live at a time of extraordinary opportunity in neuroscience. A 
myriad of questions once impossible to consider are now within reach 
because of new technologies, an ever-expanding knowledge base, and a 
willingness to embrace many disciplines. To take advantage of the 
opportunities in neuroscience we need an NSF appropriation that allows 
for sustained, reliable growth. That, in turn, will lead to improved 
health for the American public and will help maintain American 
leadership in science worldwide. Thank you for this opportunity to 
testify.
                                 ______
                                 
   Prepared Statement of the University Corporation for Atmospheric 
                                Research
    On behalf of the University Corporation for Atmospheric Research 
(UCAR), I am pleased to submit this testimony to the Senate 
Appropriations Subcommittee on Commerce, Justice, Science and Related 
Agencies. UCAR is a consortium of over 100 research institutions, 
including 77 doctoral degree granting universities, which manages and 
operates the National Center for Atmospheric Research (NCAR) on behalf 
of the National Science Foundation (NSF).
    I urge the subcommittee to provide the maximum amount of support 
possible for the vital research and education programs administered by 
the NSF, the National Aeronautics and Space Administration (NASA), and 
the National Oceanic and Atmospheric Administration (NOAA) in fiscal 
year 2015.
    On February 6, the National Science Board (NSB) released its latest 
report entitled ``Science and Engineering Indicators 2014''. The 
biennial report makes it increasingly clear that the United States' 
predominance in science and technology (S&T) eroded further during the 
last decade, as several Asian nations--particularly China and South 
Korea--rapidly increased their innovation capacities. According to the 
NSB report, the major Asian economies taken together now perform a 
larger share of global research and development (R&D) than the U.S., 
and China performs nearly as much of the world's high-tech 
manufacturing as the U.S.
    The NSB report makes it increasingly clear that the U.S., Japan, 
and Europe no longer monopolize the global R&D arena. Since 2001, the 
share of the world's R&D performed in the U.S. and Europe has 
decreased, respectively, from 37 percent to 30 percent and from 26 
percent to 22 percent. In this same time period, the share of worldwide 
R&D performed by Asian countries grew from 25 percent to 34 percent. 
China led the Asian expansion, with its global share growing from just 
4 percent to 15 percent during this period. Recognition on the part of 
national leaders that S&T innovation contributes to national 
competitiveness, improves living standards, and furthers social welfare 
has driven the rapid growth in R&D in many countries.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    China and South Korea have catalyzed their domestic R&D by making 
significant investments in the S&T research enterprise and enhancing 
S&T training at universities. China tripled its number of researchers 
between 1995 and 2008, whereas South Korea doubled its number between 
1995 and 2006. And there are indications that students from these 
nations may be finding more opportunities for advanced education in 
science and employment in their home countries.
    In addition to investing in their research and teaching 
enterprises, these countries have focused their attention on crucial 
sectors of the global economy, including high-tech manufacturing and 
clean energy. The size of China's high-tech manufacturing industry 
increased nearly six-fold between 2003 and 2012, raising China's global 
share of high-tech manufacturing from 8 percent to 24 percent during 
that decade, closing in on the U.S. share of 27 percent. In addition, 
emerging economies now invest more in clean energy--a critical 21st 
century industry--than advanced economies do. In 2012, emerging 
economies invested nearly $100 billion in clean energy, primarily wind 
and solar, with China serving as the ``primary driver of investment'' 
with $61 billion. China's investment is more than double the $29 
billion spent in the U.S.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    One of the most notable S&T trends of the last decade has been the 
increased innovation capacity of emerging economies as they narrowed 
many gaps with the West. However, the U.S. S&T enterprise remains the 
global leader. For example, the U.S. invests twice as much as any other 
single nation in R&D, despite slipping to tenth in world ranking of the 
percentage of its GDP it devotes to R&D. In 2011, the U.S. spent $429 
billion on R&D, compared to China's $208 billion and Japan's $146 
billion. Among other S&T metrics, the U.S. leads in high quality 
research publications, patents, and income from intellectual property 
exports.
    While the U.S. remains the world's leader in science and 
technology, there are numerous indicators showing how rapidly the world 
is changing and how other nations are challenging our predominance. As 
other countries focus on increasing their innovation capacities, we can 
ill afford to stand still. We now face a competitive environment 
undreamt of just a generation ago as indicated in the chart entitled 
R&D Expenditures as a Share of Economic Output for Selected Countries/
Economies: 1996-2011.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Federal Government has a critical role in funding R&D. To a 
large extent, the Federal Government devotes resources to R&D to fund 
projects that, despite their potential for improving economic growth 
and people's well-being, would be unattractive for businesses to 
pursue. Businesses tend to underinvest in R&D because the returns from 
their investment are often smaller than the returns to the economy as a 
whole.
    The knowledge generated from a basic research project can often be 
used--without compensation--by other firms within and outside their 
industry. To make up for this underinvestment, the Federal Government 
has played a major role in funding R&D. Federal support for basic 
research is particularly crucial because the lack of direct commercial 
applications from basic research projects--as well as the uncertainty 
of project success--can deter businesses from performing basic research 
even though some studies have shown that it is this form of R&D that 
generates the greatest economy-wide returns.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Economists studying the link between science funding and economic 
growth have found that innovation through R&D is the primary driver of 
growth over the long run. Nobel prize winning MIT economist Robert 
Solow famously found that over half of increases in economic 
productivity can be attributed to new innovations and technologies. 
Another similar study that attempted to quantify the impact of R&D on 
economic growth found that increases in the level of research intensity 
in the U.S. and four other developed countries may have accounted for 
close to 50 percent of U.S. economic growth between 1950 and 1993.
    The return on investments in the atmospheric sciences exemplifies 
how Federal R&D drives economic growth. The commercial weather industry 
leverages U.S. investments in weather observation, atmospheric 
research, and computer modeling to produce tailored products for a wide 
variety of clients, including the general public. There are now more 
than 350 U.S. commercial weather companies, and they are estimated to 
generate nearly $3 billion in annual revenues. The growth rate of this 
industry is estimated to be about 10 percent per year.
    This entire weather industry is directly dependent on the Federal 
scientific infrastructure, and most of its tools and technologies were 
developed in universities and laboratories with Federal R&D dollars. In 
fact, a nationwide survey indicates that the U.S. public obtains 
several hundred billion forecasts each year, generating $31.5 billion 
in benefits compared to costs of $5.1 billion, a 6 to 1 direct return 
on investment.
    Even though Federal support for research--particularly basic 
research--is inextricably linked with long term economic growth, 
Federal funding for basic research has dropped since 2004. In real 
dollars, the Federal Government spends less on non-defense R&D than it 
did 10 years ago, even as Asian R&D investments have ballooned. R&D is 
no longer prioritized in the Federal budget as it once was. As a 
percent of GDP, U.S. Federal R&D has been cut by over one third from 
1.3 percent to 0.8 percent since 1976. Many of these cuts have fallen 
on the atmospheric and geospace sciences, and universities and 
laboratories including NCAR have been forced in recent years into 
difficult layoffs of researchers and other staff. This comes at a steep 
cost to our future.
    This subcommittee--with its oversight for the NSF, NOAA, and NASA--
is singularly responsible for determining over 50 percent of the annual 
Federal investment in non-biomedical non-defense research--the very 
research portfolio so critical to long term economic growth and 
international competitiveness. For all of these reasons--though 
confronted by extreme constraints in overall spending--it is vitally 
important for the future health and well-being of our citizens that the 
Congress do all it can to support this subcommittee's ability to fully 
fund its R&D portfolio as exemplified in the funding decisions you will 
be making regarding NSF, NOAA, and NASA. The University Corporation for 
Atmospheric Research and its more than 100 member institutions 
respectfully urge the subcommittee to maintain its strong priority 
commitment for research and education as it moves to develop its fiscal 
year 2015 appropriations recommendations.
    We appreciate very much the opportunity to provide these views and 
stand ready to provide whatever assistance we can to the subcommittee 
and its members.
    Thank you.
                                 ______
                                 
     Prepared Statement of Brian Vandersea, Vice President, Oral & 
                    Maxillofacial Surgery Associates
    Dear members of the subcommittee,

    I want to express my strong opposition to President Obama's 2015 
budget proposal to close the National Oceanic and Atmospheric 
Administration (NOAA) National Ocean Service (NOS)/National Marine 
Fisheries Service (NMFS) lab in Beaufort, North Carolina, and urge the 
subcommittee to help reinstate funding for this essential resource. 
This laboratory is a vital part of the local, national, and 
international marine science community. It has partnerships with 
academic institutions such as North Carolina State University, 
University of North Carolina-Chapel Hill, Duke University, East 
Carolina University and University of North Carolina-Wilmington. 
Without collaboration with the NOAA NOS/NMFS Beaufort Lab, each of the 
marine science programs at these institutions will suffer. 
Additionally, the laboratory's partnerships with economic development 
activities such as the North Carolina Marine Science and Education 
Partnership, North Carolina Biotechnology Center, and Marine 
Biotechnology Center of Innovation are important to the Morehead City/
Beaufort/eastern North Carolina economies. This laboratory has served 
North Carolina and the Nation for 115 years by executing top-notch, 
award winning, marine science.
    The NOAA Beaufort Laboratory is situated in a prime location, 
between tropical and temperate waters, and provides the only Federal 
access to one of the most diverse marine ecosystems in the United 
States. It is unthinkable that the U.S. Government would give up on a 
facility that is located in such a strategic position on our national 
coastline.
    A prime example of research ongoing at the NOAA Beaufort Lab that 
is important to me is their ongoing work on harmful algal blooms. 
Having grown up in New Bern, North Carolina, the Neuse River, which is 
literally in my parents' back yard, experiences periodic algal blooms 
and fish kills. After a fish kill, the NOAA Beaufort Lab tests water 
samples and dead fish to determine the cause(s) for these kills. This 
gives local residents ease of mind regarding the health of our river 
ecosystems and the seafood that we purchase from local commercial 
fishermen. In the early 1990's there was an extensive fish kill that 
was supposedly caused by the algae ``Pfiesteria''. This caused a lot of 
people to stay off of and away from the local rivers and made them 
anxious about buying local seafood. Needless to say, this resulted in 
major economic damage to eastern North Carolina. The Beaufort Lab's 
tireless efforts led to a better understanding of the Pfeisteria 
lifecycle and helped ease the fears of the local communities affected 
by these types of fish kills. The Beaufort Lab is able to investigate 
problems of this nature world-wide. This gives me a sense of security 
in the seafood that I purchase and confidence in the water quality 
where my seafood originates.
    In conclusion, the NOAA NOS/NMFS Laboratory in Beaufort, North 
Carolina is home to critical research that can only be conducted at 
this unique location, and my family members and I are direct 
benefactors of all of their hard work. The science that is conducted at 
the Beaufort is of the highest quality and has won national and 
international recognition all being done on a limited budget for quite 
some time.
    Why would the Government want to close down a facility that 
produces high quality products at a minimal cost to the United States 
public? I urge you to please restore full funding for this important 
Federal laboratory.
                                 ______
                                 
  Prepared Statement of Dr. Harold Vandersea, New Bern, North Carolina
    Dear Committee members,

    Acting as a private citizen on my own time, I would like to submit 
testimony for the record.
    I have recently been informed that the Presidents fiscal year 2015 
budget proposal includes plans to close down the National Oceanic and 
Atmospheric Administration (NOAA) Beaufort Laboratory in Beaufort, 
North Carolina. This is a misguided decision. To learn why, I would 
like the Senate Subcommittee of Commerce, Justice, Science, and Related 
Agencies to consider the following testimony.

    Issue presented in budget.--Long term cost of maintaining the NOAA 
Beaufort Laboratory (NOAA, National Ocean Service, National Centers for 
Coastal Ocean Science, Center for Coastal Fisheries and Habitat 
Research)

    ``To strengthen NOAA's coastal science in the long run, NOAA 
proposes to reduce its physical footprint and fixed costs by closing 
the Beaufort, North Carolina laboratory . . .'' 

    On this budget item, a NOAA spokesperson in Silver Spring was 
quoted saying: ``this aging facility requires infrastructure repairs 
and improvements exceeding agency budget resources. . . .''

    Response.--Urge proposed closure of NOAA's Beaufort Laboratory be 
removed from the NOS budget.

    Inaccurate, outdated information that overstated the costs of 
maintaining the NOAA Beaufort Laboratory was used in the analysis that 
led to the request to close this facility. An updated engineering 
report (2014) documents the condition of the facility is not 
structurally unsound. Additionally, there have been substantial 
improvements to the facility:

Facilities Upgrades:

    2006-- Administration Building replaced (with North Carolina 
National Estuarine Research Reserve System (NERRs))
    2007--Bridge replaced--cost shared with Duke University
    2008--Maintenance Building replaced
    2009-- Air conditioning/Air handler replacement and mold abatement
    2009-- Sample Storage/Chemical Storage/Haz-Mat buildings 
consolidated and replaced
    2014-- Seawall repair, electrical upgrade and State of North 
Carolina funded storm water control

    Additionally, the National Ocean Service (NOS) initiating the 
closure request understated the NOS staff and did not account for the 
more than 40 National Marine Fisheries Service staff or the 6 staff 
members of the North Carolina National Estuarine Research Reserve 
(Rachel Carson) co-located at the facility. In total 108 staff and 
contractors will be directly affected by this closure.

    Issue.--While the National Ocean Service, NOAA is calling for the 
closure of the Beaufort North Carolina laboratory, it is requesting an 
increase of $4 million to another center to support Ecological
    Forecasting of Harmful Algal Blooms (HAB), hypoxia, pathogens and 
Species Distributions.

    Response.--NOAA should not close the facility that has a proven 
track record with successful and effective research conducted on 
harmful algal blooms (HAB) and species distributions.

    NOAA's HAB program was initiated at the Beaufort Laboratory from 
the work conducted in North Carolina in 1987 during the ``red tide'' 
that affected the central coast for more than 6 months. The Beaufort 
Lab continues to provide essential research and field data that inform 
Ecological Forecasting of HABs in Alaska, North Carolina, Florida, 
Guantanamo Bay, Cuba, Bay of Fundy, Gulf of Maine, Gulf of Mexico, and 
the Caribbean. Additionally, Beaufort Laboratory staff were recognized 
for conducting award winning science in elucidating the life history of 
Pfiesteria, a HAB species that inhabits estuaries and river systems up 
and down the eastern seaboard. The threat of Pfiesteria caused economic 
damages of $35 million a month to the seafood industry following 
publicity of local fish kills. Beaufort laboratory staff provided 
expertise and knowledge to local and State resource managers and 
University partners to educate the public about the real facts 
concerning Pfiesteria and the safety of their seafood.Beaufort staff 
have continued to provide their expertise and knowledge to the North 
Carolina River Keeper Alliance and North Carolina Department of Natural 
Resources, Division of Water Quality when fish kill events have 
occurred in local estuaries. This has helped to alleviate public 
anxiety regarding seafood safety.
    In regards to species distribution research, Beaufort Laboratory 
staff initiated the study of the invasive lionfish in the U.S. South 
Atlantic Bight, providing timely information on distribution, abundance 
and ecology to inform mitigation and management strategies throughout 
the southeast U.S., Florida Keys, Gulf of Mexico and the Caribbean.

Additional Impacts of the Beaufort Lab Closure:

  --North Carolina Coastal Reserve and National Estuarine Research 
        Reserve staff are currently located at the NOAA Beaufort Lab 
        which serves as the headquarters office for the program.
  --The joint building was completed in 2007 and was constructed 
        specifically with the Reserve's education programs in mind: the 
        auditorium regularly hosts coastal training program workshops 
        and the teaching classroom hosts school groups, teacher 
        workshops, field trips, and lectures to support K-12 Estuarine 
        Education Program activities.
  --The NOAA Beaufort Lab is a 5-minute boat ride from the Rachel 
        Carson component of the Reserve; this close proximity is 
        essential for conducting Reserve activities efficiently to 
        conduct mission-critical programming including educational 
        programs, water quality and habitat monitoring and research 
        programs, and stewardship of the site including species 
        monitoring, debris clean-ups, feral horse management, and 
        access point maintenance.

    The NOAA Beaufort Lab provides an ideal base from which to manage 
the Rachel Carson Reserve due to its close proximity to the Reserve 
site, location on calm inland waters, and boat launching facilities. 
Additionally, many NOAA staff conduct or have conducted research at the 
Rachel Carson Reserve and are able to provide professional perspectives 
that are valuable to Reserve research and management.

    Request.--The Senate Subcommittee of Commerce, Justice, Science, 
and Related Agencies decline to endorse the recommendation to close the 
Beaufort Laboratory and request current and accurate information from 
the Beaufort Laboratory leadership on costs for maintaining the 
Laboratory.

Desired Outcomes:

  --NOAA's Beaufort Laboratory closure proposed in the 2015 President's 
        Budget Request should not be included in the NOS budget.
  --Congress should inform NOAA that requests for closure of NOS 
        laboratories will not be entertained in the future.
  --Congress should direct NOAA to restore staffing, operational 
        support and funding for science to full operational levels to 
        utilize the capacity of the NOAA Beaufort Laboratory.
  --NOAA should provide a report and a timeline to Congress with a 
        strategy to address these concerns.
                               in summary
    Inaccurate, outdated information that overstated the costs of 
maintaining the NOAA Beaufort Laboratory was used in the analysis that 
led to the request to close this facility. The request understated the 
number of staff housed at this facility, and did not include NMFS or 
North Carolina NERRs employees. For 115 years, the NOAA Beaufort lab 
has had a rich history of involvement in local, national, and 
international marine science issues. The laboratory has produced award 
winning science in Fisheries and Harmful Algal Bloom research and is 
respected for the expertise and knowledge of the staff working there. 
The programs that NERRs conducts at the facility are clear evidence of 
the Beaufort lab's commitment to education and outreach--closing the 
facility would disrupt and greatly increase the hardships of running a 
successful marine science educational program. The lab originatedin 
Beaufort, North Carolina because of its unique position, being at the 
edge of two biogeographic regions (i.e., Cape Hatteras), and at the 
cusp of expanding tropical regions. It is critical that a NOAA lab of 
this strength continues in this location given the imperative to 
understanding fisheries management, coastal ecosystem management, 
climate impacts, coastal pollution, and harmful algal bloom issues in 
the mid and south Atlantic regions. Closing the Beaufort lab would 
leave a NMFS ``facilities-based-gap'' from Sandy Hook, New Jersey to 
Miami, Florida. This fact alonereveals the shortsightedness of the 
President's proposal. I hope the committee carefully considers this 
testimony and the testimonies of others that voice similar opinions 
against the President's proposal to close the Beaufort NOAA Laboratory.
    Thank you for your consideration in this matter. The closing of 
this facility will impact greatly the entire eastern coast of the 
United States as well as all the other areas that this lab collaborates 
with to assist with fishery issues.
                                 ______
                                 
                       Prepared Statement of VOR

  Protecting the Interests of Residents of Medicaid-Licensed Facility 
 Homes for Persons With Intellectual Disabilities in Actions Conducted 
by the Department of Justice's Civil Rights Division That Affect Their 
                          Choice of Residency

                            i. introduction
    VOR, a national advocacy organization for people with intellectual 
and developmental disabilities (I/DD) and their families, express 
gratitude to Chairwoman Barbara Mikulski and members of the 
Subcommittee on Commerce, Justice, Science and Related Agencies for 
this opportunity to submit testimony for the record in consideration of 
fiscal year 2015 appropriations for the Department of Justice.
    VOR's members look forward to working with Senators and their staff 
to ensure the civil rights of our most fragile citizens with I/DD.
           ii. summary: legislative choice language proposal
    As explained in detail below, VOR asserts that legal proceedings 
and related actions, such as investigations, brought against States by 
the Department of Justice's Civil Rights Division under the Americans 
with Disabilities Act (ADA) have caused significant financial and 
emotional hardships, and sometimes harm, to individuals with 
developmental and intellectual disabilities and their families. The 
concern is widespread: the Department of Justice has filed more than 40 
actions in more than 25 States. VOR views these ``Olmstead 
enforcement'' actions to violate the spirit and even, at times, the 
letter of the Olmstead decision, especially with regard to the 
requirement of individual choice [Olmstead v. L.C. ex rel. Zimring, 527 
U.S. 581 (1999)]. To correct for this injustice, VOR urges the Senate 
to adopt the following choice language relating to Department of 
Justice appropriations:

        ``No funds appropriated for any Department of Justice program 
        shall be expended to promote any law or policy that limits the 
        choices of individuals with intellectual and developmental 
        disabilities (or, if an individual has a legal representative, 
        the legal representative), seeking living arrangements they 
        believe are most suitable to their needs and wishes.''

                             iii. rationale
A. Background on Forced Deinstitutionalization
    There is a national trend towards deinstitutionalization, whereby 
individuals are encouraged and sometimes forced to move out of 
Medicaid-licensed care facilities (including Intermediate Care 
Facilities for Persons with Intellectual and Development Disabilities, 
``ICFs/IID'') and into residential settings.
    However, there are significant concerns among the family members 
and legal guardians of individuals residing in State-run and private 
ICFs/IID regarding the adequacy of opportunities for residents to make 
their views and preferences known throughout the process. They are also 
concerned about whether State-run and private facilities are being 
closed before adequate community placements are available; whether 
Medicaid reimbursements rates are adequate to facilitate the services 
necessary in such community placements for residents to lead safe and 
fulfilling lives; whether, due to a lack of adequate local community 
placements, some residents are being placed in community facilities too 
far from family members sometimes to meet the goals of integration into 
the community; the pace of transfers; and the pressure being put on 
legal representatives to move residents from their ICF/IID homes and 
other specialized facilities.
B. The U.S. Department of Justice's Olmstead Enforcement
    As stated above, legal proceedings and related actions, such as 
investigations, brought against States by the Justice Department's 
Civil Rights Division under the ADA have caused significant financial 
and emotional hardships, and sometimes harm, to individuals with I/DD 
and their families. VOR views these ``Olmstead enforcement'' actions to 
violate the spirit and even, at times, the letter of the Olmstead 
decision [Olmstead v. L.C. ex rel. Zimring, 527 U.S. 581 (1999)].
    In particular, the Supreme Court in its Olmstead decision 
establishes the right to community-based housing and care only when the 
``State's treatment professionals have determined that community 
placement is appropriate'', ``transfer is not opposed by the affected 
individual'' and ``the placement can be reasonably accommodated, taking 
into account the resources available to the State and the needs of 
others with mental disabilities'' [Olmstead at 587].
    The Court clarified its holding as follows:

        ``We emphasize that nothing in the ADA [Americans with 
        Disabilities Act] or its implementing regulations condones 
        termination of institutional settings for persons unable to 
        handle or benefit from community settings . . . Nor is there 
        any Federal requirement that community-based treatment be 
        imposed on patients who do not desire it.''527 U.S. 581, 601-02 
        (1999) (see also, Justice Kennedy's concurring opinion, ``It 
        would be unreasonable, it would be a tragic event, then, were 
        the Americans with Disabilities Act of 1990 (ADA) to be 
        interpreted so that States had some incentive, for fear of 
        litigation to drive those in need of medical care and treatment 
        out of appropriate care and into settings with no assistance 
        and supervision'').

    It is not the Justice Department's place to substitute its 
ideological view that all residents of ICFs/IID and similar facilities 
are better served in community placements for the Supreme Court's 
specific tests for community placement, which includes the judgments of 
the legal representatives of behalf of incapacitated residents.
    Yet, Olmstead investigations and actions by the Justice Department 
against States have been pursued with the express intent of ``Community 
Integration for Everyone'' [DOJ Olmstead Enforcement website, 2014], 
have rarely included consultation with families and legal guardians, 
and have led to settlements requiring deinstitutionalization without 
regard to assessments of individual needs and choices. As recognized by 
U.S. District Judge J. Leon Holmes in his order dismissing the Justice 
Department's case against the State of Arkansas:

        ``Most lawsuits are brought by persons who believe their rights 
        have been violated. Not this one. The Civil Rights Division of 
        the Department of Justice brings this action on behalf of the 
        United States of America against the State of Arkansas and four 
        State officials in their official capacities alleging that 
        practices at Conway Human Development Center [a Medicaid-
        licensed ICF/IID] violate the rights of its residents 
        guaranteed by the Fourteenth Amendment, the Americans with 
        Disabilities Act, and the Individuals with Disabilities 
        Education Act. All or nearly all of those residents have 
        parents or guardians who have the power to assert the legal 
        rights of their children or wards. Those parents and guardians, 
        so far as the record shows, oppose the claims of the United 
        States. Thus, the United States is in the odd position of 
        asserting that certain persons' rights have been and are being 
        violated while those persons--through their parents and 
        guardians--disagree.'' [U.S. v. Arkansas (June 8, 2011, 
        dismissal order) (emphasis added); see also, Olmstead: 
        Community Integration for Everyone--Olmstead Enforcement, U.S. 
        Department of Justice Civil Rights Division (website) (emphasis 
        added): detailing the Division's Olmstead enforcement efforts 
        in more than 40 matters in more than 25 States in the past 5 
        years].

    In United States v. Virginia (2012), families and legal guardians 
were conspicuously absent from the long list of stakeholders 
interviewed by the Justice Department prior to settlement and families 
spent $125,000 to overcome Justice Department and Commonwealth 
opposition to secure intervention of right [see, United States v. 
Virginia, Memorandum Order Approving Motion to Intervene (May 9, 2012): 
``[T]he Petitioners have a significant, protectable interest in 
receiving the appropriate care of their choice and protecting their 
rights under the ADA. See Olmstead v. L.C. ex rel. Zimring, 527 U.S. 
581, 602 (1999) (`Nor is there any Federal requirement that community-
based treatment be imposed on patients who do not desire it.'') . . . 
The Petitioners are all [ICF/IID] Training Center residents who wish to 
continue receiving institutional care in their current settings. As 
such, their interests are certainly affected by a lawsuit alleging 
deficiencies in their care and a consent decree whose stated purpose is 
to prohibit the unnecessary institutionalization of Virginians with ID/
DD . . . The parties' [Justice Department and Commonwealth] desire to 
phase out the residential Training Centers and transition all 
Virginians with ID/DD to community-based care is readily apparent.''].
    In United States v. Georgia (2010), the Department did not consult 
with families and legal guardians before entering a settlement that 
requires that the closure of Georgia's ICFs/IID and forces all 
residents from these homes. The Settlement does not provide families 
and legal guardians any decisionmaking authority except in the context 
of community transition. As discussed next, significant harm to 
affected individuals has followed transitions in Georgia and other 
States.
C. The Human Consequences
    VOR is also deeply concerned by the many reported outcomes of 
abuse, neglect and death of individuals with intellectual and 
developmental disabilities in community settings [see e.g, Letter from 
U.S. Senator Chris Murphy to Daniel R. Levinson, Inspector General, 
U.S. Department of Health and Human Services (March 4, 2013): ``I write 
to you today to request that you undertake an immediate investigation 
into the alarming number of deaths and cases of abuse of 
developmentally disabled individuals in group homes. In particular, I 
would like you to focus on the prevalence of preventable deaths at 
privately run group homes across this Nation and the widespread 
privatization of our delivery system.''; ``In State Care, 1,200 Deaths 
and Few Answers,'' New York Times (November 5, 2011): investigation 
finding that more than 1,200 deaths in State-run group homes in the 
past decade have been attributed to either ``unnatural or unknown 
causes''; and Bagenstos, Samuel R., The Past and Future of 
Deinstitutionalization Litigation, 34 Cardoza L. Rev. 1, 15, 21 (2012), 
which raises serious questions about the adequacy of community-based 
placements; notably, Mr. Bagenstos is a former Principal Deputy 
Assistant Attorney General in the Obama Justice Department's Civil 
Rights Division and was a key litigator in deinstitutionalization 
cases.]
    In Georgia, where a Justice Department Settlement Agreement with 
the State in U.S. v. Georgia calls for the transition of nearly 1,000 
individuals with I/DD and the closure of all State-operated ICFs/IID 
and the transition of 9,000 individuals with mental illness from 
facility-based care, the Georgia Department of Behavioral Health & 
Developmental Disabilities' Office of Quality Management released its 
Annual Quality Management Report (February 2014) finding that in 2013 
there were 82 unexpected deaths, 1,200 hospitalizations, 318 incidents 
requiring law enforcement services, 305 individuals who were 
expectantly absent from a community residential or day program, and 210 
alleged instances physical abuse of mentally ill and developmentally 
disabled individuals. Similar concerns, including some mortalities, 
were confirmed in a March 23, 2014 report from Elizabeth Jones, the 
Independent Reviewer in U.S. v. Georgia. In report, Jones cites an 
``urgent need to ensure competent and sufficient health practitioner 
oversight of individuals who are medically fragile and require 
assistance with most aspects of their daily lives.'' [see, ``Report: 
Developmentally Disabled Need Better Care,'' Georgia Health News (April 
10, 2014); see also, ``Widespread Abuse, Neglect and Death in Small 
Settings Serving People with Intellectual Disabilities,'' VOR (rev. 
February 2014)].
                             iv. conclusion
    Given these concerns, VOR respectfully request that language be 
added to appropriations legislation to require individual choice, 
nothing more or less, as follows:

        ``No funds appropriated for any Department of Justice program 
        shall be expended to promote any law or policy that limits the 
        choices of individuals with intellectual and developmental 
        disabilities (or, if an individual has a legal representative, 
        the legal representative), seeking living arrangements they 
        believe are most suitable to their needs and wishes.''

    Thank you for your consideration. For more information please 
contact Tamie Hopp, VOR Director of Government Relations & Advocacy at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="483c20273838083e273a66262d3c66">[email&#160;protected]</a>
                                 ______
                                 
  Prepared Statement of James R. Waters, Morehead City, North Carolina
    The Honorable Barbara Mikulski, Chair, and other members of the 
subcommittee, I am a retired Federal employee. I spent most of my 
professional career at the Beaufort Laboratory as an employee of 
National Oceanic and Atmospheric Administration (NOAA's) National 
Marine Fisheries Service, and was disappointed and saddened to learn of 
the recent proposal to close the lab.
    The Beaufort Laboratory, located in Beaufort, North Carolina, has a 
history of more than 100 years of research about fisheries and the 
marine environment. The history of publications in professional 
journals attests to this research. Within the past 35 years or so, the 
focus of research has evolved to reflect the requirements and mandates 
of major Federal legislation, including the Magnuson-Stevens Fishery 
Conservation and Management Act, the Marine Mammal Act, and the 
Endangered Species Act. In particular, fishery scientists at the 
Beaufort Lab collect data, perform biological analyses and develop 
models with which to evaluate the status of important recreational and 
commercial species, especially for reef fishes that often are slow-
growing, long-lived and vulnerable to overfishing and depletion, and 
for menhaden, which supports a major industrial fishery that produces 
fishmeal and oil. The Beaufort Laboratory works with stakeholders and 
fishery managers at the South Atlantic Fishery Management Council, Gulf 
of Mexico Fishery Management Council, NOAA's Southeast Regional Office, 
Atlantic States Marine Fisheries Commission, Gulf States Marine 
Fisheries Commission, and various State fisheries agencies to evaluate 
the effects of existing and proposed methods of achieving sustainable 
fisheries for these species.
    I urge the Senate subcommittee to question whether a closure of the 
Beaufort Laboratory is in the best interests of the American taxpayer. 
If the Beaufort Lab were closed, taxpayers would incur major expenses 
to relocate personnel to other Federal facilities. These facilities 
probably are inadequately sized to accommodate the influx of 
transferred employees, and as a result taxpayers would incur additional 
major expenses to either lease office/laboratory space or expand 
existing facilities. These costs could be minimized if Federal 
employment was terminated for some or all staff at the Beaufort Lab, 
but then taxpayers would lose the benefits of the data and analyses 
that would no longer be forthcoming with which to meet the mandates of 
major Federal legislation. In my opinion, taxpayers would suffer a net 
loss if the Beaufort Lab were closed.
    Thank you for the opportunity to comment on this important issue. I 
hope that NOAA's Beaufort Laboratory will continue to be the source of 
productive research about fisheries and the marine environment for many 
years to come.
                                 ______
                                 
   Prepared Statement of Dr. Michael P. Weinstein, Senior Scientist, 
  Center for Natural Resources Development and Protection, New Jersey 
                        Institute of Technology
    The National Marine Fisheries Laboratory at Beaufort, North 
Carolina has played a critical role in developing science to inform 
policy for more than a century. It is the only Federal facility between 
Miami and New Jersey Atlantic that is heavily invested in applied 
science to comply with the ``bottom up'' provisions of the Magnuson 
Stevens Fishery Conservation and Management Act. Its scientists were 
among the first to recognize the linkage between coastal wetlands and 
seagrass meadows as primary nurseries for the early life stages of 
finfish and shellfish including seatrout, menhaden and many other 
species that contribute to the U.S.-wide $50 billion commercial and 
recreational fishery. The facilities location on Pivers Island, 
adjacent to the Duke Marine Laboratory and near the University of North 
Carolina and North Carolina State University marine science 
laboratories is ideal for catalyzing Federal-university partnerships in 
cooperative marine research.
    I wholeheartedly concur with North Carolina's congressional effort 
to keep the lab open, and similarly agree that ``the NOAA Beaufort 
Laboratory is a prime location and provides the only Federal access to 
the most diverse marine ecosystem in the United States,'' as noted by 
Dr. David B. Eggleston, a professor at North Carolina State University. 
The Federal-university complex employs 500 staff, and hosts more than 
160,000 square feet of research buildings and 40 laboratories. These 
facilities supports a $58 million economy, according to the county's 
economic development council.
    If this facility is closed, a gaping hole would be left in the 
continuity of Federal research along the Atlantic Coast; one that 
serves as the direct liaison between university basic research and its 
application through practical ``use inspired'' research of the sort 
that is conducted at NMFS Beaufort. The lab should remain open.
                                 ______
                                 
Prepared Statement of Douglas A. Wolfe, Ph.D. NOAA (Retired), Beaufort, 
                             North Carolina
    My statement is in direct opposition to the closure of the National 
Oceanic and Atmospheric Administration (NOAA) marine science laboratory 
located in Beaufort, North Carolina, as presently proposed in the 
President's fiscal year 2015 budget for the National Ocean Service 
(NOS), Coastal Science, Assessment, Response and Restoration: National 
Centers for Coastal Ocean Science (NCCOS) (NOAA Blue Book, page 8).
    This facility, identified in the budget request as the Beaufort, 
North Carolina laboratory, has a long tradition of: (1) excellence in 
marine science and research, (2) fisheries management, (3) marine 
environmental restoration, and (4) collaboration with regional 
university programs in marine science research and education. 
Originally founded in 1899 by the U.S. Fisheries Commission, the 
Beaufort Laboratory is the second-oldest (after Woods Hole) Federal 
marine science facility in the United States. Its closure is is not at 
all justified in the budget documents cited above and I respectfully 
request this subcommittee to:

    1.  direct NOAA's National Ocean Service not to close the 
Laboratory, and
    2.  recommend full funding for staffing and operations at the 
Beaufort Laboratory in fiscal year 2015 and subsequent years.

    The balance of my statement will provide greater detail and 
justification for this position.
    In the NOAA Bluebook: fiscal year 2015 Budget Summary, the National 
Ocean Service proposes (on page 8) ``to reduce its physical footprint 
and fixed costs by closing the Beaufort North Carolina laboratory . . 
.'' A NOAA spokeswoman in Silver Spring, Ciaran Clayton (Director of 
Communications and External Affairs), was further quoted in our local 
newspaper: ``this aging facility requires infrastructure repairs and 
improvements exceeding agency budget resources..'' This appears to form 
the entire basis for the NOAA/NOS/NCCOS request for lab closure. But in 
fact, NOAA has routinely been maintaining and improving this facility. 
The two-story laboratory, originally constructed in 1963, was renovated 
in 1994 to remove the outdated seawater systems from the building and 
to correct the structural damage caused by that flaw in the original 
design. A new (2014) engineering report found no residual structural 
problems in this building. More recently, a new administration building 
was constructed in 2007 at a cost of $7 million to house administrative 
and support staff offices, new library and conference room facilities, 
and the Offices of the North Carolina Estuarine Research Reserves 
(NERRS). In 2008 the maintenance building was replaced at a cost of 
$960,000. In 2009 a chemical storage and hazmat building was 
constructed at a cost of $1 million. Bridge renovation/replacement 
(2007) and seawall repairs (2014) were performed at a cost of $3.5 
million. Several smaller aging structures were demolished and removed 
from the premises. The total cost of facility upgrades within the past 
7 years exceeds $14 million, including a $1 Million cost-sharing 
contribution from NERRS, $500,000 of North Carolina State funds for 
stormwater runoff management, and a shared cost with Duke University 
for the bridge work. The present facility is modern in appearance and 
houses state-of-the art scientific instrumentation and equipment in 
support of the research programs conducted by the staff.
    While the request for closure of the Beaufort Laboratory is 
presented in the NOAA/NOS/NCCOS budget statement, the Beaufort 
Laboratory in fact is occupied by programs and staff of three different 
NOAA components: NCCOS employs a permanent staff of 31; the National 
Marine Fisheries Service (NMFS) has a permanent staff of 40 at the 
facility, and NERRS--a program funded cooperatively by NOAA and the 
State of North Carolina--supports a permanent staff of 8 (all State 
employees of North Carolina). The Center employs 33 additional 
personnel--most of them science-related--on a temporary or contract 
basis. The ramifications of laboratory closure are not reflected in the 
budgets shown for either NMFS or NERRS. Nor have the impacts to the 
employees and their families and to the local community been carefully 
evaluated.
    The Beaufort Laboratory has established an extraordinary record for 
scientific excellence in its research. NOAA and the Department of 
Commerce have repeatedly recognized individual researchers, research 
teams, and the Laboratory as a whole for the outstanding quality of the 
work performed there (with Commerce Gold Medals, Career Achievement 
Awards, Technology Transfer Award, etc.). Staff members at the 
Laboratory have also received major recognition and awards from 
professional scientific societies, including the Phycological Society 
of America and the Geochemical Society.
    The laboratory's excellent research capabilities and reputation 
also attract support--both from other branches of NOAA and from other 
outside agencies which have recognized potential benefits of the 
Laboratory's studies, and have augmented the base-level program support 
provided by NOAA. For example, the Office of Aquaculture provided 
nearly $1 million in fiscal year 2014 to conduct a feasibility study 
for sustainable aquaculture on the U.S. Atlantic coast, Gulf of Mexico, 
Caribbean (U.S. possessions), the Pacific west coast, and the Hawaiian 
archipelago. Other recent research initiatives of the NCCOS staff at 
the Beaufort Laboratory include (a) ecology of and responses to harmful 
algal blooms; (b) restoration of injured habitats including seagrass, 
saltmarsh, and reef systems; (c) ecosystem responses to climate change; 
and (d) population dynamics and spread of invasive species, such as 
lionfish. The current focus of the NMFS staff at the Beaufort 
Laboratory is on: (a) studies of population dynamics and stock 
assessments in support of fisheries management, especially of Atlantic 
menhaden and the offshore snapper/grouper and other reef fisheries; (b) 
population dynamics and health of protected and endangered species, 
including sea turtles and marine mammals; (c) densities of coral and 
the reproduction and life histories of reef fish; and (d) ecological 
studies on the ecosystem structure and function of the southeastern 
U.S. continental shelf system that supports these fisheries and 
protected species. The reponsibility of NERRS staff at the Beaufort 
Laboratory is direction and management of the four major Estuarine 
Research Reserves in North Carolina, one of which--the Rachel Carson 
Reserve--is located directly across the navigation channel from the 
Beaufort Laboratory, which provides a most convenient and economical 
logistics base for field research, training and educational programs at 
their reserve.
    It is ironic (to the point of giving an impression of fiscal 
irresponsibility) that the NOS/NCCOS budget initiative for fiscal year 
2015 requests increased research funding for coastal ocean issues , 
including harmful algal blooms, hypoxia, and coastal ecosystem 
management at the same time it is proposing to close the Beaufort 
Laboratory, which has well-established expertise and the facilities 
required to address many of those very same issues.
    The Beaufort Laboratory is strategically located for temperate and 
subtropical marine and estuarine habitat studies on the east coast of 
North America. It was no accident that Beaufort, North Carolina was 
selected by the U.S. Bureau of Fisheries as the location for this 
laboratory, and not surprising that several Universities and State 
agencies have also located marine research facilities in the same area. 
North Carolina has one of the longest coastlines and greatest estuarine 
areas of any State on the east coast; and the Gulf Stream approaches 
the coast more closely at Cape Hatteras and Cape Lookout than at any 
other point north of Cape Kennedy, Florida-- accounting for the 
occurrence of tropical corals and reef habitats just at and beyond the 
edge of the broad continental shelf. Laboratory scientists at the 
Beaufort Laboratory have developed academic affiliations with several 
nearby universities, especially with North Carolina State University, 
University of North Carolina-Wilmington, and East Carolina University, 
and have helped to sponsor graduate student research on many topics 
related to NOAA's initiatives. Close ties and research collaboration 
also exist between laboratory scientists and the faculty at the 
adjacent Duke University Marine Laboratory, and the University of North 
Carolina Institute of Marine Sciences in nearby Morehead City. The 
Beaufort Laboratory is an excellent living example of a truly effective 
Federal-Academic Partnership. The NERRS facility at the Beaufort 
Laboratory also provides educational experience and opportunities to 
thousands of elementary and secondary school students every year.
    The Beaufort Laboratory also provides administrative support and 
scientific direction for a field laboratory at Kasitsna Bay, Alaska, 
where researchers are quantifying ecosystem change and studying 
variability in ocean acidification in nearshore subarctic Alaskan 
habitats. In partnership with the University of Alaska, Native 
corporations and marine conservation groups, the Kasitsna Bay facility 
provides training in diving for scientific objectives, marine ecology 
and oceanography; conducts field science camps for high school 
students; and offers field housing for visiting researchers and 
students including NOAA undergraduate and graduate student interns. The 
implications of Beaufort Lab closure on the operation of the Kasitsna 
facility appear not to have been considered.
    In conclusion I will repeat my earlier recommendation and request 
the Honorable Members of the Senate Appropriations Subcommittee on 
Commerce, Justice, Science and Related Agencies to formulate 
appropriate strategies to:

    1.  direct NOAA/NOS not to close the Beaufort Laboratory as 
currently proposed, and remove all references to such closure in the 
final appropriation; and
    2.  direct NOAA to restore full funding for operations, staffing 
and research at the Beaufort Laboratory in fiscal year 2015 and 
subsequent years.

    Thank you for your consideration.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
